<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR 2001</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]


 
           LEGISLATIVE BRANCH APPROPRIATIONS FOR 2001--Part 2

                   LEGISLATIVE BRANCH APPROPRIATIONS

                                FOR 2001

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION
                                ________

                       SUBCOMMITTEE ON LEGISLATIVE

               CHARLES H. TAYLOR, North Carolina, Chairman


 ZACH WAMP, Tennessee               ED PASTOR, Arizona
 JERRY LEWIS, California            JOHN P. MURTHA, Pennsylvania
 KAY GRANGER, Texas                 STENY H. HOYER, Maryland
 JOHN E. PETERSON, Pennsylvania     

 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

                   Edward E. Lombard, Staff Assistant
                                ________

                                 PART 2

                   FISCAL YEAR 2001 LEGISLATIVE BRANCH

                         APPROPRIATION REQUESTS

                              <snowflake>

                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 62-823                     WASHINGTON : 2000

                       COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                 DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California            JOHN P. MURTHA, Pennsylvania
 JOHN EDWARD PORTER, Illinois       NORMAN D. DICKS, Washington
 HAROLD ROGERS, Kentucky            MARTIN OLAV SABO, Minnesota
 JOE SKEEN, New Mexico              JULIAN C. DIXON, California
 FRANK R. WOLF, Virginia            STENY H. HOYER, Maryland
 TOM DeLAY, Texas                   ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                 MARCY KAPTUR, Ohio
 RON PACKARD, California            NANCY PELOSI, California
 SONNY CALLAHAN, Alabama            PETER J. VISCLOSKY, Indiana
 JAMES T. WALSH, New York           NITA M. LOWEY, New York
 CHARLES H. TAYLOR, North Carolina  JOSE E. SERRANO, New York
 DAVID L. HOBSON, Ohio              ROSA L. DeLAURO, Connecticut
 ERNEST J. ISTOOK, Jr., Oklahoma    JAMES P. MORAN, Virginia
 HENRY BONILLA, Texas               JOHN W. OLVER, Massachusetts
 JOE KNOLLENBERG, Michigan          ED PASTOR, Arizona
 DAN MILLER, Florida                CARRIE P. MEEK, Florida
 JAY DICKEY, Arkansas               DAVID E. PRICE, North Carolina
 JACK KINGSTON, Georgia             MICHAEL P. FORBES, New York
 RODNEY P. FRELINGHUYSEN, New JerseyCHET EDWARDS, Texas
 ROGER F. WICKER, Mississippi       ROBERT E. ``BUD'' CRAMER, Jr., 
 GEORGE R. NETHERCUTT, Jr.,         Alabama
Washington                          MAURICE D. HINCHEY, New York
 RANDY ``DUKE'' CUNNINGHAM,         LUCILLE ROYBAL-ALLARD, California
California                          SAM FARR, California
 TODD TIAHRT, Kansas                JESSE L. JACKSON, Jr., Illinois
 ZACH WAMP, Tennessee               CAROLYN C. KILPATRICK, Michigan
 TOM LATHAM, Iowa                   ALLEN BOYD, Florida
 ANNE M. NORTHUP, Kentucky          
 ROBERT B. ADERHOLT, Alabama        
 JO ANN EMERSON, Missouri           
 JOHN E. SUNUNU, New Hampshire      
 KAY GRANGER, Texas                 
 JOHN E. PETERSON, Pennsylvania     
 ROY BLUNT, Missouri                

                 James W. Dyer, Clerk and Staff Director

                                  (ii)



               LEGISLATIVE BRANCH APPROPRIATIONS FOR 2001

                              ----------                              

                                        Thursday, January 27, 2000.

                        HOUSE OF REPRESENTATIVES

                               WITNESSES

HON. JEFF TRANDAHL, CLERK OF THE HOUSE
HON. WILSON S. LIVINGOOD, SERGEANT AT ARMS
HON. JAY EAGEN, CHIEF ADMINISTRATIVE OFFICER
BOB FREY, ACTING INSPECTOR GENERAL
GERALDINE GENNETT, HOUSE COUNSEL
JOHN MILLER, LAW REVISION COUNSEL
POPE BARROW, LEGISLATIVE COUNSEL
DR. JOHN F. EISOLD, ATTENDING PHYSICIAN

    Mr. Taylor. The meeting will come to order. Today we begin 
the hearings on the budget submissions of the various 
legislative branch agencies in explaining their requests for 
fiscal year 2001 appropriations. Each member has been given a 
copy of the printed budget justifications. Also the staff has 
prepared the customary subcommittee print, which contains the 
budget and historical data on the legislative budget. The total 
appropriations request that will be considered is $2.1 billion. 
In addition, there are $41 million in offsetting receipts and 
other collections and $1.1 billion in other revenues that we 
collected by the legislative agencies. By tradition, the House 
does not consider the budgets of the other body. The Senate 
will submit and consider their own. The fiscal year 2001 budget 
for the Senate totals some $624.7 million.
    The committee will hear the justifications from each agency 
in turn. At the conclusion of that process, the committee will 
mark up the 2001 bill.
    I am joined today by Congressman Hoyer, Mr. Pastor, the 
ranking member of the subcommittee, will be with us in just a 
few minutes.
    I yield to you, Mr. Hoyer, if you have any statement.
    Mr. Hoyer. I have no opening statement, Mr. Chairman. Thank 
you very much.
    Mr. Taylor. When the ranking member gets here, perhaps if 
he wishes he will make some statements.
    We will now take up the budget request for the House of 
Representatives and several joint items. The Chief 
Administrative Officer, assisted by the Office of Finance, will 
come forward and each will submit the budget. That material is 
then included in the President's budget. The House budget 
request totals $800.7 million, and that includes funds for the 
operations of member offices, committees, the leadership, and 
the administrative operations of the House.
    In addition, the total joint items budget is $125.2 
million. The joint items such as the Attending Physician, the 
joint committees, and Capitol Police are shared with the 
Senate. The other body will consider the fiscal year 2001 
budget for Senate operations.
    We want to welcome the officers of the House who are with 
us today. The Honorable Jeff Trandahl, Clerk of the House, 
Wilson Livingood and the Honorable Jay Eagen, Chief 
Administrative Officer. We also have Janet Hale, Associate 
Administrator of the Office of Finance, U.S. House of 
Representatives, Bob Frey, acting Inspector General, Geraldine 
Gennett, House Counsel, John Miller, the House Law Revision 
Counsel and Pope Barrow, the Legislative Counsel. We expect Dr. 
Eisold, the Attending Physician, to join us a little later. I 
saw him----
    Mr. Trandahl. He is here.
    Mr. Hoyer. He will also join us a little later, too.
    Mr. Taylor. We shook hands, and he asked how I felt. Mr. 
Eagen has prepared the House budget for the President's budget 
and will lead the formal presentation to the committee.
    [Clerks note.--Ms. Hale has over 12 years of experience in 
the federal government. She was the Associate Director of the 
Office of Management and Budget, Assistant Secretary Department 
of Transportation for Budget and held numerous positions at the 
Department of Housing and Urban Affairs. She has also been the 
Executive Vice President at the University of Pennsylvania and 
a lobbyist regarding telecommunication issues. She has an 
undergraduate degree from Miami University in Oxford, Ohio and 
a graduate degree from the John F. Kennedy School of Government 
at Harvard University.]

                           Opening Statement

    Mr. Eagen. Thank you, Mr. Chairman. Good afternoon, Mr. 
Chairman and Mr. Hoyer.
    As you noted, Mr. Chairman, the fiscal year 2001 request 
for the House of Representatives totals $800,738,000. This 
amount is based on statutory entitlements, actual spending 
history, and consultation with the administrative offices of 
the House. Overall, this budget provides funding for the Member 
Representational Allowance, committees, leadership and the 
legislative administrative offices. The fiscal year 2001 
requests are detailed in your subcommittee print. And as you 
noted, we have several other House officials here to answer any 
questions that the committee may have today. We are now 
available for any questions you may have.
    Mr. Hoyer. That was a very in-depth presentation.
    Mr. Taylor. As stated, we have all of the prepared 
statements, and they have been given and they will be printed 
in the record.
    [The statements follow:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                        FY 2000 PAY ADJUSTMENTS

    Mr. Taylor. Has the House Administration Committee made any 
adjustments in members' office allowances? If so, how much and 
what is the increase for this fiscal year?
    Mr. Eagen. The Committee on House Administration has not 
made any policy changes in the Members' Representational 
Allowances. They did advise an inflation adjustment to the MRA 
that will increase it by approximately 3.5 percent or $14 
million.
    Mr. Taylor. How about salaries of the officers' staffs? 
What adjustments have been made in the schedules there?
    Mr. Eagen. In this case, Mr. Chairman, the Committee on 
House Administration approved a 4.94 percent salary increase 
for the employees of the officers of the House and the 
Inspector General. The impact on the fiscal year 2001 budget we 
are living under is $192,000. The impact on the fiscal year 
2001 budget that we are considering today is $275,000.

                     CAO BUDGET INCREASE EXPLAINED

    Mr. Taylor. The CAO budget is up by 6.9 million, about 12 
percent. That is a large increase. Why is your budget up so 
much?
    Mr. Eagen. Thank you, Mr. Chairman. It is a 12 percent 
increase in comparison to fiscal year 2001. However, the CAO 
budget has traditionally been a budget that has a series of 
peaks and valleys. The peaks are caused in the odd number 
years, in this case 2001, by two special conditions represented 
in the CAO budget.
    First of all, we are the budget that carries the transition 
costs of the House of Representatives, meaning the office moves 
and taking care of all of the expenses that relate to the new 
Members coming and this fiscal year carries that congressional 
transition.
    Secondly, the CAO budget contains the net expenses of 
equipment budget. This is the budget that pays for the 
computers, Xerox machines, fax machines, equipment of Member 
offices. The way that system works is that we buy the equipment 
for the Members and then they have the option of paying for it 
outright or through a 3-year plan. Should they use the 3-year 
plan, obviously we are carrying that initial expense in our 
budget, and then we would be repaid. So we operate in a deficit 
one year and in a surplus the next year. The deficit is carried 
through the net expenses of equipment account.
    If you separate out those two items from the CAO budget, 
you would find that we have actually a 3-percent increase in 
the budget compared to last year. And if you compare this 
budget to the more comparable year, which is 1999, we are 
actually on a 2-percent increase over 1999.

              CAO BUDGET REQUEST COMPARED TO PRIOR BUDGETS

    Mr. Taylor. This is going to be a tighter budget year than 
we might hope, and the peaks and valleys might turn into a 
plane. And if that is the case, we would like for you to list 
your priorities so we can go down those priorities. The House 
computers' budget is $27 million. How does that budget compare 
with recent budgets?
    Mr. Eagen. It is a comparable budget, Mr. Chairman. There 
has been some changes that have occurred in the HIR budget that 
are significant. The first that you will note in the 
submissions provided to the committee is that reimbursements, 
which once were part of the House budget, are now going away. 
Over the last several years, the House has been moving from a 
situation where we hosted several outside agencies' computer 
operations and then received reimbursement costs for those 
operations. We are now down to a point where we expect only to 
receive reimbursement for a hundred thousand dollars, where 
compared to a few years ago we were receiving reimbursements of 
about $3 million. That is the significant change in the budget 
from previous years.
    [Questions from Mr. Hoyer and responses follow:]

    Question. In previous years, House Information Resources 
(HIR) employed at least 40 technical service representatives 
(TSR's) to assist Member offices with their computer needs. 
Today HIR has only 26 TSR's, meaning that each TSR must service 
more Member offices. Why has the number of TSR's been allowed 
to drop by over one-third? What plans do you have, if any, to 
ensure that the reduction in TSR's does not impair the 
operation of Member offices? What would be the additional cost 
in fiscal 2001 to hire a sufficient number of TSR's?
    Response. In December 1997, a strategic assessment prepared 
by Peat Marwick LLP recommended that a Call Center be 
established as the first tier technical support for all Member 
Offices, Committees, Leadership and Support offices. As a 
result, a Call Center was established and staffed with twelve 
TSR positions. In the first year of existence the Call Center 
resolved 20,729 calls without having to dispatch a TSR. The 
efficiency gained by quick resolution to Member and Committee 
office technical problems allows the twenty-seven second tier 
TSRs to respond to Member and Committee office problems 
requiring on-site resolution, and to consult with offices in 
the purchase of new equipment, and House System Integrator 
issues.
    The table below illustrates the five-year history of TSR's 
used in the CAO organization.

----------------------------------------------------------------------------------------------------------------
                                      Jul 95   Sep 95   Sep 96   Sep 97   Sep 98   Sep 99
----------------------------------------------------------------------------------------------------------------
Call Center (Tier 1)...............  .......  .......  .......  .......       12       12  First Tier Support
                                                                                            for Members and
                                                                                            Committees.
TSRs (Tier 2)......................       47       47       44       44       27       27  Direct Support to
                                                                                            Members and
                                                                                            Committees.
SESG (Tier 3)......................  .......  .......  .......  .......        6        6  Indirect Support for
                                                                                            Members and
                                                                                            Committees (CAO).
                                    ------------------------------------------------------
      Total........................       47       47       44       44       45       45  .....................
----------------------------------------------------------------------------------------------------------------

    The salary for an entry level TSR is $36,916. The average 
senior TSR salary is $65,838. Hiring six additional TSR's to 
support the increase in technical support services required by 
Members and House offices would cost approximately an 
additional $350,000.
    We continuously analyze the needs for Members and 
Committees with respect to technical support representatives. 
Should we find the level of support is not meeting Members and 
Committee needs we will re-evaluate the TSR staffing.
    Question. Further to my last question, it has been suggested that 
House offices are generally having a difficult time retaining staff 
with key technological expertise. Are you having this difficulty, and 
if so, what steps are you taking to assure that you maintain the 
technological expertise required to serve the Members and the House?
    Response. Yes, the CAO does experience the same challenge that all 
government and industry has in retaining technical staff. Technical 
expertise is highly sought after by private and public organizations. 
Some of the methods that have been implemented to promote continuous 
improvement of retention, and hiring technically qualified personnel 
are:
    (a) The CAO has realigned job descriptions and salary levels of key 
CAO information technology positions to ensure that the House can 
compete with other Government and private industry IT firms in the 
Washington DC area.
    (b) The CAO Awards program was instituted to recognize individuals 
who consistently demonstrate exceptional performance.
    (c) The management team for HIR is focused on creating a work 
environment that stimulates participation.
    (d) Provide training for technical staff to keep abreast with 
continuing changes in technology.
    (e) A one-time, 1% ``IT factor'' increase was made to the HIR 
FY2000 personnel budget to help in our ability to compete with the IT 
industry.
    (f) The Office of the CAO has also begun researching the concept of 
pay banding similar to some select Federal Agencies. This may provide 
managers with additional management flexibility and may also help the 
CAO maintain a level of pay for technical positions that is more 
comparable to other government agencies.
    The CAO continues to monitor this retention issue closely and will 
make recommendations to change the current process as appropriate.
    Question. You are requesting $280,000 for HIR to review the 
Correspondence Management Systems marketed to Members. At my staff's 
suggestion, you are now reviewing a proposal by the Gartner group to 
examine technology. When will that review be complete? Will the new 
Members of the 107th Congress have the benefit of this work, to help 
them optimize their computer equipment purchases?
    Response. The Gartner Group is partnering with the Congressional 
Management Foundation to provide a consulting service for Congressional 
Offices in the selection of personal computers and correspondence 
management systems. The project was requested jointly by the Committee 
on House Administration and the Legislative appropriations 
subcommittee. The statement of work is currently being revised and is 
due February 21, 2000. Once the study begins, it is estimated to take 
six to eight weeks to complete. It is anticipated that new Members of 
the 107th Congress will have the benefit of this service, as the 
statement of work provides for written reports that can be distributed 
widely as well as briefings for Members and staff.
    Question. Some CMS vendors have recently been suspended from their 
ability to market products to Members. What assistance can the CAO 
provide to assure that office systems marketed to Members will actually 
perform as represented, and that Members will receive full value for 
their office expenditures on such systems?
    Response. All new Correspondence Management Systems will be 
evaluated to ensure that systems actually perform according to the 
marketed functionality. The HIR test lab is being configured to begin 
testing in April 2000. The evaluation scripts have been prepared and 
will be exercised using the Metamor CMS package in March 2000. The test 
team will include not only HIR technical staff but also actual users 
from Members' offices. A pilot of this approach has already been 
conducted in late 1999 and was found to be effective.
    Question. In the most recent financial audit of the House, the 
auditors identified as a weakness that ``the House lacked sufficient 
information with which to manage and maintain accountability over its 
property and equipment.'' What have you done to address this weakness?
    Response. The CAO has taken the following steps to address this 
weakness:
    Beginning in 1997, Office Systems Management (OSM) began performing 
physical inventories of all House offices during a two year legislative 
cycle. Prior to this time OSM would provide offices with a copy of 
their inventory and would request that the office verify the 
information. Prior to 1997 OSM would only perform physical inventories 
of departing Member offices or changes of Chairs and Leadership 
offices.
    Media and Support Services (MSS) and House Information Resources 
(HIR) completed by December 31, 1998, an inventory of all assets 
meeting the Office of the Chief Administrative Officer's (CAO) new 
capitalization threshold that became effective in 1998. In addition, 
OSM completed by December 31, 1998, a physical inventory of all capital 
items acquired under the previous capitalization threshold, as well as 
all accountable property located in Washington, D.C. The General 
Services Administration (GSA) performed the physical inventories of 
district offices. (During the first cycle of physical inventories of 
non-capital assets, GSA completed two thirds of all district 
inventories) The Finance Office reviewed and analyzed on a monthly 
basis all 1998 acquisitions to ensure items were correctly classified 
as capital or non-capital items and assigned the proper Budget Object 
Classifications (BOCs). MSS and HIR will continue to ensure property 
and lease transactions are assigned the proper Budget Object Class 
codes and capitalize assets as of the date the asset is placed in 
service. This review process by MSS and HIR will continue until this 
process is moved to the new Fixed Asset Inventory Management System.
    The Office of Finance also continues to analyze monthly equipment 
and lease transactions in the Federal Financial System to ensure 
correct BOC and general ledger usage.
    The contract award for a new fixed asset management system was 
signed on August 10, 1998, by the CAO. Included in the contract were 
requirements that ensured we would be able to track each of the items 
outlined in audit recommendations. The new Fixed Assets and Inventory 
Management system (FAIMS) will be capable of maintaining detailed 
information with respect to property and equipment including: cost/
value information, asset description, acquisition date, useful life, 
depreciation method, depreciation amount, and location. Summary 
information on the acquisition cost and accumulated depreciation of 
assets and inventory acquired by House organizations shall be 
maintained in the Federal Financial System (FFS), the House's 
accounting system.
    Additionally, on October 7, 1998 the Committee on House 
Administration approved a proposal to revise regulations governing what 
equipment is tracked on an inventory. This change was made in 
accordance with private industry and executive branch best practices, 
as well the recommendation of the House Inspector General. Computer and 
non-computer equipment that has an initial purchase price of $500.00 or 
less is not placed on Member or committee office inventories. Internal 
computer components are not placed on inventories. This change reduces 
the inventories of Members and Committee by as much as two-thirds. In 
addition, members will no longer be personally liable for loss of 
equipment with a value of $500 or less.
    Question. Further to the previous question, in that recent audit, 
the auditors identified as a weakness that ``poor controls over 
computers and data exposed the House to the risk of unauthorized 
transactions, incorrect data, misuse of assets, and loss of data and 
programs.'' What have you done to address this reported weakness?
    Response. In prior audits, a number of internal control weaknesses 
related to the House's Financial Management Systems were identified. 
Actions have been initiated to address the recommendations related to 
this weakness. As a result, HIR continues to aggressively address these 
weaknesses and develop/implement initiatives, such as HIR's 
reorganization plan, Business Continuity and Disaster Recovery plans, 
and mainframe access control processes to improve the House's 
information systems processing environment. These access controls are 
monitored by the HIR Information Systems Security Office to protect the 
data and networks of the House. In 1999, the CAO purchased and 
implemented a Network Intrusion Detection system to further defend the 
House network from attacks. In 1999, HIR began an aggressive Security 
Awareness training program for all House staff. In the nineteen 
sessions held during 1999, over 300 staff received the latest 
information on the protection of Member office data and records. This 
is now an ongoing training program offered by HIR training.
    Question. Further, that same audit found as a weakness that ``the 
House did not properly track the goods and services it ordered, made 
erroneous duplicate payments, and paid vendors late.'' What is the 
status of efforts to correct these problems, as the House is 
experiencing with respect to the Skytel matter?
    Response. The House has significantly improved its discipline to 
ensure that goods and services that have been ordered are received and 
accepted. Many major vendors of services who have recurring invoices 
have been set up as automatic payments. The SkyTel billing dispute has 
been resolved, and payments are current. To prevent a recurrence, the 
House contract with Skytel has been modified to more clearly delineate 
the process for ordering, delivering and paying for these services. The 
CHA approved a proposal on February 9, 2000 to streamline the 
acquisition and payment of pagers and related services. Effective April 
3, 2000, House offices will begin ordering and paying for pagers and 
related services directly from vendors. This will allow offices more 
flexibility in paging service. It has become impractical to require 
House offices to continue using the current central ordering and 
payment process through Office Systems Management (OSM) for this 
service. This is due, in part, to the increase in the number of pagers 
used by House offices, the wide variety of service plans available and 
the easy ability to upgrade pager units or service levels with minimal 
effort. House offices will now be able to purchase or lease pagers and 
related services directly from vendors and then voucher the purchase 
costs and monthly service fees directly to the Office of Finance.
    Further, we have taken a more proactive approach to resolving such 
billing discrepancies long before they become major issues. There have 
been several processing changes made to reduce the incidence of 
duplicate payments. The first includes a software fix that will prevent 
further processing of a payment that appears to be a duplicate based on 
established parameters. A supervisory override will be allowed, but 
only when research identifies the payment as non-duplicative and 
changes have been made in the key descriptors to prevent its being 
spotted as a potential duplicate in the future. Another change includes 
new conventions for assigning an invoice number and invoice date when 
these elements are not present on the documents forwarded by House 
offices. This technique will be most helpful for travel and 
subscriptions, two areas with relatively high duplicate payments. The 
third change includes continued duplicate vendor record cleanup and 
maintenance. This will eliminate the chance that duplicate payments are 
undetected because they are paid to different vendor numbers. The 
fourth change involves using software to prevent the use of erroneous 
dates or date ranges (e.g., January 32, January 10, 2000-January 9, 
2000, etc.). This will aid prevention and clean up of duplicates. 
Finally, a database has been loaded with all transactions made during 
1999. This is being used to identify and research potential duplicates 
and recover actuals. Statistics from this review will be used to 
recommend potential procedural changes to voucher processing.
    Question. You're interested in replacing the House's furniture with 
modular furniture. How much would it cost to furnish the House with 
such furniture? Is modular furniture consistent with the House's 
traditional decor? What is its useful life?
    Response. Standard modular furniture workstation costs average 
between $4,500 and $5,000 per workstation. These costs include standard 
fabric and accessories. As an estimate, if all Members' DC offices were 
converted to modular furniture, assuming an average of 9 staff per 
office at a cost of $4,650 per workstation for 440 offices the cost 
would be $18,414,000 which excludes Committees and various 
administrative and support offices. Typical modular furniture is not 
consistent with traditional House decor. Modular furniture can include 
wood veneer panels more consistent with current House decor but raises 
the cost between 20 to 25 percent. The useful life of modular furniture 
varies with its application. House offices currently have modular 
furniture in good condition that is over ten years old. Modular 
furniture reconfigured and moved frequently would affect the useful 
life depending on the care used during the move. Modular furniture 
utilizes limited office space more efficiently than traditional 
standard furniture by using vertical space. Modular furniture has the 
ability to run all wiring internally through the system facilitating 
access to telephone, computer and electrical wires. The CAO has 
requested a furniture study be conducted to determine if modular 
furniture would be feasible for use in the House environment.
    Question. New Members often must wait considerable periods for 
office furniture at the start of each congress. How large is you 
inventory of furniture, and do you consider it adequate to meet 
Member's needs?
    Response. Currently, the Furniture Response Center has about 
125,000 pieces of furniture either in stock or in offices. The 
inventory is adequate to meet the needs of the House. There are enough 
specific numbers of desks and casegood furniture, however from time to 
time in-house inventory is depleted, and lead time to replace stocked 
items are in consistent. FRC is identifying core (i.e., desk, chairs, 
bookcase, file cabinets, lamps, sofa, tables and some miscellaneous 
items), non-core and antique/unique furniture. A new process to order 
core furniture items has been implemented. In factors re-order levels 
based on request activity, storage space availability and manufacturers 
delivery lead times. This process should facilitate quicker delivery 
times.
    During a transition, freshman Member offices are set up with a 
standard compliment of furniture (i.e., desks, chairs, bookcase, file 
cabinets, lamps, sofa, tables and some miscellaneous items) based on 
room size and estimated staff size. Because of the dynamics of the 
transition any wait incurred for furniture is usually in replacing an 
item already in the office with a different color or reconditioned/
refinished piece.
    Question. You're not asking for additional FTE's, yet your budget 
request clearly indicates that you're contemplating reassigning current 
employees to different tasks. Please provide a detailed description of 
the function that staff will be moved from, and of the new functions 
they will be shifted to instead.
    Response. The Office of the Chief Administrative Officer is not 
requesting the reassignment of any of the current 601 authorized FTEs 
via the submitted FY 2001 budget request. Each year when the Office of 
the CAO develops the budget request, we begin with a strategic plan 
which lays out a five year look at where the organization needs to head 
to meet our current mandates and stakeholder expections. Included in 
this strategic plan are five main Vision Elements which are:
          1. Professional Renewal and Revitalization
          2. Fluid Information Technology
          3. Continuous Improvement of Products and Service
          4. Disciplined Resource Management
          5. Synergistic Organization
    Each of the 601 authorized FTEs and the appropriate non-personnel 
resources needed to support our operations and initiatives fits within 
one of these main Vision Elements in our strategic plan. We are not 
reassigning the resources as much as displaying them in categories we 
use to manage our operations, share a common vision with our employees 
and plan for the future beyond the next fiscal year alone. In this 
budget request we are not proposing changing the FTEs currently 
allotted to the various CAO operating units or to specific positions 
within these operating units. This type of change is traditionally 
coordinated through a reorganization proposal which is sent to the 
Committee on House Administration for review and approval. In recent 
years the Committee has approved re-organization proposals for House 
Information Resources, the Office of Finance and the Office of 
Procurement.
    The approach of basing our budget on our five-year strategic plan 
allows us to display our budget request in a variety of fashions 
including by the five Vision Elements, by Budge Object Class Codes, or 
by CAO Operating Units. The resources are not being shifted but rather 
displayed by variety of categories.
    The main benefit of this approach is that the budget is based on a 
strategic plan which has considered the needs of the House 
stakeholders, the mandates that drive our operations, and feedback from 
House and staff surveys, among other things, rather than just taking 
last year's budget request and adding inflationary increases.
    Question. How much money, and how many FTE's, are or will be 
devoted to ``First Call'' in Fiscal 1999 and 2000, and how much are you 
requesting for First Call in fiscal 2001? Is First Call intended as a 
problem-solving resource, or as a problem-referral service? If the 
former, how much coordination is there between First Call and other 
assistance provided to Members and staff (e.g., HIR's computer help 
line), and how much leverage do First Call personnel have to ensure 
that Members' problems are actually resolved? In either case, do First-
Call staff compile statistics concerning how many referrals are made 
and problems are resolved?
    Response. First Call is intended as a service coordination office, 
to simplify the process of Members and staff obtaining services from 
the CAO. It is however, only in its infancy, both in terms of services 
covered and capabilities.
    The following depicts the First Call FTE's and budgets (personnel & 
non-personnel amounts for FY99-01):

----------------------------------------------------------------------------------------------------------------
                                                          Budget         Detailed employees    Total first call
                   Fiscal year                    --------------------------------------------------------------
                                                     FTE      Amount      FTE       Cost       FTE      Amount
----------------------------------------------------------------------------------------------------------------
1999.............................................       1     $110,145       3      $92,679       4     $202,824
2000.............................................       3      152,663       5      182,312       8      334,975
2001.............................................       3      211,921       5      201,026       8      412,947
----------------------------------------------------------------------------------------------------------------

    The FY 1999 budget included funding for 1 FTE (Director); however 3 
FTE's were detailed from other areas in the CAO to the office to assist 
with its operations. The FY 2000 budget includes funding for 3 FTE 
(Director and 2 Customer Service Specialists), however 5 additional 
FTEs are detailed to First Call to handle the transition of work and 
service functions from the FRC Service Coordinator department and 
Passport and Notary services to First Call and an increase in call 
volume. In FY 2001 request includes funding for 3 FTE (Director and 2 
Customer Service Specialists), however 5 FTE are shown as detailed to 
the office from other areas in the CAO to remain in support of its 
growing functions.
    First Call is intended to be a Call Center that handles various 
issues and requests for the House Community. It is a resource/research 
Center that provides assistance and guidance to Members and staff on 
various issues. Currently, First Call resolves the majority of calls 
received and the transfers are 11% of the total calls received.
    First Call is designed to consolidate the contact points for CAO 
services and provide a ``one stop shopping'' environment where people 
can get multiple services done in one location and with only one phone 
number. As First Call evolves it will continue to improve the services 
that it provides. For instance, First Call currently performs random 
callback surveys to determine if an office has received what was 
promised. First Call plans to identify calls that initiate work 
requests and work towards 100% call backs to these offices. A new 
customer tracking system is now in use and plans are in the initial 
stages to move towards an integrated customer tracking system that will 
allow for further analysis of statistical data collected from requests 
and calls received. Until that time, reports are available which 
provide the number of calls received, type of request for service and 
what was handled out of First Call or had to be transferred to other 
departments for resolution.
    First Call works not only with other CAO offices to provide answers 
and assistance, they work with other House and non-House organizations 
(i.e., State Department, Regional Passport Offices, Library of 
Congress, etc.).
    Question. At present, individual Member office allowances must bear 
the costs, which can be substantial, or contracts for the maintenance 
of computer hardware. Have you considered having the House contract 
with a single vendor to maintain such equipment for all offices, and 
how much money this approach might save?
    Response. In 1995 the House considered a number of ways to approach 
the maintenance of both computer and non-computer equipment. Two of the 
alternatives were; to have either one or two vendors awarded a contract 
to support all computer hardware and software or to allow House offices 
to choose a vendor of their choice. At that time the House chose to 
allow offices to make the decision. In 1998, as a result of a study by 
a House task force comprised of Committee on House Administration, CAO 
and Member offices, changes were made to the contracts with maintenance 
providers to both clarify the requirements of the services providers 
and to provide offices with a range of costs for support. The Vendor 
Performance Improvement Study Project Team comprised of CAO and Member 
offices is reviewing a wide range of computer support issues including, 
at a minimum, looking at alternatives to the current multiple vendor 
offerings, funding options and alternative payment plans. The planned 
completion date for the task force findings to be provided to CHA is 
August 15, 2000.
    In addition to the task force, discussions are ongoing internally 
and with the Gartner Group to evaluate industry best practices for 
supporting and maintaining office equipment in the House.
    Question. You've requested $3.065 million for a study to identify a 
long-term solution to replacing the House's financial system, FFS, 
which was installed in June 1996, less than four years ago. Why must 
the FFS system be replaced so soon? Given the sum involved, are you 
taking steps to ensure that the next system will last longer?
    Response. The CAO has not requested $3.065 million for a study. The 
FY 2000 budget includes $463,000 for a financial systems requirement 
study estimated at $963,000 (the remaining $500,000 will come from the 
DOI interagency agreement funding already in place). There is $706,000 
requested in Fiscal Year 2001 for the financial replacement system. By 
the time a replacement system is implemented (scheduled for November 
2002), FFS will have been in use for over six years. Though the House 
installed FFS in June 1996, the technology in the FFS system at that 
time was already 14 years old. FFS technology does not operate in a 
contemporary data base environment. FFS was implemented as an interim 
system to meet extensive audit-recommendations. Because FFS utilizes 
older technology, it does not integrate easily with other House systems 
being installed today, it does not meet Member and Committee accounting 
requirements, and does not provide an ad-hoc report generation 
capability.
    The House is following the approved Development Life Cycle 
guidelines for major system acquisition to insure that the next system 
lasts longer and meets the needs of the House. The House is performing 
a requirements analysis phase with steps to define current and long 
term House business processes along with financial functional 
requirements and information system technical requirements. These 
requirements will be used to define a ``target'' system that meets 
House requirements. The target system requirements will be matched with 
a Commercial Off the Shelf (COTS) financial management product 
capabilities that meet Joint Financial Management Improvement Program 
(JFMIP) requirements. A recommendation will then be made as to whether 
or not suitable products are available that will meet or could easily 
be adapted to House requirements. If the House agrees with the 
recommendation, a competitive procurement will be undertaken to acquire 
the best solution to meet the House requirements.
    Question. You're already $6 million into replacing the staff 
payroll system. Why does this system need to be replaced? What do you 
estimate it will cost?
    Response. The current Payroll and Personnel & Benefits system (the 
Financial Management System--FMS) is a twenty-plus year old system 
based on mainframe technology and was custom developed by the House. 
The current system is technologically very fragile, has limited 
functionality, documentation is non-existent, and is supported by 
extremely scarce human resources who have the expertise and historical 
knowledge to operate and maintain the system. The Inspector General has 
made several recommendations in a series of audit reports the current 
system.
    Redefined missions, amplified responsibilities, and the need for 
more technologically current customer support have significantly 
increased the role of the Office of Human Resources. However, the 
present system cannot accommodate the necessary level of growth. The 
environment of current system impedes all changes to the complex code 
except those deemed absolutely necessary to accommodate changes in law 
or directive. Numerous manual processes and excessive staff 
intervention are required on a day-to-day basis, even to complete 
``routine'' monthly payroll transactions, Additionally, there is 
limited management reporting capability.
    Other causes affecting the acquisition of a new system is the CAO's 
extensive migration from mainframe-based technology to a client server 
environment, as well as the goals to incorporate JFMIP (Joint Financial 
Management Improvement Process) compliance into our Legislative 
processes.
    The estimate to acquire and implement a new HR/Payroll system at 
the time the RFP was approved was a range of $8 million to $25 million. 
These figures include hardware, software, customization as required, 
integration, data conversion, implementation, and maintenance for three 
years.

                CONGRESSMAN EHLERS TASK FORCE DISCUSSION

    Mr. Taylor. Has Mr. Ehlers' task force been consulted on 
the request?
    Mr. Eagen. That task force was created several years ago to 
look at the operations of the House technology-wise 
specifically. It issued a set of recommendations for the House, 
about 15 in number. Of those 15, 14 have just about fully been 
implemented. So the Ehlers task force work has fairly much been 
completed, and we are now at a point where HIR and the CAO will 
be submitting a follow on set of recommendations to the 
Committee on House Administration for new technology 
initiatives that we think are a natural complement to the 
Ehlers report.

                   CLERK'S BUDGET INCREASE EXPLAINED

    Mr. Taylor. I want to ask the Clerk, your budget is up 
about 6.6 percent. Since that may be an increase beyond our 
capacity, will you give us some priorities that you would 
definitely like to have funded.
    Mr. Trandahl. The budget increase mainly encompasses two 
different factors. One is a personnel factor in terms of the 
COLA increase that we are all anticipating; but secondly, we 
are looking to increase our position FTE count by four in order 
to help with historical and archiving issues in the Legislative 
Resource Center. And second, we are looking at two technical 
programs. One is the continuation of the document management 
system and the other is to examine the replacement of the 
legislative information system. Those are all priorities, and 
they are all things that we recommend but definitely we will be 
working with the subcommittee to identify which initiatives can 
actually be funded in 2001.

                    PAGE DORM RELOCATION DISCUSSION

    Mr. Taylor. What is the status of the page dorm relocation? 
Have you and the architect worked out a satisfactory schedule?
    Mr. Trandahl. Right after this meeting I am meeting with 
the House Page Board to finalize the design proposed by the 
architect. Once they sign off on the final design, the 
architect is prepared to move forward with the actual planning 
and construction process. We anticipate that it will take a 
year and everyone seems satisfied with the schedule as 
currently proposed.

                       DOCUMENT MANAGEMENT SYSTEM

    Mr. Taylor. Your office has been working on a document 
management system for several years. What are you trying to 
accomplish and what progress has been made?
    Mr. Trandahl. The document management system is the idea of 
adding technology and bringing together multiple systems that 
help create legislation. It takes legislation through the point 
of origination all of the way to the point of printing and 
consideration on the House Floor and connecting all of these 
electronic steps together.
    We are currently in the process of running a feasibility 
study between the Office of Legislative Counsel and the Clerk's 
office to see if it is viable. We have gone through a lot of 
design and planning processes, and now are actually into this 
deployment and testing stage for the first time.
    We are right in midstream in the feasibility so we haven't 
reached conclusions yet; and we are anxious to see the results, 
the successes as well as where we have areas to improve. It is 
a great step forward. After that is complete, we move to a 
piloting stage and follow the SDLC process in terms of further 
planning and development. A lot of success has been done this 
year, and there is a lot of work ahead.
    Mr. Taylor. How much has been appropriated to date for 
document management and how much has been spent.
    Mr. Trandahl. About $4.5 million has been appropriated. We 
have actually only spent around $2 million. The appropriated 
money that has gone unspent has been returned to the 
reprogramming process and used on other joint House projects.
    [Questions from Mr. Hoyer and responses follow:]

    Question. The fall 1999 edition of the semi-annual House telephone 
directory, which is compiled by your office, was rearranged, re-
formatted, and key information (e.g., federal-agency numbers) was 
omitted. As a result, the directory's usefulness is greatly reduced. 
Please tell me what was wrong with previous directories' format and 
content, and who approved the changes, and provide a detailed 
accounting of any savings resulting from the revisions. Also, please 
provide a description of any plans you may have to make future editions 
as useful as the previous editions were.
    Response. Throughout the summer/fall of 1999, my office was 
involved in the compilation and reformatting of the materials for the 
1999 Fall House Telephone directory. Several suggestions and options 
were raised relative to the information contained within the directory 
and format in which the information could be best provided. These 
options and suggestions were articulated in a letter from me to the 
Committee on House Administration on August 24, 1999, and subsequently 
the Fall 1999 telephone book was published and distributed in November. 
While formatting changes were made and certain non-congressional 
information deleted, I believe the core purpose of providing House and 
Senate information and the publication's overall integrity and use was 
maintained. As well, the cost of printing this document has remained 
steady over the last several years. No cut backs have been made. My 
office has received a variety of feedback and requests relative to the 
current and future editions of this guide. As we near completion of the 
new draft version to be distributed later this year, we will again be 
seeking the review by the CHA to ensure that all suggestions are 
considered. Should you have any thoughts regarding future formatting or 
contents, I would be pleased to receive them.
    Question. I note you request four more staff and $197,000 to 
``reestablish the activities of the office of the Historian.'' Are you 
proposing to re-establish the Historian's office as it existed before 
1995, including hiring an Historian? If you do not plan to hire an 
Historian, what employee(s) in your office will coordinate the 
activities of the Historian's office? Will these staff work with the 
Library of Congress on the history-of-the-House project recently 
authorized by the congress?
    Response. As contained in my FY2001 request, I am seeking funding 
and four additional FTEs to increase staffing at the Legislative 
Resource Center (LRC). This staffing would be focused on current 
activities and responsibilities relative to history and archiving. 
Appropriate position descriptions and titles for these positions have 
been completed to ensure proper professional/educational qualifications 
are met when hiring individuals into these positions. No position 
specifically titled ``Historian'' has been created. This additional 
staff (as currently done with existing resources) will be available to 
assist with an array of historical projects, including the History of 
the House should the CHA determine their role on this specific project 
appropriate. The House Resolution authorizing the creation of this 
publication provides that it be completed by the Library of Congress in 
conjunction with CHA--not the Clerk.
    Question. I note your request concerning the Legislative 
Information Management System (LIMS). Is your LIMS work duplicating 
work performed by the Chief Administrative Officer at House Information 
Resources (HIR)? Will you have your LIMS proposal reviewed and 
validated by HIR? If House Information Resources is in fact the House's 
information-technology resource, why isn't HIR performing the LIMS work 
and all other information-technology work for the Clerk's office?
    Response. As contained in my FY2001 request, I am seeking funding 
for a feasibility study on the replacement of the LIMS. This request is 
part of a continued coordinated effort between the CAO and myself 
relative to LIMS. We are working as a team with HIR/CAO as we consider 
the possible options for the replacement of LIMS and are following the 
House Systems Development Life Cycle Policy.
    Although the Clerk and HIR work closely on several technical 
projects and issues, the Clerk is a client of HIR--much like a 
committee or Member office--and HIR is performing the information 
technology support for the Office of the Clerk.
    Question. Have you begun the process of inventorying the House's 
fine arts and historical artifacts for the House fine arts board? If 
so, what is the status of this task, when might it be completed, and 
how many employees are devoted to the task?
    Response. Last year in meeting with the Curator and the Architect 
of the Capitol, I formally requested the creation of a task force to 
assist with the inventory of historical furnishings in the Capitol. 
This inventory would compliment current inventories held by the Curator 
(AoC) relative to House artwork, certain gifts, fixtures and 
sculptures.
    Currently, teams are continuing to photograph and catalog (and 
research the history) of these items. This is an on-going project and 
is expected to continue throughout the calendar year. With the 
exception of a policy relative to the recovery of items removed from 
the U.S. Capitol during earlier Congresses, this current effort 
fulfills the goals of the Fine Arts Board.
    Two AOC employees have been assigned to this project. Other AOC 
employees including the Curator, Architectural Historian, Interior 
Designers and Photographers will be involved on an as need bases.
    Question. What plans do you have, if any, to begin a transition to 
electronic filing of lobby- and financial-disclosure forms, as the 
Senate is exploring? Wouldn't electronic filing of these reports result 
in savings to the House, and to those who are required to file them?
    Response. Since the enactment of the Lobbying Disclosure Act, the 
Clerk and the Secretary of the Senate have administered the Act with a 
high degree of consistency and cooperation. At present, we are 
investigating technology to assist in filing and processing--including 
electronic filing. However, we are compelled to ensure that filing 
improvements do not conflict with or mitigate our compliance 
responsibilities and related enforcement provisions under the Act.
    As we continue to pursue advances in technology, we are focused on 
issues of digital signature, authenticity and internal processing. We 
are working jointly to find workable and legally satisfiable solutions 
to these issues in an effort to adopt a full fledged electronic filing 
program. It would be premature to assume that an electronic filing 
system would provide measurable cost savings. Should we adopt 
electronic filing in the House and Senate, the goal is to offer a cost-
effective and convenient system. However, such a system has yet to be 
fully designed and tested.

                    SERGEANT AT ARMS BUDGET REQUEST

    Mr. Taylor. Bill Livingood is the Sergeant at Arms and for 
the last year has had a very heavy challenge. It is good to see 
you again this year.
    Mr. Livingood. Thank you.
    Mr. Taylor. We will take up the Capitol Police budget 
separately and we will see you again then, but we appreciate 
the frugality that you can make in any reductions. That is 
always a challenge. Is there any comment that you would like to 
make?
    Mr. Livingood. Most of our increase in the 3 percent has to 
do with salary, COLAs, merit increases, and those areas. I can 
look at small areas again. I have very little in nonpersonnel 
costs, but I can certainly relook at that again and come back 
to the committee.

           GENERAL DISCUSSION ON ATTENDING PHYSICIAN'S OFFICE

    Mr. Taylor. Dr. Eisold, has this flu caused any increase in 
your budget?
    Dr. Eisold. No.
    Mr. Taylor. Is there anything that you would like to add or 
say?
    Dr. Eisold. I am delighted to continue to provide services, 
and I am delighted to be here today.
    Mr. Taylor. I appreciate that. The physician's office does 
an excellent job both with the members as well as the emergency 
care that they offer in the capitol and we appreciate that very 
much.
    Mr. Peterson. I would just like to give a testimonial. This 
is my fourth year here. Last year in late summer I had an 
infection in my shoulder and I went over to the physician's 
office for treatment. Dr. Lee asked me whether I had an annual 
physical recently? I said I have not had one since I have been 
in Congress. He said, could I schedule you one and I said sure. 
They scheduled a physical. I had no strong symptoms, but he 
thought I should have a cardiac workup. I ended up having open 
heart surgery for an artery which was 95 to 98 percent plugged. 
My cardiologist in Pittsburgh said I was a walking heart 
attack. So I owe my life to our physician's office and Dr. Lee. 
I just want to say that today. We all take our health for 
granted. I was not sick, but I was close to being dead. I want 
to thank him. He called my family physician and said I think he 
needs a cardiac workup. I don't know what he saw, but he 
thought I needed it and it saved my life.
    Dr. Eisold. Thank you very much. We certainly urge people 
to come down and do that.
    Mr. Peterson. I chaired Health in the Senate for 10 years, 
and I preached prevention and annual physicals. But when I came 
here, I stopped having them. Again, I wanted to share my 
thanks.
    Mr. Taylor. Thank you. Last year we approved several 
reprogrammings and transfers, for the record. Please insert at 
this point all requests and dispositions of transfers and 
reprogrammings made last year.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Taylor. I would like to ask our ranking member, Mr. 
Pastor, if he has any comment or questions.



            FURTHER DISCUSSION ON DOCUMENT MANAGEMENT SYSTEM

    Mr. Pastor. In doing last year's bill, we did it on a 
bipartisan manner and obviously tried to get a bill that 
accommodated the leadership and their desires, so I look 
forward to working with you again. Last year, Jeff, there was a 
little bit of debate when we talked about your budget and 
document reproduction, how quick, how soon. Where are we on 
that?
    Mr. Trandahl. That is part of the document management 
system, and that is us trying to complete internally in the 
House electronic versions of documents in order for them to be 
produced, whether it is at GPO or in-house printing, and also 
made available on the Web. It is progressing. I think GPO is 
happy and satisfied with the progress that we are making in 
terms of what we send to them for production and printing. As 
well, we are anxiously weeding out the paper process internal 
to the House and replacing it with electronic when possible.
    Mr. Pastor. I can understand maybe you want to explain at 
the end of the session there is a big crunch and this year I 
heard a lot of moaning and groaning on the Floor about some of 
the appropriations bills that were getting passed, that they 
were not available.
    Mr. Trandahl. That comes to the physical ability. In the 
Clerk's office and the GPO, we are staffed at a certain level. 
When you have so many bills and text and the evolution of text 
changing all of the way through the process, we are all 
struggling to get it complete, current and make thousands of 
paper copies. The way that we were sort of able to get ahead of 
the curve; we were able to get electronic copies posted well in 
advance of paper so long before consideration people have the 
ability to see the language and see the numbers and the text 
and everything else.
    I know you heard a lot of moaning and groaning; I think it 
was less than you have heard previously.
    Mr. Pastor. I don't know if it was moaning and groaning 
because they didn't get a project in.
    Mr. Trandahl. All of the above.
    Mr. Pastor. Sometimes I guess it is frustrating for some 
members, especially those members who are not part of the 
committee, in trying to figure out where they are at on a 
particular bill and sometimes--it is not available for them to 
see or it is in draft form and they don't know----
    Mr. Trandahl. In this committee, your committee has the 
largest burden in terms of legislation every year, and you 
usually have the most difficult issues that are not resolved 
until the very end of the session.
    So we have a very good relationship in the Clerk's 
organization and your clerks when sharing information once the 
members reach a conclusion. You would be surprised how quickly 
and efficiently things move through the compilation and 
printing process, but paper production does take time.
    Mr. Pastor. I just wondered what we can do to improve the 
situation so members are able to----
    Mr. Trandahl. And I am with you. I think the improvement is 
in bringing in good technology so we can get electronic copies; 
but wherever it is printed, if we have clean electronic copy, 
it speeds the processing incredibly.
    Mr. Pastor. I also want to echo that the physician's office 
not only deals with members but I think they are able to deal 
with situations when we have tourists in the capitol and I am 
glad that he has a very competent staff and does a good job; 
and so I congratulate him and wish him the best. That's all, 
Mr. Chairman.
    Mr. Taylor. Mr. Wamp.

                       IMPROVED HOUSE MANAGEMENT

    Mr. Wamp. Let me just say, Mr. Chairman, as we begin this 
second session, I think it is important for us to kind of take 
stock in what we are doing well. I was encouraged by Mr. 
Hoyer's comments in an article that I read in the Washington 
Post and other outlets across the country about how much better 
the House is managed today than it has been in the past, and 
that the reforms we have worked on in a bipartisan basis are 
paying off. The House is better run because of these changes, 
but it is not the politicians that make it happen. It is our 
staff and it is you and your staff that make it work. I just 
want to thank you for biting the bullet sometimes and smiling 
when you did not feel like it and doing what you needed to do, 
because the bottom line is that these reforms are improving the 
accountability and the faith that the American people have in 
this institution. So let us just continue with these 
improvements as we go down the stretch in a politically 
volatile year.
    Mr. Pastor, I think that, as a committee we should all go 
out of our way to make this effort as bipartisan as possible. I 
thank you, Steny Hoyer, for staying on this subcommittee with 
your years of experience, because it very much helps the 
continuity of this subcommittee. I stayed on this subcommittee 
for a second term because I enjoy it and I think it funds the 
good guys. I yield back the balance of my time, Mr. Chairman.
    Mr. Taylor. I echo that. I think all members of this 
committee have worked in the first year to make it a successful 
effort, and I am sure they will also do so during this second 
year. Mr. Hoyer?
    Mr. Hoyer. Thank you, Mr. Chairman. Let me address Zach's 
comment. I have long felt that the ministerial side of our 
operation ought to run as efficiently and as non-partisan as we 
can make it run. I did make that comment; Zach is correct. I 
think we started that progress in the beginning of the 1990s, 
but certainly strides have been taken since 1995, and I think 
we ought to continue that.

                      DISTRIBUTION OF INFORMATION

    To that extent I think our ranking member's comments in 
terms of how we deal with this responsibility on a bipartisan 
basis is a lot easier because we are not dealing with policy as 
much as we are dealing with the performance, health and 
integrity of an institution. I think the audit that we had was 
a good audit. I am going to ask a question about that of the 
IG. But in that context, I would like to ask the three of you a 
question. This is a sensitive question. I don't want to put the 
three of you in a box, but it does deal with the bipartisanship 
and the openness of this institution. That question is, will 
you answer directly to minority members or staff questions put 
to you concerning the operations of your office?
    Mr. Trandahl. A simple answer, yes.
    Mr. Hoyer. I want you to think about that, and I think 
Jay--his eyes are lighting up. If we are going to be open and 
we ask a direct question, we ought to get a direct answer and 
that is the question that I am asking, Jeff. I appreciate your 
saying yes, but I think all three of you know what I mean in 
terms of whether or not you have to check with other sources 
before you give us answers. Sometimes that is causing us 
problems, as you know, and gives rise to a concern that perhaps 
it isn't as open as we would like it to be, and as bipartisan 
as we would like it to be.
    Mr. Trandahl. I think we are all here to be constructive 
and share information. I can attest for myself and I feel 
comfortable in answering for them; we work very hard and are 
very open, all three of us as people, and as managers. I 
understand the frustration, and I know where you are coming 
from in terms of folks asking us questions; and we are very 
interested in getting the information to all interested groups. 
How it is done, I know it is an issue with some people. I don't 
think that it is an issue of us trying to keep information; I 
think it is more a matter of how do we most effectively meet 
with everyone and get everyone information.
    Mr. Hoyer. Jay, do you have a comment?
    Mr. Eagen. Jeff has hit the nail on the head. It is not the 
lack of willingness on my part or Jeff or Bill's part. There 
seems to be an issue with regard to the forum. If there is 
frustration, I would say there is frustration here as well. I 
am open to solutions.
    Mr. Hoyer. Bill.
    Mr. Livingood. In my area, particularly because it dwells 
mostly in security that I have been open on both sides, 
bipartisan with the House Administration, the Appropriations 
Committee and the committees that I report to, and I have never 
been stopped from saying exactly what I thought or answering 
questions.
    Mr. Hoyer. I don't want my question to be misinterpreted as 
saying that any one of the three of you has not been exactly in 
that mode. But I think it is important that there be a sense of 
open communication between both sides as we work in a 
bipartisan fashion on ministerial issues. Obviously both sides 
want to discuss things in confidence; but in ministerial 
matters, both sides need to have access to information that 
they need to make decisions.

                       JANUARY 2000 COLA DECISION

    Let me make a comment, Mr. Chairman. I was very pleased and 
you mentioned that we did the 4.94 percent, Mr. Chairman, for 
all of our employees. We gave 4.94 percent in the civilian 
sector, and that is adjusted by the locality pay adjustment. 
Washington area employees are subject to the cost of living 
here and the differential was given. I appreciate Mr. Thomas' 
actions on that, and I think we did the right thing for our 
employees and hopefully will continue to do that. I think 3.7 
is the adjustment the administration is talking about 
recommending; and whatever adjustments we had, Mr. Chairman, we 
may want to make some adjustments later on for that, but I 
congratulate all those who have taken what I thought was an 
appropriate action.

                  DISCUSSION ON SYNERGISTIC MANAGEMENT

    Let me ask one more question, if I can, of the Chief 
Administrative Officer.
    ``Synergist Management Vision,'' can you explain that for 
me? It sounds good and I am for it.
    Mr. Eagen. Synergy is the simple concept that the whole is 
greater than the sum of the parts, and the intent is to try to 
build an organization in the CAO, particularly with management 
but for all employees, where people are able to work together 
as a team and solve problems and provide services. What does it 
mean in a practical sense? First, it means planning, having a 
strategic plan and laying out goals and objectives for the next 
4 or 5 years to look a couple of steps down the road. Second, 
it means communication. We are a large organization with about 
570 employees in 7 different buildings who sometimes find 
problems in talking to one another. So it is having effective 
communication programs so we can work together, not just within 
CAO, but with Jeff's office or the Architect. Oftentimes we 
have to work across boundaries to provide those services. It is 
an attempt to have improved management.
    Mr. Hoyer. The $313,000 and four extra people, I take it, 
will be involved in working on those issues that you have just 
raised?
    Mr. Eagen. I'm sorry?
    Mr. Hoyer. As I understand it, there is $313,000 and four 
additional FTEs dedicated to the development of this----
    Mr. Eagen. It is not four additional FTEs. They are already 
existing. What we have done is organize the CAO's budget under 
five different categories. We try to directly align our 
resources with dollars and people, and that is what that is 
trying to show.
    Mr. Hoyer. Is that essentially existing dollars?
    Mr. Eagen. Yes. There is a strategic planner in my office, 
for example.
    Mr. Hoyer. Thank you, Mr. Chairman.
    Mr. Taylor. Ms. Granger, any questions?
    Ms. Granger. No questions.
    Mr. Taylor. Mr. Peterson?
    Mr. Peterson. No questions, Mr. Chairman.
    Mr. Taylor. Thank you, gentlemen.
    [A question from Mr. Hoyer and response follows:]

    Question. Since you rendered a clean audit for the House 
last year, do you believe you need the same level of resources 
going forward?
    Response. I believe the Office of Inspector General (OIG) 
should receive the level of resources requested in my Fiscal 
Year 2001 budget request. The 1998 financial statement audit 
concluded that the financial statements were ``presented 
fairly, in all material aspects'' but identified five remaining 
weaknesses in House financial reporting. In order for the House 
to continue to receive a clean opinion much work is still 
needed to follow up on the remaining weaknesses and to improve 
overall House management and administration.
    To this end, we are currently developing an audit universe 
of House and joint entities to more effectively use our 
resources to meet the needs of the House. Our proposed 2000 
Annual Audit Plan and Perpetual Inventory of Proposed Audits 
presents a three year strategic plan accounting for 48 audits--
requiring 9,850 audit staff days of effort. This plan, in order 
to reflect the improvements in House financial reporting, will 
emphasize those area where the House is still in need of 
improvement or has had little prior review.
    Relative to the performance and financial audits, 
assessments are needed in the areas of controls over equipment 
maintenance, contract provided services, contract provided 
services, physical security, and financial management 
processes. More audit emphasis will also be placed on the 
Architect of the Capitol's House-related activities. For 
information systems audits, assessments are needed in the areas 
of network security, information system acquisition and 
implementation, and application controls. These audits will 
ensure that House systems provide the desired functionality, as 
well as the required data integrity, confidentiality, and 
availability. In particular, these reviews will include the 
financial, procurement, inventory, and personnel systems. Other 
information systems audits will assess general information 
technology management in areas such as systems integration, 
quality assurance, and configuration management.
    These audits will be performed by both OIG staff and 
contract audit resources. Relative to contract audit resources, 
the OIG entered into a new master contract in mid-1999. This 
new contract provides for a wider choice of service providers, 
but at higher service rates than the expiring contract. Any 
reduction in OIG contract audit resources, coupled with higher 
service rates, would reduce the amount of contract services the 
OIG may acquire--negatively impacting our ability to 
effectively implement the OIG annual Audit Plan.
    In summary, even though the House received a clean opinion 
on the 1998 financial statements, areas with high risk, weak 
internal controls, or little prior review, still remain. These 
reasons, coupled with the anticipated increase in contractor 
costs, justify the OIG's Fiscal Year 2001 budget request.
                                        Thursday, January 27, 2000.

                          LIBRARY OF CONGRESS

                               WITNESSES

JAMES H. BILLINGTON, LIBRARIAN OF CONGRESS
DONALD L. SCOTT, DEPUTY LIBRARIAN OF CONGRESS
WINSTON TABB, ASSOCIATE LIBRARIAN FOR LIBRARY SERVICES
LAURA CAMPBELL, DIRECTOR, NATIONAL DIGITAL LIBRARY
RUBENS MEDINA, LAW LIBRARIAN
JO ANN C. JENKINS, CHIEF OF STAFF, OFFICE OF THE LIBRARIAN
TERESA SMITH, DIRECTOR, HUMAN RESOURCES SERVICES
LINDA WASHINGTON, DIRECTOR, INFORMATION TECHNOLOGY SERVICES
KENNETH E. LOPEZ, DIRECTOR OF SECURITY
MARYBETH PETERS, REGISTER OF COPYRIGHTS
DANIEL P. MULHOLLAN, DIRECTOR, CONGRESSIONAL RESEARCH SERVICE
FRANK KURT CYLKE, DIRECTOR, NATIONAL LIBRARY SERVICE FOR THE BLIND AND 
    PHYSICALLY HANDICAPPED
JOHN D. WEBSTER, DIRECTOR, FINANCIAL SERVICES
KATHY A. WILLIAMS, BUDGET OFFICER
GENERAL FLETCHER M. LAMKIN, DEAN, ACADEMIC BOARD OF WEST POINT
    Mr. Taylor. We will now take up the Library of Congress 
budget. I want to welcome Dr. James Billington, the Librarian 
of Congress. And we also want to welcome Retired General Donald 
L. Scott, the Deputy Librarian of Congress. The 2001 budget of 
the Library assumes total funds available for the $622.4 
million from a variety of sources, including appropriated 
funds, receipts, gift, trust fund and revolving funds and the 
reimbursable program. The appropriations request before the 
committee today is $461.7 million. That is an increase over 
last year. It includes $33.6 million in offsetting collections.
    The Library is requesting funding for 272 additional 
employees, but plans to reduce 80 FTEs elsewhere so the net 
employment increase would be 192. Dr. Billington, do you want 
to introduce your staff? We have circulated statements, and we 
can go into questions.
    Dr. Billington. Thank you, Mr. Chairman. I thank all of my 
colleagues, and I really do want to endorse the quality and 
dedication of this staff. The only new member that has not yet 
been presented to the committee is Teresa Smith, director of 
Human Resource Services, who is giving fresh impetus and 
vitality to that activity in the Library. I am prepared since I 
have submitted a fairly lengthy statement to just move directly 
here to your questions.
    [The information follows:]

 Teresa A. Smith, Director for Human Resources, the Library of Congress

    Teresa A. Smith is a Senior Level manager at the Library of 
Congress where she serves as Director for Human Resources. Ms. Smith is 
the principal advisor to Library management on human resources and 
manages a comprehensive human resources program for a staff of 4,300 
employees. As Chairperson of the HR21 Steering Committee, Ms. Smith 
directs a five-year Librarywide effort to ensure that we build, 
develop, manage, and maintain a flexible work force to meet the 
challenges of the 21st century. Under Ms. Smith's leadership, the 
Library issued a Human Resources Strategic Plan to guide the 
transformation effort and make certain that human resources activities 
clearly align with agency mission accomplishments.
    Ms. Smith has twenty-seven years of expertise in federal human 
resources. She has worked in field, regional, and central office 
locations and has extensive experience in managing human resources 
programs, ranging from first-line supervision of personnel staff 
functions to her current agency-level leadership and advisory role.
    Immediately prior to assuming her current duties at the Library, 
Ms. Smith served as Human Resources Director for the Health Care 
Financing Administration, Department of Health and Human Services 
(HHS). There, she managed a headquarters staff of over 100 employees 
engaged in providing a full range of human resources services to 4,000 
HHS employees in Baltimore and ten regional centers. While at HHS, Ms. 
Smith streamlined and reengineered human resources services, 
activities, and programs to deliver more value to the customer.
    Ms. Smith has a bachelor of arts degree from Indiana University and 
a master of science degree from Southern Illinois University. She has 
received certification in facilitation, team building, and 
organizational development.

                       DIGITAL FUTURES INITIATIVE

    Mr. Taylor. By far the largest increase in your budget is 
for the digital futures initiative, it is about $21 million and 
133 FTEs. Can you explain the project and the components of the 
proposed expenditure?
    Dr. Billington. Thank you, Mr. Chairman. And I think I 
should begin by saying that in this bicentennial year anyone 
who is a custodian of this institution ought to begin by 
thanking this committee, you, Mr. Chairman, members of this 
committee and subcommittee and Congresses past and present for 
being the single greatest Library patron of all time. No royal 
family, no Medicis, no one has ever created anything like this 
oldest federal cultural institution in America which has become 
the largest repository of knowledge and creativity in human 
history, and more recently the leading provider of high-quality 
free historical and educational material in the revolutionary 
new world of the Internet. It is that which your question 
addresses.
    As you have already indicated, the Library brings before 
you this year a budget that contains probably the single most 
important request which is derived from the vision and strategy 
for this new digital era, one that will secure the 
infrastructure and the personnel to sustain and maximize what 
is really a quite unique potential that it has to serve the 
Congress and the Nation. Thanks to the Congress's farseeing 
support, the Library's pioneering 5-year National Digital 
Library Program, which finishes this year, has been a stunning 
success.
    Just a few weeks ago it capped a long number of awards by 
winning the prestigious Global Information Infrastructure Award 
for Education. We have now developed, particularly over this 
past year with hard work of many parts of the Library, a 
digital futures plan that will systematically begin building an 
all together new kind of 21st century library for all Americans 
wherever they are--the National On-line Library.
    The Internet is creating a profound and fundamental shift 
in the way knowledge is stored and communicated, even the way 
that it is generated. In 1998, the Department of Commerce found 
that 29 percent of real economic growth in the United States 
was attributable to information technologies, and that number 
will go way up when the figures for this past year are 
computed. Projections show, moreover, that by the year 2003, 80 
percent of all business transactions will be conducted over the 
Internet. Close to one hundred million American households are 
already connected to the Internet.
    Further, worldwide exponential growth seems inevitable; not 
just the workplace, but our daily lives are being altered far 
more rapidly than our capacity even to understand what the 
implications are for society. What is already clear is that 
this new communications era offers the Congress's library 
extraordinary opportunities to provide new and cost-effective 
benefits to the Congress and the Nation. Almost all libraries, 
and an estimated 89 percent of our K through 12 public schools, 
are now connected to the Internet. Most have direct Internet 
access into the classroom. Demand continues to grow for the 
kind of high-quality interesting, even inspirational, material 
that the Library of Congress Website is almost alone in 
providing the Nation free of charge through the Internet.
    The commercial world is preoccupied with marketing and 
entertainment, which is fine; but we are helping to bridge the 
gap between information haves and have-nots by providing a 
vehicle for improving K through 12 education in America. The 
Library also has an immediate national responsibility to 
rapidly develop plans and pilots for preserving and making 
accessible the rising flood of works that are created 
elsewhere, born digital, and are presently available only in 
highly-impermanent electronic forms.
    So our main request, Mr. Chairman, in this budget is for an 
increase of $21.3 million in order to systematically 
incorporate digital materials into the Library's historic 
traditional enduring mission, which is to acquire and preserve 
useful content, to provide free access to the Congress and the 
public, and to sustain the backbone of infrastructure that 
makes access to content possible.
    We need and are asking for $11 million for the backbone of 
an electronic service that has exploded from 20,000 electronic 
transactions a day in 1995 to 4 million a day now. We are 
asking for $7.6 million for additional domestic and 
international content and $2.6 million for outreach services to 
maximize access nationally. Now we realize that this represents 
a significant increase, but the Library has already severely 
strained its human and material infrastructure in this past 
decade to test and determine what these needs really are. These 
are, I stress, the core needs of any library. They simply must 
be met for this new type of material if the Library is to 
provide relevant service in the years ahead and these three 
different areas are interdependent. There is little point of 
having content without access and no possibility of sustaining 
either without an infrastructure, without a backbone.
    Of course there is no realistic possibility that we can 
continue our present level of services, let alone maximize our 
unique and extraordinary service potential for the Nation by 
further diverting resources from traditional services based on 
books, periodicals, and other artifactual materials which will 
be equally inescapable for the foreseeable future. The amount 
of print material is increasing worldwide and diversifying in 
its outlet. We cannot neglect that format. Libraries, Mr. 
Chairman, are our link in the human chain that connects what 
happened yesterday with what might take place tomorrow.
    I ask the committee's support so that the Congress's 
Library may have the basic material and human resources to 
sustain the world leadership role that it has established, that 
Congress has enabled us to establish in the digital age and to 
be able to modernize our services both to the Congress and to 
all Americans wherever they are in their local community.
    Mr. Taylor. Thank you. Have you made analysis of the 
outyear costs for building the digital collections, the cost of 
distribution and the additional infrastructure that you need 
for the Library and other institutions?
    Dr. Billington. Yes. The Library has completed a very 
detailed plan for the digital future, and I will refer to 
General Scott to explain it.
    I would like to say that program managers from all parts of 
the Library have put together integrated programs that will 
enable us to improve service to all of the Congress, to the 
Nation's libraries and the public in a cost-effective and, we 
think, coherent manner. I must first of all thank this 
committee for the support of the Integrated Library System, 
which you have permitted us to install and which we did under 
budget and ahead of schedule last year. That is a platform on 
which the future possibilities we are going to be sketching 
here are based, and it is something on which we would not be 
able to contemplate without the special support that you gave 
us last year.
    But specifically, in the next 5 years we plan in this 
program to add 70 additional memory modules to the 5 million 
items already either on-line or in the pipeline, and 
international content from 10 other countries, design a program 
for collecting and preserving digital-only materials in all 
formats and build a state-of-the-art digital repository, 
provide navigational tools beginning with geographical mapping 
services for the Congress to deliver content and services 
rapidly and in modern forms, and continue on-line educational 
outreach for teachers and librarians. The end result, we 
believe, will be an outstanding national asset to meet the 
growing needs of our citizens for information access and 
navigation into high-quality content and services.
    And so, with that general statement, let me pass the 
microphone to my very distinguished and hard working colleague, 
General Scott, who is responsible for pulling much of this plan 
together and for making the vision that we developed into 
something that is more than just a ``vision.''
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    General Scott. Thank you, Dr. Billington. Thank you, Mr. 
Chairman. It is my pleasure to present for the record the 
Library's 5-year plan that lays out exactly what we want to 
accomplish with the digital futures initiative.
    The purpose of this plan is to enable the Nation's oldest 
cultural institution to collect, store, preserve, and 
distribute information in an electronic format. As Dr. 
Billington said, our plan is the result of a multiyear effort 
by the staff throughout the Library, and it does chart the 
course for our digital future. The plan describes in detail the 
new digital environment that we face, the role of the Library 
in that environment, our vision for serving the Congress and 
the Nation through that medium, and the components necessary to 
realize this vision.
    Throughout the plan, we are asking the Congress to fund 
three integrated and interdependent components, the technology 
backbone or infrastructure component, the content component, 
and the access services component. Each of the components is 
described in detail in the plan along with cost data which 
supports the request and what the services will be used for. 
Also, the plan lays out the outcomes that we expect as a result 
of the expended resources, our planning assumptions, and 
outyear estimates through fiscal year 2005. The resource 
requirements grow from $21.3 million in 2001 to $26.4 million 
in 2005. This increase is primarily due to a continued 
investment in our technology backbone or in our infrastructure. 
The born digital part of this plan is needed to ensure that we 
have funding to help us implement pilots in 2001. The purpose 
of the pilots is to help us understand how this dynamic and 
constantly evolving Internet communication medium is going to 
work.
    The pilots will include exploration of partnerships with 
the private sector and other institutions throughout the world. 
Our desired outcome in the born digital arena is to capture and 
ensure permanent access to digital materials in the most 
economic manner.
    In summary, Mr. Chairman, this plan has been in the making 
for more than a year. It details the critical components needed 
to make the Congress and the Nation's library capable of 
collecting, preserving, distributing, and storing digital 
information to present and future generations of America, which 
of course, is the Library's mission. Thank you, sir, for the 
opportunity to present this plan, and we do request your 
approval.
    Mr. Taylor. Thank you, sir.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Taylor. Dr. Billington, the Internet age provides many 
opportunities to make the vast resources of the Library of 
Congress a success. How does the Library make the digital 
library successful in local communities?

                       AMERICAN MEMORY COLLECTION

    Dr. Billington. The main guiding theme of our bicentennial 
is Gifts to the Nation. This Library is Congress' creation and 
gift to the nation. Our basic gift, our millennium gift to the 
Nation, is the millions of items in our American Memory digital 
collection which we are making available in local communities 
across the Nation in libraries, in schools, but increasingly in 
homes as well.
    We have also developed a network of librarians and teachers 
across the country who are introducing these materials in their 
classrooms and libraries. We have conducted numerous training 
sessions and annual summer institutes using these materials and 
our technology. People all over the country are putting their 
discussions as well as the results of their discussions on-line 
so there is a rich educational resource formed not by us but by 
people working locally in the classroom and sharing it on-line 
with the Nation.
    Numerous collaborations have been undertaken with the 
private sector. We have one with Jones Intercable in 
Alexandria, VA, and we had another one with Bell Atlantic in 
Union City, NJ. They are using our materials and somebody 
else's technology. We also have two special pilot 
collaborations designed to work in depth with K through 12 
educators. They are incorporating the Library's primary source 
material into school curriculums to develop the best methods 
for making educational on-line content useful for students. The 
Library has established a regional collaboration project called 
Joining Hands Across America with a rural educational research 
consortium in North Carolina. This project, which has just 
started, is designed to develop a training program which will 
be useful to teachers in all American communities.
    We are also available free of charge to anyone who has 
access to the Internet, particularly public and school 
libraries across the country.

                            AMERICA'S STORY

    Finally, I should say that we are going to unveil a new 
Website on our birthday, 200th birthday, the 24th of April, 
which will be called America's Story. It will be composed of 
many stories of America. Also, it will be given the free pro 
bono benefit of widespread advertising by the Advertising 
Council, which has taken it on as a major project. This will 
result in a great deal of public attention being drawn 
throughout the country to this remarkable facility and this 
remarkable educational aid. We are talking about up to 
something like $30 million of free advertising a year for 3 to 
5 years into the future. So, that is something I am very proud 
to say we have not spent a great deal of money on in the 
Library. Instead, we have been concentrating on the substance 
of what we are doing. We now have the happy opportunity to have 
it much better known at no expense to the Appropriations 
process or indeed to the Library, although we will be required 
to put much more effort in and to plan for a future in which 
the use will be even greater than it is now.

                        NATIONAL ON-LINE LIBRARY

    Mr. Taylor. An important part of the Library's National 
Digital Library Pilot Program is the use of cooperative 
projects with other institutions to provide digital access to 
historically significant materials. What type of cooperative 
projects are you considering as part of the Library's National 
On-line Library?
    Dr. Billington. Mr. Chairman, our vision for this National 
On-line Library includes a number of cooperative projects with 
both domestic and foreign partners, and includes both 
historical materials that we and other institutions will 
generate, as well as born digital materials. We would like to 
continue the type of projects made possible through the gift 
from the Ameritech Corporation to the Library which helped 36 
libraries, archives, and other repositories across the country 
to digitize their historical and Americana collections and add 
them to the Library's Website. We also provided technical and 
substantive critiques of a total of 300 proposals. As a result, 
many more institutions got the benefit of a technical and 
substantive analysis of what they could do to digitize.
    We want to continue this collaborative work with other 
large and small repositories across America. We would like to 
produce standards, as we did at the beginning of the past 
century with cataloging, to produce dependable and uniform 
protocols.
    We are working with 17 other major research institutions 
through the Digital Library Federation to address technical 
standards. We are partners with the National Science Foundation 
and its digital library research program, and we have several 
partnerships with donors and foundations for the support of the 
K through 12 educational programs which I have already 
discussed. We would also like to add an international dimension 
to build on the Meetings of the Frontiers Project which was 
approved by the Congress 2 years ago and is now starting to 
become available on-line bilingually in both English and 
Russian. The next such project will be with Spain which is the 
repository of much of the early history of America, 
particularly the American Southwest and Florida. We plan to 
unveil a prototype, drawing on already digitized collections, 
to the King and Queen of Spain when they visit the Library next 
month. Others include the Vatican, and perhaps the national 
library of Italy, which also includes fascinating early 
materials on the discovery of America.
    We see internationally over the next few years becoming the 
hub of a growing international network that will give a rich 
new dimension to the educational enterprise that we are 
undertaking. In the long run, Mr. Chairman, the Library will 
contribute to improving America's place in the increasingly 
competitive global marketplace. These collaborations will add 
domestic and international content and help address the tough 
technical issues associated with digital content.

                        WEST POINT COLLABORATION

    I would like to introduce, General Lamkin, who is the dean 
of the academic board of West Point, to describe how his 
distinguished and important national institution is already 
using the Library's National Digital Library content. West 
Point might work with us to generate similar valuable content 
in the future.
    General Lamkin. Thank you, Dr. Billington. Thank you, Mr. 
Chairman, for this opportunity to respond to your question and 
to talk about the potential for an exciting partnership between 
the Library of Congress and the United States Military Academy.
    We already have several connections with the Library of 
Congress. As a member of Fedlink, we have a subscription to a 
number of services that the Library provides, and we have 
linked the Library of Congress home page to our home page so 
that cadets and faculty can readily ascribe to the Library and 
take advantage of that link.
    We have also placed on our academic home page a link to the 
National Digital Library on West Point to permit cadets and 
faculty members quick and easy access to items in the Library 
of Congress's America Memory Collection. The history department 
has made good use of these materials in the classroom and for 
homework assignments.
    For several months, we have been exploring the potential 
for further collaborative arrangements with the Library of 
Congress. We are currently discussing 2 potential projects 
which will demonstrate the usefulness of digitized primary 
sources delivered via the Internet. These projects have a 
potential to expand and extend the Library of Congress's 
services to the American people. Quite simply, we would like to 
establish faster connections between the Library of Congress 
and West Point so that our students and faculty may have real-
time access to materials in the library for their teaching and 
research.
    Furthermore, we would like to make available to the Library 
of Congress and the rest of the world our rare collections 
which document the history of West Point and its graduates. 
Here is specifically what I mean.
    In the first case, West Point would like to have real-time 
access to the digital material available to the Library of 
Congress, which would include the National Digital Library, the 
Country Study handbooks and digitized map collections. We could 
use these resources inside and outside the classroom to enhance 
instruction. We are a wired campus. Every classroom is 
computerized with projectors and links to the Internet that 
enhance the normal oral instruction that goes on in a 
classroom. With a rapid link to the Library, we could 
illustrate a point with a wonderful part of their collections 
from the Library, and, as a student asks a question, move to 
the next picture or link to help supplement the material and 
bring alive the rich American history that is in the library.
    We can only do that with a fast link. If you do not have 
the fast link, all of this information is going through a soda 
straw. It takes 5 or 10 minutes to download some of this 
wonderful material instead of having instantaneous access. The 
first thing that we really need is the high-speed link.
    Second, we would like to make available to the Library of 
Congress and the American people the history of the United 
States Military Academy. Our unique holdings bring to life a 
rich American history, but in many cases those wonderful 
documents are tattered and old and difficult to access. An 
example would be our USMA historical holdings on Ulysses S. 
Grant. They complement the holdings in the wonderful 
collections here in the Library of Congress. We have the 
official records in our archives pertaining to Cadet Ulysses S. 
Grant and his various post-graduate contacts with the academy. 
Our special collection also includes a variety of Grant 
materials, including original correspondence, rare 
publications, and even collective photographs and engravings. 
Through the use of technology, we would have the ability to 
make the combined holdings of the two institutions available to 
a wider public. West Point would like to partner with the 
Library of Congress in securing private funds for such a pilot 
collaborative effort. Thank you, Mr. Chairman, for this chance 
to speak.
    [The information follows:]

 Brig. Gen. Fletcher M. Lamkin, Jr., Dean of the Academic Board, U.S. 
                            Military Academy

    Brigadier General Fletcher M. Lamkin, Jr., was born in Lakehurst, 
New Jersey, on April 9, 1942. After graduating from the U.S. Military 
Academy in 1964, he was commissioned a second lieutenant and awarded a 
Bachelor of Science degree.
    BG Lamkin also holds a Master of Science degree in Engineering from 
the University of California at Berkeley and a doctorate in Philosophy 
from the University of Washington. His military education includes 
completion of the Airborne and Ranger Schools, the Field Artillery 
Officer's Advanced Course, the U.S. Army Command and General Staff 
College, and the Naval War College.
    Prior to BG Lamkin's appointment as tenth Dean of the Academic 
Board, he had served at the U.S. Military Academy from June 1971 to 
1974 as an instructor and assistant professors for the department of 
Mechanics. In 1987, he returned to the Academy as a permanent associate 
professor in the department of Engineering. In 1989, he was selected as 
professor and deputy head of the department of Civil Mechanical 
Engineering in 1992. From June 1993 to June 1994, he was Vice Dean of 
the Academic Board and then returned to the position of professor and 
head of the department of Civil and Mechanical Engineering in June 1994 
until his appointment as Dean in May 1995.
    BG Lamkin has held a variety of important command and staff 
positions throughout his years of military service. He was served as 
Battery Executive Officer, Battalion Fire Support Officer, and Battery 
Commander in the 7th Battalion, 11th Field Artillery, Republic of South 
Vietnam from 1966 to 1967. He commanded the 1st Special Training 
Company at Ft. Gordon, Georgia, from 1967 to 1968 and was Battalion 
Operations Officer for the 1st Battalion, 38th Field Artillery in Korea 
from 1975 to 1976. Positions he held while at Ft. Lewis, Washington 
from 1976 to 1980 were Battalion Executive Officer of the 1st 
Battalion, 84th Field Artillery Division, Training Officer, and Deputy 
Operations Officer for the 9th Infantry Division. In 1980 he was the 
Inspections Team Chief of the Officer of the Inspector General, U.S. 
Army Europe and from 1981 to 1983 he commanded the 4th Battalion, 77th 
Field Artillery in Babenhausen, Germany.
    BG Lamkin's awards and decorations include the Bronze Star, 
Meritorious Service Medal (5 awards), Air Medal (5 awards), Army 
Commendation Medal, Army Achievement Medal as well as numerous service 
awards. He earned the honor of Distinguished Graduate and winner of the 
J.W. Mittendorf Award for Best Student Research at the U.S. Naval War 
College in 1987.
    He and his wife Shari have three daughters: Lori, a graduate of the 
University of Washington who works for Microsoft; Lyndsi, a graduate of 
the University of Arizona now flying F-18s for the Navy; and Lyssa, who 
is studying Occupational Therapy at Quinnipiac College.

    Mr. Taylor. I thank the gentleman. I appreciate your 
comments, and certainly with the moral support that the Library 
is giving with the international collections. As mentioned, 
Russia and Spain and hopefully others could be helpful as a 
source through the Library of Congress. So we appreciate your 
comments.
    In the individual area, General Scott, there is a bilateral 
work effort in these activities. How will the Library and other 
institutions share this workload that you are talking about?

               NATIONAL AND INTERNATIONAL COLLABORATIONS

    Mr. Scott. Mr. Chairman, I would just like to make a brief 
comment about the collaboration that the Library of Congress 
has done with the 36 other libraries throughout this country. 
They share our data, and we share their data. I would like to 
ask Laura Campbell, Director of our National Digital Library, 
to give you just a little bit more details. She would be 
instrumental in helping us initiate a collaboration project 
with West Point.
    Mr. Taylor. Sure.
    Ms. Campbell. As General Scott mentioned, we have 36 
collaborations now--most of them are collaborations on unique 
content, really special items; for instance, fabulous 
photographs of the early American West from Denver Public 
Library and 35 other fabulous collections that people couldn't 
see without these collaborations. They don't have the computing 
power, the digitizing money to do this. We actually raised 
money to make those collaborations possible. We hope in the 
next 5 years, by working with institutions like West Point, we 
can take the very richest, the most educationally valuable 
material and together, do this in a cost-effective manner. This 
not only gets the content out there, but it forces us to learn 
a whole lot about technologies and standards where the Library 
of Congress, as the Nation's library has always been a leader. 
We can share that knowledge and be cost-effective with 
libraries not only here, but around the world, and actually 
communicate and distribute content and knowledge in a networked 
environment.
    One institution alone doesn't have to do all this work, but 
somebody needs to lead the way. We would very much welcome 
content and technical collaborations with organizations like 
the distinguished West Point.
    Dr. Billington. Internationally, I might add, Mr. Chairman, 
as you are well aware, that we have signed general agreements 
and have begun collaborative conversations with the Library 
accumulated by Columbus's son. It is available, and we hope to 
develop similar arrangements with the Archives of the Indies 
and the National Library of Spain.
    Also, we have just recently signed general agreements to 
explore sharing and collaborating with the two largest 
repositories in Russia, of the history of the Russian expansion 
east, which parallels in so many interesting ways the American 
expansion west and two frontiers meeting just north of San 
Francisco. They have materials on Alaska and early North 
American history, just as we have materials on Siberia and the 
Russian frontier.
    These are the first of the collaborations. We have had 
exploratory requests from a number of other major foreign 
repositories, and I think in this process of sharing the 
digital world is networking. It involves collaboration because 
it is taking things which have been confined in one place and 
sharing them everywhere. I think it is very flattering to the 
Congress, as the creator and sustainers of this institution, 
that we are getting a great deal of interest from foreign 
governments, as well as from foreign repositories. We have 
developed--again I would stress this time with private money--
only the initial pilot, thanks to Ameritech, a series of 
collaborations; not only collaborations that now exist with 36 
institutions, but laying the groundwork for collaborative 
networking with all of the rich repositories in America to 
benefit from the experience that we not only have ourselves, 
but are sharing over the Internet.
    It is a very exciting prospect, and your question about 
sharing opens up a horizon that we see is very much in the 
future. The relatively modest increase we presently project in 
the 5-year plan that General Scott has given to you is based on 
the hope and the reasonable prospect that there is going to be 
a lot of collaborative activity.
    I cannot stress the extent to which other repositories 
depend upon us, just as the whole library system is basically 
sustained, in which we give a roughly $268 million annual 
subsidy by our assuming the central burden of cataloging. We 
are setting a standard, providing a platform on which others 
can build as well as ourselves.
    Mr. Taylor. I want to certainly commend you for your 
foresight in this area, and before we go into other questions, 
I would just point out as a student of history how fruitful all 
the work you have been doing would be for our public and 
private schools and our universities, both K through 12, and 
our universities, because having the access digitally, the 
resources you are bringing on with the agreements with Russia, 
Spain, and others, it is amazing the impact it can have both in 
increasing the content as well as the credibility of the 
materials. So I think it is a wonderful effort, and I certainly 
support it without question.
    I would recollect a moment ago you made a good 
presentation. I appreciated you mentioned that there is no 
other--you said there was institutions like West Point. I 
think, General Lamkin, there is no institution like West Point. 
There are similar institutions. We will have the record show 
that.

                      FORT MEADE STORAGE FACILITY

    Dr. Billington, there are five appropriation accounts that 
provide the funds for the Library of Congress. The 
Congressional Research Service, $75 million; salaries, $292 
million; Copyright, $38 million; Books for the Blind and 
Physically Handicapped, $49 million; Furniture and Furnishings, 
$6 million. I know you plan to move into the remote storage 
facility--I believe it is known as Module 1--at Fort Meade 
later on this year. To what extent will this begin to alleviate 
your storage problems in the Jefferson and Adams Buildings?
    Dr. Billington. It would have a very major impact, and 
perhaps I should refer this to General Scott, who has been 
working very closely with our plans in this area.
    General Scott. The short answer, Mr. Chairman, is that it 
is going to help a great deal. The opening of Fort Meade Module 
Number 1 will have a major impact in alleviating the shelving 
backlog we now have in the stacks of the Jefferson and the 
Adams Buildings. We have about 50,000 books that are currently 
stored on the floor in those buildings. And so, if we get the 
funding we are requesting for the short-term, staff can shift 
the collections that remain on Capitol Hill, freeing up 
critical shelf space.
    I realize I am going into great detail here, but the short 
answer is that if we get the funding to make the shift, then 
these books will be filed closer to the reading room where they 
are--they can be used and will free up a considerable space for 
us in both of those buildings.
    Mr. Taylor. There are funds to begin activities for Module 
2. I think it is a little over $707,000. That construction 
won't begin for at least a year or more. Why do we need to 
begin committing resources so soon? How much for Module 2?
    Dr. Billington. Let me just say, the major problem with 
Module 2 is that it deals with special collections which have 
to be treated and formatted in a different way.

               CULPEPER AUDIO-VISUAL CONSERVATION CENTER

    I just interject at this point before General Scott follows 
up on Module 2 to thank the committee particularly for its 
support of our National Audiovisual Conservation Center in 
Culpeper, Virginia. It is going to take care of the Library's 
massive audiovisual collections and is being supported by 
additional government matching funds provided in the fiscal 
2000 bill and by your support Mr. Chairman. This committee's 
support was a critical signal to the private donor supporting 
the acquisition of Culpeper. He is now proposing a much better 
way to renovate and quickly bring this facility on-line, in 
fact, 3 years earlier than our original plan.
    We asked the committee to also support the Architect of the 
Capitol's budget request of $5 million for the second 
installment of the matching government share and the new 
proposal, which will make the facility available not only 3 
years earlier, but also will reduce overall costs by $6.5 
million. The donor will assume the overwhelming bulk of the 
funding which will accelerate its completion. This continued 
support--and this does not appear in our budget, but in budget 
of the Architect of the Capitol--is essential at this crucial 
time and on the schedule, which we have included in our 5-year 
projection for you.
    I want to thank this committee very much for this. This 
facility is going to bring together a wonderful audiovisual 
record of America in the 20th century out of a large number of 
diverse places where they are not always stored under the best 
conditions. They will now be assembled in a much more useful 
manner for the Congress and for the Nation. I want to thank 
you.
    And now on Module 2, I turn the floor over to General 
Scott.
    General Scott. Mr. Chairman, Module 2 will primarily house 
the Library's nonbook, paper-based collections: manuscripts, 
prints, maps, sheet music.
    The reason we need to get started early is that there are 
three time-consuming tasks which have to be accomplished in 
order to have the materials ready to move into Module 2. The 
three tasks are first, Many of the collections planned for 
Module 2 are in the special collections and require 
conservation analysis and treatment before being moved to Fort 
Meade. Second, we need to place those materials in standardized 
containers to stack them properly in Module Number 2. And, 
third, the containers must be barcoded and entered into the 
collection control database so that they can be retrieved and 
controlled for inventory security purposes. In summary, we have 
to get started early to make sure that when the module is open 
all the materials are properly prepared, and housed.
    Mr. Taylor. Can you outline the security project--
collections of the security project, and will this complete the 
collections security plan?

                       COLLECTIONS SECURITY PLAN

    Dr. Billington. This will go a long way. Again, I will 
refer to General Scott for the details. I would just say there 
are really two parts to this. One is full and permanent funding 
for the police that was authorized, in supplemental for the 
physical security of the Capitol perimeter last year. Secondly, 
we need is to address the problem that was left out of the 
supplemental, and which has been a continuing preoccupation for 
the Library and for the various audits ever since the original 
GAO Audit, in 1991. That is collection security as 
distinguished from physical security.
    Creating an integrated library system, a pioneering effort 
of the library world which the Congress and this committee and 
the appropriations committees of both Houses supported, has 
made item--level tracking possible. This is a kind of inventory 
control that has never previously been physically feasible. We 
are beginning to take advantage of this enormously wonderful 
asset that the Congress has enabled us to create.
    Security is a very important and fundamental thing. This 
won't solve all the problems, but it will solve the police 
problem, and it will get us well on the way to developing the 
kind of security for the Library's collections, which is one of 
our continuing concerns that has not yet really been addressed 
in the previous security supplemental measure.
    General Scott. Just to follow up and add to Dr. 
Billington's explanation, our approved security plan, has four 
types of control that need to be implemented This includes: 
bibliographic, inventory, preservation and physical security 
controls. This request will significantly improve inventory 
control by addressing the weaknesses that were identified in 
the GAO audit. However, this will not complete the entire 
collection security plan. We still have some more work to do in 
that regard, but this will be a big help to fulfilling the 
requirements of gaining inventory control over the collections.
    Mr. Taylor. Mr. Pastor, do you have a question?
    Mr. Pastor. Remembering that GAO report, there were 
instances where people were walking into the Library and 
walking out with books and pages from books, and it was quite 
critical in that sense. When you say you have gone a long way 
in solving the problem of the collection, how do you define 
going a long way? Are we 10 percent, 20 percent? Where are we?
    General Scott. I would say we are about 75 percent towards 
completing the security plan. I would like to ask Ken Lopez, 
our Director of Security, to come and give you those kind of 
details.
    Mr. Pastor. I am not so much concerned about the police, 
but the inventory where people were walking out with the books 
or pieces of the books. That is my question.
    Dr. Billington. Before we get into as much detail as you 
would like, and we will certainly submit a full accounting of 
this for the record, let me just say we have gone a long way in 
dealing with that. This committee has supported us in 
establishing perimeter controls, closing the stacks to all but 
essential Library personnel and those serving congressional 
needs. We have created an interior and exterior perimeter 
security, so a great deal has been done. There are cameras. We 
have established clear sight lines in, reading rooms. A lot of 
things have been done, and Mr. Lopez, our Director of Security, 
will inventory them.
    [Question from Chairman Taylor and response follows:]

    Question. Please submit for the record, a full accounting of the 
collections security project.
    Response. Through its focus on collections security, the Library 
has closed all fifteen recommendations made by the General Accounting 
Office in its 1995 audit of the collections.
    The October 1997 Collection Security Plan, approved by the 
Congress, focused on the physical security controls used to protect the 
collections (preservation, bibliographic and inventory controls, the 
other controls used by the Library to protect the collections, are 
being integrated into the same overall collections security framework).
    Physical security of the collections includes electronic tagging of 
books and installation of theft detection devices at building exits; 
secured receiving, in-process working, and holding areas (video 
surveillance, intrusion detection and access control systems); reader 
registration reading room security (cameras, guards, and personal 
belongings restrictions); and secure vaults or cages for high risk 
collections. At the end of fiscal 2000 the Library will have completed 
75 percent of the Plan's physical security requirements. The remaining 
physical security controls will be implemented by the end of fiscal 
2004, if Congress supports the fiscal 2001-2004 requests in this area 
from both the Library and Architect of the Capitol.
    Bibliographic and Inventory control capabilities were greatly 
enhanced through the acquisition and implementation of the Integrated 
Library System (ILS). In fiscal 2001, the Library is requesting funding 
to begin to capitalize on this excellent tool for effective inventory 
control and tracking. Areas the Library has identified as critical for 
inventory control are: acquisitions tracking (tracking monographs from 
the point of receipt by immediately tagging them and creating item 
records); transit teams to ensure the safe transit and effective 
tracking of each item as it moves through the processing cycle; serials 
claiming (ensuring that the Library acquires in a timely manner that 
which it expects to receive and has paid for); and physical inventory 
of the collections, the cornerstone of effective inventory control.
    In conjunction with the inventory program, the Library has also 
initiated the development of measurements to track the Library's 
progress in reducing the risk of theft and mutilation to the 
collections. The Library has initiated random sampling studies starting 
in the special collections. This project is producing credible 
baselines of theft, mutilation, and preservation concerns. Measurements 
derived from the ILS tracking capabilities and random sampling projects 
will yield quantitative figures on the extent of theft and mutilation 
over time.
    The Library is on track to complete the arrearage project on the 
modified schedule approved by Congress last year. The Library will 
complete print materials by 2004 and 80% (the original target) of 
special collections materials by 2007.
    Preservation controls ensure that the collection will be available 
for future generations. In fiscal 2001, the Library is requesting 
funding to continue the highly successful deacidification program, and 
to prepare special collections items for the safe transfer to Ft. 
Meade, and to make the maximum use of Ft. Meade storage space.
    Providing access to the Library's collections inevitably puts them 
at risk. However the collections exist to be used and Library 
management accepts the responsibility of mitigating risk to the 
collections at the same time that it fulfills its mission of service to 
Congress and the nation.

    Dr. Billington. The question of collections security also 
involves full and accurate knowledge of item location--from the 
time something enters the Library, to where it is being used, 
and by whom. Having integrated systems, which we have now been 
able to create, provides an added level of item level control 
which the Library has never had before.
    Mr. Lopez, I turn it over to you.
    Mr. Pastor. Just one question. The inventory you have, how 
many books or collections do we have and how many of those are 
in the system that makes them more secure?
    Mr. Lopez. There are close to 119 million items in the 
inventory.
    Dr. Billington. Excuse me. On that question, maybe Mr. 
Tabb, Associate Librarian for Library Services should respond. 
If we are talking about the nature of the collections and the 
size of the collections, Mr. Tabb might be useful, but go 
ahead, and perhaps Mr. Tabb will add as well.
    Mr. Lopez. As I was indicating----
    Mr. Pastor. Sorry to interrupt.
    Mr. Lopez [continuing]. We have a number of new controls 
that are in place since we implemented this plan in 1997. We 
know that we are having success in improving our collection 
security as evidenced by the incidents that we are detecting 
such as attempted removals and the discovery of damaged pages. 
Now, a lot of the damaged pages have been discovered as we have 
increased our marking and tagging program. For instance, in 
1999, we had 35 reported incidents of attempted removals and 
mutilation. Each incident was investigated. Many of those 
attempted removals were determined to be inadvertent, but it 
shows us that the systems and the controls we have in place 
are, in fact, working.
    Mr. Pastor. And using the 35 that you detected, how many 
more do you think you didn't detect? I am sure you have a 
ballpark figure.
    Mr. Lopez. We have to go on reported information. But those 
numbers have dropped down, too, so I believe our controls are 
working very effectively.
    Dr. Billington. Using item-level control will enable us to 
answer that question with great precision in the future, to 
keep better track. I think it is good, but we must be as 
precise and comprehensive as possible.
    Mr. Pastor. As I recall the GAO report, that was one of the 
biggest problems that you had, people in there checking out 
books or whatever the process.
    Mr. Tabb. The open stack access.
    Mr. Pastor. And we were losing books, and it wasn't just 
books, you were losing pages of books, and, in fact, there was 
much to-do about what is the role of the Library of Congress; 
are we going to move it to Kansas or wherever they wanted to 
move it, as I recall. We said, no, we have confidence in the 
Library of Congress.
    What I am trying to do is get a feeling of how we have 
progressed since 1997. We are now almost 3 years away from 
that. Where are we in terms of making sure that the Library is 
100 percent secure, or even that if is realistic? Maybe it is 
only 95 percent, but where are we, because 3 years have gone 
by, and how many books have we lost, and how many pages have 
been taken beyond the 35 that have been reported or detected? I 
guess that is my question. How does this budget help you or 
hurt you?
    Mr. Lopez. The inventory control system that we are asking 
for is going to play a large part in tracking items. One of the 
past difficulties in early detection of losses was not having a 
valid inventory baseline. This inventory System will give us 
that capability. In the meantime, we are doing such things as 
random sampling, and statistical methods in determining in 
specific collections the amounts of loss that we may be 
incurring.
    Mr. Pastor. I guess I initially asked the question of the 
millions of items, how many are already inventory, and how many 
are part of the system?
    Mr. Taylor. He is asking a question I would share--there is 
two questions: One, what is the extent of the inventory being 
studied now; and then the next question is about the 
protection, when it will be 100 percent protected, and I guess 
it is----
    Mr. Tabb. We have 119 million items, but until we got the 
integrated library system, which we implemented last October, 
we didn't have one system where all our records could be 
brought together so we could have the kind of control we need. 
One of the areas which is still a gap for which we are 
requesting funding this year is the ability to get barcodes on 
more items the minute they come into the Library. This was one 
of the things that was mentioned in the GAO report.
    Mr. Pastor. As you receive something, it gets barcoded.
    Mr. Tabb. Exactly, and use that barcode all the way through 
the system, using the integrated library system. When it comes 
through the door of the Library of Congress, the first thing to 
do is get a barcode on it so that you know it is Library of 
Congress property, and use that barcode for all the functions 
that occur downstream. That is one of our major requests.
    Mr. Pastor. How many have we done since October to date, 
and how long do you anticipate barcoding the collection you 
already have in place; not the new ones coming in, but the ones 
you already have as part of the inventory?
    Mr. Tabb. All of the electronic bibliographic records that 
we have, of what we own at the Library, were put in in October. 
We are still not at the point where we can put on the barcodes 
and enter new records as items are coming in as quickly as we 
need to because we don't have the funds to take full advantage 
of the ILS.
    Mr. Taylor. Are you saying 119 million items have been 
barcoded or identified in such a way that you can----
    Mr. Tabb. No. We still have more marking and tagging to do.
    Mr. Taylor. How can we help? Is there any way we can 
facilitate that?
    Mr. Tabb. The biggest help would be to fund the positions 
that we requested here so that we are capitalizing on the ILS. 
It is about 45 positions, which would help us with the item 
tracking, with the moving of items, with securing control at 
the point they entered the Library and getting them on the 
shelf so that we can start a new inventory. Back in the 1970s, 
the Congress us gave money for a hand--manual-type inventory, 
which was almost completely finished in 1997. At that point we 
decided to stop where we were because we knew we would need to 
inventory again. So now we will have an ability to use the ILS 
when we go back and do a complete new inventory using the 
automated system. That new inventory will also help us a great 
deal to establish even more firmly the kind of baseline we need 
because we will know whether something was there in 1990, but 
does not appear--in 2001--we will have a much better handle on 
this whole inventory situation.
    But with the volume of collections we have, there is no way 
to inventory on an annual basis. We had to have this ILS system 
in place before we could truly get the kind of inventory 
control that is required.
    Mr. Pastor. Given your budget request, now, what timeline 
do you have to get the security in place that would make us as 
secure as we can get?
    Mr. Lopez. Well, I think that we would follow up on the 
implementation of the inventory control process. In the 
meantime, we are doing a lot of things outside the inventory 
control process, but this piece is important.
    Mr. Pastor. I understand the importance. I just want to 
know a timeline. Three years from now? Four years from now? 
Tomorrow?
    Mr. Lopez. We are projecting that within 4 years we will 
have implemented the plan as it exists right now, but the plan 
will expand as we add inventory and preservation controls. So 
the plan is somewhat dynamic in those control areas that we 
consider part of collection security. You may be referring to 
perhaps the physical security controls.
    Mr. Pastor. What I am referring to, when would you get to 
the point where no book is taken? Once somebody who is in 
there, whoever uses the book, and/or if that person turns it 
back in to the librarian, that there is a way of detecting that 
nothing is missing?
    Mr. Tabb. We think we are already there in large part 
because of the measures we have taken. But, in fact, the 
reqeuest here is for an 8-year program to complete the new 
inventory. This is the level we are requesting. So that is the 
point at which we would know how successful we have been on the 
inventory control issue.
    Mr. Taylor. Mr. Peterson, do you have a question?
    Mr. Peterson. In talking about the technical items here, I 
want to mention what I think is most important, and that is our 
brain trust. I have an equal background in business of about 20 
years, 20 something years in State government, and this is my 
fourth year in Congress. At State level I was always critical 
that we were the training grounds; bringing people in, training 
them, and watching them go out to work for everybody else. I 
always tried to get some people to stay because of their 
institutional memory.
    I was reading this document. It talks about the turnover of 
Congress, and that staff tenure is also undergoing a 
significant decline, according to the Congressional Management 
Foundation. In 1988, House staffers averaged 2.7 years of 
experience in their current positions. I am bucking that trend 
because I have--my chief of staff was here with Moses--only one 
person that is under that mean of 2.7 years of experience in 
the job they are doing, with the issues they are dealing with. 
But I purposely designed my staff that way because I think 
people are the most important asset we have. Also it appears a 
figure that is even worse, an even more dramatic indication of 
the acceleration in turnover, is the increased proportion of 
House staff with less than 1 year's experience. It has gone 
from 8 percent in 1996 to 29 percent in 1998, and God knows 
where it is today. That is a scary figure when a third of the 
staff of Congress has been here less than a year. Look around 
the halls, it is obvious.
    I understand that we can't govern what Congress does, or 
what individual Members do. That is their choice. However, I am 
fighting the trend by trying to have experienced people work 
for me, people who that know what they are doing. Are CRS, and 
the Library of Congress competing for the best and brightest 
young people coming out today, with the economy as hot as it is 
and so many business opportunities out there? There are young 
people today leaving college that have multitudes of offers, 
but are we getting some of the best and brightest to come in 
here and build the brain trust that serves Congress?

                          Recruitment Efforts

    Dr. Billington. Well, I will call on Director of the 
Congressional Research Service Dan Mulhollan to talk about the 
aggressive efforts that CRS is making to do just that. One of 
the most important achievements of the National Digital Library 
experiment has been to assemble a group of relatively young 
people to work on this who have come together, worked together, 
and are part of a growing network who have really produced 
something quite remarkable. One of the most important reasons 
that we come to you with this request for an increase in FTEs 
is, if we are not able to retain these people, they will move 
on. They could already command much greater salaries. They have 
the idealism and the dedication to this corporate enterprise 
which is their creation. I think we can hold on to most of them 
despite the fact that we cannot compete with salaries anything 
like what most of them could command in the private sector.
    Moreover, if we don't keep these people, they are not 
replaceable, because what they bring is not only the skill and 
dedication that so many people do who work for the government, 
but they also have a knowledge not only of the technology, but 
of the Library, of how you get the champagne out of the bottle 
into the six-pack, if you would like. How do you use these 
physically enormous collections, and put the expertise of the 
curators who live with them onto the Web.
    Keeping the brain trusts that we have, and the dedication 
of the staff that we have is at the heart of why we are making 
this significant request for your support. If we don't have it, 
we will lose many of them. Considering the fact that we can't 
compete with the private sector, I think the dedication and the 
quality of the people we have--and thanks to the excellent work 
being done by a new Director of Human Resources, we are 
accelerating the hiring process so that we can bring new people 
in more rapidly.
    I think the prospects are good, and the reason they are 
good is because this committee and the Congress has supported 
the Library.
    Let me just add, because there does seem to be a certain 
amount of turnover in the staffing available of the Congress, 
the pooled talent concentrated in CRS, has increased. They 
represent a cumulative body not only of expertise, but of 
experience knowing what the Congress wants and how to deliver. 
This is one of my prime concerns, and another reason for our 
succession planning, because we are facing an extraordinary 
loss of people unless the intangibles of what is in their 
brain--that can't be manufactured in any academic institution 
or any other context except in the real-life context of serving 
the Congress--unless that intangible is passed on in the 
apprentice/master relationship. We are going to lose the brain 
trust we already have, or we are not going to be able to 
attract the quality of people that we have. It is a sort of 
contagion of dedication that develops among those who are 
dedicated to this task, and it is very important that it be 
extended.
    This committee has been very good in supporting CRS last 
year, but now it also has to be extended to the curators in 
Library Services on whom those analysts very much depend. I 
will turn it over to the CRS Director Mulhollan.
    Mr. Mulhollan. Thank you. You got it right, Mr. Peterson. 
There is a real challenge for the public service, to attract 
the best and brightest of the country to come to work for the 
Congress, for you, and that is what CRS is making every effort 
to do. They can get higher salaries elsewhere.
    There was a survey by a colleague in political science, 
Paul Light, last year, of a thousand public administration 
graduates. It found that graduates are twice as likely to go to 
the private nonprofit sector rather than to government. And so 
that is the challenge we face.
    Also, faculties create cynicism with regard to the Congress 
itself. The best thing we have is our graduate recruit and law 
recruit programs, because of your support. We are extremely 
grateful for your support to get basically the best the country 
can offer to come to work with you as shared staff, to help 
write the country's laws. That still can compel people, to get 
them to work for the Congress. That is the challenge we face. 
That is why this budget is so important. I am extremely 
grateful for this committee's support in the past and ask for 
the support again for the funding for 15 positions, including 
funding that was lost because of the budget cap, to continue 
this effort.
    In my submission to the record that you quoted, I would 
like to note examples of three of the graduate recruits that 
have just come up. They are terrific young people, I would like 
to submit a little brief description.
    I really am encouraged about what was found when we went to 
49 graduate schools across the country. More than 40 CRS staff 
have particupated in these recruitment trips. Each time we go 
to a professional meeting or any other meeting, we try and talk 
with the local graduate programs there and introduce this 
program and bring them to Washington for the summer. The 
Graduate Recruit Program has worked to get them early on, 
before they have completed their degrees, along with the Law 
Recruit Program and also Presidential Management Intern 
Program. We are drawing them because we work with you.
    I want to underscore the importance of this. This is our 
future as an organization to be able to support you. As I 
mentioned last year, the average tenure in CRS is 18 years 
plus, over 18 years, as opposed to the shorter period of time. 
I think with whether it was the discussion of the resolution in 
Kosovo to the impeachment debate, the institutional memory of 
CRS has served the Congress well.
    Mr. Peterson. Is there any way Congress could be helpful in 
your recruitment?
    Mr. Mulhollan. As a matter of fact, yes, to be able to, in 
fact, talk to your constituents. When you go to your colleges 
and universities, mention that there is, in fact, a legislative 
civil service. One of the challenges we have particularly with 
minorities, African Americans, Hispanics, to attract them to 
graduate schools, and one of the things we are doing in 
outreach is try to get private assistance to get them to come 
in to be exposed to what graduate work can do.
    One of our problems in getting a greater diversity within 
CRS, is getting those young people to get into graduate school 
itself. It would be those kinds of things. Calling people to 
public service again.
    Mr. Peterson. Is there any effort to bring people--I see 
society really changing, and people have a multitude of 
careers. They don't do the same thing their whole life anymore. 
They don't go to a company and work there and retire there. 
People change careers. As for couples, when both are working, 
one may have to change, and so the other, he or she, has to 
find a different position. There are people approaching midlife 
who have huge experience factors, but are looking for new 
challenges. There are people who sell their company, or their 
company goes down, and you have all this talent out there. And 
many times there is even burnout in the business world. Do we 
have any method of bringing these people in, or does our pay 
scale always start out with the college graduate? Do we have 
any way of bringing in people with 20 years of experience in a 
certain field?
    Mr. Mulhollan. There is a mix. We have a resource 
management framework. For instance, our senior person in 
military aviation left just recently. We had to bring in 
someone at a more midcareer level in order to address that. As 
you know, we have just completed our renewal of our survey for 
retirement. We did it in 1996, and now we did it at the end of 
1999 to make sure we are up to date, and we identified those 
subject areas most at risk. For instance, again, if you had six 
natural resources specialists, and three of the six are going 
to be retiring by 2002, then we are going to identify that 
position for entry level hiring. But if there is going to be 
someone who is critical, and we don't have backup on an issue, 
then we do have to, in fact, go to a more senior position.
    But our emphasis and our commitment is trying to get people 
at the entry level in order to build careers. So far we have 
been successful in retaining people. Their imaginations are 
caught in working for the Congress.
    Mr. Peterson. Thank you.
    Mr. Mulhollan. Thank you.
    Mr. Taylor. Especially in the digital area we just started, 
we want to work them so hard and make it so interesting and 
make it so necessary for them, and they realize how necessary 
that is, that they don't want to leave. But we appreciate your 
dedication.
    Mr. Pastor. Just one more question. Last year we were in 
the middle of talking about getting more employees to go on the 
Metro, and the Library of Congress was one of the pilot sites, 
I guess. Have you had a chance to assess it, looked at it?

                            Transit Subsidy

    Dr. Billington. We have instituted this plan. I might add 
that the costs, which are quite considerable, are the 
equivalent of about 10 FTEs, as I recall. But in October 1999, 
we implemented a so-called Metro Check program through the 
Department of Transportation. I think it has been very well 
received by the employees. Over 1,900 staff participate. Each 
of them receive $21 month. If you add that up, it adds up to a 
fair amount of money. We have been directed to implement the 
program comparable to the House. That is what our direction 
was, and we will continue, of course, to follow the House 
program and will increase the monthly subsidy if so directed by 
the committee.
    Mr. Pastor. Good time to bring it out.
    Dr. Billington. I think it has been successful and very 
well received.
    Mr. Pastor. But the employees have participated?
    Dr. Billington. About 1,900 employees started in October, 
maybe it has gone up since then, but it has been made available 
to all employees. It has been very well received by perhaps 
everybody except our people who try to figure out where the 
money is coming from.
    Mr. Pastor. I am sure your human resources person tells you 
the morale is high, you are doing well.
    Dr. Billington. I think our morale has also been improved 
by our Director of Human Resources, so I think the combination 
of those two things has certainly improved morale.

             Books for the Blind and Physically Handicapped

    Mr. Taylor. Dr. Billington, how will the Books for the 
Blind Program change to adapt to the Internet and the other new 
technologies in the next few years?
    Dr. Billington. In general, there has been movement in the 
Braille field into the digital area. There will be a report out 
in September about moving cassette production from the analog 
into the digital area. This, of course, remains one of the 
great services done by the Library through its network, 
distributing 22 million free items annually. But Kurt Cylke, 
our distinguished Director, can talk in more detail to this 
subject.
    Mr. Cylke. We are making every effort to work towards a 
digital future. We have taken the tack to start designing a 
standard for the audio book, and are working closely with the 
commercial e-book community. We anticipate that this, which is 
being done through the National Information Standards 
Organization, will be ready for public comment in September.
    We are projecting approximately a 5- to 7-year lead before 
a change is made. One of the main reasons for this is the 
amount of money that will be required. To make a full change 
will require, if you are prepared for this, $100 million. That 
is a significant investment. We have a piece of that already in 
our budget, so we will not be asking for the full $100 million. 
We would probably ask for half that amount in two increments. 
In order to come to you in a reasonable way and say that our 
request is based on fact, we have established a very carefully 
staged development process. We are 3 years into it. We have, 
before we will be talking to you directly, another 4 years.
    What you read about in the press is an effort that we have 
gone into in the Braille area where we have approximately 3,000 
Braille books up on the Web which are accessible to eligible 
users. Users read the books--rather than in the cumbersome, 
bulky, multivolume Braille sets--on devices smaller than an 
average print book actually, and find that they may download 
it, keep it, read it as you and I can in airport terminals and 
so forth. It is a successful digital project. This work is 
going on with the cooperation of the blind community, the 
National Federation of the Blind and the American Council of 
the Blind. It is a harmonious project.
    We are working toward an audio digital program. We will be 
coming to you for support for transition, but not for a few 
years yet.
    Mr. Taylor. Dr. Billington, as you mentioned a moment ago, 
this is the beginning of our 200th anniversary of the Library. 
We will be celebrating that, the Congress will. I first came on 
this committee as a Minority Member in 1993 on the 
subcommittee. I want to thank the staff and especially you, Dr. 
Billington, because the respect that you are shown all over the 
world lies not only on your administrative prowess. And we talk 
about the security and the other items that we talked about a 
moment ago, and we have read in other reports the next largest 
library to the Library of Congress is only a third the size of 
the Library of Congress, probably less than that, and certainly 
does need again to offer the access and the information that 
both the government and the people of the country offer. And 
they certainly respect your knowledge and the exceptional 
leadership you have shown all over the world in the desire to 
make knowledge better known, and they respect your character. 
And we are especially thankful that you have been at the head 
of the Library, and we will enjoy celebrating this 200th 
anniversary with you and your staff and Members of Congress and 
the entire country. We appreciate your coming forward today.
    For the record, insert all reprogramming documents and any 
other committee approval actions. Today's hearing is now 
adjourned. We will reconvene on Tuesday, February 1, at 9:30.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    [Questions for the record from Representative Hoyer to the 
Librarian of Congress:]

    I have introduced bipartisan legislation (H.R. 3379) to establish a 
sound-recording preservation program in the Library. Under my bill, 
amounts raised by the private sector for this purpose would be matched, 
up to $500,000, by appropriations. My bill is modeled on a successful 
film-preservation program, which also contemplates matching 
appropriations. I understand that in fiscal year 2000, the first year 
in which the film program was authorized for matching appropriations, 
the Library did not receive the matching funds, and that you have not 
even requested them this year.
    Question. Can you comment on the effect the Congress' decision not 
to fund the film program has had on the Library, and what the effect 
would be if Congress passes my sound-recording bill and similarly 
declines to fund it?
    Answer. Last year, the $250,000, directed by Congress (without 
funding) for the National Film Preservation Foundation cost the Library 
approximately five (5) FTEs in Library Services. If the new proposal 
for a sound-recording preservation program were similarly directed but 
not funded--it would be twice as devastating: it would cost the Library 
another ten (10) FTEs, for a net loss of fifteen (15) FTEs per year. 
These specific reductions in FTEs would compound the problems caused by 
the overall reduction of 14% (626 FTEs) between fiscal years 1992 and 
1999--caused primarily but unfunded mandatory pay and price level 
costs. Overall, another reduction in total Library FTEs limits our 
ability to achieve and maintain arrearage reduction goals and restricts 
our capacity to accomplish our mission and critical security 
initiatives.
    The Conference Report on H.R. 1905, the fiscal 2000 Legislative 
Appropriations Act, directed the Architect to provide the Librarian 
with a ``reasonable, effective and efficient plan of action . . . to 
correct the hazards and deficiencies'' identified by the Librarian with 
respect to fire safety in the aftermath of the April 30, 1999, fire in 
the Madison Building.
    Question. Do you agree with the plan provided by the Architect?
    Answer. No, the Library does not agree with the plan submitted by 
the Architect. During the formulation of the plan, the Library stated 
to the Architect that we did not approve of the plan because it was 
insufficient. The plan is vague, priorities are not consistent with our 
wishes, and target completion dates are not being met. The Library 
recommended to the Architect that the plan be modified to include: 
milestone and completion dates, qualification of the work to be done; 
an assessment of the risk to employees, patrons and collections; 
funding request dates; progress reports; and confirmation that the plan 
does not exceed the Architect's ability to manage multiple projects.

    [Question for the record from Representative Hoyer to 
Daniel P. Mulhollan, Director, Congressional Research Service:]

    Last year you stated you views on pending legislation to make CRS 
products accessible to the public over the Internet.
    Question. What adverse effects would there be on the Service or its 
budget if Congress created and operated a web site to index CRS 
products that have already been placed on the web by Members or 
committees, and which might be placed on the web in the future, in 
order to enhance public ability to access those products?
    Answer. The suggested Web index appears to alleviate many, although 
not all, of the policy, legal and cost concerns raised by pending 
legislative proposals intended to further the general public 
dissemination of CRS products. Following is a review of the major 
issues raised by the proposal.
    Policy Issues. The proposal calls for an index of CRS products 
which have been previously placed on the Web by Members and committees. 
Given that the index would be made available to the general public on 
the Web site developed and operated by Congress, it is consistent with 
the manner in which CRS products have been historically distributed to 
the public (selectively, by congressional offices) and it preserves the 
constitutional role of Members in informing their constituents. The 
proposed index does not present the same institutional difficulties as 
the pending bills (H.R. 654 and S. 393) because it preserves the 
principle of selective dissemination and the role of CRS as an 
extension of congressional staff. Congress might wish to consider 
expanding the index to include selected products prepared by other 
congressional entities to further emphasize CRS' mission as a 
legislative support agency serving the Congress, rather than the 
public.
    Legal Issues. With regard to pending legislation intended to 
increase the availability of CRS products to the public, CRS has raised 
several legal concerns related to speech or debate clause immunity of 
the Constitution. These concerns are significantly reduced by the 
proposed index of CRS products. Because the proposed index to CRS 
products would not be operated by CRS, the Service would not be 
directly involved in the constitutionally unprotected informing 
function and, accordingly, would not be liable in any suit predicated 
on the public dissemination of the products. Under the proposal, CRS 
would continue to provide direct Service only to Congress (not the 
public). Therefore, the proposal would not jeopardize the judicial and 
administrative perception of the Service's functions as legislative 
ones within the scope of constitutional speech or debate clause 
immunity. This will permit CRS to continue to invoke such immunity 
where necessary to protect the confidentiality of its work for Members 
and committees.
    Cost Issues. The pending bills contemplate that CRS would revise, 
edit and redact its products before making them available to the 
public. It would also require a 30-day delay before any product can 
become directly accessible to the public. These provisions create the 
potential for administrative complexity and substantial expense for CRS 
in their administration. As the proposed index does not appear to 
include these requirements, it would not generate the same adverse 
effects.
    As I advised the Subcommittee last year, the Congressional Budget 
Office has estimated the pending legislation would involve annual 
implementation costs for CRS ranging between $2,000,000 and $7,000,000. 
Much of this expense would arise from a shift in the focus and utility 
of CRS products that were subject to wholesale public dissemination. It 
could also result in a increase in congressional requests for tailored, 
confidential memoranda that are provided only to the requesting office 
and hence, much more costly to prepare on a per units basis. Because 
the index would be based on selective rather than wholesale 
dissemination, it may be expected that its effects on CRS product 
focus, and the resulting cost increase, would be significantly less 
than under the pending bills. Without knowing the specific details of 
the index proposal, it is difficult to determine precise cost 
estimates. In order to limit the immediate budgetary impact on CRS, 
Congress might wish to consider controlling the volume of public 
dissemination, e.g., by limiting the index to CRS products on active 
legislative issues (a category which currently includes approximately 
500 CRS products).
                                         Tuesday, February 1, 2000.

                        JOINT ECONOMIC COMMITTEE

                               WITNESSES

HON. JIM SAXTON, VICE CHAIRMAN, JOINT ECONOMIC COMMITTEE
CHRISTOPHER FRENZE, CHIEF ECONOMIST TO THE VICE CHAIRMAN
    Mr. Taylor. The subcommittee will come to order. We are 
pleased to welcome Congressman Jim Saxton, a good friend, Vice 
Chairman of the Joint Economic Committee. The Chairman, Senator 
Connie Mack, cannot be with us today. Vice Chairman Saxton's 
staff director is also here, Chris Frenze. The budget 
justification material has been printed in part I and has been 
distributed to the members.
    Mr. Chairman, your letter reflects a request of $3.3 
million. That is an increase of $115,000 above the current 
level. Your staffing level will stay at 38, I believe.
    All of the prepared statements will be inserted in the 
hearing record. If you have no objection, we will have a few 
questions after brief comments.
    [The prepared statement follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                 Budget Request and Committee Research

    Mr. Saxton. Thank you, Mr. Chairman. It is a pleasure to be 
here with you again this year and I do have a lengthy 
statement, which I will be happy to put in the record and I 
will just take a minute to summarize it.
    Mr. Chairman, it is a pleasure to be here to ask for your 
support for our budget request for fiscal year 2001 for the 
Joint Economic Committee (JEC). As you know, the JEC is 
essentially Congress' own in-house think-tank examining a wide 
variety of economic and related issues. This budget request 
will support the JEC's focus on quality research and economic 
analysis required by Congress and the public. The committee's 
research is widely-cited and our website, incidentally, has 
been rated as one of the top three committee websites on 
Capitol Hill by the Nonpartisan Congressional Management 
Foundation.
    Committee research covers a wide variety of subjects. For 
the last couple of years, we have focused on two issues in 
particular. One is the Fed's practice of monetary policy and 
inflation targeting, which obviously has been a very, very 
successful policy carried out by the Fed. It is, I believe, 
largely through our studies, analyses, and reports that Members 
of Congress have gained some insight into this Fed policy.
    The other area that we have spent an enormous amount of 
time dealing with is the International Monetary Fund (IMF), its 
policies, how the IMF works, and we have, I might add, made 
some very significant suggestions and have brought about a 
number of changes with regard to the way the International 
Monetary Fund operates inasmuch as the United States Treasury 
provides something in the neighborhood of 26 percent of their 
usable funds.
    So those are the things that we have been involved in. As 
you have correctly pointed out, we are requesting a cost of 
living increase of 3.6 percent, which amounts to $115,000. We 
think it is a reasonable request given the wide scope of 
economic issues that we deal with. So I will stop there and ask 
if you have any comments or questions, and I will be happy to 
try to respond.
    Mr. Taylor. If we have a tightness in budgets this year, 
and we may find Congress is that way, do you have any places 
that we can save in your budget at all?
    Mr. Saxton. Mr. Chairman, I am sure you get the same answer 
to that question each time you ask it. But let me just point 
out that in 1992, the Joint Economic Committee budget was about 
$4 million. By 1998, we had taken a cut to $2.7 million. And we 
have grown just slightly in fiscal year 1999 and 2000 so that 
today and fiscal year 2000 our budget is $3.2 million, down 
from what it was just 8 years before of a little over 4 
million. We have made staff adjustments. We have reduced staff, 
and we believe that during the mid-90's, we did a significant 
amount of cost cutting and saving and at this point without 
this kind of an increase, we feel that we will be literally 
going backwards further than we can hope to a point where we 
will have a difficult time doing an effective job. So it is not 
that we have had a growing budget over the years. As a matter 
of fact, we are a full 25 percent less now than we were 8 years 
ago and we believe that we need this increase.
    Mr. Taylor. Let me go beyond the budget question directly 
and ask you in your committee's investigation of the economy 
itself, do you think with the possible interest rates coming, 
are we going to have a slowdown that would impact the Nation's 
economy in a way that would impact our overall budget? And that 
is more of a national question rather than a budget question 
but will impact us as an appropriations committee.
    Mr. Saxton. We will know more about increasing in a few 
hours as the FOMC (Federal Open Market Commission) meets today. 
The experts are telling us to expect a 25 basis point increase 
in Fed funds rate. The increases that we have had heretofore in 
recent months have not had a negative impact on the economy, 
and so we can look back at those increases and say that we hope 
that any future increases have the same minimal or negligible 
effect, but beyond that it is hard to say exactly what the 
effects will be.
    Mr. Taylor. Mr. Pastor.
    Mr. Pastor. First of all, I welcome the Vice Chairman. I 
did have a question since you are here with the IMF, what 
happened this past year with the Russians and the money that 
was lent to them? Does your committee have oversight on that or 
do you get briefed on it so you have an idea what is happening 
in that particular case?
    Mr. Saxton. As a matter of fact, the question you asked is 
a good one and it is a very difficult question to answer in 
terms of the specifics of what happened to the money. As a 
matter of fact, we have studied it, and during the third week 
in November, I went to Russia with a CODEL to address this as 
one of the major questions. It is without debate that the IMF 
monies were not subject to meaningful IMF accounting controls.
    From a U.S. point of view, we look at the lack of controls 
on the general budgetary situation in Russia, and from a 
Russian point of view, they like to contend that much of that 
money was filtered back into the American banking system. And 
so this is one of the weaknesses of the IMF. The fact of the 
matter is the IMF has little or no control over the monies that 
are sent overseas and therefore one of the reforms that we have 
suggested, which has not been implemented to date, would 
rectify that situation. There are a couple of institutional 
problems that the IMF has. One is that there is a huge demand 
for IMF funds among countries that are having economic problems 
for two reasons. Number one, the interest rates are subsidized. 
In other words, the interest rates are very low. And so if any 
government or institutions in other countries can get their 
hands on low interest rate loans, it is good for them.
    The second is that the IMF used to loan for relatively 
short periods of time for balance of payments reasons. In 
recent years, long-term loans have been the norm for 
developmental purposes. So it is a different point of view and 
a different reason for making the loans.
    The reforms that we have suggested would do away with 
subsidized loans so that other countries would borrow at market 
rates and it would rectify the long-term loan issue by 
providing that loans be made on short-term purposes.
    Mr. Pastor. Thank you.
    Mr. Taylor. The justification for lending in Russia is at 
least our banks profited, which means it is an ill wind that 
blows no one good. Thank you. I appreciate your presentations 
today.
    Mr. Peterson, do you have a question for Mr. Saxton?
    Mr. Peterson. No, I don't. I just got here. Sorry.
    Mr. Taylor. Mr. Hoyer.
    Mr. Hoyer. I have no questions.
    Mr. Taylor. Thank you, Mr. Chairman. We appreciate your 
presentation and we will be talking with you in the future.
                                         Tuesday, February 1, 2000.

                       GOVERNMENT PRINTING OFFICE

                               WITNESSES

MICHAEL F. DiMARIO, PUBLIC PRINTER
ROBERT T. MANSKER, DEPUTY PUBLIC PRINTER
FRANCIS J. BUCKLEY, JR., SUPERINTENDENT OF DOCUMENTS
BILL GUY, BUDGET OFFICER
CHARLES C. COOK, SUPERINTENDENT, CONGRESSIONAL PRINTING MANAGEMENT 
    DIVISION
    Mr. Taylor. We will now consider the fiscal year 2001 
budget from the Government Printing Office. We want to welcome 
Mr. Michael DiMario, the Public Printer. The 2001 budget 
request totals $121.3 million. There are three appropriation 
accounts involved. The congressional printing and binding 
appropriation is a little over $80 million. The superintendent 
of documents program, $34.5 million, and the revolving fund $6 
million.
    Before proceeding, Mr. Public Printer, would you like to 
introduce your staff for us?
    Mr. DiMario. Thank you, Mr. Chairman, I certainly would. To 
my immediate right, Mr. Chairman, is Francis Buckley, the 
Superintendent of Documents. To his right is Bob Mansker, my 
deputy, and behind me is Mr. Bill Guy, our Budget Officer, and 
we also have in the audience Mr. Charles Cook, who is 
Superintendent of our Congressional Printing Management 
Division.

                  PUBLIC PRINTER'S PREPARED STATEMENT

    Mr. Taylor. We have your prepared statement. It will be 
placed in the record. Do you have any comments you would like 
to make?
    [The prepared statement follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. DiMario. I think you have summarized our budget request 
in your opening remarks. I can proceed on with that. An item 
that wasn't mentioned is that we are requesting a statutory 
ceiling on our FTEs of 3,285. If you recall last year, I had 
raised a concern about eliminating the statutory ceiling and 
the committee's judgment and the Congress' was to continue that 
statutory limitation. So we have in keeping with that proposed 
the limitation ourself, which is a number smaller than you had 
imposed last year. But I would just point that out, that we 
have reduced employment levels by 35 percent over the past 
decade and by more than 33 percent since I took office in 1993. 
This FTE level that we are requesting will allow us to hire 
essential personnel. But we are still operating at a tight 
level.
    We have also requested two legislative changes to title 44 
as part of our appropriation submission and those are contained 
in the prepared statement. One pertains to the salary of the 
Public Printer and the Deputy Public Printer and is a request 
to keep the salary at a level consistent with other 
congressional support agency personnel. The other change 
requested is to a provision in title 44 that deals with the 
ability of the superintendent to price documents at a level 
that would allow greater discounts to book dealers. The current 
statute has some limitations in it so we would like those 
modest changes. That is contained in the statement.
    Other than that, I would be happy to answer any questions 
that you might have. If I am not prepared to answer them, I am 
certain that my staff will join in.

                          CONGRESSIONAL RECORD

    Mr. Taylor. Thank you. Last year you were projecting the 
Congressional Record would require 36,000 printed pages. Now 
you are projecting 28,000 printed pages. That is a 22 percent 
reduction. Can you explain that?
    Mr. DiMario. Yes, sir. The estimate for FY 2000, a 
presidential election year, was based on our 1996 level. We use 
historical data to develop our estimates. For FY 2001, a first 
session year, we originally came in at 29,500 pages but in the 
course of your budget deliberations, you reduced the monies 
that were available to us and as a result, we made an 
adjustment in our estimate.
    It really is a guess. We are out there in the future and 
you may have given us enough money but you may not have. We 
have found historically that the budget years sort of track 
every 4 years. So in a presidential year, if you look at the 
data in terms of production for a previous presidential year, 
it gives a greater basis for us making an estimate, and that is 
why we chose an earlier year. So we are using that historical 
data and we are adding to our actual production data each year. 
That is the reason for our budget request.

                         CONGRESSIONAL PRINTING

    [Questions from Chairman Taylor and responses follow:]

    Question. You have asked for $80.8 million for 
congressional printing and binding. To what extent is the $7.5 
million increase due to increases in wages and other costs as 
opposed to workload increases?
    Response. Of the total increase of $7.5 million, $2.3 
million, or 31 percent, is for wage increases required by 
existing wage contracts, and other price level increases. The 
balance of the increase, or $5.2 million is for workload. This 
includes $2.6 million for the reprinting of the United States 
Code, which is done every six years. While the request is an 
increase compared to FY 2000, there have been significant 
reductions during the 1990's. The request is 10% below the FY 
1993 level, and is below the level appropriated every year from 
1992 to 1997.
    Question. What has been the trend in Congressional Record 
pages in recent years?
    Response.

Record Pages

1999..........................................................    29,500
1998..........................................................    29,500
1997..........................................................    22,200
1996..........................................................    39,000
1995..........................................................    31,500

    Mr. Taylor. It is not an estimate that this Congress will 
talk less and act more. It is just an optimistic budget.
    House members are no longer able to charge this 
appropriation for sending copies to constituents and yet we 
still appropriate money for the Senate to do that. How much is 
spent for the Senate?
    Mr. DiMario. It is about $450,000. The exact number is 
1,801 copies of the Record that Members of the Senate are 
designating for appropriate institutions of learning or what 
have you in their judgment. We refer to them as constituent 
copies but there is a limitation in the statute that says that 
they should be going to public agencies and institutions.
    Mr. Taylor. House committees reimburse the GPO for 
employees detailed to assist committees in preparing documents 
for printing. We continue to appropriate funds for Senate 
committees. How much is in the budget for that?
    Mr. DiMario. There were 45 detailees altogether. 21 of 
those detailees were to 14 Senate committees and the cost for 
that Senate portion is $1.3 million. They are among those 45 
detailees. Some detailees go to support activities of the 
Congress. The House has 9 detailees to 6 committees.
    Mr. Taylor. Your projected data of preparation costs have 
also fallen. Last year you estimated that FY 2000 costs would 
be over 12 million. Now you have cut that estimate back to 9.4 
million. Is that because the House and Senate are providing 
electronic copy? Of course, that saves the GPO the cost of 
conveying manual transcripts to the electronic database.
    Mr. DiMario. To some degree it is but the larger answer is 
that we made the same kind of adjustment because of the amount 
of funding that you gave us and based our estimate on that 
reduced funding as opposed to historic basis. We recognize that 
we will probably have a considerable amount of work this year 
because we have additional things to do. As an example, we have 
a new edition of the United States Code to prepare and we do 
that every 6 years. I think that is mentioned in the statement. 
We have indicated a very substantial increase in both the 
printing side and later in the Salaries and Expenses 
appropriation for that United States Code preparation and 
distribution. We have had considerable improvement, however, 
over the years in terms of electronic submission from the House 
side and we are very pleased with that. Frankly, we would not 
be able to produce what we produce today had we not made this 
transition electronically with the Clerk of the House's office 
and we appreciate their efforts.
    Mr. Taylor. For the record, would you provide a tabulation 
of the format supplied by the House and Senate for the daily 
record for the past 5 years.
    [The information follows:]

    The following indicates the percentage of input received in 
electronic format. In addition, GPO is able to access 
electronic data files resident in GPO archives, to avoid 
rekeying and proofreading various bills and reports that appear 
in the Record.

                                                  [In percent]
----------------------------------------------------------------------------------------------------------------
                                                                  1999      1998      1997      1996      1995
----------------------------------------------------------------------------------------------------------------
House.........................................................        47        49        49         4         2
Senate........................................................        45        46        51        46        39
----------------------------------------------------------------------------------------------------------------

                      SUPERINTENDENT OF DOCUMENTS

    Mr. Taylor. I would like to address the superintendent of 
documents. We have the superintendent of documents, Mr. Francis 
Buckley with us. The budget for the superintendent is $34.5 
million. The largest item is for the depository program, $29.8 
million. A lot of your publications are now in electronic 
format: CD-Rom, Internet, access, and so forth. How much has 
that saved your program?

                           ELECTRONIC FORMATS

    Mr. Buckley. Last year we distributed about 32,000 new 
titles in electronic format compared to about 40,000 in hard 
copy so almost 50 percent of our new submissions were in 
electronic format. We estimate that if the materials that we 
are providing in electronic format had to be distributed in 
hard copy it would have cost us at least another $4 million. So 
we save money but of course that has been invested in producing 
the GPO Access databases and service and so we are making a 
much better use of the funding because of the electronic 
formats. We are seeing a huge increase in the amount of use 
because of that.
    [Question from Chairman Taylor and response follows:]

    Question. How many documents are included in this program 
and how many are in electronic format?
    Response. In FY 1999, paper and microfiche distribution 
through the Federal Depository Library Program (FDLP) was 
40,253. New titles distributed electronically totaled 32,733. 
Approximately 15,000 titles are in both formats. Also, 682 CD-
ROM titles were distributed. Cumulative titles on GPO Access 
totaled 101,279, with links to an additional 59,447 titles on 
agency and partner web sites.

    Mr. Taylor. As new titles come in, what portions are 
electronic?
    Mr. Buckley. Over 60 percent of the new titles are in 
electronic format.
    Mr. Taylor. Do you offer paper format also of those 
electronic documents?
    Mr. Buckley. In some cases, yes. A number of things, such 
as the Congressional Record or the Federal Register or U.S. 
Code are in both formats. In some cases, the electronic format 
is not yet considered the official version of those titles 
either in courts or by the agencies that issue them. So a 
number of libraries and members of the public need the hard 
copy versions because they are the official copies. We are 
making a transition in terms of the overall depository program 
to more electronic access and electronic publications. When 
there is the availability of something in both hard copy and 
electronic, more and more we are selecting only the electronic 
version.
    Mr. Taylor. There is a question about how the library needs 
an official copy.
    Mr. Buckley. Well, many citizens who come in, lawyers and 
others, need the official copy of publications to cite and to 
verify. We are supplying not only public libraries but academic 
libraries, law libraries, and courts across the country through 
the depository program.

                                 FTE'S

    Mr. Taylor. Ordinarily, we think of electronic being cost 
saving and I think that's certainly what it has proven to be. 
However, you are asking for 9 more FTEs for that program. Can 
you explain that?
    Mr. Buckley. Yes sir. Of the 9 FTEs, four are for our 
cataloging and indexing program, which is part of the 
Superintendent of Documents operation and a separate section in 
title 44 that requires us to produce a catalog and index of 
government information products. With the explosion of the 
numbers of titles being produced on the Internet, we need to 
increase the number of staff working on that. Five of the 
positions are in the depository program. Three of them are for 
GPO Access a couple of people who actually work on telephone 
support desks and one person who would help with the 
development of new products. We also asked for an additional 
library inspector, since we visit the depository libraries on a 
periodic basis, and one staff person to help with the overall 
development efforts for the electronic collection.
    Mr. DiMario. The library inspection is required by the 
statute so it is compliance with the statutory provision.

                            AIR CONDITIONING

    Mr. Taylor. You are asking for $6 million to replace the 
air conditioning at the plant. Last year we challenged that on 
the basis that it should have been part of the cost factored 
into the cost for your clients. Do you have an explanation or 
is it just because at this time of year nobody thinks about air 
conditioning?
    Mr. DiMario. No sir, we do have an explanation. It is an 
extraordinary expense and rates normally are something that are 
providing for increases in services or charges for specific 
services. When the air conditioning went in initially in 1974, 
we received an appropriation and we continue to believe that 
that is appropriate. Because of our difficulties in continuing 
to maintain operations and low paper prices, and a whole range 
of other factors, we have effected price increases to our 
customer agencies already. We continue to increase prices to 
the Congress and to the agencies of government as necessary as 
our costs increase. In the printing procurement program I 
effected a price change from 6 percent to 7 percent of the 
actual cost of the procured printing in order to recover an 
adequate sum of money to maintain that program in terms of our 
direct expenses and overhead. This is after we dramatically cut 
the size of the agency. I have effected the same kind of thing 
in the sales program. I directed a 15 percent increase in the 
prices for the sales of publications because there has been an 
underrecovery from the sale of publications. We are not meeting 
that. So we are passing on those costs but with dramatic 
increases to others in order to maintain that stability and now 
to pass on the additional increase of the $6 million doesn't 
seem rational.
    Our operating budget does not allow us to have a surplus 
that we can draw on to deal with the air conditioning. We need 
air conditioning. The employees deserve the air conditioning. 
It is an old system that is broken down. We have had people 
from the Joint Committee on Printing and I believe from this 
committee come over and examine the structure after last year's 
hearings and we continue to believe--I continue to believe that 
it is a necessary expenditure and that it is fully justified to 
request it.
    Mr. Taylor. Have we been given a copy of your building 
plans? I think last year we requested that.
    Mr. DiMario. I believe we submitted the plans to----
    Mr. Mansker. We have at least submitted it to the Joint 
Committee on Printing. I thought we sent you a copy. If we 
didn't, we will certainly give it to you.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                          PRINTING PROCUREMENT

    Mr. Taylor. Did you increase the printing procurement 
prices because the volume has increased?
    Mr. DiMario. No, sir. The volume has declined more rapidly 
than our costs have been reduced. More agencies are producing 
electronic products. There is a decline. And we have cut the 
size of the workforce operation. However, the main reason for 
increasing it, is that paper prices over the years have been 
very low. They are historically much lower than they normally 
have been. Paper is a large component of procured printing. It 
means that when our contractors bid, they bid lower prices as a 
general rule and the government overall benefits because we are 
procuring at lower prices. Therefore, when we charge a 
surcharge against that lower overall price, we are recovering 
less money on which to operate our own function. So we have to 
find a way of getting that money that is necessary to operate 
the function even after we have reduced our costs. And so the 
way that we do that is to increase the surcharge, and that is 
what we did.
    Mr. Taylor. You make a good argument for privatization.
    Mr. DiMario. It is pretty privatized now. About 75 percent 
of what we are doing is purchase printing. We are talking about 
purchased printing through the private sector. My sense is that 
we have privatized very dramatically over the years and I think 
that the direct operation that we have is essential to the 
government and I am very proud of what we do. We, by the way, 
right now have a major procured product, some $60 million in 
procured printing for the United States Census that is ongoing. 
That is the decennial census. It is a major undertaking, and 
that could not be carried out except for the contracts that we 
are able to place for the Bureau of Census.
    Mr. Taylor. Thank you, sir. For the record, insert all 
reprogramming documents submitted to and received from the 
committee.
    [The information follows:]

    Agency response. There are no reprogramming documents.

    Mr. Taylor. Mr. Pastor, do you have questions?

                             REVOLVING FUND

    Mr. Pastor. I am looking at your prepared statement on page 
4; you discuss the revolving fund. You talk about after 2 years 
of net income, in 1999 you had a deficit of $5 million and you 
say that one was on the sales program and the other one was the 
printing procurement program. How would you break the $5 
million down?
    Mr. DiMario. Bill Guy may be able to break it down better 
than I can.
    Mr. Guy. We had a loss of $9.2 million in the sales 
program.
    Mr. Pastor. I didn't hear you.
    Mr. Guy. We had a loss of $9.2 million in the sales program 
and we had a loss of about $5.6 million in the procurement 
program and net income of about $11 million to the plant. The 
$5 million loss was the net consolidated loss for the whole 
year for the entire revolving fund.
    Mr. DiMario. I would also like to point out while it is a 
loss, we used the retained earnings in the revolving fund to 
pay that difference.
    Mr. Pastor. I understand. But you still were $5 million--
and the majority of it was in the sales program.
    Mr. DiMario. Yes sir. And because of that, I have raised 
the price of government publications by 15 percent across the 
board in order to recover the money that we are supposed to 
recover in a self-sustaining program. It is the prudent thing 
to do.
    Mr. Pastor. Then, we have made price adjustments. That is 
15 percent in both programs to increase cost recovery in the 
future?
    Mr. DiMario. No sir. The 15 percent was not in the 
procurement program.
    Mr. Pastor. I am reading your statement.
    Mr. DiMario. We raised prices 15 percent for the sale of 
publications and the Administrative Committee of the Federal 
Register, of which I am a member, of the three-member 
committee, at my request made an adjustment for the Federal 
Register and the Code of Federal Regulations, and other CFR 
products at 15 percent. That coincides with the 15 percent that 
I directed for the sales program.
    Mr. Pastor. What have we done on procurement?
    Mr. DiMario. We increased it from 6 percent to 7 percent on 
procurement.
    Mr. Pastor. One percent increase?
    Mr. DiMario. It was a one percent change. The increase is 
about seventeen percent.
    Mr. Pastor. Have you had a chance to kind of gauge it to 
see where we are at?
    Mr. DiMario. Not yet. We put these in place to coincide 
with the beginning of the fiscal year.
    Mr. Pastor. October?
    Mr. DiMario. Yes, sir. So it is rather difficult at this 
point. We think it is working.
    Mr. Guy. The procurement program we think is going to be 
operating in the black this year. The census work is going to 
help along with the rate change. So we think the procurement 
program is all right and we are doing a number of things in the 
sales program to help turn that around.
    Mr. Pastor. But what are some of the other things you are 
doing other than the 15 percent increase?
    Mr. Buckley. We have reduced staff by 44 employees in 1999.
    Mr. DiMario. We have consolidated warehouse space. We have 
given up some warehouse space in Laurel, Maryland, that was 
used for the sales program. We are looking now to reduce some 
of our warehouse space for our materials management office in 
northern Virginia and to move some of those functions out to 
Laurel to reduce leased space. That would reduce the cost for 
the sales program and still give us an adequate amount of 
warehousing space. So that is part of it. We are continuing to 
review methods that will allow us to reduce the costs. The 
object is to maintain a self-sustaining program. Unlike the 
procurement program, the public is the one that bears the cost 
for the sales publications. So it is a charge to the public. 
However, I would submit that these are still enormous bargains 
to the public if you compare the pricing to the private sector 
for the same material. And with respect to the printing 
procurement program, that pass-through is very, very small in 
terms of its real dollars and it is spread out over all the 
budgets of all the executive branch agencies. Going from 6 
percent to 7 percent is not an overwhelming charge and in most 
agencies it would be very small. The vast majority of the jobs 
we procure are $2,500 or less. The argument might be from an 
agency like Internal Revenue Service. So when we do the IRS 
forms, they obviously have a substantial bill and so an 
increase to them might seem quite large. To most agencies it is 
a very small increase.
    Mr. Pastor. I might suggest to you what you just said you 
might want to put down on paper and provide it to the committee 
so we can go back and say you have tried to recover the monies 
that you realized in 1999. Maybe if you give us some bit of 
detail, we can refer back to them.
    Mr. DiMario. We certainly will.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Pastor. You came out okay on your audit according to 
your last statement. The audit resulted in a clean opinion.
    Mr. DiMario. Yes, sir. We have done that for a number of 
years and we have been very proud of the fact that we have been 
able to get a clean opinion. We have been audited according to 
private sector standards for the most part. My understanding is 
that the accounting profession is now instituting some changes 
in standards that will affect government standards across the 
board. I really don't know how that will affect us in the long 
run but we have worked hard in this area and I praise our 
accounting and finance staff for the work they have done.

                            AIR CONDITIONING

    Mr. Pastor. Just let me touch on air conditioning. I agree 
with you. Being here in June and July, it is better to be in 
Arizona where it is about 110.
    Mr. DiMario. It's an industrial facility. Our people 
deserve good treatment.
    Mr. Pastor. The argument is that possibly the air 
conditioning system should be part of doing business. It is 
hard to make that argument when you are in deficit in your 
sales. I would only suggest to you that might be able to give 
us some comparisons where we also have similar type of agencies 
in serving the public to maintain a low cost product where the 
operation maintenance or at least the maintenance of facilities 
is underwritten by this committee.
    Mr. DiMario. We certainly can do that.
    Mr. Pastor. I was trying to bolster your argument. I am 
just trying to help you out.
    Mr. DiMario. Thank you. I would submit some agencies 
receive a direct appropriation for their employees and so you 
have salaries and expenses appropriations. We only receive a 
salaries and expenses appropriation for a small number of 
employees in our Office of Superintendent of Documents that are 
involved primarily with the depository library program. None of 
our other employees are funded directly that way. Congressional 
Printing and Binding and the bulk of the structure is funded 
through rates that we charge. So it is more than just the air 
conditioning. It is a whole range of things. And if that is the 
way Congress wants us to operate, we certainly will look at 
other agencies and give you some comparison and hopefully it is 
helpful to us. But we are not out trying to feather our nest 
with this. We are looking for a way of providing a rational 
environment in which to provide the work that is necessary to 
the Congress and to the agencies of government. I have done my 
best to reduce the size of the agency and to meet the cost 
reductions that have been mandated in the nearly 7 years that I 
have been there, and I don't know what more to do. In terms of 
making the request, I certainly could pass the rates on. But, 
in my judgment at this point in time, I thought it was still 
prudent to ask for direct appropriation.
    [The information follows:]

    This committee provides funding for facilities and maintenance by 
direct appropriation to the Architect of the Capitol for the Capitol, 
House and Senate Office Buildings, the Library of Congress buildings, 
the United States Supreme Court and other facilities in the Legislative 
Branch. By contrast, GPO does not receive any no-cost support from the 
Architect of the Capitol. GPO bears other substantial overhead costs, 
without a direct appropriation, including the GPO Police, the GPO 
Inspector General, janitorial services, all utilities, the annual 
financial audit, and the GPO Office of Equal Employment Opportunity. 
Providing an appropriation for the air condition system, as Congress 
did over 25 years ago when this requirement last arose, will help GPO 
to maintain rates at a reasonable level and will help to eliminate 
losses.

    Mr. Pastor. Thank you, Mr. Chairman.
    Mr. DiMario. Thank you.
    Mr. Taylor. Mr. Wamp?
    Mr. Wamp. I have no questions.
    Mr. Taylor. Mr. Hoyer?

                                 AWARDS

    Mr. Hoyer. Thank you very much. First of all, I want to 
make a comment, Mr. DiMario, members of the GPO staff. I 
understand you received an award as the best in-plant printing 
operation in the country.
    Mr. DiMario. Yes, sir, two years in a row.
    Mr. Hoyer. Explain to me the importance of this award--for 
those of us who don't read In-Plant Graphics magazine on a 
regular basis.
    Mr. Pastor. Which is that?
    Mr. Hoyer. Plant Graphics magazine, which is a trade 
publication.
    Mr. DiMario. Yes, sir. They survey in-plant printing 
operations throughout industry both the private sector as well 
as government. State governments have in-plants. Many agencies 
of government, including the Federal Government, have in-plant 
operations. Colleges and universities are among the biggest. 
They have in-plant operations that support their functions. And 
they have done a survey on the basis of looking at all of 
these, and in each instance GPO has been deemed to be very, 
very effective and deemed to be the largest in terms of its 
operation even though we have reduced dramatically.
    Mr. Hoyer. I understand you are best in the country at this 
time.
    Mr. DiMario. Yes, sir.
    Mr. Hoyer. That is a very significant accomplishment for 
you, for leadership and all the men and women who work for GPO. 
I think that is important for us to focus on because all too 
often we focus on the negative. Also, I want to congratulate 
you again; I remember that Chairman Hyde was effusive with his 
comments in reference to GPO performance on getting the Starr 
Report out, that voluminous report, obviously high public 
drama, unfortunately as an aside, but nevertheless that was an 
incredible job that you performed in a very short period of 
time. And in addition, Mr. Chairman, I think when the Microsoft 
findings were issued by Judge Jackson, GPO had that report out 
very, very quickly and had it on-line simultaneously; and as I 
understand it within the first two hours, over 150,000 people 
were able to access that report electronically. That in and of 
itself is an incredible accomplishment and a testimony of our 
times and how rapidly a document can be disseminated. I know 
Speaker Gingrich talked a lot about that, and Representative 
Thomas, Chairman of the House Administration Committee, talked 
a lot about making sure information was available. But on all 
those items, I want to congratulate you because those of us who 
are proponents of GPO's role and its importance to the Congress 
and the government and the American people from time to time 
get glazed eyes. But when you point to specifics, best in the 
country among large printing operations, performing incredible 
turnaround with two very large reports that were both very 
important not only to the government efficiency but also to the 
democracies, that is important and I commend you and your 
people for that.
    [Representative Hoyer submitted the following article for 
the record:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. DiMario. I appreciate that, Mr. Hoyer, thank you.

                               U.S. CODE

    Mr. Hoyer. You referenced in your presentation the U.S. 
Code. Do you have any option as to whether to do that work or 
is that statutorily required?
    Mr. DiMario. It is statutorily required. It is replaced 
every 6 years. During the interim years, they issue supplements 
and the Code is kept current in that way, but on a periodic 
basis the entire Code is replaced and so that is an 
extraordinary cost. That is borne through Congressional 
Printing and Binding and through the Depository Library Program 
too.

                          PRICING PUBLICATIONS

    Mr. Hoyer. Mr. Pastor asked about pricing. It has been an 
ongoing problem for GPO in terms of pricing its products so 
that it stays even, particularly when some of your customers 
have great authority over whether or not they want to be 
charged those prices. Can you tell me about the changes that 
you are suggesting in Title 44 regarding the sales program?
    Mr. DiMario. Perhaps Fran might talk about them better but 
let me address it initially. Under the current law, book 
sellers are authorized a 25 percent discount in our pricing 
structure. All pricing is done under the provision of the Code, 
section 1708. Within that provision, it speaks to books 
discounted at 25 percent. The discount is from the standard 
price which is cost plus 50 percent. That is the way it is 
worded. However, the 50 percent which appears to be a margin in 
fact is used to cover the cost of unsalable publications, 
damaged publications, and book seller discounts, the volume 
purchaser discounts. So all of those costs are borne in the 
current pricing formula. A 25 percent discount is not 
consistent with the industry, the book selling industry. Book 
sellers traditionally get at least 40 percent and so there has 
always been a demand from book sellers to get a better 
discount. We think it is rational to accommodate them.
    Mr. Hoyer. A higher discount, a lower cost.
    Mr. DiMario. Yes, sir. A higher discount is a lower price 
for publications. Very substantially. They would be paying 60 
percent.
    Mr. Hoyer. Not a discount but what I meant was a higher 
discount and a lower price so that they get the 45 percent 
rather than the 25 percent--or 40 percent.
    Mr. DiMario. Yes, sir. That is the main concern.
    Mr. Buckley. Just to amplify a little bit because over the 
years, most book sellers have not wanted to carry government 
publications in their stores. Because we haven't had a 
sufficient discount program for them, they have not included 
them. We are making great efforts to try and reach both the 
commercial market and the public by doing more to list our 
publications on some of the new electronic services, 
amazon.com, barnesandnoble.com, the electronic books in print. 
But we still feel if we had the ability to offer and negotiate 
a higher discount rate, we could have more outlets, actually 
having copies of government publications out where the public 
can buy them more readily.
    Mr. Hoyer. Mr. DiMario, have you requested of the House 
Administration Committee this legislative change?
    Mr. DiMario. I am not certain that we have submitted 
anything to them on this specific change.
    Mr. Hoyer. Do you intend to?
    Mr. DiMario. We certainly would, yes.
    Mr. Buckley. Was it included in our----
    Mr. DiMario. It may have been--what Mr. Buckley is 
suggesting--we have had----
    Mr. Hoyer. I am positive you had in fact asked----
    Mr. DiMario. In the past.
    Mr. Hoyer. Obviously this would be within the purview of 
the House Administration chaired by Mr. Thomas.
    Mr. DiMario. We have not made a recent request of them but 
when we had the title 44 reform on S. 2288 a year ago, there 
was a package submitted to them with those changes requested.
    Mr. Hoyer. This change wasn't included?
    Mr. DiMario. It was included.
    Mr. Hoyer. The request was included or wasn't? We haven't 
passed the legislation.
    Mr. DiMario. We have not passed the legislation but we did 
ask for this legislative change at that time.
    Mr. Hoyer. My suggestion would be to reiterate this to the 
House Administration Committee.
    Mr. DiMario. S. 2288 was simply passed out of the Senate 
committee but not taken up in the full Senate and never came 
over to the House.
    Mr. Hoyer. I recall that.
    Mr. Chairman, let me ask one followup question on that 
previous matter. If we give the 40 percent discount as opposed 
to a 25 percent discount, do you project our income will rise 
because we have more outlets?
    Mr. DiMario. We are hopeful of that. That is the main 
reason.
    Mr. Hoyer. By reducing our price, our profit would go up.
    Mr. DiMario. We are hoping that by reducing our price to 
book sellers thereby allowing the book sellers to sell the 
publications and recover not only the cost of purchasing them 
from us but a reasonable profit consistent with their industry 
standards, we expect that we would have an increase in the 
sales.
    Mr. Hoyer. It makes a lot of sense if we could get more 
outlets for government publications by reducing our price and 
giving an incentive to book sellers to offer our product which 
the American public would like to have.

                            SYSTEMS SECURITY

    Last question, Mr. Chairman, if I might. In light of the 
recent hacking of the THOMAS system, what steps have we taken, 
or what steps have you taken to secure our own systems?
    Mr. DiMario. We have, number one, a brand new fire wall in 
our system and this is for the production side of GPO, our 
network, and I recently sent one of our staff personnel off to 
a training program specifically on the fire wall system that we 
have put in. We think our fire wall is quite secure and we have 
not had a problem with that. We have had one problem a year ago 
with an outside hacker in Australia trying to get into the 
system but not beyond the fire wall. So they basically got into 
the public system and that was investigated through the FBI at 
the time.
    So I guess the whole world will continue to have problems 
with hackers but we are constantly looking at the issue of 
security. We have an internal group that I put together to deal 
with security of our systems and we are now in the process of 
hiring another security specialist for network security.
    Mr. Hoyer. Thank you, Mr. Chairman.

                              BOOK SELLERS

    Mr. Taylor. Certainly. If you have a dealer and you gave 40 
percent or 25 percent, and you send a hundred volumes of X, do 
they buy that on consignment or, if they don't sell, do they 
send them back to you?
    Mr. DiMario. Mr. Buckley might answer that.
    Mr. Buckley. Right now we don't have a return policy. They 
buy it outright at whatever discount we offer.
    Mr. DiMario. I think it is required by the statute and my 
own recollection of the statute that we receive money upfront 
from the book sellers and anyone else.
    Mr. Taylor. Mr. Peterson?
    Mr. Peterson. I would like to stay right in that avenue. I 
have a couple of other questions. But I guess I always struggle 
that government doesn't compete with the private sector. And I 
guess the thought here that just struck me, why don't we sell 
the right to publish these where we get a volume per book and 
bid it instead of government being in the printing business to 
sell those kind of documents. We sell the rights. You put it 
together and that is worth something and somebody shouldn't 
just sell that and we not get anything back but sell the rights 
to publish it instead of all the warehouses we need and all 
this printing we do and just sell the rights. You put it 
together and that is valuable. Sell that document to anybody 
who wants to print it and they have to pay a fee.
    Mr. DiMario. That is one side of it. But what if there is 
no interest in the private sector in selling everything? What 
do you do with the remainder of the publications. Do you not 
offer them for sale? Do you not offer them to the public?
    Mr. Peterson. Where there is volume, there will be 
interest.
    Mr. DiMario. We understand that interest in profit. 
Anything that is profitable--they can run that right now on 
everything we do. They can go out under the current statute and 
buy from us the duplicate plates, that is what the law says, 
and go out without any composition costs, without anything. We 
sell them the electronic file and they produce it and go out 
and sell it at whatever price they want to. And they can make 
any modifications on it and we have to compete with those folks 
that do that on a daily basis. We know we can't compete on some 
products and on other products we can. Many people, members of 
the public, do still want to get their government information 
in the first instance from their government. They want to be 
able to come to the government and get that information. We 
don't deny the rights of the private sector to sell but in 
terms of selling rights that is another issue.
    Mr. Peterson. I think there are other avenues that can be 
explored.
    Mr. Hoyer. I think that is an interesting point. The Starr 
report, wasn't that also published by private sector dealers?
    Mr. DiMario. Yes, sir.
    Mr. Peterson. What did they pay to get that?
    Mr. DiMario.We take our cost of producing the duplicate 
materials and we sell those duplicate materials to them. If it 
is not----
    Mr. Peterson. So you sell at your cost?
    Mr. DiMario. At cost.
    Mr. Peterson. Let's put it--on the Starr report, just think 
if we had all the printers in America bidding on that, bid it 
per copy, so that when you buy that every copy they sell we get 
a commission because we put it together. You would make more 
money than if you were in the books business.
    Mr. DiMario. If we were doing that we probably would make 
more money.
    Mr. Peterson. And you wouldn't be competing with the 
private sector in printing. You would get paid for what you 
produce. I think it is an avenue to explore.
    Mr. Hoyer. From my perspective, we don't want to give 
additional incentives to have a hot seller like the Starr 
report.
    Mr. Peterson. Let's hope we don't have another one.
    Mr. DiMario. They can today under the statute, anyone can 
come in and ask to purchase the electronic file, or the law 
says duplicates but we interpret that broadly.
    Mr. Peterson. To help fund you, we ought to look at how to 
do that. Does that make sense?
    Mr. Taylor. Another impeachment we would get the money for 
that.
    Mr. Peterson. The Starr report would have bought the air 
conditioning.
    Mr. Hoyer. Let me get back to you on that next year.

                           PROCUREMENT PRICES

    Mr. Peterson. I would also commend you on a lot of the good 
work you do. And as Mr. Hoyer said, winning that award that is 
prestigious. But let me just say this. I found it interesting 
how we all use numbers. We all do this. But you said 6 to 7 
percent was just--it is no increase at all but to the payer it 
is a 17 percent increase. It is how we present. For the agency 
paying, that's a 17 percent increase and it is not minuscule 
from my prospective.
    Mr. DiMario. Right. But if you have a product costing you a 
dollar and I charge you 6 percent on that, you are now paying 6 
cents. Now say that product goes down to 50 cents and now I 
charge you 7 percent on that, how much have you paid for that 
product? You have gotten----
    Mr. Peterson. All products go down in price?
    Mr. DiMario. The basic paper prices kept going down in the 
industry so the result was that the private sector bidders are 
coming in at much lower prices to the government. The 
government is benefitting but we internally at GPO, deriving 
our revenues, we end up losing money and so we have to have----
    Mr. Peterson. You get my point?
    Mr. DiMario. Yes, sir.

                           ELECTRONIC FORMATS

    Mr. Peterson. I guess I am interested in the figure of 60 
percent electronic formatted. Do we have a goal to be 100 
percent or do we have a goal to be 90 percent? Where are we 
headed?
    Mr. DiMario. We had a direction from this committee to be a 
fully electronic Federal depository library program. When Mr. 
Packard was chairman of the committee, we undertook this and at 
the time the goal of the committee was to have us move towards 
a fully electronic program within 2 years. We argued that that 
was impossible and that 7 years was more realistic. We 
undertook a task force. I appointed a number of members and we 
examined the whole process and made our recommendations. We 
have moved in that direction towards this 100 percent goal but 
realistically you will never reach 100 percent. But we are 
doing a remarkable job as we move towards it more fully.
    Mr. Peterson. What is a realistic figure, the ultimate? I 
think we are all struggling with this change.
    Mr. DiMario. I don't know. The agencies produce a product 
through us. They decide that they want a product to be either 
in paper or other formats, depending on its purpose. Let's look 
at the decennial census. A lot of the publications are forms or 
requests that are going out and they are going to go with 
census takers around the United States taking data. They want a 
paper format for certain kinds of things. Those are going to 
continue to be paper products, at least in the foreseeable 
future.
    Mr. Peterson. I think we all ask for paper when we could go 
to electronic because we are comfortable with it. I think that 
is human.
    Mr. DiMario. There is some of that but your question is 
going to 100 percent. My statement to you is----
    Mr. Peterson. What is a realistic goal? 90, 95.
    Mr. DiMario. I really don't know what a realistic number 
is. But I would just submit this. Prior to 1994, we did not 
produce electronic products on the Internet. GPO access was 
passed in 1993. We were given one year until June of 1994 to 
put out electronic products starting with the Congressional 
Record and Federal Register. That law did not mandate that we 
put up all these products electronically. It only mandated the 
Congressional Record and the Federal Register. We then went out 
to other agencies and we got them to give us their products and 
put them up electronically and we are doing more and more. 
Subsequently Thomas came along. We gave to the Library of 
Congress electronic files so they could put up electronic 
products that are government products. It keeps growing and we 
go out to the agencies, part of the request for additional 
personnel is an outreach program to go out to the agencies to 
ask them to give us files so we can put them up electronically 
more and more, but we do not control the format of the 
publication.
    Mr. Peterson. I can't imagine having to deal with the whole 
government--I am glad it is you, not me.
    Mr. DiMario. It is a big thing and we are certainly moving 
in that direction. We are moving towards 100 percent. Our 
reductions internally in the office have been focused on that. 
Frankly, our private sector operations are the ones that are 
more paper driven than the internal ones. That is where we are 
purchasing 75% of the printing.

                             PUBLIC ACCESS

    Mr. Peterson. One more question here. On your strategic 
plan, you say over the next 6 years the government will produce 
more than $1 billion annually in printing and reproduction 
services. Printing continues to serve as an effective safeguard 
for ensuring that those without access to computers can still 
use government information. I guess that is a large number of 
people? I try to think in my own community of people who care 
about government and are wanting information, who do not have 
access.
    Mr. DiMario. Mr. Pastor was here before and he previously 
would have answered that question. I think he has done that in 
a previous hearing on the same issue. He has argued, my 
recollection at least, that many of his constituents do not 
have access to electronic media.
    Mr. Peterson. I have constituents who don't have access to 
electronic, but I know a lot of very poor people who have 
computers. It amazes me as to who is getting a PC with the 
prices today. Sometimes they are hand me downs from other 
family members but I want to tell you most anybody who wants a 
PC today seems to be able to figure out a way to get one. You 
can get a pretty cheap computer today. I would say for major 
documents you would need a good printer and the power to drive 
it, but there again, that is not going to be people who can't 
afford them.
    Mr. Hoyer. Would the gentleman yield on that?
    Mr. Peterson. Yes.
    Mr. Hoyer. Even more than that, fairly soon televisions, 
which everybody has, will be transmitted----
    Mr. DiMario. You have web TV. I have it at home.
    Mr. Peterson. My neighbor is on e-mail with his family all 
over the country. He doesn't have a computer. He has a little 
box with a TV. I am struggling to stay up with. I think we have 
to really realize what is happening out there. I guess the cost 
effectiveness of not buying this book but printing a chapter 
out of it is what I am concerned about. I don't care about the 
whole book but there might be a chapter that I want, so I print 
out the chapter. I guess that is how we have to think today of 
how we provide information. We need to change faster, all of us 
in, in everything we do. At least that is a idea that I wanted 
to share with you.
    Mr. DiMario. I agree on that completely but I am sitting 
here with a stack of paper in front of me, most of which was 
produced out of data that we have got stored in various 
electronic formats.
    Mr. Peterson. I am interested in working with you on how 
you provide your data because I think we are missing the boat 
there. I think we ought to be thinking less about printing it 
and more about selling that prepared document, where we get a 
cut every time it is printed. That is how we ought to sell it.
    [Question for the record from Representative Hoyer and 
response follow:]

    Question. The General Counsel of the Library of Congress 
has advised the Librarian that Title 44, United States Code, 
does not require the Library to procure binding of materials 
that are not Government publications through the Government 
Printing Office. Have you seen her opinion, and do you agree 
with it?
    Response. We have seen the opinion, and we do not agree 
with it. GPO's General Counsel has researched the matter and 
developed a response to the Library of Congress opinion. His 
finding is that the ``Library [of Congress] is required to have 
all of its binding done at GPO, whether or not the documents 
are published initially by the federal government'' (General 
Counsel, GPO, memorandum to the Public Printer, ``Response to 
Library of Congress Memorandum, dated October 29, 1999,'' 
November 17, 1999; emphasis added). GPO's General Counsel has 
transmitted his findings to the Library of Congress and a copy 
of his memorandum is attached for the record.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    [Clerk's Note.--Representative Hoyer submits for the 
Committee records the Biennial Report to Congress on the Status 
of GPO Acess. This Biennial Report was distributed to the 
Leadership of the Congress and to the Committees with oversight 
jurisdiction. In addition, the report is available online at 
www.gpo.gov/biennialreport. This report will remain in the 
Committee files for one year for purposes of review.]

    Mr. Taylor. Gentlemen, thank you. The committee will be in 
recess till 1:00.
                                         Tuesday, February 1, 2000.

                      JOINT COMMITTEE ON TAXATION

                               WITNESSES

BILL ARCHER, VICE-CHAIRMAN
LINDY PAULL, CHIEF OF STAFF
    Mr. Taylor. We welcome the Vice Chairman, Bill Archer of 
the Joint Tax Committee. The Chairman is Bill Roth, who is 
Chairman of the Senate Finance Committee. We also have Lindy 
Paull, the Joint Committee's Chief of Staff. The Joint 
Committee's request is $6.7 million. Mr. Vice Chairman, the 
Members have been given a copy of your budget remarks and the 
statement will be printed in the record. We will also place any 
additional statements in the record at this point.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Taylor. We have a few questions, but we will yield to 
you for a summarization of your statement or reading in full.

                    STATEMENT OF CONGRESSMAN ARCHER

    Mr. Archer. Thank you, Mr. Chairman. I appreciate the 
inference that this will be short and that you will just 
approve our request so you can get back to the Architect of the 
Capitol.
    As briefly as I can, I have been here every year on behalf 
of the Joint Committee on Taxation, which is one of those rare 
bodies that serves both the Senate and the House and does so 
professionally and in a nonpartisan way, and does an 
outstanding job. Sadly enough, Mr. Chairman, you are probably 
aware that our tax code becomes more and more complex, it 
seems, every year. Maybe the day will occur when I will win and 
we will abolish the income tax and go to a simple system, but 
we won't belabor you about that today.
    In the meantime, we need enormous expertise relative to the 
Code, which no one individual fully understands. We need to be 
able to respond to the requests that are made by individual 
Members, both on and off the Committee, for revenue estimates, 
which become vital as to what we do in the tax code, and the 
Joint Committee has to crank out all of those estimates. They 
have done an outstanding job, and I would just like to cite to 
you verbally that they have done, in this last year, over 3,000 
estimates responding to requests of over 4,000. The requests 
from Members is 55 percent more than it was in the previous 
year, and so they have been efficiently cranking these out, and 
obviously it requires staff and it requires assets in order to 
be able to do that.
    In addition, the IRS Reform Act, which most all of us voted 
for on a bipartisan basis, put added responsibilities on them 
and required that they issue a report in each Congress about 
the overall state of the Federal tax system and how it might be 
simplified, et cetera. $200,000 was appropriated to fund that 
report for this year, and we are asking that there be another 
$200,000 for next year because the law requires it, that the 
study be done subject to appropriation, and you have control 
over that, of course.
    They also have completed two major studies that were 
mandated also by the IRS Reform Act, and that is the study of 
the present-law system of penalties and interest and the study 
of taxpayer confidentiality. Those two studies resulted in over 
1,500 pages of documentation. All of this is just an enormous 
drain on their assets as long as the Congress requires that 
they do additional work. We really, unfortunately, need to 
appropriate the money to see that it is done. As you will see 
in the requests, they are asking for the standard amount for 
salary increases, and I guess that is really about it, Mr. 
Chairman. I think it is a reasonable request and I hope that 
your committee will grant it.

              STUDY ON THE STATE OF THE FEDERAL TAX SYSTEM

    Mr. Taylor. Thank you, Mr. Archer. It is difficult for me 
to deny my good friend Bill Archer anything. The Committee's 
courtesy is not to be indicated as a total approval.
    You asked for $291,000 covering staff cost of living salary 
adjustments. There is $200,000 that remains in the budget from 
funds provided last year for a study required by the IRS Reform 
Act. Since this is a two-year study, will these funds be 
removed from your budget next year?
    Mr. Archer. The problem is the Reform Act required that a 
separate study be done for each Congress, and it is a 
continuing legal requirement. Now, the Congress can decide, 
because it is subject to appropriated funds, you don't want it 
and not appropriate the money, and thereby deny the will of the 
Congress in the IRS Reform Act. What I would hope is that we 
would take a look at the effectiveness of these studies and 
reports, and although I won't be around in the next Congress, 
that the Congress will then decide again whether they want to 
appropriate the money to continue it or not. But in the 
meantime, it is, of course, the law and they are required to do 
it subject to appropriated funds.
    Mr. Taylor. Mr. Pastor, do you have any questions?
    Mr. Pastor. No.
    Mr. Taylor. Mr. Lewis?
    Mr. Lewis. No, Mr. Chairman, except by way of suggesting to 
Chairman Archer how much I appreciate the work that he has 
done, not just through this responsibility, but his work in 
Ways and Means in general. When one is making plans to leave 
this place, you can say things that you might not say other 
times.
    Mr. Archer. I have noticed that.
    Mr. Lewis. One of the thoughts that occurs to me as I go 
through this whole series of studies, if there a way the staff 
can come up with a reasonable mechanism for charging the 
individual office or agency requesting the report from Joint 
Tax Committee? It might not only help with your budget, it 
might very well cut down that 55 percent that you were 
describing earlier. Just a thought. I wonder how many of these 
are from the Senate and how many from the House.
    Thank you, Mr. Chairman.
    Mr. Archer. Just very quickly. Our tax code has so many 
unseen costs. The costs of compliance with this tax code, which 
is not just the IRS, is not just the Joint Committee, is not 
just what we see as the tip of the iceberg. The cost is 
estimated to be $250 billion. Most of that has to be carried by 
the private sector. It is atrocious that we continue to keep 
this kind of a code, but that is an issue for another day, Mr. 
Chairman, and I thank you for letting me just express those 
sentiments.
    Mr. Taylor. Thank you. I appreciate it.
    Mr. Hoyer, questions?
    Mr. Hoyer. I have no questions, Mr. Chairman, thank you.
    Mr. Taylor. Ms. Granger.
    Ms. Granger. No questions.
    Mr. Taylor. Thank you. We appreciate your presentation. 
There is a lot of sympathy here for your comments.
                                         Tuesday, February 1, 2000.

                        ARCHITECT OF THE CAPITOL

                               WITNESSES

ALAN M. HANTMAN, AIA ARCHITECT OF THE CAPITOL
HERB FRANKLIN, ADMINISTRATIVE ASSISTANT
ROBERT MILEY, SUPERINTENDENT, HOUSE OFFICE BUILDINGS
AMITA POOLE, SUPERVISING ENGINEER, CAPITOL BUILDING
STUART PREGNALL, BUDGET OFFICER
LYNNE THEISS, EXECUTIVE ASSISTANT
MICHAEL G. TURNBULL, AIA, ASSISTANT ARCHITECT OF THE CAPITOL

                            Opening Remarks

    Mr. Taylor. The subcommittee will come to order. We will 
now take up fiscal year 2001 budget of the Office of the 
Architect of the Capitol. We have Mr. Alan Hantman who is the 
Architect of the Capitol and several members of his staff.
    Before we get you to introduce your staff, let me give you 
a few figures about the budget that we will take up today. The 
estimates we will be considering is $185.5 million and 1,403--
FTEs. There are six appropriation accounts in your budget 
request: Capitol buildings, $60 million; Capitol grounds, $6 
million; House office buildings, $53.3 million; Capitol power 
plant, $40.9 million; Library buildings and grounds, $20.3 
million; and Botanic Garden, $4.9 million. This does not 
include funds for the operations of Senate office buildings. 
The other body will consider their own needs for office space. 
That is estimated at about $67 million and 609 FTEs.
    Please go ahead and introduce your staff, sir.
    Mr. Hantman. Thank you, Mr. Chairman. To my far right, 
Michael Turnbull is the Assistant Architect of the Capitol. 
Sitting next to him is Amita Poole, our Superintendent of the 
Capitol Building, and Stuart Pregnall, who is our Budget 
Officer, among the staff seated behind me are Herbert Franklin, 
Administrative Assistant, Lynne Theiss, Executive Officer and 
Robert Miley, Superintendent of the House Office Buildings. Mr. 
Chairman, distinguished members, I am pleased to present to you 
the fiscal year 2001 budget for the Architect of the Capitol.
    We have accomplished an awful lot in the last several 
years, but clearly there is an awful lot more to be done. This 
is one of the reasons that our budget is focused on four key 
areas, four priorities for this year. The first is continuing 
the process of creating an even safer environment here in our 
buildings for members, for staff, and for visitors. Second is 
to improve customer service, and the third is to enhance the 
preservation, utility and security of our buildings. 
Undergirding all of this, is to continue to build a strong, 
better trained staff that supports all of our efforts. I thank 
you for your leadership and support as we continue to build the 
physical and social infrastructure so necessary to serve the 
Congress. And we look forward to answering whatever questions 
you may have, Mr. Chairman.

                             VISITOR CENTER

    Mr. Taylor. Thank you, sir. Let's start with the Visitors' 
Center. There is no money in this budget for the Visitors' 
Center, but a great deal has been accomplished, I think, since 
last year. We were all lamenting the complicated approval 
system at that time and processes that we all urge to be 
streamlined. I think you agreed with us and all of us at that 
time. We simplified the process with an amendment to the 
authorization bill. How is the new process working? I know we 
had to go through as many committees as there are ice cubes to 
get the process going.
    Mr. Hantman. I think, Mr. Chairman, with your support and 
this committee's support, the issue of the Capitol Visitors' 
Center becoming the responsibility of the Preservation 
Commission is really a very positive move. We have really 
exceeded our expectations in terms of beginning to move this 
project along. As you know, Mr. Chairman, some $2.8 million was 
appropriated from the $100 million that was allocated in the 
emergency supplemental appropriation after the death of the two 
police officers.
    We have gone through a planning and revalidation phase 
study taking a look at the 1995 plan and all of the aspects of 
that plan from the spaces to the security issues, to all of the 
issues that really impacted the validity of that plan, 
including the specific site that made the most sense for the 
Capitol Visitors' Center. We went through extensive studies 
with a series of fine consultants and presented that. As you 
know, Mr. Chairman, you were of course part of the process, as 
part of the Capitol Preservation Commission, as was Mr. Hoyer, 
and Mr. Pastor, you were also of course part of that process as 
well.
    I was very pleased, Mr. Chairman, by the response of the 
Preservation Commission. We had a thorough report. We validated 
the site on the east front of the Capitol. We brought up 
several issues that had not been discussed or studied at all in 
the 1995 plan, issues that relate to life safety, for instance. 
We made a very strong point that even if the Visitors' Center 
were never funded, never went on, that we needed to improve the 
life safety for the visitors that entered our buildings. In 
fact, we had a $5 to $6 million line item that the Preservation 
Commission approved for a new elevator on the House side, a new 
stair enclosed and fire-rated. The same thing was approved on 
the Senate side in the expansion area on the east front of the 
Capitol, the non-historic area.
    So that will be a very helpful issue for us with the 
Visitors' Center, and I have great faith that that project will 
move ahead.

                         VISITOR CENTER DESIGN

    Mr. Taylor. What about the design work, when do you expect 
that to be finished and ready for bid?
    Mr. Hantman. We are currently entering a letter of intent 
with the consultants for this phase of the work, the design 
development and then the construction document phase. The 
Preservation Commission allocated $12 million on the basis of 
my obligation plan for these phases of the work. This letter of 
intent is being entered into this week, in fact, and we will be 
proceeding to evaluate the full contract with these 
consultants. So we expect the design development phase apart 
from review periods will take 6 months, followed by 
approximately 11 months for the construction document phase. In 
between, of course, we will be meeting with the Preservation 
Commission staff and members to talk about issues that need 
resolution and input from the Congress on these points. So the 
amount of time that it will take to get reviews and approvals 
from the Commission again is something that I cannot control.

                     VISITOR CENTER COST ESTIMATES

    Mr. Taylor. Can you lay out the latest cost estimates and 
maybe an idea of the construction schedule?
    Mr. Hantman. The cost estimate presented to the 
Preservation Commission was in the magnitude of $233 million 
for all hard and soft costs for construction. In addition, we 
had another $32 million, I believe it was, for security costs 
and allowance for exhibit costs which have not yet been 
designed in either case.
    Mr. Hoyer. How much was that?
    Mr. Hantman. Some $32 million, I believe it was. A grand 
total of $265 million with these allowances included is what 
was presented to the Preservation Commission, Mr. Chairman.
    [Question from Chairman Taylor and response follow:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Taylor. I have a number of questions in some other 
areas, but I would like to take up the Visitors' Center and go 
around the Committee because I think all of us have special 
questions in that area.
    Mr. Pastor, do you have questions?
    Mr. Pastor. As I recall, we saw the model and then there 
were some additions and tunnels and whatnot. Now, what was the 
final consensus of what was going to be added or not added?
    Mr. Hantman. The members of the Preservation voted 
basically to approve, I think about four or five specific line 
items. First line item specifically related to the location for 
the Visitors' Center itself, which is on the east front of the 
Capitol. That was approved. The second line item dealt with the 
issue of these new elevators and stairs in the east front of 
the Capitol for $5 or $6 million additionally. That also was 
included. Another line item of--I believe it was $10 or $12 
million--was to take the truck entrance access across 
Constitution Avenue to New Jersey Avenue so we would not have 
to have a gouge in the Olmsted landscape plan and the security 
problem of every time a truck entered or left the Visitors' 
Center having police stop the pedestrians who are walking on 
the grounds in that area.
    So that also was approved. I think one of the issues dealt 
with the Clerk of the House and the Secretary of the Senate 
being given clearance to develop a plan to raise private funds 
to supplement the $100 million that was originally 
appropriated. Those were the major issues that were raised and 
approved. In addition to that, several issues were raised 
relative to, say, a Library of Congress tunnel, the possibility 
of bringing one from the Jefferson Building over to the new 
Visitors' Center. So we are actually dotting our i's and 
crossing our t's in this validation planning study to be able 
to look at that possibility of the tunnel, the pluses and the 
minuses, the costs, the implications of running above the 
Amtrak tunnel, and the security issues relative to screening 
people on the library side versus the CVC side as well. So that 
is being studied as are several other issues raised by members 
of the staff.

                   VISITOR CENTER DESIGN DEVELOPMENT

    Mr. Pastor. So right now you are doing a letter of intent 
for the design work which is getting to be 6 months?
    Mr. Hantman. That is correct, sir.
    Mr. Pastor. What issues are still outstanding that will not 
be covered by this design? If I am going to do a letter of 
intent for design work, I am assuming that all of the issues 
are resolved and the design work is going to be for the final 
product. So the reason I asked the first question was there are 
still issues out there that are not finalized, and how are we 
doing a design letter of intent when there is still a few 
issues out there that aren't resolved?
    Mr. Hantman. Two things. First of all, one of the elements 
that I neglected to mention in response to your first question 
was the expansion area relative to the Capitol Visitors' 
Center. There is 150,000 square feet split evenly between the 
House and the Senate. That also was approved. As far as the 
design is concerned, design development is just that. We have a 
concept now. We have the layout of the broad sense of the 
spaces. What we need to bring before the Preservation 
Commission is the issues of the meeting rooms that they may or 
may not want in this space, the configuration of the 
auditorium, the capacity of the auditorium.
    Mr. Pastor. Let me stop you there. I have a hard time 
understanding how you are going to do a design and yet not know 
how many offices, how many rooms, what the auditorium is going 
to look like, I mean, that is a major design and you're going 
to have the design within 6 months. The Preservation Committee 
may not meet for another couple of months. Somewhere I am 
missing the boat. Maybe you might explain it to me.
    Mr. Hantman. Design development, actually, sir, serves that 
function. We will be going to the staff of the Preservation 
Commission with all of our questions. They will be bringing it 
to the individual members for resolution if, in fact, that is 
the nature of the type of question we ask. Design development 
is to do just that. We have an auditorium configuration, and we 
are looking at several alternative configurations at the 
request of the staff. We need to bring it to the Preservation 
Commission and say this is the one that makes the most sense, 
this it where we will go in the process. We will still have the 
construction document phase after the design development phase. 
There is another step of the design process. We are not turning 
them loose to do construction documents for bidding purposes 
until after this phase.
    Mr. Pastor. I think you are being optimistic, to say you 
are going to get it done in 6 months. If you are going to have 
the Preservation Committee, first of all, get together and look 
at the different designs that you are proposing, so I think you 
are pretty optimistic, don't you think?
    Mr. Hantman. I think we need to be optimistic. Quite 
frankly, Mr. Pastor----
    Mr. Pastor. In this environment, yes, I will grant you 
that.
    Mr. Hantman. I frankly think if we hadn't been optimistic 
with the planning and validation phase, we wouldn't be as far 
as we are today. We need to put it out there and communicate 
most effectively. We plan to have monthly meetings with staff 
members of the Preservation Commission to feed them 
information, to give them issues that need their resolution, 
and hopefully they can bring back to us some kind of resolution 
themselves.

                        VISITOR CENTER TIMELINE

    Mr. Pastor. I want to understand the timeline. Right now 
you have a letter of intent?
    Mr. Hantman. That is correct.
    Mr. Pastor. What is that going to do?
    Mr. Hantman. Basically we are having the General Accounting 
Office review the full contract that has been submitted by the 
consulting team. We need to have them sign off on that before 
we sign a full contract. But we know the full scope of work. We 
have been negotiating with them and before we go ahead--this is 
basically to get them started before we sign the full contract. 
But we have full intention and all expectations that their 
numbers are within the ballpark that we proposed and that we 
will be able to proceed with the full design development phase.
    Mr. Pastor. How much time do you think that is going to 
take, just to get the letter of intent okayed and issued and 
signed?
    Mr. Hantman. That is basically a done deal. We are working 
in parallel on a lot of these things, so we are in good shape.
    Mr. Pastor. So we have 6 months left to do the design.
    Mr. Hantman. Design development, correct.
    Mr. Pastor. That would put us what? Maybe July?
    Mr. Hantman. Correct.
    Mr. Pastor. And we are not here August. We are gone the end 
of September.
    Mr. Hantman. Which is why the review and approval process 
should be a continuing line of communication. It shouldn't be a 
surprise at the end of design development. In the interim, we 
will be communicating clearly with the members of the staff 
upon the issues we are discussing and need resolution. By that 
point in time, there should be no surprises at the end. 
Hopefully, we will get a clearance to proceed directly on to 
construction documents while the Congress is not in session.
    Mr. Taylor. I envision if we are called upon as a 
committee, we could communicate with you, even past session, 
through the end of the year. But you are right, we are going to 
have to beat a lot of schedules.
    Mr. Pastor. First of all, you are going to have the problem 
of having us come to an agreement. You know how hard that is. 
How many members?
    Mr. Hantman. There are 18.
    Mr. Pastor. So you start with that. That will take a good 
deal of time. There is a potential of slippage, and I am just 
trying to be more realistic than optimistic because we may end 
up being criticized for being too optimistic and come next year 
we may not have accomplished the goals that we have set for 
ourselves. And so that will be another Roll-Call article, and 
you will be criticized, and here we go again. I am just saying 
let's be more realistic, because I know it is very difficult to 
get 18 members to agree, especially since most Members are 
going to be gone for most of the year because this is election 
year also.
    Mr. Hantman. I detected a very positive sense from most of 
the Commission, most of the staff that I have certainly talked 
to. It seems as if a lot of people really want this to happen. 
I think it is important to remain optimistic, to be pushing the 
envelope, if you will, so that we can make deadlines that make 
some sense. It is achievable, and hopefully we can work hand-
in-glove on an ongoing basis, so there are no surprises, so we 
can get these approvals in a timely way.
    Mr. Pastor. Thank you, Mr. Chairman.
    Mr. Taylor. Mr. Lewis?

                          SUBCOMMITTEE SERVICE

    Mr. Lewis. Thank you very much, Mr. Chairman. It is a 
pleasure to be with you all here today. You wouldn't 
necessarily be aware of this but for the first dozen years of 
my life on the Appropriations Committee, I have had the 
privilege of serving on this subcommittee. They kicked me off 
for a number of years because I used to give Architects of the 
Capitol such a difficult time.
    Mr. Hoyer. Will the gentleman yield?
    Mr. Lewis. Certainly I would be happy to yield.
    Mr. Hoyer. He understates the case. He and I had this 
conversation. Mr. Lewis and Mr. Fazio were working together for 
some years on this committee, and in my opinion, they are the 
two individuals most responsible for much of the progress that 
has been made with respect to the legislative arm of government 
and with respect to maintaining the integrity of our systems 
here on Capitol Hill. So Mr. Lewis very substantially 
understates his role. He was a major contributor.
    Mr. Lewis. I thank my colleague very much for that. I must 
say, reminiscing a bit about those some-dozen years, it was 
during that time that we completed the Madison building and 
went about that magnificent restoration of the Jefferson 
building, watching for 15 years during the time I was here, the 
west side of the Capitol held up by those 20 by 20 ugly poles, 
the west front was finally completed after no small amount of 
controversy. I am reminded of that as Ed Pastor is talking 
about the problems of timing and agreement relative to the 
Visitors' Center. We had more than one go-around on the west 
front, some of which weren't nearly as successful as let's say 
the Jefferson was. But in the meantime, the work that you are 
about is really very, very important to all of us who love and 
use, and want the public to enjoy this magnificent setting. A 
former librarian--architect, excuse me, said to this committee 
while I served on it, this will not be a permanent addition. 
And I am speaking of a garbage collection bin built on the side 
of the Cannon Building, and that was well over a decade ago. It 
is well on its way to permanence. And I would really like to 
have an answer as to whether that is going to be a permanent 
restoration of the Cannon Building? And if it is going to be 
permanent, I would like to know whether or not the identical 
building on the Senate side is going to have a similar addition 
to it.
    Mr. Hantman. Perhaps two.
    Mr. Lewis. Having said that, I welcome you here and 
appreciate very much the work that you are about and will 
follow on with questions about the Visitors' Center.
    Mr. Hantman. Thank you, sir.

                           Opening Statement

    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                       VISITOR CENTER FUNDRAISING

    Mr. Taylor. Mr. Hoyer.
    Mr. Hoyer. Thank you. On the $100 million, which is about 
40 percent of the projected cost, do you know whether or not we 
have started any efforts in that regard yet?
    Mr. Hantman. Efforts on the fund raising portion?
    Mr. Hoyer. Yes.
    Mr. Hantman. I know that the Secretary of the Senate and 
Clerk of the House were putting together a plan for the 
Preservation Commission. I am not sure that they presented that 
plan to the Commission yet.
    Mr. Hoyer. Senator Dodd and I expressed a concern, as you 
recall, about the affixing of names with respect to commercial 
benefits. Obviously, we welcome the participation and 
contribution. I don't believe it will all be paid with public 
funds. I think you need to keep in touch with members closely 
as to what kind of recognition there is for whatever sums are 
contributed. As you know, the Library of Congress raises funds 
and there was an issue as to how those funds would be 
recognized in the Library itself. I think the resolution was, 
as I recall, they would permanently affix them in the stone 
facade of the building. I think that is an issue we ought to 
keep in focus so that we don't make decisions on that without 
giving proper consideration.
    Mr. Hantman. That is a very real area of sensitivity. We 
have discussed that. Clearly, we don't want golden arches or 
revolving restaurants or things like that related to the 
Capitol in any way. With respect to the Library of Congress, we 
have been asked by the Joint Committee to come up with several 
alternatives to permanent inscriptions in the stone and we have 
submitted information for that.
    Mr. Hoyer. I don't have any further questions, Mr. 
Chairman, other than to observe that our Ranking Member, Mr. 
Pastor, talked about optimism versus realism, and went on to 
say with respect to the scheduling, we may be leaving before 
the end of September. I will leave it to the Committee to 
decide whether that is realism or optimism.
    Mr. Taylor. There is this month, I think, a meeting from 
the Committee for a fund-raising plan, the Preservation 
Committee is going to be meeting this month so it would give us 
a chance to work on it.
    Ms. Granger, any questions?
    Ms. Granger. No.

                             BOTANIC GARDEN

    Mr. Taylor. I would like to go on past the Visitors' 
Center. We have a number of issues with the Architect. First, 
the Botanical Garden. We were there on one of the hottest days 
of the year. I suggest we all go down today and sort of even 
out the temperature. Could you give us an update on the status 
of the Botanical Garden project?
    Mr. Hantman. We have a contract underway; much construction 
work has been done; a lot of the infrastructure is in. Our 
contract goal was to have the building basically enclosed by 
September of this year. We still expect that that, in fact, 
will happen. We are working with the construction people right 
now relative to the Palm House. There are some issues relative 
to the delivery of glass and the timing when that will be 
installed. We still think that entire building will be under 
roof and fully enclosed. We also have a period following the 
construction portion of the work for replanting and 
acclimatization of the plants before a real grand opening would 
occur. So we have several months after that September period, 
which would then be bringing plants in for the Botanic Garden 
function itself.
    Mr. Taylor. How many months do you think?
    Mr. Hantman. For the replanting, sir?
    Mr. Taylor. Yes.
    Mr. Hantman. We were projecting three months for 
replanting. So hopefully by the end of the year we would have 
the replanting done. We are trying to work on some of the 
construction issues that are being slowed down now and see if 
they can be done in concert with the replanting so we don't 
lose any more time from there.
    Mr. Taylor. After this major investment, we expect the 
Garden to continue their traditional programs.
    Mr. Hantman. There is a very wide series of programs that 
are being planned in conjunction, certainly with the National 
Garden, which is going to be built through privately raised 
funds on the rest of the block with the Conservatory. So there 
will be many educational-type of programs for children that we 
will be able to broadcast from some of these facilities to 
schools around the country. Many educational programs that 
never could be carried on before are being planned now, sir.

                          ADDITIONAL POSITIONS

    Mr. Taylor. You have asked for 70 additional positions, 
including some custodial workers. Even though we have 
transferred some to the Senate last year, were we too generous 
in doing that, or are they going to give them back?
    Mr. Hantman. I think what we are going to be doing is in 
the markup, withdrawing those requests for the couple of extra 
people because we are requesting at the same time dollars to 
contract for day cleaning services for the restrooms. The 
clarification is the custodians were nighttime cleaners. We 
have never had an operation where bathrooms and public spaces 
were cleaned on a daytime basis. Clearly, members have reported 
with the high volume of visitors and traffic that we have in 
those bathrooms, it is important that we do that. We are 
requesting funding to be able to contract services during the 
day not impacting the nighttime custodial workers at all for 
those services. So those two people we were talking about were 
redundant; that will be withdrawn.
    Mr. Taylor. You have the 70 positions, about 4 or 5 percent 
of your work force. It may be hard to get that type of 
additional funding. Is visitation going up that much? How do 
you justify increasing your work force by 5 percent?
    Mr. Hantman. A good part of that, some 13 positions really 
relates to our life safety division. As you are probably aware, 
Mr. Chairman, we had hired a new director and a deputy director 
who are with us today. We have Phil Tapper and Pennie Hardesty 
who we brought on from, I guess, it was Goddard Space Center, 
and I believe it was from the Air Force and they have come up 
with a plan for appropriately staffing this new security life 
safety type of group. I think the Congressional Review Board 
has talked about staffing appropriately, so that we can move 
our projects along. We can monitor them appropriately, make 
sure that things are tested and maintained appropriately. So 13 
of those positions are specifically allocated to this life 
safety issue and we certainly can share an organization chart 
and talk in detail about the roles of those people.
    It is really not any one area throughout the agency, and a 
good part of those people really relate to the Senate side as 
well.
    Project management is a very key area that we are also 
proposing to bring people on for. We have many projects as you 
know. Our plate is quite full with a variety of issues and 
projects that we are doing on the House side and the Capitol, 
on the Senate side as well. And we need to be able to plan and 
coordinate that work, make sure that it is appropriately 
allocated, that we are following through as necessary with 
project managers as appropriate as well. So some of those staff 
relate to project management needs as well.
    Mr. Taylor. But you wouldn't be terribly disappointed if 
that staff were contributing with the project itself, which 
means it would come and go based on the completion of the 
projects?
    Mr. Hantman. This is exactly what we are proposing to do 
with the Visitors' Center, and have begun to do with other 
major projects where people would be charged directly to those 
projects, that they would, in fact, be people who are brought 
on for the term of the project as opposed to being permanent 
employees. So we are using a combination of methods, Mr. 
Chairman.
    Mr. Taylor. I have a number of questions, but in courtesy 
to the Committee, are there any questions as I move along, any 
questions about what we have covered so far?
    Mr. Pastor. I had some questions on personnel.
    Mr. Taylor. Go ahead.

                           HAZARDOUS DUTY PAY

    Mr. Pastor. In July of '99, you had, I think it was, nine 
employees that felt that they were in a hazardous condition. 
Coal dust was the problem. And they had tried to work it out 
with some of your supervisors. On appendix 6, page 2, you have 
environmental differential and what the process is. Where are 
we with those nine workers and what was the resolution of it? 
Because as I understand, the Office of Compliance had 30 days 
to review the claim, so that would put them into August or 
maybe September. What is the latest on it? Have they received 
the hazard pay? Did we follow the steps here that you outlined? 
What is the resolution?
    Mr. Hantman. We can certainly get back to you. I don't have 
the details on it. By the way, we had brought on a new head of 
the power plant, and making sure that we can, in fact, keep all 
of our life safety and security issues up to snuff on that, so 
we are looking top to bottom of the organization there to make 
sure that we address these life safety issues in a proactive 
way and eliminate any hazardous potential hazardous conditions 
at the time.
    Mr. Pastor. On occasion I read about the morale, employees 
feel like there is not a path of progression in terms of where 
they can develop themselves, develop opportunities, and there 
is still confrontation in some areas where minorities feel they 
don't have a shot at different jobs. What is your assessment 
right now? I go back to this article. We had nine African-
Americans working at the power plant and they tried to work it 
out saying they were entitled to hazardous pay, and yet I would 
think that it was important enough that somebody would know 
what the resolution is. And yet I ask you right now and you 
have no idea and will get back to me. Come on, guys.
    Mr. Hantman. As to the whole issue of hazardous pay across 
the campus, whether it is somebody cleaning windows on the 
outside of the building or at the power plant, there never was 
a policy relative to hazardous pay. That policy is in 
development right now, so that we are fair across the campus 
and have people, in fact, be able to be addressed in a manner 
that they can appreciate and understand. We also have been 
dealing with a lot of issues relative to change. I think that 
is sometimes difficult for people to relate to, but we need to 
do it in a fair and orderly way with methodologies and 
standards that people can understand and were committed to 
doing.
    Mr. Hantman. I'm just being informed that settlement was 
reached with the nine workers, and the basis of that settlement 
was that they would not be getting hazardous duty pay, but the 
safety issues were certainly cleaned up.
    Mr. Pastor. Basically this hazardous pay and environmental 
differential is being worked on or is it implemented?
    Mr. Hantman. For every class of worker who comes into 
potentially hazardous conditions, we are evaluating each one of 
them in a fair manner to give them the hazardous pay when it is 
appropriate, when it is a significant portion of their job and 
we are following standard government procedures to incorporate 
them and bring policies where policies did not exist before.
    Mr. Pastor. That is inhouse?
    Mr. Hantman. Yes.
    Mr. Pastor. When do you think you might complete that?
    Mr. Hantman. We're almost there on hazardous policy. I will 
get back to you on a specific date and give you a draft copy of 
what we are proposing.
    Mr. Pastor. Thank you, Mr. Chairman.
    Mr. Taylor. Mr. Hoyer, do you have any questions?
    Mr. Hoyer. I have questions on Office of Compliance. You 
want to do that now? Separately?
    Mr. Taylor. Further down.

                             CAPITAL BUDGET

    I want to go on to the capital budget now. The capital 
budget is $46.5 million. That includes 68 projects. That is up 
almost 120 percent. Of course, last year we questioned the 
capability of having the management available to handle it. 
This expanding workload, and of course, not to mention money, 
is probably going to be tighter than it was last year. Are you 
optimistic in your management capabilities with this continuous 
increase in projects? Can you maintain all the things that go 
with it, the planning, design, and so forth? Could you speak to 
that?
    Mr. Hantman. Surely. I began to allude to that earlier, Mr. 
Chairman. The concept of project management and how we bring 
people on most appropriately. In fact, the planning group that 
we have requested funding for to bring on is a key component of 
that. Mike Turnbull has been heading up this effort of 
evaluating how projects are managed. The architects, engineers 
and construction people report directly to Mike, in fact. Did 
you want to talk a little about that.
    Mr. Turnbull. We have had an in-depth three-month period 
right now, going through the whole organization, meeting with 
staff and the jurisdictions that we deal with and getting 
feedback and asking some important questions about what people 
feel are important needs. We are going to be in a position 
where we will be making changes within the organization to 
implement projects in the future. I would be happy to sit down 
with any one of you in the future to review what those policies 
are.
    Mr. Taylor. Have all the capital budget projects been 
completely designed and had formal cost estimates based on the 
designs been prepared? You know, what we had last year, and of 
course, 3 years before was a situation where we would have 
projects, Appropriations requested and they would all be out 
for a long period of time. We changed that procedure last year, 
and I expect we will follow it this year where we will look at 
the projects requested and then try to handle it inside this 
fiscal year what can be dealt with, and that is why as much 
information as you can provide us in that area would be 
helpful. Have we completed the design of those projects that we 
had before us when we left the end of last year?
    Mr. Hantman. The projects we bring to you, Mr. Chairman, 
for construction funding have met the criteria. We took you 
quite seriously on that. Whatever we are giving to you to be 
funded that has drawings assigned to them as opposed to 
replacing something in kind where it is not a drawing issue, we 
have 100 percent design for those elements.

                             CANNON GARAGE

    Mr. Taylor. How about the Cannon garage? We started out 
with an estimate of $3 million and then we went to $9 million. 
Is the $9 million based on a final design?
    Mr. Hantman. The $9 million is based on a final design.
    Mr. Taylor. How long will it close down the garage?
    Mr. Hantman. We had originally proposed that the project 
could be done in a way to inconvenience membership least. We 
had proposed that it could be done in an election year cycle 
such as the end of this year. Given the fact that the funding 
is not at hand, we are requesting it for the following year. We 
are talking about a seven-month period now that we would be 
working on the garage itself.
    Mr. Taylor. Where will the members and their staff park 
during that period of time?
    Mr. Hantman. We have been working with Pat Lanigan in the 
Sergeant of Arms office and he has plans. We have been working 
very closely with him to talk about the inconvenience and what 
alternative locations there would be.

                          DOME REHABILITATION

    Mr. Taylor. How about the dome rehab? There is no money in 
the budget for the dome rehab. You are still using phase I 
funds provided in the earlier supplement, about $7.5 million. 
How is that project going?
    Mr. Hantman. That project is going very well, Mr. Chairman. 
We expected that the original scope of work for the project 
will be done in the April timeframe. There are several other 
issues that we need to address within the $7.5 million budget 
which might take some of that work into the summer, but we 
expect to be removing all of the screening and the work that 
currently can be seen in the rotunda itself in that April 
timeframe. The work is proceeding well. We have, as you know, 
hazardous removal of lead based paint. That is being done in a 
contained area.
    What we are doing as far as phase II is concerned, though 
as I indicated, we had four priority areas, including life 
safety, project management, security, all of the issues related 
to service to the Congress. We are proposing that we put 
another year between us and phase II for the second phase of 
the Capitol dome. Happily, during investigations in this phase, 
we found that the structure is basically fine. It has been 
built for the ages. There are no real problems relative to the 
basic structure, but we think that we have higher priorities, 
in terms as you pointed out before, in balancing workload, to 
say that we can put off this project because we want to work on 
life safety issues because there are fiscal considerations. And 
this is a very major element of any budget, the second phase of 
the Capitol dome. So we, therefore, think that another year 
would give us the ability to get all of our information 
together relative to actual cost. By that point in time we have 
a good sense of what that cost is going to be.

                        DOME REHABILITATION COST

    Mr. Taylor. What is that cost?
    Mr. Hantman. We are talking about for the second phase 
about $39 million is what we are talking about now and that is 
an increase over what we had talked about before and the wisdom 
shown by this committee in talking about a hundred percent 
design really reflects on that because there were some major 
issues that impacted the increase in our estimates at that 
point.
    Mr. Taylor. You estimate about $38.8 million and that has 
gone up now.
    Mr. Hantman. We are looking at approximately $48 million 
now for both phases.
    Mr. Taylor. Gone up by about $10 million. Why was that 
extra cost needed?
    Mr. Hantman. Most of that cost is directly attributable to 
the issue of scaffolding and type of scaffolding. As you are 
aware, Mr. Chairman, we had to close down the Rotunda for a 
period of three weeks to erect the netting that we see up there 
right now. It's difficult to do that, to get a joint resolution 
of both Houses to do anything like that in the Rotunda. For the 
next phase of work, if we were to do what has been done in the 
past when the Apotheosis of Washington was repaired, and prior 
work had been done in the Rotunda itself, we would have 
scaffolding basically filling the Rotunda. We would have to 
close it for 2 to 3 years. Clearly we have several presidents, 
past presidents who have indicated they would want their--their 
families would want them to lie in state in the Rotunda. If we 
have gold medal ceremonies, whether it is for Mother Teresa or 
Rosa Parks or Bob Hope, that couldn't be done during that 
period of years. We brought to the leadership of both the House 
and the Senate several alternative scaffolding methods, and 
what we are recommending, and which they basically said to 
proceed with, is a scaffolding method that would kind of mimic 
what we are doing right now. It is hung from above as opposed 
to putting scaffolding on the floor. This would allow us to 
have ceremonies because clearly if a past president were to 
die, we wouldn't be able to take down the scaffolding in the 
two- to three-day period, and have the event there in any 
event. We would be looking at a $4 to $5 million premium just 
for the nature of the scaffolding on that.
    We are also looking at humidity control systems which have 
never been designed before up in the dome to avoid some of the 
water runoff and condensation that occurs on steel. So that 
costs more than the ballpark figure prior to its design.
    So once again, coming back to the whole design issue, those 
design documents are virtually finished. They will be finished 
in another month or so waiting for the final results at the 
close of the work in April, so we will give you a final number 
when we come back to you for appropriations in the year 2002.
    [Question from Chairman Taylor and response follows:]

    Question. For the record, please provide a more detailed 
description of why the dome estimate has gone up by $10 million since 
last year?
    Response. the production of construction documents for phase 2 of 
the work began early in 1999 and continue through 1999 leading to the 
final submission by the consultant team at year end. Prior to that 
time, the cost estimate was based upon conceptual thinking in many 
areas of this unique project. As the concepts were converted to actual 
design options, leading to decisions and detailed design solutions, the 
overall cost estimate increased. The most prominent elements of the 
increase are as follows:
    Scaffolding options were determined and designed. Both the exterior 
scaffolding scheme and the two options for interior scaffolding--a 
traditional system rising from the Rotunda floor and an elaborate 
structural shell constructed well above the Rotunda floor--were 
considerably more expensive than earlier anticipated. Also, in order to 
preserve an open Rotunda suitable for ceremonial events, the 
Congressional Leadership selected the more expensive of the interior 
scaffolding schemes.
    Both the updated air conditioning system for the Rotunda and the 
new dehumidification system for the interstitial space between inner 
and outer shells of the dome were more fully defined and priced. The 
earlier cost estimates on these systems were too low.
    A substantial increase in the number of cast iron defects 
identified and documented resulted from the paint removal and survey 
process in phase 1, now approximately 65% complete. Earlier estimates 
and extrapolations were inadequate. Phase 1 work will be completed in 
May 2000 and all cast iron defects will have been identified. As a 
result, there may be further adjustments in the final project cost that 
will be submitted with the fiscal year 2002 budget request.
    The unit cost estimates for estimates for lead-based paint removal 
and repainting in phase 1 were deemed too low based upon the bids 
received. Consequently, these unit costs were raised during 1999 in the 
cost estimates for phase 2.
    The cost of the District of Columbia lead permit fee for phase 2 
was inadvertently omitted from early cost estimates.
    As a result of the one year delay in seeking funding for phase 2--
fiscal year 2002 instead of the originally planned fiscal year 2001--
the total cost of the project was further escalated.

                      U.S. CAPITOL POLICE PROJECTS

    Mr. Taylor. You started several police projects; off-site 
delivery system, training facility, and vehicle maintenance. 
All total, these projects are estimated to cost over $30 
million. Has every project been designed?
    Mr. Hantman. All of the funding that we are requesting at 
this point in time is for design funding and land acquisition 
for these projects. So no detailed design has been done. In 
concept, the magnitude of space needs for training, for off-
site inspection, for all of these issues have been determined 
through a study, but there is no design to key into anything 
but a magnitude of potential cost at this point.
    Mr. Taylor. We already have facilities for each of these 
uses. Why do you assign them 1A priorities?
    Mr. Hantman. As a member of the Capitol Police Board, I 
work very closely with the Sergeant at Arms of the House, 
Sergeant at Arms of the Senate and Chief Abrecht and the entire 
police force. We created a multidisciplinary 
interjurisdictional task force to do this study, and perhaps 
the Chief would be better able to respond to that than I am at 
this point.
    Chief Abrecht. There are basically three major projects 
that are sought for design on this--our training academy, the 
off-site delivery center, and the vehicle maintenance facility. 
Truthfully, we have no training facility at the present time. 
We operate out of two transformed office spaces in the Ford 
Office Building. They call it a training academy. It is truly 
ludicrous for a police agency of over a thousand officers. We 
have no training facility worthy of the name.
    We are also using some space out at Anacostia at the naval 
air station which we have obtained for a short term while we do 
the buildup.
    So we essentially have nothing near the sort of training 
facility that would be required for a police force of this 
size. We have no facilities for doing any type of scenario 
training where you actually teach the officer how he would 
actually--essentially classroom space is all that we have. We 
have no space where you can mimic--where we could build, for 
instance, an entrance to the Capitol and show an officer how to 
position himself, how to screen someone. None of those 
facilities is available. So the training facility is just--we 
are in dire need of a proper training academy for a police 
force the size of this agency.
    The vehicle maintenance facility is a metal shed that is 
rodent infested, insect infested, has one bay and is 
essentially falling down. The insulation falls down from the 
ceiling onto the mechanics on a regular basis; and, as we have 
been told by the Architect, it is essentially irreparable. It 
needs to be replaced.
    The off-site delivery facility is an old warehouse, a meat-
packing plant if I remember correctly, that is also way past 
its prime. It can't be expanded. It is not owned. It is leased. 
So you would have to put money into a leased facility, and we 
have pushed it to its very limits by bringing the House side on 
board for screening the House freight which was direly needed 
and a wonderful addition to the House security.
    We no longer allow semitrailers full of what we don't know 
into the loading bays in, for instance, the Rayburn Building. 
To do that we have strained this facility way past its 
capacity.
    Those are basically the issues with the three facilities 
that we are seeking most rapidly to replace.

                U.S. CAPITOL POLICE VEHICLE MAINTENANCE

    Mr. Taylor. Have you considered privatization for vehicle 
maintenance?
    Chief Abrecht. We are. We are looking at the possibility of 
moving some of our fleet to a lease status. We are continuing 
to discuss that. That is a possibility.
    Mr. Taylor. How many vehicles do we have? I assume this is 
motorcycles and cars?
    Chief Abrecht. We have over a hundred vehicles if you count 
the motorcycles.
    Mr. Taylor. Could you provide for the record a detail of 
the total number of vehicles, motorcycles, and 4-wheel 
drivetrucks?
    Chief Abrecht. I would be glad to get it for you. I don't 
have it off the top of my head, I am sorry to say.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chief Abrecht. I believe we have over 80 four-wheel 
vehicles. Some of it is very hard to get from the private 
sector such as the installation of the electronic equipment, 
the radios, and the red lights and all of that.
    We also do some installations in vehicles that are not 
owned by us. They are used to provide protection for leadership 
and things of that nature.
    Mr. Taylor. Thank you, Chief.

                           RAYBURN CAFETERIA

    Moving on to some of the other projects, the Rayburn 
cafeteria, we received criticism during the floor debate last 
year for including funds for the Rayburn cafeteria. Now, that 
project was estimated at $3.4 million. Now you have it back at 
$5.3 million. Why is it in the budget and why does it have a 56 
percent increase?
    Mr. Hantman. The Rayburn cafeteria renovations were 
reintroduced in this budget at the request of the CAO due to 
the continued need for physical improvements, customer service, 
replacement of worn equipment and for compliance safety 
systems. The $3.4 million was a target figure based upon 
estimates, with no construction documents done at that point in 
time. We now have construction documents which indicate that 
the full scope of work originally defined would be up in the 
range of $4.2 million based on our hundred percent drawings. We 
had done a preliminary 60 percent estimate which indicated it 
might be as high as $5.3 million, but we redesigned and re-
engineered to come back down as close as we could to the 
original $3.4 million estimate.
    What we have right now is the ability to proceed with the 
greater portion of the project which is the Pizza Plus area, 
the dining area and the exhaust system for safety purposes are 
all within that $3.4 million, but funding for the kitchen 
equipment could be deferred until a later time. We have talked 
to the CAO about that so we can still do the majority of our 
work within the $3.4 million.

                           CAPITOL POWERPLANT

    Mr. Taylor. How about the powerplant? You want to convert 
boilers 1 and 2 from coal to gas and oil. Will this save fuel 
costs or add more operating cost?
    Mr. Hantman. The expectation is costs will go up, not down. 
We are talking about EPA criteria and meeting the criteria of 
the District relative to pollution controls. So any time we 
change from coal, which is our primary fuel at this point in 
time, we decrease the amount of coal and go to either oil or 
gas. That is an increase in price, and it is basically a 
response to the EPA criteria and a necessity to cut down on 
pollution from the plant.
    Mr. Taylor. The operating costs you say will go up?
    Mr. Hantman. That is correct.
    Mr. Taylor. How much would you say?
    Mr. Pregnall. Mr. Chairman, we are constantly evaluating 
the break-even point in our fuel operations. We do not yet have 
a handle on where the break-even point is and what it will 
cost.
    On the other hand, we have proposed maximizing our 
flexibility of the plant by introducing co-firing agents of 
boilers. That is the ability to use both oil and gas or coal 
and oil in the same boiler at the same time. That way we can 
meet both emission standards by using the cheapest fuels at the 
time. But we do not have that analysis completed.
    Mr. Taylor. You start a $4.4 million project to install oil 
storage tanks. Do we store oil at the plant now and how much do 
we store and how much will this add?
    Mr. Hantman. Mr. Chairman, we currently store 200,000 
gallons of oil at the plant based on our needs. That really 
satisfies a 2-day need during a peak winter day to produce 
steam for the needs of the Capitol Hill complex.
    Our sense, sir, is that a 2-day supply is not adequate to 
give us assurance that Congress will be able to complete its 
work to stay in session if there were a strike, an oil strike, 
if in fact there were a breakdown in our gas line and that 
couldn't be delivered. What we are proposing is that we go to a 
10-day backup, and that would give us a total million gallon 
capacity, allow us to operate for that period of time so 
hopefully we could solve whatever problems we might have in 
terms of delivery problems or gas line breakage, things of that 
nature. We just don't think that we have an adequate capacity.
    Mr. Taylor. What is a unit of oil versus a unit of gas at 
this time, a comparable unit of gas?
    Mr. Pregnall. You are talking about the cost of BTU?
    Mr. Taylor. Probably the best way to evaluate it.
    Mr. Pregnall. We have not calculated the BTU but can 
provide that for the record.
    [Question from Chairman Taylor and response follows:]

    Question. Provide the total BTU costs for the record.
    Response. Based on the actual fuel cost for fiscal year 
1999, the fuel cost per million BTU's (MMBTU) for each fuel 
was: $4.00 for oil, $4.70 for gas and $2.20 for coal. In 
addition to the fuel cost, additional direct operating costs 
would increase the coal cost per MMBTU's to approximately 
$2.80. These costs do not include the additional capital costs 
related to burning coal such as bag houses, the periodic 
replacement of filter bags, and coal moving equipment. During 
fiscal year 1999, the Plant used 1,270,454 MMBTU's of fuel. 
This included 124,464 MMBTU's from oil, 248,780 from coal and 
897,210 from gas.
    As noted the above cost per MMBTU's is based on fiscal year 
1999 costs. The average cost of oil for fiscal year 1999 was 
$0.56 per gallon. This cost was unusually low. The cost of 
fuel, especially oil and gas, varies during the year, normally 
peaking during the winter months. For the week of February 6, 
2000 the cost per gallon of fuel oil was $1.39.

                     CAPITOL POWER PLANT EXPANSION

    Mr. Pregnall. For information, we are currently paying 91 
cents per gallon of fuel oil, whereas last year at this time we 
payed 56 cents for the same gallon. That cost has risen 
dramatically. It should go down later in the year, but we 
aren't exactly sure. Our costs for natural gas is currently 44 
cents per therm. Last year's average was about 47 cents per 
therm. So we are actually having a little cost savings there in 
natural gas.
    Mr. Taylor. You are looking for backup and you are talking 
about storing 4.4 million plus trying to store and all the 
things that you get into there. Gas, we found your study would 
have to conclude this is usually cheaper and it doesn't require 
the kind of storage that you are talking about on-line. Plus, 
have you looked into the possibility of buying power and an 
emergency backup power from utilities?
    Mr. Hantman. All of our power is through Pepco at this 
time. We don't produce power, just steam and chilled water. The 
fuel is to produce the steam and chilled water.
    Mr. Taylor. Can we find an alternative for that? Have you 
thought about it?
    Mr. Hantman. It is interesting----
    Mr. Taylor. As a backup?
    Mr. Hantman. For steam and chilled water. The Smithsonian 
was actually having problems with that themselves in the 
museum. They were looking at buying chilled water from us 
because their capacity needs to be increased as well. I am not 
sure that we have. We are just talking about if it is backup 
capacity for electricity. The possibility of bringing in a 
source from another direction has been looked into. There are 
some significant dollars associated with that. We certainly 
could report in more detail to you.
    Mr. Taylor. That is an area we would like to go into.
    [Questions from Chairman Taylor and responses follow:]

    Question. Is this project essential? Would close management 
of our inventories remove the need for expanded storage?
    Response. The additional oil storage is needed assuming we 
will have to move away from coal to meet lower emission 
standards. The Plant's two large co fired (coal/gas) boilers 
can only reach a minimum emission level of 0.35 pounds of NOx 
per million BTU MMBTU's) burning the maximum 35 percent mixture 
of gas. Current discussion projects lowering the maximum level 
of NOx to 0.25 pounds per MMBTU in the next several years. To 
meet the reduced emissions levels, the Plant will have to rely 
on two fuels, gas and oil. Funding has been requested to design 
an oil storage capacity of 1,000,000 gallons which will provide 
service for 10 days. This amount was arrived at by anticipating 
a weather event where we have a gas curtailment, and oil 
trucks/rail cars cannot deliver due to road/rail conditions. 
Other factors to consider are a gas line break, trucking and/or 
rail strike, and an oil or gas shortage. This capacity will 
provide a level of redundancy to assure continued steam supply. 
If we do not have this capacity, it is possible that we could 
have a service interruption.
    Question. Do we have room for the expansion?
    Response. Yes, there is sufficient room for additional fuel 
oil storage at the auxiliary coal yard located to the south of 
the main plant. The new tank(s) will be connected to a day tank 
located at the plant by a pipe that will be approximately 750 
feet long.

                              FIRE SAFETY

    Mr. Taylor. The fire safety report you take up in the 
Office of Compliance, and I think he had some questions, and I 
do, too.
    We know there was a recent report on fire safety. There 
were a number of findings which seemed to indicate the need for 
more aggressive followup by the Architect's Office to improve 
fire safety systems and devices in the buildings. Would you 
comment on these? How much of that report would you say is real 
in the sense that it was in reality or how much it may state 
what is actually going on? Could you comment on the findings?
    Mr. Hantman. First of all, let me say that I am very proud 
of the significant progress we have made over the past several 
years in improving fire safety throughout all the buildings in 
the Capitol complex. We have made great strides in this 
priority area, and clearly there is a lot more work to be done.
    We are proceeding along the roads that you had talked 
about, Mr. Chairman, in terms of requesting money to do 
studies. Once we get studies done and we find out the issues 
and are ready to go to detailed design, we come back to you for 
funding for detailed design. Upon completion of that when we 
have detailed design estimates, we then come to you for actual 
dollars to do the work.
    So this is a process of planning that we are getting into, 
Mr. Chairman, that really hasn't been in existence in this 
agency before. Patchwork quilts have been done; patches here 
and there. What we are trying to do is develop a comprehensive 
program that works on the Hill and in the interim make sure 
that we are upgrading as we can in the short run.
    For instance, let me note some of the year's highlights. I 
think we have achieved an awful lot.
    In the Cannon Office Building we installed over 2,000 smoke 
detectors.
    In the Rayburn Building we installed some 5,000 smoke 
detectors that are going to be connected in the fire alarm 
system in the coming months. We installed 28 emergency egress 
doors, 368 permanent and many, many temporary battery operated 
emergency exits throughout the building. We are in the bidding 
process and will soon award a contract for the installation of 
a sprinkler system for the Rayburn Building.
    In the Capitol, we have installed some seven emergency 
egress doors that never existed before, including the south and 
the north doors with fine mill work in keeping with the 
Capitol's quality finishes. We installed temporary battery 
operated emergency egress lights throughout the Capitol, 
firemen's phones in five of the elevators in the Capitol, and 
42 rooms have been renovated, with the issues of smoke 
detectors and potential sprinkler areas to be tapped into.
    A lot of studies have been done, Mr. Chairman, and are 
being done and concluded over the next several months. What we 
want to do is take these studies, bring on a design firm to 
come up with a master plan to implement these studies and come 
back to you for the funding to do so, so that we can have full 
designs throughout the Capitol, throughout our House and Senate 
Office Buildings that are as compliant as possible with current 
codes.
    One of the issues that we have right now is clearly that 
the compliance report talks about a lot of issues that are 
performance-- are not performance based but they are 
prescriptive.
    The NFPA just came out with a new set of standards. This is 
the journal which is the magazine of the National Fire 
Protection Association. They had a meeting in November of this 
last year. In the front, the President's statement talks about 
the fact that this is the first time that NFPA fully 
incorporates a complete performance-based approach. It evolved 
as a result of some of the earlier legislation, but now we will 
have both the prescriptive approaches as well as the flexible 
performance-based approaches to solve problems.
    The compliance report talked about putting walls around 
open monumental stairs in the Capitol. That basically would 
turn what is a monumental building into a rabbit warren, 
something with Sheetrock around major openings, the whole sense 
of the building would be lost.
    What we are trying to do, Mr. Chairman, is come up with a 
balance. There are things that clearly need to be done. There 
are improvements that are being planned and that will be done 
in the context of an overall master plan that makes sense to 
preserve our heritage here up on Capitol Hill as well as to get 
life safety issues done in a timely way.
    I had an interesting discussion with Senator George 
Voinovich just before the State of the Union last week. You are 
probably aware before he became a Senator he was governor of 
Ohio. And, last Thursday, there was an article in the Roll Call 
that came out talking about the compliance report and some of 
the issues there; and he was talking about how a lot of people 
just don't recognize the amount of time that it takes to get 
jobs done. He was saying, as governor of Ohio, their statehouse 
is 400,000 square feet in space area. He vacated the governor's 
portion of the statehouse for 3 years for them to do half of 
the building, and then the House and Senate vacated for another 
3 years to do the other half the building.
    What I am trying to say is the work that we need to get 
done is very difficult. We have a wonderful Congress here, 
wonderful staff who work long hours. Part of the challenge of 
the Architect's Office is to get work done without interfering 
with the work of the Members and the staff and to get it done 
at nighttime during breaks is very difficult to do, especially 
in landmark buildings such as the Cannon, the Russell, the 
Capitol Building itself.
    So a lot of points were brought up in this compliance 
report, points that we are aware of, that we have studies going 
on for at this point in time, and we need to move in an orderly 
process to be able to implement that. Quite frankly, we may be 
sitting here next year, the year after, the year after that 
talking about enclosing monumental stairs, and I think we need 
to have conclusions that don't impact the nature of these 
historic buildings but still ameliorate some of the life safety 
issues that have been raised.

                          FIRE SYSTEM TESTING

    Mr. Taylor. I will commend you for the report you have 
given us on progress.
    What I was looking at, there were a couple of the concerns 
raised including the lack of testing. Can you address the one 
about testing? I believe it related to fire extinguishers and/
or sprinklers.
    Mr. Hantman. Mr. Chairman, if you refer to the minutes of 
the meeting of last year, we brought this issue up with you at 
that point in time. We basically said the Compliance Act, the 
Congressional Accountability Act have so many new criteria that 
people in our agency don't have the capability to handle that. 
That is why we brought on new people from Goddard Space Center 
and other areas. That is why we are requesting more staff to do 
this work. The infrastructure to do this does not exist.
    So, last year, Mr. Chairman, we requested funds to bring on 
outside firms, and you basically gave us those funds. The 
Senate gave us those funds. We are just about to let our first 
contract for maintenance and testing of these elements, and we 
are going to bring that out in the following months throughout 
the entire campus.
    Mr. Taylor. You got criticized for not testing the 
sprinkler that hadn't been installed?
    Mr. Hantman. What we are trying to do--any time an office 
is available to us, what we try to do is inconvenience members 
and staff once. So if we were to come into this room if this 
room were to be vacated for a period of time, we could come in, 
put in life safety systems, stub out a sprinkler head in this 
room, detectors as well for the ultimate zoning of this section 
of the Capitol. We can't hook up the sprinkler head in this 
room until all the rooms in this area basically are done so we 
can have a single point going back to panels to turn them on. 
The infrastructure needs to be done. We are chopping walls to 
run conduit.
    Mr. Taylor. What I am asking, did you get criticized for 
not inspecting those things that haven't been installed, in 
fact, they haven't been connected?
    Mr. Hantman. That is correct, sir. Amita Poole is our 
superintendent----
    Mr. Taylor. Are we testing the compliance department for 
competency?
    Ms. Poole. Many of the fire alarms that are installed in 
this building are installed in what we call the zone fire alarm 
system, which means they are required to vacate an entire area 
to be able to install all of the fire--smoke detectors. As we 
go into the rooms, we do install smoke detectors. Sometimes 
they are not--a whole zone is not provided to us to complete 
during a recess period. It is not vacated. Therefore, we may 
install three or four fire smoke alarms in an area and wait 
until the next recess when we have the entire zone available to 
us to go ahead and install the remainder of the smoke 
detectors. In a sense the smoke detectors that are still up 
will not be operational until the remainder of the smoke 
detectors are completed. So, yes, the Office of Compliance did 
look at partial smoke detectors being installed and said they 
were not operational.
    Mr. Pastor. Could I have a question on that?
    Mr. Taylor. Yes.
    Mr. Hantman. Just one clarification, sir. There is no 
question about that, in taking our staff and being--
concentrating on areas of installing these systems prior to 
hooking them up, some of the testing has not been able to be 
accomplished by the existing staff that we have right now. In 
that sense, the compliance report is not incorrect. That is why 
we are bringing on outside firms to do the testing and the 
maintenance. We just don't have the capacity.
    Mr. Taylor. Do they coordinate with you? I mean, these are 
not foreign entities. There ought to be a coordination as to 
what you are doing. Certainly if we get a report it ought to be 
that we are not working hard enough or fast enough, not 
something that would assume us to be idiots.
    You have a question, Mr. Pastor?

                      RAYBURN BUILDING FIRE SYSTEM

    Mr. Pastor. I am in the Rayburn Building on the fourth 
floor. I think it was 3 years ago or two and a half years ago 
when they rewired if not all the Rayburn most of it because you 
don't see the people there at night hanging the wires, doing 
the infrastructure. At that time they installed what I think 
are smoke detectors. I can't tell because they are covered. And 
it has been about a year and a half, maybe longer, where there 
has been a sign ``not in service'' pasted on the device.
    Now, I have not seen at night--and I stay here long nights 
doing my work, looking at the recycling program and things like 
that the work that you saw two, two and a half years ago where 
people were there taking ceilings off but yet the smoke alarm 
system is not in service. My question is, what is the problem 
so I have a better idea of what's happening?
    Mr. Hantman. The basic system in terms of its distribution 
has been installed. We are getting panels in that all of these 
and remote points will be hooked up to. There have been issues 
relative to the Y2K problem of the panels being in conformance 
with the Y2K. We have a number of months yet before we can get 
this equipment in so we can hook the systems up.
    Bob Miley, do you have some more information on that?
    Mr. Miley. You're absolutely correct as far as the fire 
alarm panels.
    Mr. Pastor. Where are those panels going to be?
    Mr. Miley. They are in the basement area of the building. 
There will be an enunciator panel in the Rayburn garage 
entrance for the police to monitor.
    The reason there has been probably a longer gap in your 
area than others, we started at the top of the building and 
have worked our way down. In that process we have installed 
over 5,000 of those detectors so that the minute the fire alarm 
panel is ready, we will have the detectors in and wired.
    Now, the other major accomplishment----
    Mr. Pastor. When do you think you will have the panel in?
    Mr. Miley. Right now, it looks like it is going to be in 
the neighborhood of 4 to 6 months before that will be 
functional for various reasons.
    Mr. Pastor. Give me one.
    Mr. Miley. Well, there was funding requested through the 
Y2K program to do some of the upgrading of this panel. That has 
still been the process in the works.
    The availability of people reframing these fire alarm 
panels is very difficult, too. Phil Tapper, our fire protection 
head, may be able to add some more to that.
    But one of the other things I want to note in the Rayburn 
Building that you didn't have this time a year ago, we do have 
a building wide fire alarm system which is now functional, 
which we didn't have before, with a series of pull stations and 
alarms and strobe lights throughout the building that will 
alarm--centrally alarm any point in the building when we pull 
them. There is a pull station at every stairwell now that is 
active.
    Mr. Pastor. But I have seen a number of alarm systems where 
they are covered over but not in service.
    Mr. Miley. That is the old pull station. The only reason 
those have not been removed is because there is a study under 
way by our consultants to see if we need additional pull 
stations. This system was installed for a design that was 
probably 4 to 5 years old. There is some question as to whether 
we need additional pull stations, and we may want to use some 
of the old stations, some of the old pull stations.
    Mr. Pastor. Because right now, with the new system, you 
have one per hall pretty much. If you go down the corridor you 
have one and if you were to put the second one, the old system, 
back in operation, you would have two. And the old system 
pretty much has the pull station right in the middle of the 
corridor where your new system is pretty much to the end of the 
corridor.
    Mr. Miley. Yes. That is what the consultant is looking at 
right now, to see the feasibility of reusing that conduit in 
that location for the additional pull stations.
    Mr. Pastor. Could I make another suggestion? And this is 
only the Rayburn. There is the exit door at the basement. You 
have to push the bar and hold it for 30 seconds. And if it is 
not held for 30 seconds it is not going to open. The directions 
you have--and maybe I just don't read well, but you think a 
person about my reading capacity would understand it. It is 
very difficult to understand what you have to do. You might 
make it easier. Because if someone is going out, they are going 
to be banging it and then it is not going to open. Maybe the 
instructions might be a little better to have them hold it for 
30 seconds and the alarm will ring and it will open.
    Mr. Miley. That is under way also. Until such time as the 
complete fire alarm panel is up and activated, at that time you 
will not have to participate. If there is no fire alarm in the 
building and you have to evacuate, the doors would immediately 
release. This interim there will be some additional signage to 
clarify that.

                            EMERGENCY EXITS

    Mr. Taylor. Let me ask two quick questions and turn it over 
to the rest of the committee now.
    The report I found noted that the police didn't seem to 
know how to operate the emergency exits. If that is true, tell 
us why it is true. And then they also questioned whether the 
kitchen workers know how to operate the fire suppressing 
equipment and how you account for those two things. Could you 
answer those two, one and two?
    Mr. Hantman. Surely. Chief, did you want to talk to the 
police?
    Chief Abrecht. It is not for lack of trying that the 
officers don't understand it. We have done about four different 
things to teach the officers. This is sort of anecdotal 
statements that the Office of Compliance made.
    We have gone down to every roll call Mr. Greeley has with a 
mock-up of one of these doors with the push bar on them, shown 
them how to work on two separate occasions and are doing a 
third cycle of it now, having read the report.
    We are also preparing a videotape that will show it one 
more time. And today I issued a written directive explaining it 
line for line, going on for several pages, to each officer for 
whom each will have to sign for, that they have received this 
document and that they know for a fact how to open an alarm 
door. It doesn't seem that complicated to me, but I am afraid 
that the officers apparently continue to report that they don't 
know how to operate these doors.
    Mr. Hoyer. Could we have a training session for those----
    Mr. Taylor. I am concerned. You issue these people guns and 
have them perform a number of highly important security 
responsibilities. Are they being over tasked?
    Can you tell us about the kitchen workers?
    Mr. Hantman. Training had been given to the kitchen workers 
originally but the staff has turned over and need training as 
well. These life safety systems, these emergency systems are 
essentially automatic, but there is also a backup button that 
staff needs to be trained on. In fact, the CAO has had his 
staff go in and train the people of Guest Services, Inc. so 
that they will know what to do and how to do that, and we are 
going to make that a part of our quarterly maintenance and 
testing service and will bring people on to do this so it 
doesn't fall to the CAO to do that. Part of the problem, of 
course, is that Guest Services needs to tell us when they have 
a change in personnel so we can train those people 
appropriately.
    Mr. Lewis. Excuse me. Have we had fires in the kitchens 
where this lack of understanding has been a problem? Have we 
never had a fire in the kitchen?
    Mr. Hantman. The suppression equipment worked fine on that. 
It is automatic. So the question is, is there an overriding 
manual button if the automatic doesn't work, and that is what 
the training needs to be for.

                      OFFICE OF COMPLIANCE REPORT

    Mr. Taylor. Could you place the compliance report record 
and your response and especially the status of each finding in 
the record?
    Mr. Hantman. We certainly will.
    [The information follows:]

    As was discussed at the hearing, our staff is actively 
working on corrective measures to resolve all issues identified 
in the Office of Compliance report. Many of these issues, such 
as relocating inappropriately stored hazardous materials, are 
being resolved quickly with existing resources. As of this 
date, approximately one third of the issues identified, which 
can be resolved with current resources, have been resolved. All 
of those remaining which can be resolved with current resources 
will be corrected by the end of this fiscal year, most in the 
third quarter. This is attributed to material and resource 
requirements, access/scheduling, or need for further 
information.
    Issues such as the emergency exits, which are ``routinely 
locked when Congress is out of session, or on weekends and 
after visitors hours,'' require coordination with Capitol 
Police, and in some cases, detailed design prior to 
implementation of corrective action. As the Committee is aware, 
there are several items in the report, which will take time to 
clarify, design, and implement an appropriate correction. All 
of the issues, such as the exits and fire barriers, identified 
by the Office of Compliance were known to the AOC and 
corrective actions were either underway or requests for 
additional resources were submitted. In many cases interim 
designs and corrective actions are being implemented prior to 
long term permanent solutions. Examples of these can best be 
seen in the Capitol where battery pack emergency lights have 
been installed while studies and designs are being completed on 
permanent emergency lighting corrections that do not impact 
preservation of the historic infrastructure.
    As the Committee is aware, funding for complicated 
corrective actions was either in our FY00 budget or was 
requested in FY01 and subsequent out-years. Each of these is 
being reviewed to determine what is needed to accelerate their 
correction. The AOC is also investigating lessons learned from 
other historic facilities, such as the Statehouse in Ohio, 
which recently underwent renovation. The AOC will be meeting 
representatives from that project on March 1, 2000. Performance 
based solutions are also being investigated to determine how 
best to protect the infrastructure while maintaining its 
historic significance. This is specifically being explored for 
the Capitol, where monumental stairs cannot be enclosed without 
drastically changing their appearance. Accelerating certain 
elements of projects is also being investigated, such as 
providing sprinklers and fire alarms in public spaces, 
stairways, and hallways first to increase levels of protection 
while not significantly impacting the business of government.
    In closing, I wish to reiterate that my highest priority is 
enhancing the safety of Members, staff and visitors to the 
Capitol complex. The AOC continues to bring this historic 
complex into conformance with current lift safety standards as 
rapidly as possible, but this will take several years and 
require significant investment of resources to achieve. I thank 
you for keeping this issue at the forefront and for your 
support and understanding as we move forward.

                              FIRE DRILLS

    Mr. Pastor. One more question.
    Mr. Taylor. Mr. Pastor.
    Mr. Pastor. Do we have fire training in terms of how to 
evacuate for our staff? I have been in the Rayburn I don't know 
how many years. I don't think I could tell you right now what 
the process we would follow. I just wondered, is that part of 
your plan? Are you going to be doing some of that?
    Mr. Lewis. I remember when you were a child in grammar 
school you had those exit drills.
    Mr. Pastor. So many feet away from the sidewalk, couldn't 
yell and scream.
    Mr. Hantman. We initiated fire drills just over the last 
year in concert with the Capitol police.
    Did you want to comment on that?
    Chief Abrecht. Our officers visit every office once a year. 
We urge that each office is supposed to have a fire evacuation 
plan for showing their people which way they are supposed to 
go. We then have a fire drill once a year for each building. We 
evacuate the entire building. We preannounce them and do it 
every year. Meet with some member of the staff, give them some 
brochures we have. I think we have made quite a lot of 
progress. Obviously, it is not as good as it could be. Perhaps 
we may need to do it more often. That is where we are now.

                    EMERGENCY EXIT DOOR INSTRUCTIONS

    Mr. Taylor. Mr. Lewis, do you have a question?
    Mr. Lewis. No.
    Mr.  Taylor.  Mr. Hoyer.
    Mr. Hoyer. Just an observation about the officers. I know 
you were somewhat teasing. We have a very high caliber of 
professional officers. But the Ranking Member, for whom I have 
great respect, and a college graduate, and law school graduate, 
says he has trouble understanding how to open those doors. I 
haven't tried to open the doors, haven't read the instructions, 
so I am sure I would be caught for at least 30 seconds in this 
conundrum.
    Mr. Pastor. The reason I went down there is part of the 
report said the police officers were having problems in opening 
these doors. I figured, how hard is it? I went down there--I 
didn't hit it, but I read the instructions. I said, wow, this 
great institution, they could improve the instructions on these 
doors. You don't know what you have to do. And I think most 
people would want to hit the bar and push out. Well, if you 
read the instructions, you have to hold it for 30 seconds and 
the alarm will go off and it will open.
    Mr. Hoyer. I make an observation that our officers are 
high-caliber people, and I am sure they are confronted with the 
same problem.
    Mr. Hantman. It is an interesting point.
    Mr. Hoyer. Let me go on, Mr. Hantman, if I can.
    Mr. Hantman. The signage, by the way, and the words are as 
per required by code, which is why we've got to go to more 
performance type of situations so those words need to clearly 
say what they need to say.

                          ACCOUNTABILILTY ACT

    Mr. Hoyer. Mr. Hantman, let me start with that now that you 
have brought it up. We adopted the Accountability Act. There 
was a great deal of hoopla about adopting the Accountability 
Act in 1995 and how we were going to comply. We had already 
established an inspector general, and the inspector general was 
specifically charged with the responsibility of making sure 
that we were doing what we said we were going to do.
    Now, the inspector general has said that we have severe 
problems. Let me ask you, first, if we were a commercially-
operating business in the District of Columbia, could we 
continue to operate? Would we continue to have thousands of 
people come into our institution or would our use and occupancy 
permit either be suspended or be put in jeopardy for a period 
of time?
    Mr. Hantman. If we were a private firm commercially 
operating in the District, we would have had 30 years to comply 
with OSHA and 60 something years to comply with the Fair Labor 
Standards Act, all of these issues that came in with the 
Compliance Act.
    As you point out, the legislation passed in 1995 took 
effect in 1997 just when I became Architect of the Capitol. In 
the last 3 years we have made an awful lot of progress I 
believe in moving along in these areas. We have accomplished a 
lot. Appendix A, by the way, appended to our testimony today 
talks about a lot of those achievements.
    You heard Bob Miley and Amita Poole talk about some of the 
issues we are dealing with, some of the studies we have under 
way. If we in fact wanted to retrofit these buildings, as I 
pointed out earlier, we probably would have to vacate them to 
do them in a short period of time. If we were to be closed 
down, if we were held to the strict criteria of all the other 
operating buildings, you probably would be closed down.
    Mr. Hoyer. The answer is yes. I understand the 
impracticality of doing that.
    Let me also disabuse you of any concept I might have that I 
am holding you personally responsible. We had a fire in Jim 
Wright's office in 1987. I think he was speaker, so it would 
have been '87 or '88. Curt Weldon, Republican, properly raised 
a substantial issue about whether or not we were taking 
significant and appropriate actions to ensure the safety of our 
employees and of the visitors to this Capitol. The conclusion 
was that we were not. This, Mr. Hantman, was long before your 
tenure, and under both parties. This is not a partisan issue.
    My concern is, though, that if you read the inspector 
general's report, as I know you have, and they spent a 
substantial amount of time and they included experts with them, 
there are substantial problems.
    I happen to have an office on the 7th floor of Longworth. I 
don't happen to have it. I fought like the devil for two and a 
half years to get it. I really like it. Thank you, Mr. Miley.
    The fact of the matter is, though, I hadn't thought about 
it, but the stovepipe that I have coming from the basement to 
the 7th floor, which is known as the stairwells, would in fact 
preclude my employees from that very neat plan that we have to 
exit our offices and go not to the elevators but go to 
stairwells. Well, if there is a fire in the basement, they are 
going to find the stairwell filled with smoke almost 
immediately. That is what the inspector general said.
    I read the report that said you could have two doors that 
come in and close automatically in a fire. I don't know how 
much that would cost, and I don't know how that would look, 
although they say from a distance of five feet one can't see 
it.
    That is not the issue. The issue is this needs to be raised 
to a very high level of concern.
    I appreciate it when you say we have made progress. I think 
we have.
    As you know, as a result of the Wright fire we had 
sprinklers installed throughout the Longworth Building. They 
are now operating, I presume. They didn't go off in the fire we 
had. Maybe they weren't supposed to go off in the fire we had 
just recently last year, 2 years ago. But the fact of the 
matter is you are the person responsible to ensure as quickly 
as possible that this institution is as safe as we can make it. 
You need to request such sums as can be efficiently and 
effectively spent as quickly as they can be spent. And if you 
don't raise this issue to a high level, what will happen has 
just happened. Some report will come in, and it will appear 
that you are not concerned.
    I don't believe that. I believe you are very concerned. 
Again, disabuse yourself of that. It is not accusatory. We as 
an institution have to raise this to a very high level so that 
we do address it as a critical need in the short term. And if 
we need to appropriate another $50 or $100 million, with all 
due respect to the Visitors' Center, it is more important first 
to take care of the safety of the people who work here and 
visit here than it is to have the Visitors' Center.
    Now, I don't think we need to make that choice in the 
richest nation on the face of the earth. That is the good news. 
But we need to apply ourselves as quickly as possible in that 
context.
    Have you made a determination as to how quickly you could 
bring us into compliance? You say some people have 50 years or 
25 years. I don't think OSHA has been in being for 50 years.
    Mr. Hantman. 1970.

                         FIRE SAFETY COMPLIANCE

    Mr. Hoyer. I take your point that you had some period of 
time. The fact is that is going to be irrelevant if we have a 
fire in one of these buildings and somebody gets killed.
    We have been lucky. We were very lucky with the officers. 
Let me tell you, the officers who responded, our officers do an 
incredible job. In response to that fire, they didn't know what 
the materials were burning, whether they were hazardous. They 
didn't know the risk they were taking, but they took the risk. 
They took the risk to knock on my folks' door, because there 
was no alarm system going off, and saying you need to get out 
of the building, and they were down in the smoke. As you know, 
some of them went to the hospital.
    How quickly could we come into compliance if we had the 
resources necessary, and how many resources are necessary?
    Mr. Hantman. That would be a building by building issue, 
with this building being the most difficult, obviously.
    One of our issues here in the Capitol clearly is access. 
Despite the fact that Ms. Poole was able to do 42 rooms in the 
building this year, clearly we haven't got ten access to many 
of the meeting rooms, many of the offices. How we chop these 
walls and get the sprinkler heads and detectors in is a real 
challenge.
    If we had reasonable access, we think that, first of all, 
the studies that are under way right now are going to feed into 
an overall master plan. We don't know where we would run risers 
at this point in time because the walls are not continuous 
running up in the Capitol.
    The idea of being able to clearly get full zones to work, 
which I mentioned earlier, is a problem. We think we need 
probably about a 4-year time period for design in this building 
and maybe a 10-year construction period based on the level of 
accessibility we have right now.
    I, frankly, don't think that we need to vacate the building 
as Ohio did. They had just built a new building, and they were 
able to move people out in vacant space at that point in time.
    The Dirksen Senate Office Building is a project we have 
under way right now where we are vacating a floor at a time. We 
are taking two senators and a committee or two committees and a 
Senator. We are moving them out to occupy turn around space 
that we built in the Russell courtyard, in the Dirksen 
conference rooms and things of that nature. We are moving along 
very well in a multiphase project.
    For the House Office Buildings we probably need another 2 
years worth of design. And----
    Mr. Hoyer. Excuse me. This could be done parallel so----
    Mr. Hantman. Absolutely.
    Mr. Hoyer. When you say another 2 years, 2 years but 
running contemporaneously?
    Mr. Hantman. Absolutely. We certainly can give you a more 
detailed schedule on this, but what we are trying to do in line 
with what this committee has very appropriately directed is we 
are doing studies which are bearing fruit. They are being 
completed soon. We want to take those studies, give them to 
consultants, designers, so we can design the systems, get the 
money from you folks to design them on the completion of these 
studies and then essentially bid them over time. How many years 
it takes us to actually do the construction work will be a 
function of how much access we get to various parts of the 
Capitol.
    Mr. Hoyer. I have a number of specific questions, but I 
will submit them for the record in the interest of time.

                 FIRE SAFETY COMPLIANCE COMPLETION DATE

    Mr. Hoyer. Mr. Hantman, what I would request you to do, and 
I think would be helpful for this committee and I think for all 
the Members, if you could provide detail as you think 
necessary, a statement of what could be done and the resources 
that it would take to do it in the earliest possible-- with the 
earliest possible completion date in compliance----
    Mr. Hantman. Absolutely.
    Mr. Hoyer. Then we could make that judgment as to whether 
or not we are going to pursue that as rapidly as could be done.
    Mr. Hantman. One of the things we probably can do with some 
of the systems such as exit signs in our buildings, although 
our study, which is just about completed in the next month or 
so, will tell us in the Capitol and other buildings where exit 
signs need to be. The concept of designing signs, running the 
conduit, finding out about the emergency generators and how to 
operate them is going to take years. What we are doing is 
putting up temporary signs in those locations as we get these 
reports in that are basically battery operated so we don't need 
to chop it. We don't need to worry about a transformer. Your 
concern is my concern, sir. We need to make sure that safety is 
implemented as soon as we can but in an orderly fashion also 
for the long-term fixes.

                        FIRE SAFETY ALTERNATIVES

    Mr. Hoyer. In terms of interim measures, for instance, I 
just noticed, and you probably noticed as well, Mr. Chairman, I 
am sure you did, that at the start of this hearing people 
couldn't get in through that door. I thought about the report 
here where those doors open inward and we had at least 10 
people crushed there. And if there was a real panic, 
notwithstanding the 30-second crash course on how to get out of 
the door, they would all rush to the door, and they would find 
that somebody was there jammed in so you couldn't open it. 
People were rushing and you couldn't open it.
    For instance, I just completed an addition on my house and 
I had a number of doors changed in how they open because it 
just didn't work with the addition. It seems to me that that 
would be a relatively easy thing to do, to adjust those doors 
so they open out as opposed to opening in.
    Mr. Hantman. Well, clearly the configuration-- you bring up 
an excellent point, sir. If those doors were to swing out in an 
emergency situation or any situation, the corridors are so 
narrow that we would end up causing injury to people as they 
walked along on a day to day basis in the first place.
    Whether or not we have enough room in this space to build a 
vestibule in so as you swing out we have lost perhaps five feet 
of space, that is something we can study, and probably in some 
of the rooms it is relatively easy to achieve. What we would 
like to do is kind of think out of the box for these solutions. 
Rather than a prescriptive thing, thou shalt do this, we like 
to say what are the alternatives that make sense and share them 
with the Congress and see where we go from there.

                            Closing Remarks

    Mr. Hoyer. Thank you, Mr. Chairman.
    Mr. Taylor. I know in the fiscal year 2000, we appropriated 
virtually every dollar that you asked for, and in the last 6 
years, we have appropriated $35 million for fire safety. You 
might take a look at that and see wherever it has gone and so 
forth.
    But there has been adequate funding so far, but I agree 
with you, in the areas where we need to make a change or 
additions, we want to do it. But in areas where we are working 
and the report is somewhat ignoring what is going on, then that 
ought to be considered before we spend more money in those 
areas.
    Kay, do you have any questions?
    Ms. Granger. No.
    Mr. Taylor. We will take a recess. We do have the General 
Accounting Office coming by. We thank you, sir, for your 
report. We will take a recess until after the last vote.
    [Recess.]

                             REPROGRAMMINGS

    [A question from Chairman Taylor and response follows:]

    Question. For the record, insert all reprogramming actions 
or other documents that required committee approval.
    Response. The information follows:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    [Questions from Representative Hoyer and responses 
follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                         Tuesday, February 1, 2000.

                       GENERAL ACCOUNTING OFFICE

                               WITNESSES

DAVID M. WALKER, COMPTROLLER GENERAL
GENE L. DODARO, PRINCIPAL ASSISTANT COMPTROLLER GENERAL
RICHARD L. BROWN, CONTROLLER

                            Opening Remarks

    Mr. Taylor. The subcommittee will come back to order.
    We will now take up the budget of the General Accounting 
Office. The budget request is $402.9 million and 3,275 FTEs. 
The funding includes $3 million that will be derived from 
reimbursable programs.
    We have the Comptroller General, the Honorable David 
Walker, and several members of his staff with us today. 
Welcome, Mr. Comptroller. We appreciate you being with us.
    Would you like to introduce your staff?
    Mr. Walker. I will do that, Mr. Chairman. Thank you.
    To my immediate right is Gene Dodaro, Our Chief Operating 
Officer; Dick Brown, our Chief Budget Officer; and Sallyanne 
Harper, our Chief Mission Support Officer. They are the three 
primary officers with us today. It is a pleasure for us to be 
here, Mr. Chairman.
    Mr. Taylor. You circulated a statement to the members of 
the subcommittee, it will be placed in the record, but I will 
yield to you for any summation or statements you want to make.
    Mr. Walker. I will give you a very quick summary, Mr. 
Chairman.
    First, I think we had a very successful year in fiscal year 
1999. We achieved about $20 billion in financial benefits and a 
number of other accomplishments, which represents a return on 
the investment of about $57 for every dollar that the Congress 
invests in GAO.
    We have a number of major initiatives under way. As you 
know, our draft strategic plan, which we recently discussed, 
fundamentally revised how we are going about our work to help 
us and, frankly, to help the Congress. We have undertaken major 
efforts to extend our client relations effort and to develop 
and implement new congressional protocols. We have a pending 
agency realignment which is designed to improve our efficiency, 
our effectiveness and our flexibility within existing and 
expected resource levels. We also have a number of major human 
capital challenges that we must address, which are outlined in 
my statement.
    As you know, Mr. Chairman, we are not asking for an FTE 
increase. Basically we are asking to maintain our purchasing 
power, with a few targeted investments that are designed to try 
to help position us to best serve the Congress in the future. 
We are also noting that we expect to submit a legislative 
request, working with our oversight committees, in order to try 
to provide us more flexibility to realign the organization 
based upon institutional needs and individual skills and 
performance within existing and expected resource levels. I am 
very hopeful that the request will be sent up in the near 
future, and I hope that we can get congressional support for 
it, Mr. Chairman.
    With that, I would be more than happy to answer any 
questions you might have.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                           MANDATORY CHANGES

    Mr. Taylor. Your budget is up $24.1 million, and a large 
part of that is for normal salary-related increases and so-
called mandatory costs in the Agency's budget. Do you have any 
discretion in these COLAs?
    Mr. Walker. Mr. Chairman, we do not under the current 
legislative authority. We have to piggyback on the existing 
executive branch rules right now, and, as a result, we don't 
have discretion.
    Mr. Taylor. If we were to decrease this to a $10 million or 
$12 million increase, how would you administer the budget?
    Mr. Walker. Well, Mr. Chairman, I will tell you what I 
won't do. What I won't do is cut back on training, enabling 
technology, or performance rewards, because that is what we did 
over the last 6 or 8 years, and we are paying a big price for 
it. I think we have to look hard at what additional 
efficiencies we could achieve, and if we couldn't, we would 
have to look at staffing levels. As you know, Mr. Chairman, we 
are about 40 percent smaller today in FTEs than we were in 
1992. Yet at the same time, I think it is important that 
whatever the FTE level is, we need to invest in our people 
through training, and enabling technology. Frankly, we have not 
done that for a number of years, and we have to reverse that.

                            TRAINING BUDGET

    Mr. Taylor. You have an increase of about $1.5 million in 
training. What is your total training budget?
    Mr. Walker. We had about $2 million in the baseline. Our 
request would increase training funds to about $3.5 million, 
which still is considerably lower than typically what you would 
see for a professional services organization, which is, in 
effect, what we are. That training would be targeted to 
technical training and, frankly, to training designed to help 
our change-management effort, to try to make the agency more 
efficient, effective, and focused on results rather than 
outputs. We also need leadership training and other types of 
training to get our people to focus on things differently 
things than they have in the past.

                              GAO NETWORK

    Mr. Taylor. Another increase is the internal computer 
network, and we put a good bit of money in that in the past. 
Why aren't these fundings coming out of the base budget?
    Mr. Walker. Good question, Mr. Chairman. You are correct, 
you have invested from time to time in our information 
technology area. Basically what we have, Mr. Chairman, is a 
number of pent-up demands. We have reallocated a lot of our 
resources, as many other agencies did, to Y2K. We also 
reallocated resources to network stabilization and 
responsiveness. We have certain significant software 
capabilities that we need to upgrade, Microsoft Office being an 
example. In addition, we have security issues that have to be 
addressed. We also need to comply with existing guidance for 
disaster recovery efforts.
    We are not looking to increase our baseline but to target 
investments for these specific things.
    I will tell you, Mr. Chairman, that one of Sallyanne 
Harper's top priorities will be to take a hard look at our IT 
operations including internal and external personnel. We need 
to take a fundamental relook at IT as to what we are doing and 
how we are doing it, and we are committed to doing that over 
the next year.
    Mr. Taylor. There are software upgrades in two portions of 
the budget, $800,000 in miscellaneous items and $1.7 million in 
furniture and furnishings. Now, why does that one activity 
require two different funding sources?
    Mr. Walker. My understanding is one of them has to go to a 
certain code, and I would ask Mr. Brown if he could provide a 
little bit more detail on that.
    Mr. Brown. One set of software comes through a contract 
that we have with an external firm to supply ADP services 
including software. So therefore, it is classified as an 
external contract. We can purchase software or just about any 
other ADP service through this means. The other source is for 
software, we purchase directly. That falls into a separate 
classification, which is specifically for direct purchases 
rather than purchases made through an outside contractor who 
may be providing other related services.

                              CONTRACTING

    Mr. Walker. I might add, Mr. Chairman, that, I know that 
you have had a long-standing interest in the contracting issue, 
to the extent that we are looking at what we might be doing 
through contracting. As you probably see in our submission, our 
contracting for mission-related operations has almost doubled 
between 1999 and 2001. So we are trying to make effective use 
of contracting where it makes sense.
    Mr. Taylor. Please provide information on GAO's use of 
contracting for the record.
    Mr. Walker. We would be happy to, Mr. Chairman.
    Mr. Taylor. Thank you.
    [The information follows:]

    The following chart displays GAO's actual and estimated 
contract costs for fiscal years 1999 through 2001.

                          GAO CONTRACT SERVICES
                        [In thousands of dollars]
------------------------------------------------------------------------
                                          FY 1999    FY 2000    FY 2001
       Type of contract services           actual    estimate   estimate
------------------------------------------------------------------------
Mission................................      5,243      9,975     10,459
Administrative Support:
    ADP................................     12,040      7,973      8,930
    Building maintenance and operations      4,218     10,526     10,763
     \1\...............................
    Other support costs................      7,751      8,123      9,568
                                        --------------------------------
      Total Contract Cots..............     29,252     36,597     39,720
------------------------------------------------------------------------
\1\ Fiscal year 1999 excludes $6,685,000 in fiscal year 1998 funds used
  to offset fiscal year 1999 costs for GA Building operation and
  maintenance.

                       RENOVATION OF GAO BUILDING

    Mr. Taylor. Can you bring us up to date on the building 
renovation?
    Mr. Walker. Yes, Mr. Chairman.
    Mr. Taylor. When is that scheduled to be completed?
    Mr. Walker. Well, we expect the final renovation to be 
completed in 2004. We have the Corps of Engineers who is 
scheduled to move into our building in July of 2000. They will 
have the entire third floor. We have renovated all but one-half 
of the sixth floor, and as you know, Mr. Chairman, we are 
trying to make effective utilization of what space we have. 
That is why we leased space to the Corps of Engineers after our 
downsizing, and we are trying to use the resources that the 
Corps will provide us for rent in order to complete the 
extraction of asbestos from the building, as well as to 
completely renovate the sixth floor.
    [Question from Chairman Taylor and response follows:]

    Question. Please provide the building renovation schedule 
for the record.
    Response. The remainder of the GAO Building will be 
renovated in future years using rental income form our expected 
tenant, the Army Corps of Engineers (COE). The Army COE will 
lease the entire third floor of the building beginning late in 
fiscal year 2000. Our current plan calls for completion of the 
GAO Building in fiscal year 2004 as shown in the following 
chart.

                    GAO BUILDING RENOVATION SCHEDULE
------------------------------------------------------------------------
                Fiscal Year                          Description
------------------------------------------------------------------------
2000......................................  Complete construction of 3rd
                                             floor.
2001......................................  Peform demolition and
                                             abatement on west side of
                                             6th floor.
2002-2003.................................  Continue infrastructure
                                             improvements.
2004......................................  Renovate west side of 6th
                                             floor.
------------------------------------------------------------------------

                         LEGISLATIVE PROPOSALS

    Mr. Taylor. Your budget mentions some legislation 
proposals. Could you tell us what they are, and have you taken 
it to the authorizing committee, or do you think it should be 
put in this bill?
    Mr. Walker. Thank you, Mr. Chairman, for asking. We have 
had a number of communications and expect to have more with our 
oversight committees. We want to reach agreement with our 
oversight committees on what we need, achieve their support, 
and then the issue will be what legislative vehicle might make 
the most sense.
    The legislation seeks the ability to have the Comptroller 
General, myself and my successors, be able to offer targeted 
early-out authority to try to facilitate our realignment, based 
upon our draft strategic plan, the skills that we need, and the 
individual skills and performance of the persons involved. We 
also are requesting modest discretion to allow some of our 
technologists, IT professionals and possibly actuaries, to be 
compensated under a senior pay scale, which the executive 
branch already has. These individuals, frankly, aren't Senior 
Executive Service members. On the other hand, some targeted 
flexibility to pay them a reasonable sum, subject to overall 
government caps, would be helpful in attracting and retaining 
those critical skills.
    We are also requesting more flexibility on how we handle 
discretionary pay increases. For example, right now we have a 
situation where we have the January COLA, and we have merit 
pay. We would like to have more discretion to target merit pay, 
based upon actual performance, which has not historically been 
the case. We are also looking at a couple of other modest 
things, but those are the major components. Mr. Chairman, 
basically, we want to minimize our resource allocation request, 
and at the same time we have to realign the organization for 
the future. Therefore, if we can get some targeted, reasonable 
flexibility, we think we can accomplish that objective. But we 
have some constraints on us under current law that makes it 
difficult, if not impossible, to do that.
    Mr. Taylor. Mr. Pastor, do you have questions?

                         AGENCY SELF-ASSESSMENT

    Mr. Pastor. Yes, I do. As I recall last year, we talked 
about there was going to be some self-assessment of the Agency, 
and I think monies may have been appropriated, and one of the 
things we were going to look at is the human capital.
    Mr. Walker. Correct, Mr. Pastor.
    Mr. Pastor. Then with some interest I read where right now 
you are saying succession is one of your imbalances, and also 
that because of the hiring freeze, your entry level, you are 
very sparse at the entry level.
    Mr. Walker. That is correct.
    Mr. Pastor. And then I see your legislative proposal 
basically is to do targeted buyouts, and then some recruitment.
    Mr. Walker. Absolutely.
    Mr. Pastor. I don't know what the last one is, but there 
were three.
    Now, are you still waiting to do your assessment, and so 
these are things that you are just finding out, or you want to 
finish the assessment? Where are we?
    Mr. Walker. We have done a comprehensive assessment. One of 
the things I would point out to you, Mr. Pastor----
    Mr. Pastor. This one?
    Mr. Walker. Yes, sir. That is correct. As you can see, what 
that shows you is the shape GAO was. What page is that, Mr. 
Pastor?
    Mr. Pastor. Page 6.
    Mr. Walker. Page 6. It shows you what the shape of GAO was 
with regard to different levels in the organization in 1989 
versus 1999, and you will see that we are very thin at the 
bottom, and we are very expansive in the middle.
    In addition to that, if you look at the skills that we have 
today versus the skills that we need under our draft strategic 
plan, there is an imbalance. Part of the problem, Mr. Pastor, 
is that when we implemented funding reductions, the agency 
froze hiring for 5 to 6 years and cut way back on training and 
some of these other enablers. We need to reverse that. So, we 
need to reinvigorate, and we have already taken steps to 
reinvigorate our recruiting effort. We need to focus on 
succession planning because 56 of our executives will be 
eligible to retire in the next 5 years, and one-third of our 
entire work force will be able to retire by that time.
    Mr. Pastor. Is that band 2 or band 3 or up and down?
    Mr. Walker. I would say that band 2s and band 3s are the 
ones that would be most targeted, no question, as they are 
obviously the higher compensated bands as well. So therefore, 
to the extent that we can end up targeting those positions, we 
have the ability to fill some slots at the less experienced 
level with lower resource costs, and we might be able to use 
some of those saved resources to try to do more in training and 
some of the other areas without having to request additional 
resources.
    Mr. Pastor. I would say if succession is one of your 
problems, and one of your solutions is targeted buyouts, do you 
have too many of one kind of expertise or----
    Mr. Walker. In some areas.
    Mr. Pastor. It kind of seems like you are conflicted. 
Succession is where you want to take somebody, mentor them and 
make sure that particular skill is transferred, and yet by the 
targeted buyout, you begin to wonder, well, what are we doing 
here?
    Mr. Walker. We do have some imbalances, Mr. Pastor. We have 
a situation where in the 1980s, as an example, the government 
and GAO were doing a lot in the area of national defense. In 
other words, there was a tremendous defense buildup, and 
therefore we built up in the area of national defense is an 
extremely important area. We are going to have a significant 
resource allocation in that area, but there is not as much 
action going on in that area as there is, for example, in the 
area of health or in the area of income security. Therefore, 
one of the things that we need to be able to do is to create 
more organizational flexibility. We need to be able to redeploy 
such that we have the skills that we need--not the ones we 
needed yesterday, but the ones we need today and tomorrow. So 
that is why we are taking a very sophisticated approach to this 
matter. That is why we need the flexibility.
    Mr. Pastor. Thank you.
    Thank you, Mr. Chairman.
    Mr. Taylor. Well, thank you very much.
    For the record, we will insert all of the reprogramming 
requests and the dispositions. We appreciate your comments, and 
we look forward to working with you as the session goes on.
    [The information follows:]

    Response: GAO has no reprogramming requests to report.

                            FTE REQUIREMENTS

    Mr. Pastor. I know you are closing, but----
    Mr. Taylor. Go right ahead.
    Mr. Pastor. Did your study show any additional personnel? 
Because, you know, the freeze was killing you, I don't think 
you did----
    Mr. Walker. We didn't ask for FTE increases. Mr. Pastor, we 
are trying to do everything that we can within existing 
resource levels and authority to get the most out of the 
resources that we have, and that was my commitment to this 
committee last year.
    After we do everything that we can, if we believe that we 
still need resources, we will ask for them. But that is why we 
need the new legislative flexibility, because current 
legislation is a significant impediment to our ability to do 
some things that need to be done without requesting additional 
resources or FTEs.
    Mr. Pastor. Okay. Thank you.
    Mr. Dodaro. We could lose some senior level people that we 
would want to keep for succession planning purposes. This way 
we can target to keep the people for succession planning, as 
well as reduce staff costs and redeploy our resources.
    Mr. Walker. Right now, the way things work to a great 
extent, is based upon tenure, irrespective of organizational 
need, individual skills, or the individual's performance.
    Mr. Taylor. Thank you very much.
    Mr. Walker. Thank you very much, Mr. Chairman.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                         Tuesday, February 1, 2000.

                          U.S. CAPITOL POLICE

                               WITNESSES

WILSON LIVINGOOD, SERGEANT AT ARMS, U.S. HOUSE OF REPRESENTATIVES; 
    CHAIRMAN, U.S. CAPITOL POLICE BOARD
JAMES W. ZIGLAR, SERGEANT AT ARMS, U.S. SENATE; MEMBER, U.S. CAPITOL 
    POLICE BOARD
ALAN M. HANTMAN, AIA, ARCHITECT OF THE CAPITOL; MEMBER, U.S. CAPITOL 
    POLICE BOARD
GARY L. ABRECHT, CHIEF, U.S. CAPITOL POLICE
    Mr. Taylor. We will now take up the U.S. Capitol Police 
budget, which will be presented by the Capitol Police Board. 
Chief Gary Albrecht is also here, or was earlier. I expect he 
will be back in a moment.
    Gentlemen, welcome. The Chairman of the Board is House 
Sergeant at Arms Bill Livingood. Welcome, as always.
    The Senate Sergeant at Arms and Doorkeeper is James Ziglar, 
and is here with us.
    The third member is the Architect, who just appeared before 
us. Good to see you again, sir.
    Chief, good to see you, appreciate you coming today.
    Before we proceed, let me state the budget request that has 
been submitted to the committee. Overall, the request is for 
$110.9 million. It is for salaries, and $10 million is for 
general expenses. These funds would support 1,611 FTEs, an 
increase of 100 officers above the current level.
    We have all of the statements that are being placed in the 
record.
    Mr. Taylor. I will call on the Sergeant at Arms if he or 
other members of the Board would like to make a summation 
statement or any other comments before we go into questions.
    Mr. Livingood. Thank you, Mr. Chairman. Just a couple of 
brief remarks to discuss some of the key points in our request.
    I wanted to, first of all, let you know that Chief Abrecht 
has announced that he will retire at the end of April. During 
his tenure, he has led the Department through a significant 
change. He has been credited with raising the professional 
reputation and recognition of the Department. This was 
accomplished, in part, in large part, due to his vigilant 
leadership and guidance. But I think all of us on the Board and 
in the community will remember Chief Abrecht for the strength 
and compassion he showed following the death of the two 
officers that were killed in 1998. On behalf of the Board, I 
want to thank Chief Abrecht for his service to the Department, 
the Congress and the American people.
    Mr. Chairman, our annual budget request for the Capitol 
Police is driven by a number of factors, and I will just 
mention those briefly. First is the staffing level required to 
provide the Congress, the public and the buildings an adequate 
level of security in such an open environment. The threat to 
the Capitol complex, the Members, their staffs, and the 
millions of Capitol visitors can never be discounted as 
hypothetical. Such threats have been acted on too frequently, I 
am sorry to say, and continue to be made today. In fact, it can 
be argued that the Capitol complex is threatened more now than 
ever.
    In recent years, the White House and other executive branch 
facilities have acquired strengths in security barriers. As the 
most visible and accessible symbol of United States Government 
and American democracy, the Capitol is arguably placed in a 
more exposed situation by those additional measures taken to 
safeguard the President and the executive branch facilities. In 
contrast to the physical security provided at the White House 
and other installations, the Capitol complex relies primarily 
on a cadre of police officers to provide the barriers against 
terrorist attack and criminal intentions. To repeat, the 
officers themselves are the main line of defense in security 
for the U.S. Capitol.
    Because of the open nature of the Capitol complex, the 
access points of our building serve as our first line of 
detection of a threat and the first line of defense in 
protection against that threat.
    With regard to the number of sworn officers, the 1998 
security review concluded that given the nature of the Capitol 
complex and the magnitude of our mission, we were severely 
understaffed. We are currently in the process, as you are 
aware, of hiring and training the first increment of 215 
officers, thanks to the Congress and thanks to this committee.
    Recently, the Capitol Police Board and the Department, 
working in partnership, developed the first strategic plan for 
the U.S. Capitol Police. The Board and the Department are 
committed to ensuring that every aspect of that plan is 
implemented, and we will adhere to a time line to measure our 
progress and success.
    I am happy to report, as you heard when the Architect 
presented his budget, that they have completed the master plan 
for the U.S. Capitol Police at the committee's direction. It 
addressed those three major facilities that he discussed, the 
training, the vehicle maintenance and the off-site. The Board, 
all of us, support very strongly this master plan.
    One thing I want to talk about just quickly, to just 
reiterate the need for training. The efficiency of any 
organization is dependent upon its level of training, knowledge 
and skills of its personnel, and because of the complexity, I 
think, and diversity of the mission of the Capitol Police, they 
rely very heavily on providing high-quality training to its 
personnel on a myriad of operational, administrative and 
management functions.
    Training is often cited as one of the most important 
responsibilities in any law enforcement agency, and it serves 
three broad purposes. One, well-trained officers are better 
prepared to act decisively and correctly in a broad spectrum of 
law enforcement situations, including threats against the 
public, Members of Congress, or others within the buildings or 
outside. Two, training results in greater productivity. And 
three, it fosters cooperation, unity of purpose and overall 
Department morale. The Board has endorsed the master plan and 
feels it is imperative that the Architect be provided with 
funding to begin implementation of the plan.
    Finally, I would like to commend the men and women, myself 
and the Capitol Police Board--all of us, would like to commend 
the men and women of the Capitol Police for continually 
performing their duty in a diligent and professional manner. I 
want to thank Members of Congress and this committee for 
funding and helping us with the security enhancement plan, 
which is still ongoing.
    Thank you for your time, sir. I have submitted a more 
thorough, detailed statement for the record.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Taylor. Do you have any comments, or any other Members 
of the Board?
    Chief Abrecht. Just briefly, if I might, first I would just 
like to thank Mr. Livingood for his gracious remarks on my 
retirement. I am very grateful to have had the opportunity to 
serve for 8 years as the Chief of the Department, and I know we 
have accomplished some things, and I am sure there are things 
left for my successor to accomplish as well.
    Just to touch on perhaps three areas, one is the request in 
our budget for an additional 100 officers to complete one of 
the most important parts of the recommendations in the security 
enhancement plan, and that is to staff every access point to 
the Capitol and the office buildings with two officers. That 
was one of the key recommendations of the two security reviews 
that were done, and I really urge your careful consideration of 
that request. I realize that it is expensive, but the security 
of the complex is definitely undermined when you don't have two 
officers at each entrance post, and that was the recommendation 
that was made by the task forces.
    The second item is the one Mr. Livingood alluded to, and 
that is the need to address the three facilities that we have 
discussed on several occasions; the training facility, and the 
vehicle maintenance facility, and the off-site delivery 
facility. One essentially doesn't exist, that is a proper 
training facility, and the other two are in very dire 
circumstances and seriously in need of replacement, really in 
both cases.
    Finally, just to mention the work we have been doing in the 
financial management area. As you know, we have been concerned 
for a number of years that a lot of our information systems in 
the Department are in really terrible shape, and one of the 
worst was the accounting system that we tried to use, which was 
a very old, homegrown, home-built system. We made a decision 
about a year ago now to get rid of that and to take our entire 
accounting function to the GAO's system, provided by the GAO. 
The GAO has been tremendously cooperative with us in making 
that transition, and we are now on schedule to do that. 
Effective October 1st, all of our accounting will be done on 
the GAO's system. We will do a much better job of tracking our 
finances and do a better job of accounting once we have 
migrated there.
    I would like to thank you for your support during my 
tenure, Mr. Chairman.
    Mr. Taylor. Do you care to make comments?
    Mr. Ziglar. I just wanted to also add to the House Sergeant 
at Arms comments about the Chief, that we appreciate his 
service. He is a man of great integrity, and we are going to 
miss him, and we wish him well in his retirement. He is going 
to do a lot of community service, I understand, in the 
neighborhood, and we may be calling on him from time to time to 
give us a little sage advice. Thank you again, Chief.
    Chief Abrecht. Thank you.
    Mr. Hantman. I certainly concur with the two Sergeant at 
Arms as far as Chief Abrecht is concerned and wish him Godspeed 
in his retirement.
    Just to echo what Sergeant at Arms Bill Livingood mentioned 
relative to the master plan report, it has been a comprehensive 
study worked on for a long period of time in good cooperation 
between the two Sergeant at Arms and between my office, with 
good consulting firms brought in. So what we bring to you today 
we do believe in, and we support the real need for the type of 
facilities that were discussed, Mr. Chairman.
    Mr. Taylor. Thank you, gentlemen.
    For the record, I want to say, Chief, we appreciate the 
service that you have given here at the Capitol. You are 
leading a group of men and women who have one of the hardest 
jobs, I think, in law enforcement. I have spoken before that 
they have first the job of working with 535 prima donnas who 
are trying to do the public's work in this area. At the same 
time you are doing that, you have to work with the leaders from 
all over the world who come here to appear before committees, 
as well as leaders in our country, the President and so forth, 
who come here to come to the Capitol to speak or to make 
appearances. And you accommodate some 9 million visitors who 
come here to see the workings of the people's government, and 
that is also important.
    So you have one of the most difficult jobs of any law 
enforcement agency, I think, in the country, and the fact that 
you have done it so successfully, and while what happened a 
little over a year ago was a tragedy, and we all regret it and 
certainly commend the sacrifice of the men who were there, it 
shows that you were doing your job. Because obviously we cannot 
control everything around us, but you did what had to be done, 
and it didn't go any further, and we appreciate that. And I 
think that has been said many times in the last 18 months, the 
sacrifice that was made by your Department.
    So thank you very much for what you and your members do. I 
hope that they will get our intentions passed on for the fine 
work they do.

                             NEW POSITIONS

    We work on the budget, and a lot of what we are doing, as 
the Sergeant at Arms said, is carrying out the emergency 
supplemental appropriations that Congress funded in 1999. There 
were 260 positions and a great number of technological 
improvements. How many of the 260 have been hired now? Did I 
hear you say 215?
    Chief Abrecht. Mr. Chairman, 215 is the number of sworn 
positions within that 260. Of those, 167 officers of the 215 
have been hired, and 10 of the civilians have been hired. We 
are still discussing with the committees authorization for 18 
civilian positions. That still needs to be agreed to. And the 
rest of the sworn are scheduled to be hired between now and the 
end of the fiscal year.
    Mr. Taylor. You mentioned one of the deployments, two at 
each door. Can you talk about any other deployments you would 
like to make, especially the numbers, out of the 215 regular 
officers, how they are to be deployed?
    Chief Abrecht. Well, a number of positions on the civilian 
side. They are not in large blocks, but let me see if I can 
quickly find where we have those listed. There is a substantial 
number that are in the physical security area to supplement. 
Mr. Greeley's staff. A large amount of the security enhancement 
fund went to additional physical security service. There are 17 
positions in the physical security division. In the 
Administrative Services Bureau, there were five additional 
positions for firearms instructors, the Director of Information 
Technology, and as you recall, and as I mentioned earlier, one 
of the things that we decided to ask the committees to approve 
is to assist us with the improvement of our administrative 
infrastructure.
    Frankly, one of the mistakes I perhaps made in my career, 
and I guess when you are leaving, you can say things like this, 
is that we focused the operation of the Department almost 
entirely on the mission of the Department, and whenever it came 
to we needed an extra post somewhere, I would say, well, where 
can we take that out of the fat rather than out of the actual 
frontline force. And we cut the administrative infrastructure 
of the Department down too far. So we started having problems 
in the financial management area, we have had problems in the 
human resources area, and that is, frankly, because I was 
always resistant to cutting the frontline. When we needed more 
people, I would pull them out of infrastructure, and I probably 
did that too much.
    So one of the things we asked for was to use some of those 
additional positions to beef up the administrative 
infrastructure of the Department in the human resources area. 
There are seven positions, and then there are five in the 
financial management area. So those are the big blocks, other 
than the sworn positions, where they would go.
    As you mentioned, this first increment of sworn positions 
goes primarily to doubling up the access points, and then some 
additional patrol on the square in particular to have more 
officers visible on the outside of the building, to make some 
attempt to intercept any group or individual that might be 
coming towards them. Because we don't have a physical barrier 
like a fence like at the White House, we rely on the eyes and 
ears of those officers to see something unusual coming at us 
and to try to intercept that person or group outside of the 
building, rather than at the entrance point, which is obviously 
a more dangerous situation.

                         SECURITY ENHANCEMENTS

    Mr. Taylor. In addition to personnel, we also provided 
about $64.5 million for communications, access control, and so 
forth. Can you talk to us about the status of these projects?
    Chief Abrecht. In general, all of the tasks are on schedule 
and within budget. We are near completion of the purchasing and 
deployment of the new security screening equipment. The soft 
body armor and weapons replacement are well under way. The 
digital CCTV recording system has been selected through a 
competitive process, and the procurement has begun. The design 
of the integrated security system is progressing on schedule; 
new installations are on going. The first progress report for 
the security enhancement plan was completed and transmitted to 
the committee on November 5. The next report will be issued in 
April.
    So we are on schedule and within budget on all of the other 
items.
    [Question from Chairman Taylor and response follow:]

    Question. Many of these items should replace the need for 
additional officers by improving communications and observation 
over the buildings and grounds. Explain for the members of the 
committee how you plan to reduce personnel needs as a result of 
these other security measures.
    Response. As outlined in the Security Enhancement 
Implementation Plan (SEIP), the Capitol Police are in the 
process of designing and installing new security systems 
throughout the Capitol complex. These systems correct security 
deficiencies noted in the 1995 and 1998 United States Capitol 
Security Reviews. These security reviews recommended an 
increase in both technology and manpower.
    The recommendations provide a means to use technology to 
improve detection capabilities and provide an earlier warning 
of an impending threat. The deployment of this new security 
equipment enhances the security of the Capitol complex while 
correcting all deficiencies noted. It has always been the 
intent to supplement uniformed officers, not replace them.
                         BODY ARMOR AND WEAPONS

    Mr. Taylor. You mentioned soft body armor and weapons. 
Could you be more specific about what the status of that is?
    Chief Abrecht. Yes. The new weapon has been issued to 406 
of the officers, and we expect that all sworn members will have 
qualified and been issued the new weapon by December of this 
year. The soft body armor, 246 members have been issued and are 
actually wearing the new soft body armor, and we expect by the 
end of this month all of the officers will have received it.
    Mr. Pastor. Mr. Chairman?
    Mr. Taylor. Certainly.
    Mr. Pastor. This new body armor, is it supposed to be 
designed to fit the person, as I understand it?
    Chief Abrecht. That is right.
    Mr. Pastor. And at least I have heard a little bit of a 
rumor where some officers received it, and, in fact, the body 
armor was either too big, too small or didn't fit for whatever 
reason, and now you find that the armor that we bought may not 
be----
    Chief Abrecht. Not at all. Yes, that has happened, but we 
are in no way paying for any body armor that does not fit.
    Mr. Pastor. That is my question.
    Mr. Livingood. It is a tailoring mistake.
    Mr. Pastor. So what are we doing about it?
    Mr. Livingood. We rectified it. We retailored.
    Chief Abrecht. We had the company fly in the fitter. We had 
a few body armors that didn't fit on the first few days. We 
immediately called the vendor and said, you screwed this up, 
send your person in here and see that these fittings are done 
correctly. Anything that didn't fit, we did not accept. Only 
the vests that fit 100 percent and actually according to the 
NIJ specifications will be accepted, which is why we are 
perhaps not as far along in issuing them as we would like, 
because we would not accept nor would we issue anything that 
does not fit exactly according to the NIJ specifications. That 
was in the contract. All officers had to be individually 
measured, and then the body armor had to be fitted, and it was 
according to the specifications, and as it came in, the 
officers tried it on, and if it didn't fit, we said we will 
have the guy come in and remeasure you and fit you exactly. We 
will not pay or issue any armor that does not fit the exact 
specification, which has to be individually fitted to the 
officer.
    Mr. Pastor. So where are we, again, in that status of 
number of officers that have the armor?
    Chief Abrecht. Mr. Pastor, 246 have it. We have measured a 
total of 1,215 people.
    Chris, can you tell me exactly where we are in terms of 
fitting?
    Mr. McGaffin.  Deputy Chief Christopher McGaffin.
    As the Chief points out, there are really two reasons that 
you have heard of for the body armor not fitting. First, the 
company has an experience of 10 to 15 percent of their product, 
and this is typical in the standard pretty much throughout the 
industry, body armor that needs to be remanufactured, either 
because the officer's size has changed or because of other 
manufacturing problems.
    Mr. Pastor. I hope it didn't change too much.
    Mr. McGaffin. We went through Christmas and Thanksgiving.
    Mr. Pastor. A relatively short period of time.
    Mr. McGaffin. The second reason had to do, frankly, with 
the property management division personnel who are actually 
fitting the officers. These are our employees. This is the 
first time they have ever fitted anybody for a custom fit. The 
armor has been sized, measured, and when the officers come in 
to receive it, our personnel are making sure that it properly 
contours to the body.
    So as the Chief pointed out, we insisted that the Federal 
rep for this contract fly back in to D.C. to retrain our 
personnel. We went from about a 50-50 ratio of officers 
accepting the body armor and officers rejecting the body armor 
to right now a 75 to 25 percent ratio to the good where 
everybody seems to be properly fitted and leaving very 
satisfied.
    Mr. Pastor. Just so I have my figures right, you have 1,500 
force, men and women, who would wear this?
    Mr. McGaffin. Yes. That includes your civilian employees as 
well.
    Mr. Pastor. How many are there, men and women?
    Mr. McGaffin. 1,215.
    Mr. Pastor. And we are at 240 something?
    Mr. McGaffin. Yes. As the Chief pointed out, some of this 
had to do with the winter storms this past week, and the State 
of the Union and other events which prevented our officers from 
coming down to receive their body armor. But I believe as of 
this week, all of the body armor has been delivered, and we are 
scheduling a 12-hour, 14-hour day to allow officers from all 
three shifts to come in and receive their equipment.
    Mr. Pastor. So maybe at the end of this month, everybody 
should have it.
    Mr. McGaffin. Yes, sir.
    Mr. Pastor. The second question I have, it deals with we 
issued new firearms.
    Mr. McGaffin. Yes, sir.

                            Firearm Training

    Mr. Pastor. And it is my understanding that we have run 
into problems in terms of people being able to qualify to be 
issued an outfit because they don't have the time or facilities 
to go train themselves with this armor, shooting this 
particular gun.
    Mr. McGaffin. We have implemented a 40-hour force training 
program that includes a block of instruction on transitioning 
to this new 40-caliber handgun, and as the Chief pointed out, 
406 men and women on this police department have successfully 
transitioned to this weapon. To tell you the truth----
    Mr. Pastor. That is about a third.
    Mr. McGaffin. Yes, sir. What I am being very careful to 
track is the DMQ, the rate of failure of men and women going 
through the program, and also tracking the difference between 
their scores with the existing 9-millimeter weapon versus this 
new 40-caliber weapon. We have been very satisfied with the 
results that have come out of this program, as have the 
officers, the men and women who have successfully completed it. 
We have had--out of all of the men and women go through, we 
have had less than 30 fail the program. So we are quite 
pleased, and I think most of the officers have come through are 
pleased as well.
    Mr. Pastor. Do you think all 1,215 will have the new 
firearm?
    Mr. McGaffin. We are projecting by the end of this year, 
this program will be completed and that every officer will have 
gone through the transition with a weapon. Some of the 
obstacles that we are overcoming right now, sir, include our 
firearms ranges, which had to close for a month because of the 
backstop being a safety issue, which is one of the issues that 
the Chief alluded to with the need that came out of the master 
plan regarding our training division and our training facility. 
But we could have done a very quick job on transitioning to the 
firearm, but we felt that was unnecessary because the 9-
millimeter weapon we have right now is serviceable and very 
functional. The 40-caliber is an enhancement, but the 40 Glock 
starts at the lowest level use of force, escalates all the way 
through the highest level, which is, of course, the firearm.
    Mr. Pastor. Thank you.
    Mr. Taylor. This is a Glock that you are using?
    Mr. McGaffin. The Glock 22, yes, sir.
    Mr. Taylor. Could you tell me, what do you find the 
greatest problem in transferring from the 9-millimeter to the 
Glock?
    Mr. McGaffin. The most typical issue that we have to 
overcome is the felt recoil. It is a higher-caliber weapon, so 
it is going to have more punch to it when you discharge a 
round. And it requires officers to concentrate and focus very 
carefully on their wrist and grip on the firearm.
    One of the issues that we have noticed is that it takes 
several hours and several hundred rounds for the officers to 
reach this level of focus. Once they do, they are sailing 
rather successfully through the rest of the program.
    Mr. Taylor. Mr. Wamp.
    Mr. Wamp. I want to thank the whole Board, but commend you 
particularly Chief, for a great career and great contribution. 
I want to encourage you to do one thing, too. You said you had 
the liberty to say things now that you are retiring that you 
might not normally say. I would encourage you to write those 
things down on your way out the door or maybe even a week 
later. Things that you really believe we need to hear. Some of 
the most honest things in this city come from people who are 
not running for reelection, or are retiring. Senator Moynihan 
is being real candid these days, and Senator Baker is giving me 
a lot of advice in Tennessee that people who are in office or 
are in charge of an organization aren't at liberty to say.
    So I would encourage you to let us have information in the 
off-season. Information that you may think is beneficial to us 
doing a better job understanding morale issues, and other 
issues that you might not be at liberty, to discuss right now.

                               NAME TAGS

    I have another recommendation that may seem like a little 
thing, but I think it is a big thing, and that is your name 
tag, Chief, and all of your officers' name tags. I like to 
speak to people, and after we lost two officers a year and a 
half ago, I was even more cognizant of the family approach 
around here. And if a man or a woman is going to lay their life 
down on my behalf, I would like to know their first name, and I 
would like to call them by their first name.
    I know a dozen Capitol Hill police officers by their first 
name because they are basically where I normally go, and I stop 
to talk to them, and I know them by name. I think it goes a 
long way for Members to say, good morning, Charles, or 
whatever. Right now your name tag is kind of like a badge, but 
I can hardly read it from over here. There are floor personnel 
up here who now have their first name and their last name, and 
it is gold, it is attractive, but it is black where the letters 
are. Sometimes they may not know if I really know their first 
name or if I am just quick to see it.
    But I tell you, just calling them by their first name 
creates this team approach around here that we are all in this 
together. I think it would really do a lot for Members to be 
able to recognize officers and Capitol Hill police personnel by 
their first name. So I would strongly encourage you to do that. 
I don't want to take away any of the glamour of your uniform. I 
just want to be able to recognize first names and really to get 
more personal around here. And the two officers we lost, kind 
of in recognition of their family, when it was all said and 
done, it was the little details that their families really 
cared about, and that personal approach, and we sometimes lose 
it around here. So if you can think that through and maybe 
implement that, I would sure be encouraged.

                        CAPITOL BUILDING ACCESS

    Another question I have is how many points of ingress and 
egress are there to this building right now, that are open to 
the general public?
    Chief Abrecht. Eleven, in this building.
    Mr. Wamp. To the public? The public has to be more than 
that. This building was built a long time ago for everybody to 
just walk in and out of.
    The question I have, rather than getting into numbers, is 
between now and the time the Visitors' Center is open, and that 
access, ingress and egress, is very restricted at that time to 
the public, will there be further restrictions, and if so, 
where and why, or how? Just what is the transition, or is there 
a transition? Because that is still a concern to me. After we 
lost the two officers, and I realized for the first time in a 
very clear way that our officers are the line of defense; there 
is no screening device other than the personnel that are there 
to keep people with guns out of this building.
    How many points of ingress and egress are there? And we are 
obviously wanting to beef up the number of personnel at those 
points of ingress and egress, but another good way is to have a 
plan between now and the Visitors' Center opening of not 
restricting the access to the Capitol, but just a planned way 
of kind of weaning the general public off of just walking in 
and out of this building, and even Members.
    I know this would be very unpopular to say that Members 
should be more careful or more restricted, but to me it seems 
like the whole ability for Members just to kind of grab a bunch 
of people and walk in the door, at some point this is too much 
an unsafe world for that liberty to just continue. I would hate 
for us not to say anything about it and for then, you know, all 
heck to break loose, and all of us say, you know, we could have 
been more discreet, or we could have been trained better, 
Members could have been more wise as to look for when people 
are hanging around a group of people, and then 37 people come 
in with a Member, and eight of them aren't even with that 
group, and one of them was the bad guy.
    Mr. Wamp. That is a big issue, but I think it is an 
important issue, and I think it is important for members to go 
ahead and speak up. I am a relatively young guy around here, 
and I think we ought to go ahead and come to grips with today's 
security problems and know there ought to be some restrictions, 
even if it is just a code of conduct that we agree to, we 
adhere to, to say that we are only going to bring 25 people in 
at a time or whatever and they are going to be people that we 
know.
    I don't know. I just know that we need to transition from 
here to the Visitors' Center with a more responsible approach. 
Have you got any comments?
    Chief Abrecht. There are basically two parts to your 
question. The part about restricting doors, on certain doors 
not to let the public into those doors, the irony of the 
situation on July 24th, was that the door that Mr. Weston 
entered was in fact not a public entrance. The problem is, of 
course, he just came in the door; whether it was a public 
entrance or not, he just charged the door.
    One of the things we have done about that is to prescreen 
people. We put an officer outside the Document door, for 
example, and you can't get through the door without at least 
showing identification or stating you have some right to go in 
through that door. That is one issue.
    Mr. Livingood, I think, would probably like to speak to the 
issue of Members being in groups. He has been very concerned 
about that for a long time, expressed his concern to the 
committees and to the Members about that. So maybe I will speak 
to it if you would like.
    Mr. Livingood. That is something that the Chief of the 
Department and the Board have worked on and we have right now, 
pending some recommendations for some possible changes.
    Mr. Wamp. Good. Thank you.
    Mr. Livingood. At least, if not changes, awareness on the 
Members' part.

                           PERIMETER SECURITY

    Mr. Pastor. Mr. Chairman, one minute. Last year we talked 
about a perimeter plan. We spent some time discussing that and 
how we were going to beef up. Now, does this complement what we 
are doing with the security, and is this all under one?
    Chief Abrecht. Absolutely.
    Mr. Pastor. Where are we at on that one? You are talking 
about additional personnel, security. Where are we on that?
    Mr. Hantman. The perimeter security plan is under final 
design right now. We expect to come back to this committee in 
May of this year for approval to go and bid that perimeter 
security program in light of the full design process, the same 
posts that are now being manned by the Capitol Police on the 
main south entrance to the House and north entrance for the 
Senate will stay intact. The driveways going up to the west 
side will have card activated exits, so cars can leave through 
the west side but not come back in. The barriers will be 
located at the end of the drives.
    So that is proceeding apace, and we are going to be coming 
back in May for approval to spend the funds that have already 
been appropriated.
    Mr. Pastor. I guess the question should have been asked 
this way:
    Was that taken into consideration as you looked for 
additional full-time employees?
    Chief Abrecht. Yes. The perimeter security plan is 
primarily a vehicle barrier plan. It really does not do 
anything to keep pedestrians off the square. It will remain 
open 24 hours a day to any pedestrian. The perimeter security 
plan seeks to keep the Oklahoma City-type truck from getting 
anywhere near the Capitol Building.
    Mr. Pastor. Mr. Chairman, at one time we talked about not 
allowing parking on the driveways. Were we successful in that? 
What is the status of that?
    Mr. Taylor. No. There wasn't too much enthusiasm for that.
    Mr. Pastor. Well, thank you, Mr. Chairman.

                            VISITORS CENTER

    Mr. Taylor. Are you having adequate input into the security 
planning for the Visitors' Center and the other things that 
were planned in time?
    Chief Abrecht. Absolutely. The Capitol Police attend weekly 
meetings with the Architect of the Capitol and the design 
consultants for the Visitors' Center, and we have been fully 
integrated into the design and are active participants in the 
AOC's design team.
    Mr. Taylor. Mr. Hoyer, do you have comments or questions?
    Mr. Hoyer. I have a couple of questions, Mr. Chairman. 
Thank you very much. First let me make a comment.
    I know some comments have been made, Chief. I know this 
will be your last testimony before this committee, at least as 
the chief, and you may be back here as former chief, and Mr. 
Wamp may want to ask you some questions, but the fact is you 
have done an outstanding job. The Roll Call editorial was very 
appropriate in the sense that you probably confronted the most 
difficult period in Capitol Police history when we lost two 
outstanding officers in Officer Chestnut and Detective Gibson. 
You handled yourself with dignity, and you brought calm to a 
situation that could have been more volatile than it was and 
less secure.
    Since that time, you have shown a great deal of leadership 
in the ensuring safety of our officers, number one, and in the 
security of our Capitol complex. I want to thank you for your 
service to your country and to the Capitol Police.

                REPLACEMENT PROCESS FOR CHIEF OF POLICE

    Chief Abrecht. Thank you very much. I appreciate that.
    Mr. Hoyer. Now, let me ask my good friend, Mr. Livingood, 
have you determined how we are going to go about the very 
difficult job of replacing the chief?
    Mr. Livingood. Yes, sir. After much consideration, we, the 
Capitol Police Board, have decided to conduct an internal--
meaning inside the Capitol Police--internal and external 
focused executive search for a candidate qualified to replace 
Chief Abrecht as the new chief of the U.S. Capitol Police.
    Mr. Hoyer. What is the time frame?
    Mr. Livingood. Well, we have started, and hopefully we will 
have--we have asked for resumes, calls, postmarked no later 
than February 16. So around the 22nd of February, we will start 
going through all our resumes for this position. We want to do 
as quick a search as possible, yet still give everybody a 
chance with this search, because we feel that this next 
generation is going to be extremely important for the Capitol 
Police and for the Congress that we find a manager who can 
continue to lead us into this new century.
    Mr. Hoyer. I agree with that. I have been on this Hill a 
long time. I started out here at the age of, I guess, 21, 
working for a congressman. Then he became a United States 
Senator, Jack Sullivan--some of you won't remember that name, 
but his dad was chief of the Capitol Police, which was then 
largely a group of very dangerous people, some of whom I went 
to law school with, and who had no idea.
    Mr. Chairman, talking about giving people guns, I went to 
school with some Capitol policemen, and one might think to 
himself, how did they ever get guns? Of course, nobody had any 
thought that anybody was at risk, even though we had had 
incidents, even involving Members on the House floor.
    But what a change in the professionalism of our force has 
occurred over those now four-plus decades. The Chiefs successor 
will have the responsibility of making sure that we have a 
force, as I think we have now, that is up to a challenge in a 
very, very dangerous world.
    We are starting terrorism units at the State Department. 
Terrorism units in the Marines as you know have been charged 
with carrying out biological responses. It is incredible 
challenges that our men and women of the Capitol Police are 
going to have to face. So they need to be led well, trained 
well and compensated well for their service.
    Well, I am pleased to hear that because I think that is the 
way to go.

                         INFORMATION TECHNOLOGY

    Chief, let me ask you about your information technology. 
Perhaps you can respond to that.
    Chief Abrecht. We were appropriated $400,000 to make the 
first incremental change. We have a systems architecture, have 
a contract to have the systems architecture design for the new 
system, and that is approaching completion, and we will be 
prepared to spend this year's increment; and we are basically 
requesting in this coming budget the remainder of the funds 
that will be necessary to really complete that work.
    Mr. Hoyer. Good. How much money is there? Is there money in 
the budget for that?
    Chief Abrecht. Yes, there is in this current year's budget, 
and I believe the amount for next year is 800,000. That is a 
total of a million two.
    Mr. Hoyer. Mr. Chairman, I have already taken, I know, my 
allotted time, and I appreciate your consideration. I have a 
couple of other questions, if you have no others.
    Mr. Taylor. We will continue to go. I wanted to.

                          LIBRARY OF CONGRESS

    What about the security planning and maintenance work for 
the Library of Congress? That is a new responsibility of 
course. What is the status of that work, and I will ask the 
chief or anyone who wants to comment on it.
    Chief Abrecht. Well, consistent with the Public Law 105-
277, which is the security enhancements plan, the Capitol 
Police force exercises its responsibility for design, 
installation and maintenance through an oversight approval and 
coordination process regarding all plans for changes in the 
physical security systems and the equipment for the Library. 
The Capitol Police serves in an advisory capacity for the 
Library and as outlined in a memorandum of understanding 
between the Department, the Library and the Architect of the 
Capitol. As such, the Library coordinates with the USCP's 
physical security division to maintain continuity and 
consistency of security system designs, procurement, 
installation and operation.
    The installation and maintenance of security equipment for 
the Library is still the responsibility of the Architect, and 
we have a copy--will be glad to make a copy of the MOU 
available to you. It is essentially by the memorandum of 
understanding that this is being accomplished. We don't do the 
work. The Architect does.

                           MANAGEMENT REVIEW

    Mr. Taylor. Right. Now, the Booz-Allen study, recently we 
had that, and it came up in our last year's appropriation. Can 
you summarize the findings that have been implemented for that 
study? You were into it last year but we weren't very far.
    Chief Abrecht. Essentially, there are three major 
recommendations. One was that we should reorganize, a single 
individual in charge of the administrative operations and place 
of the Department. The Board did that, and Deputy Chief 
McGaffin, whom you heard from earlier, is now in charge of all 
of the Department's administrative operations. So that 
recommendation was done.
    The other major recommendation is that we should develop a 
strategic plan for the infrastructure support. That plan has 
been completed and has been submitted to the committees, and we 
are now actively involved in implementing it over the next 5 
years. There is a timetable for each of the large number of 
recommendations. We review our status on a monthly basis. We 
make sure that we are moving forward on every one of the 
strategic plan recommendations for improvement in the 
administrative operations of the Department and also in the 
security operations of the Department. So it is all very 
carefully charted and is being aggressively followed up to make 
sure that every one of the recommendations is met by the 
deadline, and if not, why not, and what we can do to get it 
back on track.
    And the final major recommendation is that we just do more 
in the area of documenting our policies and procedures. That 
became one of the targets in the strategic plan, and each one 
of those is laid out, and we are aggressively doing that, and 
we are doing it in conjunction with our search for 
accreditation. As you know, we also chose to hold ourselves up 
to the standard and have sought accreditation from the 
Commission on Accreditation of Law Enforcement Agencies; and 
one of the things they do is, they have endless pages of 
standards and say you will have a policy on this issue. So we 
are using their format and their policy requirements as part of 
our project to review all of our policies and procedures. I 
think we are well on our way to implementing it.
    There is one aspect of it that is still hanging out there, 
and that is that one of the recommendations, as I mentioned 
earlier, that we still need to get the final approval to hire 
the administrative support personnel that we need, and we have 
been back and forth in discussion with this committee and 
others on justification. I think we are very close to getting 
it through, because having those positions will be very 
critical, particularly in the financial management and the 
human resources areas, to really begin to roll this ball 
forward in an aggressive way.
    [Question from Chairman Taylor and response follows:]

    Question. What about the other Booz-Allen recommendations? 
How will they be handled?
    Response. All of the recommendations have been addressed in 
the Department's Strategic Plan with time lines which are 
reviewed on a monthly basis. I would reiterate that the 
positions necessary for the implementation of improvements to 
the administrative infrastructure are still pending approval 
from two committees and are urgently needed. Further, we have 
requested in the fiscal year 2001 budget an additional $600,000 
for the IT modernization effort. We have completed our plan and 
will be forwarding it shortly to the committee for approval to 
begin utilizing the $400,000 in the current year budget for 
modernization. Lastly, we are working diligently with the 
General Accounting Office to migrate our accounting system at 
the outset of fiscal year 2001.

                            SALARIES BUDGET

    Mr. Taylor. The salaries budget is up by 22 million. Some 
of this is for COLAs and other routine salary items, but there 
is $13 million for annual cost of the 260 additional personnel 
funded in the 1999 security enhancement, over 100 of these 
personnel were on the rolls last year and others will be added 
during fiscal year 2000. Can you explain why their salaries 
show as an add-on to the 2001 budget?
    Chief Abrecht. Sure. Those positions were funded entirely 
from that supplemental for the first 2 years. That was the way 
it was designed, that the salaries for the officers and all 
that equipment, everything was absorbed for the first 2 years 
out of the supplemental.
    What we have been doing is transferring, with your 
permission, money from the supplemental, if you will, into our 
salary bucket in order to be able to pay these people through 
our National Finance Center salary system, so they have never 
been annualized. The first group was not annualized in the 2000 
budget. So they were set to be funded that way through 
September 30th of this year, and now they are going to have to 
be funded in 2001 out of our regular appropriation.
    Mr. Taylor. Now you are requesting funds for 100 more 
officers. That is another 2.4 million for partial year 
salaries; is that correct?
    Chief Abrecht. Yes, that is correct.
    Mr. Taylor. You have cited earlier studies to support your 
justification for additional sworn personnel. The Congress took 
these studies into careful consideration in deciding on the 
security enhancement supplemental. This matter has already been 
decided.
    Are you rejecting the congressional decision that has 
already been reached?
    Chief Abrecht. No. I don't believe that is the case, Mr. 
Chairman. It is certainly my recommendation, and I will admit 
that this was in staff conversation, that the view was that the 
study recommended much larger numbers than the 260; and we were 
told, look, you couldn't hire more than 100 officers a year 
even if you wanted to, and we agreed that that was probably the 
case, that a realistic amount of hiring was 100 officers a 
year. And it was certainly my understanding that this 260 was 
something that was capable of being revisited at a later time, 
given the fact that the studies had both shown numbers over 
700.
    So, no it is not my view that we are rejecting the 
decision. For that 2-year period, the decision was 260, and not 
for all times was certainly my understanding of it.
    Mr. Taylor. There may be some discussion as we get into the 
questions.

                         GENERAL EXPENSE BUDGET

    Now, the general expense budget is up from 6.6 million to 
10 million, an increase of 3.4 million. That is up 50 percent, 
mostly in other services, supplies and materials. As we 
understand it, the Senate Sergeant at Arms plans to reduce his 
budget by a comparable amount for the increase requested for 
reimbursement of Senate computer services.
    Why don't we just transfer those funds and bills to show 
the quid pro quo? Would that meet with your approval, Mr. 
Ziglar?
    Mr. Ziglar. Mr. Chairman, last year at this hearing, I 
raised the issue at the behest of the Senate Appropriations 
Committee with regard to the funding out of my budget, which 
has occurred over a number of years, of services which are 
beyond simply computer services--it also involves graphics and 
things like that--that we have provided to the Police 
Department, unreimbursed out of my budget. And the Senate 
Appropriations Committee has continued to discuss this matter 
with us, and it is my view--two things really.
    Number one, best business practices would suggest that 
people who have the responsibility should have the budget 
authority and get the best price that they can.
    Secondly, I am under a lot of pressure in the Senate to 
reduce my budget generally, and I will be reducing my operating 
budget this year, I have reduced FTEs over the last year and 
continue to do that. It is very difficult for me when I get 
cuts to continue to have to take money out of my budget that is 
not there specifically tagged to providing Senate services, and 
I simply can't do that.
    Going back to the business practices issue, if the police 
need computer service and graphic services and things like 
that, it ought to be in their budget and they ought to pay for 
those things; and frankly, if they can go and get it cheaper, 
other than from the Sergeant at Arms in the Senate, they ought 
to do that. We certainly would be glad to provide it at cost, 
but I would urge you to take that amount of money that we have 
been supplying out of the Senate Sergeant at Arms budget and 
put it in the police budget. I have not put in my budget this 
year that amount of money.
    Mr. Taylor. Good. I just want to say we need a better 
understanding as far as capital assets, if you will write a 
detailed list and justification for the record.
    [Question from Chairman Taylor and response follows:]

    Question. We need a better understanding of the supplies 
and capital assets increases. Provide detailed lists and 
justifications for the record.
    Response. The information follows.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Taylor. I will yield to Mr. Pastor.
    Mr. Ziglar. Sure. We have gone through, item by item, that 
we have been providing, and we have those numbers.
    Mr. Pastor. This issue was before us last year?
    Mr. Ziglar. Yes, sir.
    Mr. Pastor. As I recall, this committee appropriated what, 
$600,000, to this effort, whatever?
    Mr. Ziglar. That was for technology assets. That was not to 
reimburse us for what we were doing, that was for additional 
technological or technology assets.
    Mr. Pastor. It was part of the Senate reimbursement.
    Mr. Ziglar. Well, I didn't see it.
    Mr. Pastor. Well, let me go back. I thought we made a 
decision, at least by funding to that point, that we would have 
budgeted to fund this effort in the Police Board.
    Mr. Hoyer. What was the full figure?
    Mr. Pastor. It was almost what, $2 million?
    Mr. Hoyer. You will recall that initially, when we marked 
up the bill, I had proposed its inclusion in the police budget 
and then we deferred; and ultimately, we did put some money in.
    Mr. Pastor. So that $600,000 was not part to reimburse the 
Senate?
    Chief Abrecht. $235,000 of it is available, remains 
available to reimburse the Senate in its support of the 
telecommunications area; and $400,000 was for the upgrade of 
the computer system or the study of the upgrade requirements 
for our computer system.
    Mr. Pastor. Where are we at?
    Mr. Hantman. $235,000.
    Mr. Ziglar. That leaves another million. We have been 
supplying about a million two in services approximately.
    Mr. Pastor. Basically what you are saying is, fund it at 
whatever amount and that gets you out of the picture and puts 
it to the police force?
    Mr. Ziglar. Yes.
    Mr. Pastor. Is that all technology or--maybe I don't 
understand.
    Chief Abrecht. It includes all of our radio systems.
    Mr. Pastor. Computers?
    Chief Abrecht. Yes, our entire computing information 
system, our links to the national intelligence services, our 
links to the Metropolitan Police Department for computer checks 
on criminal records, all of that.
    Mr. Pastor. So that is in place?
    Chief Abrecht. Yes, it is in place, but it is all funded 
through the Senate presently.
    Mr. Ziglar. I fund all of that.
    Mr. Pastor. When you say funding, is it M&O, maintenance 
and operation, or is it the actual hardware you are funding?
    Chief Abrecht. Both.
    Mr. Ziglar. It is personnel. For example, they had the 
Seattle WTO event. We paid for sending equipment and that sort 
of thing out there to provide protection for Members who were 
out there.
    Mr. Taylor. Gentlemen, we only have about 45 seconds. We 
will adjourn, go up and vote and come right back.
    [Recess.]
    Mr. Taylor. The committee will come back to session.
    Mr. Hoyer, do you have some questions?
    Mr. Hoyer. Yes.
    I was going to ask about the completion of the complement 
of personnel that you need for the security enhancement plan.
    Are we close to having that done?
    Chief Abrecht. The hiring?
    Mr. Hoyer. Yes. That request is pending; is that it? How 
many are we talking about?
    Chief Abrecht. We are asking in this budget for an 
additional 100 officers. We are authorized 260 additional 
positions.
    Mr. Hoyer. We have authorized and funded in the security 
plan?
    Chief Abrecht. That is correct.
    Mr. Hoyer. So they are already funded. So you don't need to 
ask for them, but you need approval of them.
    Do we know where that is or how soon we can expect to get 
that done?
    Chief Abrecht. You are talking about the civilian 
positions?
    Mr. Hoyer. Yes. Isn't that what you were talking about with 
the chairman?
    Chief Abrecht. We have had several meetings with staff of 
the two committees, and they had asked some additional 
questions and we are gathering that information.
    Mr. Hoyer. Now, when you say these two committees, the 
House Administration and Senate Rules?
    Chief Abrecht. No, House Administration and this committee. 
The Senate has expressed no interest. They are done; that is 
it.
    Mr. Hoyer. But we are hopeful that this will be approved 
soon?
    Chief Abrecht. Yes, yes, we are. We have answered, I think, 
the questions that were asked at the last meeting, and we hope 
that they will be satisfactory.
    Mr. Hoyer. Okay. Last question.
    Mr. Livingood. Within the next week we are going to have 
paper to the committees requesting hiring these positions.
    Mr. Hoyer. So we are waiting to see?
    Mr. Livingood. We are waiting for the Police to finish. We 
have been through it a couple of times. We just got the final 
draft today.

                     FAMILIES OF DECEASED OFFICERS

    Mr. Hoyer. Chief, I mentioned them earlier. Could you give 
us an update on how the families of Chestnut and Gibson are 
doing?
    Chief Abrecht. Christmas was a tough time for them, even 
though it was not the first Christmas.
    Mr. Hoyer. It doesn't get any easier.
    Chief Abrecht. I am frustrated. I would hope that it would 
get easier, but it doesn't seem to, and they are coping. They 
are people of tremendous strength, and they are doing the best 
they can. We are continuing to support them with the family 
liaison officers.
    Mr. Hoyer. Do we keep in good touch with them? I know we 
had them down here a couple of times. I think that helps them. 
I think they need to continue to know that they are part of our 
family, and we care about them and we haven't forgotten them.
    Chief Abrecht. Yes, I have seen them in the building on a 
number of occasions.
    Mr. Hoyer. I mentioned the two officers, but there is a 
third officer as well. I think I saw officer Eney's widow down 
at the memorial.
    Chief Abrecht. Eney, yes.
    Mr. Hoyer. If there is anything any of us can do, I know 
the Chairman feels that way, anything we can do to make them 
feel----
    Chief Abrecht. We have really been blessed to have two very 
good family liaison officers who have spent a tremendous amount 
of their personal time, way beyond what they do on official 
time, maintaining contact. Officer Lopez in the case of Mrs. 
Chestnut, and Sergeant DeWolfe in the case of Mrs. Gibson, who 
spent a tremendous amount of their personal time helping them 
deal with the children and so forth. The Department has been 
very fortunate and the family has been very fortunate to have 
us been able to find such good officers to do this.
    Mr. Taylor. Chief, in 1993 and 1994 you had a chart like 
that, and I believe we are wrapping up very quickly. Would you 
mind making some comments about this?
    Mr. Pastor, do you have some questions?
    Mr. Pastor. Not on that.
    Mr. Taylor. Well, go ahead and do that.
    Mr. Pastor. Let me go back to that 1.7 line item so I can 
understand it.
    Mr. Ziglar. 1.2.
    Mr. Pastor. 1.2. Last year you said basically this line 
item cost 1.7, and at least in my mind, it was computers and 
personnel.
    Chief Abrecht. Telecommunications, radios.
    Mr. Pastor. So there was some hard stuff, radios, 
computers, software and people to operate.
    Mr. Ziglar. You are talking about now this year or talking 
about last year's budget?
    Mr. Pastor. I am talking about the line item.
    Mr. Ziglar. For last year. That was over and above anything 
that we do. I am assuming that--I think I know what I'm talking 
about here.
    Mr. Pastor. I don't.
    Mr. Ziglar. Let me back up. We in the Senate Sergeant at 
Arms office provide services, equipment, expenses, for example, 
to transport people and equipment to places where we are 
providing police services, for example, at conferences, 
retreats and such things, and we provide technical services. We 
have provided transportation and equipment and things like that 
at our expense out of our budget, as well as providing, on an 
ongoing basis, the computer and radio services and that sort of 
thing to the Police. And it has a cost--all those things have a 
cost, last year had a cost of $1.2 million that came out of my 
budget, unreimbursed; and we have been doing that over a period 
of years. Now, the numbers have changed over the years, but we 
have been doing that.
    The Senate Appropriations Committee has instructed me to 
not do that anymore, but to urge the police force and this 
committee to put that money into the police budget. Now, if the 
Police want for us to provide that service, that is fine. We 
will do it at whatever it costs us. If they want to go outside 
and find a service someplace else and pay less for it, that is 
great, too. But the point is that we would like for the police 
budget to reflect the actual cost of running the Police 
Department, not have the Senate Sergeant at Arms paying part of 
that cost, unreimbursed, and that creates a problem for me and 
my own budget.
    Mr. Pastor. I understand. So the computer services, they 
are paying for it now? They own the computers, they are running 
the computers for you?
    Chief Abrecht. Absolutely. They pay for it entirely.
    Mr. Pastor. I understand, but you are using it. They are 
paying for it, so it is their equipment?
    Chief Abrecht. That is correct.
    Mr. Ziglar. I buy it and we put it in.
    Chief Abrecht. They service it. If it breaks, we call them 
and they send someone over to repair it. We have a very small 
staff of in-house personnel who do quick-fix-type maintenance. 
Anything of any substance, we call the Senate Sergeant at Arms.
    Mr. Pastor. So you are basically telling us to put that 
$1.7 in the police force budget so that we can provide escort, 
transfer equipment and do our own computer services?
    Chief Abrecht. That is correct. $1.2 is what we are asking 
for this year.
    Mr. Pastor. And rather than them--we don't have to 
reimburse them, what would be the actual cost? In the computer 
services what are we actually buying? We paid them because they 
bought that for us; is that what you are asking us to----
    Mr. Ziglar. Well----
    Mr. Pastor. A laptop, are you asking us to--we have them in 
your possession, but you have will have the ownership because 
you paid for them?
    Mr. Ziglar. That is correct.
    Mr. Pastor. So you want us to basically reimburse you?
    Mr. Ziglar. The truth is, just going forward, I would like 
for the Police Department to pay for whatever services or 
equipment that it uses. I am not asking you to go back and 
reimburse us for the last 3 years.
    Mr. Pastor. No, no. All I am saying is, if in fact we are 
going to buy those computers from you, then we don't have to 
reimburse you, right, so that they are actually ours, unless 
you give them to us and then they are ours, and that way there 
is no more reimbursement to you and they are basically ours.
    Let me tell you my concept. Here is how I look at it. He, 
the chief, has a computer that basically you bought?
    Mr. Ziglar. Correct.
    Mr. Pastor. And he is--in common management terminology, he 
is leasing it from you, but you haven't gotten paid for that 
lease?
    Mr. Ziglar. Free lease.
    Mr. Pastor. Okay. Now, if you are asking us to buy it 
because we want him to control it and operate it and all that, 
then we are going to owe you some money. We have got to buy out 
the lease, right?
    Chief Abrecht. I think he intended to give it to us.
    Mr. Ziglar. What I am talking about, the computers are 
going to wear out, and they will have to be replaced. That will 
cost more money. At that point, I think this budget ought to be 
used to buy that equipment, or pay for the servicing of it and 
things like that. I am not asking you to go backwards and do 
it.
    Mr. Pastor. You are saying, you have this cost, so go ahead 
and put to it your budget, and I am out of it?
    Mr. Ziglar. Those things are paid for.
    Mr. Pastor. Yeah. But then your cost wouldn't be $1.7, 
would it?
    Chief Abrecht. It is $1.2, I believe.
    Mr. Pastor. $1.2.
    Chief Abrecht. The annual cost is replacement. It is like a 
replacement cost on these things. There are costs to maintain 
contracts on the software, and those costs have been identified 
by the Senate Sergeant at Arms as $1.2 million.
    Mr. Livingood. He also has a telecommunications staff who 
provide, install and work on user radios.
    Mr. Pastor. What about the escort service?
    Mr. Ziglar. We don't do escort services.
    Mr. Pastor. You send somebody to a WTO conference, have a 
Senator or Representative there and security.
    Chief Abrecht. That would be out of our budget then.
    Mr. Livingood. I think what he means is someone taking the 
radio equipment, if we have like a convention or a site where 
we need radio communications for the Police. His people have 
driven the radio equipment and installed it and set it up.
    Mr. Pastor. Okay.
    Mr. Ziglar. I send personnel.
    Mr. Pastor. Okay. I wanted to have a better idea of what 
the situation was.
    And out of that, $400,000 is being used by the Police Board 
and $200,000 is reimbursement for them?
    Chief Abrecht. That was out of last year's; 400,000 is 
being used for the modernization of our computer system, and 
235 is available for reimbursement.
    Mr. Pastor. I guess we are in installment packages.
    So, okay, Mr. Chairman.

                            CRIME STATISTICS

    Chief Abrecht. Let me just pass out paper versions of these 
maps if you would like to see them.
    The first map you see here is the crimes against persons 
map. It shows that on the ground last year there were nine 
crimes against persons, two assaults and seven robberies. That 
is a reduction of 10 percent from the previous year. In the 
extended jurisdiction there were 201 robberies, 171 assaults--I 
can't add all this up. That is in the large area outside the 
Capitol grounds.
    Mr. Hoyer. That is the green?
    Chief Abrecht. Yes, out to the green line. That is also a 
reduction. The city did a good job. Their reduction was 
slightly more, I think about 12 percent. They had a ways to go, 
D.C., and all crime is down slightly in the ``crimes against 
persons'' categories.
    In the crimes against property, it is almost exactly flat 
for the fiscal year on the grounds, and as was always the case, 
the major items are thefts out of the offices, small 
pilferages.
    Mr. Taylor. Do you recall in 1993 what it was?
    Chief Abrecht. I don't think I carry with me the 
statistics, going back, that far.
    I think we had a really substantial reduction; I would like 
to take credit for it, but I would like to have the numbers in 
front of me before I did.
    Mr. Taylor. I think it was a combination of reform in the 
city and your office. We are talking about several hundreds.
    Chief Abrecht. That is my recollection, yes.
    Mr. Taylor. Something like 600 in the narrow portion, it 
may not be the same geographical area, and it was in the 
thousands outside--between the Beltway or the highway down to 
Union Station, that was about the area of usage. But when I saw 
this and what you had before, you know, I was going to--in 1993 
I was going to ask for some of that body armor for myself.
    Chief Abrecht. I only have it going back 2 years. I have 
the 1997 figures, as well, and there were 14 crimes against 
persons on the grounds in 1997. Now we are down to nine.
    In the extended jurisdiction, there were 571 crimes against 
persons in 1997, and we are down to 389. That is almost a 
third--that is a third reduction over the 2-year period. The 
neighborhood is looking up.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Taylor. Made a world of difference.
    [Question from Chairman Taylor and response follows:]

    Question. For the record, please supply all reprogramming 
requests made last year and the disposition of each by the 
appropriation committees.
    Response. The USCP did not have any reprogramming actions 
in fiscal year 1999.

    Mr. Taylor. Well, any other questions?
    If not, thank you, gentlemen. I appreciate your 
presentation. The committee will adjourn now until tomorrow 
morning at 9:30 a.m.
                                       Wednesday, February 2, 2000.

                          OFFICE OF COMPLIANCE

                               WITNESSES

BARBARA CHILDS WALLACE, MEMBER, BOARD OF DIRECTORS
RICKY SILBERMAN, EXECUTIVE DIRECTOR
GARY GREEN, GENERAL COUNSEL
JAMES STEPHENS, DEPUTY EXECUTIVE DIRECTOR FOR THE HOUSE
PAMELA TALKIN, DEPUTY EXECUTIVE DIRECTOR FOR THE SENATE
BETH HUGHES-BROWN, BUDGET OFFICER
    Mr. Taylor. The committee will come to order. We will take 
up the budget submission of the Office of Compliance. The 
Congressional Accountability Act of 1995 established this 
office. We have with us today the Executive Director, Ms. 
Silberman and some of her staff members. She will introduce 
them in a moment.
    There is also a five-member part-time board of directors. 
The Chairman of the Board is Mr. Glenn Nager, a Washington 
attorney. Mr. Nager is going to be represented today by Barbara 
Childs Wallace, who has just recently been appointed to the 
Board. Welcome, all of you.
    The fiscal year 2000 bill $2 million. The across-the-board 
rescission took another $7,600. The budget before us is 
$2,095,000. The staffing level of 17 FTEs is being reduced by 
two positions.
    Your prepared statement has been submitted, but we will ask 
if you would like to sum up a statement, and then we will go to 
questions.
    Ms. Silberman. Thank you, Mr. Chairman. We are delighted to 
be here today to present the Office of Compliance budget 
request for the year 2001 and to be able to introduce to you 
the statutory appointees and full-time leadership of the 
office. James Stephens is the Deputy Executive Director for the 
House; and Pam Talkin is the Deputy Executive Director for the 
Senate; and Beth Hughes-Brown is our administrative officer; 
and Gary Green, who is the general counsel of the office.
    I want to thank Barbara Childs Wallace for coming up from 
Jackson, Mississippi, to be with us today; she's a new member 
of the Board. We look forward to the new appointees and to 
working with them to continue the work of the office.
    Let me stop for a minute and say on behalf of all of us, I 
want to thank the Chairman and the staff of this committee, 
particularly Ed Lombard without whose support the record of 
accomplishment, the 5 years, of this office would not have been 
possible.
    This is the fifth year that as the chief operating officer, 
it has been my privilege to testify before this committee. In 
1997, our first full year of operation, our budget request 
could only be based on a guesstimate, because no one really 
could accurately predict how much it would cost to administer 
and enforce the CAA. Each year that we have come to you, Mr. 
Chairman, we have asked for a decrease, which, as I know, is 
very unusual up here, but we have always been able to do that 
until this year.
    Unfortunately, this year we have had to ask for a small 
increase of $95,000, and the reason that we have to ask for 
that increase in spite of the fact that we have reduced two of 
our full-time staff is because early on we determined that the 
most cost-effective and efficient way to administer the office 
was to use full--part-time, rather, experts and consultants on 
an as-needed basis to perform some of the functions of the 
office. And I will be glad to elaborate on that and to answer 
any questions which you may have about the work of the office, 
but I am hoping that we will be able to convince you that 
indeed this is a small but necessary increase.
    [Statement of executive director follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                     ACCOMPLISHMENTS OF THE AGENCY

    Mr. Taylor. Could you hit some of the high points of the 
last 5 years' accomplishments of your agency?
    Ms. Silberman. I think that it is fair to say that when the 
Act was passed 5 years ago, no one knew what to expect from 
this office. And it seems to me that the foundational 
accomplishment of the office was to establish the credibility 
and independence of the office so that both employers and 
employing offices would know that when they came to the Office 
of Compliance, that they would get a fair and neutral hearing, 
and the law would be enforced fairly and neutrally.
    And I guess the first great accomplishment was the 
promulgation of regulations. We had to review thousands of 
pages of executive branch regulations and decide which ones 
shouldn't be applied to the Congress, because that was the 
charge the CAA gave to us. And those were promulgated on time, 
and they gave a beginning to what--giving people the idea of 
what they need--what to expect from the office. But we needed 
to have an active education and information program, and we 
have done that. And I think that is also one of the great 
accomplishments of the office, the briefings that we have both 
for employees and the employing offices, the quarterly 
newsletter which goes out to every employee's residence, and 
the manuals that have been prepared for each employing office. 
This education and information effort was applied to make 
people understand what it is that the CAA was providing.
    And I think the third major accomplishment that we should 
all look to was the model alternative dispute resolution 
process which we put into effect. The establishment of a 
resolution process for resolving disputes trusted by both 
employees and employing offices to be fair, confidential, and 
independent has been enormously important. The vast majority of 
the cases have been resolved in this way in a cost-effective 
and efficient manner.
    And I think, finally, the other area in which the CAA is 
making an enormous difference in terms of the accomplishments 
of the office is in the area of the general counsel's 
enforcement of the Occupational Safety and Health Act. That has 
been the area in which there has been an enormous amount of 
work done, but an enormous amount remains to be done. The 
general counsel is mandated to do biannual inspections, and to 
respond to the requests for inspections that come from people 
on the Hill.
    And that has turned out to be a very time-consuming, but 
important process because I think everybody agrees on the fact 
that we have a safer and healthier Capitol workplace, 
congressional workplace.
    So I would say that those are the four major 
accomplishments that we are proudest of. And again, I want to 
thank this committee and staff for your help in helping us to 
be able to do that.
    Mr. Taylor. Who are the people on the Hill that you would 
respond to with OSHA? You mentioned that you would respond to 
people on the Hill. Who would those people be? Any employee, 
the Architect's Office, a Member--ordinarily who would be 
contacting you with a request?
    Ms. Silberman. If I may, Mr. Chairman, I want to give that 
question to the general counsel because it is his 
responsibility to administer and enforce the OSHA provisions.
    Mr. Green. The statute gives every covered employee the 
right to request an inspection and indeed any covered employer 
as well as employing office. Over the past several years, a 
wide variety of employees, individual employees, and unions 
representing employees on the Hill, have made these requests.
    Mr. Taylor. A lot of what is on the Hill is open to the 
public. Millions come through. Do you ever get requests in any 
area from the general public?
    Mr. Green. No, although I must say there have been, 
especially in the early years of the statute, occasional 
requests from the public for information and assistance with 
questions involving the Americans With Disabilities Act. But 
the general public has not raised questions with me about OSHA, 
and they do not, as I say, have a statutory right to request an 
inspection.

                    ARCHITECT'S RECORD OF COMPLIANCE

    Mr. Taylor. Okay. Last year you issued several citations, 
recommendations to the Architect of the Capitol regarding the 
condition of the House and Senate office buildings, and the 
power plant. Have those conditions been corrected?
    Mr. Green. Yes, they have. The Architect's record for 
complying with citations is very good. It responds quickly, 
cooperatively and effectively.
    Mr. Taylor. In other words, all have been corrected.
    Mr. Green. Yes. Well, I will say this: All of the abatement 
that was required by our citations has been satisfied.
    Mr. Taylor. What remains outstanding, would you, say in 
your inspection?
    Mr. Green. Well, we issued a report last week which was a 
detailed blueprint on exactly what was wrong with fire safety 
standards on the Hill, and there is a lot of work there to be 
done. Also, as a follow-up to the fire in the Madison Building 
of the Library of Congress last year, we issued a series of 
citations which required an independent--among other things, it 
required them to hire an independent lab to test the switch 
gear in the building. You may recall one of them was damaged by 
fire. And our citations in part were based on the total lack of 
maintenance of that switch gear. So we wanted an independent 
lab to examine the question of whether the other switch gear 
and circuit breakers were functioning. The law was satisfied in 
that the Architect did hire the lab; the tests were done.
    Unfortunately, the testing shows that the other switch gear 
requires a great deal of work by way of replacement, and that 
replacement work is not yet complete. So while the law was 
complied with, there are still safety issues in that connection 
and in others mentioned in our report.

                          SUMMARY OF FINDINGS

    [A question from Chairman Taylor and response follows:]

    Question. For the record, summarize these findings, actions to 
date, and outstanding problems.
    Response. In 1999, the General Counsel of the Office of Compliance 
issued the following citation against the Architect of the Capitol:
    (1) April 1999--U.S. Capitol Building--absence of fall protection 
for employees required to work near the edge of the roof top.
    (2) April 1999--Capitol Power Plant--failure to conduct adequate 
testing for Legionella bacteria.
    (3) July 1999--Madison Building LOC: failure to train electricians 
regarding high voltage safety rules.
    (4) July 1999--Madison Building LOC: failure to maintain alarm 
system in operating condition.
    (5) July 1999--Madison Building LOC: failure to conduct required 
maintenance and testing of switchgear.
    The Architect's Office effectively abated all of these violations 
within the periods specified in the respective citations.
    The outstanding problems consist largely of numerous violations of 
fire safety standards in the U.S. Capitol and the House and Senate 
Office Buildings, detailed in the General Counsel's January 2000 
Reports issued pursuant to Section 215(c)(1) of the Congressional 
Accountability Act. Citations based upon these observations are now 
being drafted and will be issued in the near future.
    In addition, other investigations are presently underway in 
response to separate requests for inspection of alleged health and 
safety violations involving tunnel workers and elevator repairmen.

                          COST OF REMEDIATION

    Mr. Taylor. Do you have any estimate of the amount of cost 
or time, and this may be far beyond your ability or your scope, 
as to what, on the most pressing things that are still 
outstanding, as far as what this committee should do in 
funding?
    Mr. Green. I think you are right that some of it is well 
beyond my scope. I am not an architect or an engineer, and 
there are certain--the Architect may reach a point in his 
efforts to comply with our citations and our reports where he 
may have to do studies using architects and engineers to 
determine what the costs will be.
    But I think it is safe to say that most of the violations 
we have found and most of the criticisms we have in our latest 
fire safety report will not require substantial additional 
funding, if any. We harp again and again on the absence of 
effective routine maintenance inspection and testing of fire 
systems, and it seems to me that is largely a matter of 
training and supervising existing staff to conduct those duties 
on a periodic basis with diligence. It is not a new billing 
cost item.
    We have called also for additional fire barriers, and there 
is some expenditure there, but most of the stairwells that need 
to be supplied with fire-rated barriers already have doors on 
them. It is simply a matter of replacing the inadequate doors 
with those that serve a lifesaving function. There is some 
money involved, and I can't give you an estimate of how much, 
but it is not an extremely large number.
    There are also some monumental stairwells which would be 
relatively expensive to provide barriers for, but it may not be 
necessary to do that. If on a building-by-building basis it can 
be determined that enough stairwells are protected so that the 
occupants can safely leave the building during an emergency, 
there is no need to provide additional barriers on the 
monumental staircases.
    But that is a case-by-case determination, and if worse came 
to worse, and a monumental staircase did have to be supplied 
with fire barriers, there are examples right here in Washington 
in which architects and engineers have devised virtually 
invisible doors in some of the buildings here in Washington for 
under $20,000 per doorway. And when I say invisible, some of my 
inspectors were in one of these executive branch buildings in 
recent months and stood within 5 feet of the door and couldn't 
see it.
    So, I think the short answer to your question is that exact 
dollars are beyond my scope, but I don't think fire safety 
necessitates great capital expenditure.
    Mr. Taylor. Ed, do you think that is some of the same doors 
that they have that you can't get open?
    Mr. Pastor. You can get them open, but you have to be able 
to read the messages.
    Could I ask a follow-up?
    Mr. Taylor. Sure.
    Mr. Pastor. Let's use the door to this room as an example. 
Under your recommendation those doors should open out, but they 
open in.
    Mr. Green. That is right.
    Mr. Pastor. And they said, one of the problems is that the 
hall is so narrow, that if they open out, the question is, who 
are you going to hit in the head, or who are you going to hit 
in the face, because people may be rushing wherever they are 
rushing to, and you may cause a bottleneck. But it may not be 
that simple to put in two doors that open out, because it may 
require for esthetic reasons, for structural reasons, et 
cetera, more than just changing the hinges.
    However, it has only been since 1997 in which the House and 
the Senate, has decided to follow all the rules that we placed 
on everybody else and that has been one of the problems since 
OSHA has been around for 30 years. Other laws have been around 
longer where people and agencies had a longer time, to comply 
and the AOC has only been able to start working or had the 
responsibility to start working on it since 1997.
    Another point raised is one of access. It is very difficult 
just to go in a building and be able to do the sprinklers, the 
fire alarms, the wiring, the infrastructure, because you just 
can't shut down one building and take the 2 months, 3 months, a 
year, whatever it takes to get it in compliance.
    So the AOC gave those reasons in terms of saying that it 
has been difficult for him to come to compliance. Esthetically 
also he said some of the recommendations may not be workable, 
some of these walls, et cetera. So how do you assess that 
rationale?
    Mr. Green. Congressman, I find a lot in what you say.
    A lot of what I just heard is understandable and 
sympathetic and realistic. It is true that 3 years of efforts 
to comply is not perhaps an adequate time for the staff he has.
    But my job is to point out what the standards are and where 
they are being violated, and blow the whistle when they are. I 
must say that the question of what those standards are may be 
misunderstood. This is an historic building, and it is subject 
in the code--the OSHA standards that we apply are based on a 
more relaxed or flexible code, if you will, for historic 
buildings so that no one is holding the Architect up to the 
obligations of the private sector in commercial real estate. 
These are much more relaxed, and there are standards that are 
designed to accommodate the needs of balance of esthetic and 
historic considerations against fire safety. So it is a much 
more relaxed standard to start with.
    Frankly, I don't have a solution to the question of whether 
having those doors open outwards is going to cause more 
accidents and do more harm than good. I don't know the answer 
to that. But I do know that a room this size that holds this 
many people, the fact that that door opens inward is a 
violation of a legal standard, and I am obliged to point that 
out, and that is all I am doing.
    Mr. Pastor. Okay.
    Mr. Taylor. There were some differences of opinion with the 
Committee on House Administration about some of your duties. 
Has that been resolved?
    Ms. Silberman. I think that it is fair to say that one of 
our accomplishments is that we get along with everybody these 
days. Yes.
    Mr. Taylor. You are better than a lot.
    Mr. Pastor. If they get along with everybody, that is 
great.
    Mr. Taylor. We see a tremendous increase in pending 
counseling cases, from 5 to 276; and mediation, from 9 to 18. 
Can you speak about that?
    Ms. Silberman. Yes. I think it is fair to say that the 
increase is an aberration with little or no fiscal implication. 
Nearly 290 of the cases that were pending at the end of the 
fiscal year were filed by employees challenging one personnel 
practice by one of the larger congressional--I am sorry, 
legislative branch employers. So although there were 290 
separate claims, they really only involved one dispute, and 
that is an aberration that I suppose could happen again, but it 
is aberrational. It isn't a workload issue for us.

                       INCREASE IN OTHER SERVICES

    Mr. Taylor. Right. You have a $104,000 request for other 
services; that is, an increase, I believe. The budget request 
is up by 104,000 for other services.
    Ms. Silberman. That is the increase that I noted in my 
opening statement, along with the fact that each year we have 
been able to ask for less money than the year before. But this 
year for the first time we have asked for an increase of 
$95,000 despite diminishing two FTEs. By eliminating two FTEs, 
we realized a savings of some $120,000 in salary and benefits, 
but the increase in the cost of services offsets that. And it 
is wholly attributable to the services for the experts we 
retain on an as-needed basis to fulfill our core 
responsibilities under the CAA.
    Most notably, there are two areas. One is in the 
alternative dispute resolution area. We have asked for or 
budgeted an increase of some $57,000 for the mediators, hearing 
officers and court reporters who are necessary for us to 
fulfill the core function of alternative dispute resolution. We 
early on decided that the most cost-effective way to provide 
these services was to get the experts in the field on an as-
needed basis to perform these functions. And we secured people 
who have mediated throughout the Federal Government, and we 
were able in our early years to get them on a reduced basis. 
However, this last year they came to me and said, on a per-hour 
basis we are not being paid the same by you as we are being 
paid by other government agencies. And so what we did was in 
this year's budget, we included some $57,000, which is a per-
hour increase in the cost of their services.
    The other area of other services which takes up almost 
$33,000 is in the area of health and safety, because in order 
to respond to these requests for inspections, the general 
counsel needs to employ experts who we certainly would not keep 
on tap all the time, but when we need them, we need them. We 
need somebody who knows about diseases, for instance, or we 
need a fire safety expert. And the general counsel will come to 
me and say, I need to hire this person for so many hours. And 
those costs have gone up quite a bit.
    So of the $95,000 increase in our budget, the vast majority 
of them is--well, as a matter of fact, more than the $95,000 
increase is for other services. I have just attributed to about 
$90,000 of it. The rest is for--there is a small amount of 
money that we need for temporary--the services of temps because 
we don't have as many people on staff as we used to. That is 
another $4,000 to $5,000 a year; also training for our staff, 
$2,600; and then there is an increase of, I believe, about 
$7,000 for our interagency agreement with the Library of 
Congress to perform administrative services.
    So that makes up the whole $104,000, but I think it is fair 
to say that the vast majority of it is to provide a cost-
efficient way to provide the absolutely necessary services that 
the Act mandates that we perform.
    Mr. Taylor. Mr. Pastor, do you have any further questions?
    Mr. Pastor. Just for my information, I notice that the 
number of proceedings initiated by covered employees, there 
were 330 last year, and 311 came from the Architect. What seems 
to be the problem?
    Mr. Green. Well, I think Ms. Silberman indicated a few 
moments ago that there was one proceeding in which each and 
every employee involved is going through an exercise of their 
statutory rights, and they have to in order to do that. So it 
is really like one lawsuit with a lot of employees.
    Mr. Pastor. Yesterday I asked the Architect about a 
complaint filed on hazardous differential pay. There were nine 
employees, African Americans, who were at the power plant, 
dealing with coal and the coal dust. And they felt that because 
they were African American, that they were not given the 
hazardous wage differential. You had 30 days to investigate the 
case. Then I asked for the result. They said it was resolved--
--
    Ms. Silberman. Mr. Chairman.
    Mr. Pastor. That is the Chairman, by the way. Don't get me 
excited.
    Mr. Taylor. Go right ahead. We are good friends.
    Ms. Silberman. As you well know, the confidentiality 
requirements of this Act don't apply in OSHA proceedings, but 
this is not an OSHA proceeding. This is someone who filed a 
complaint with us. And therefore, I am--we really can't discuss 
it.
    Mr. Pastor. Well, can you tell me if it was resolved 
favorably? Was it resolved unfavorably to the complainants?
    Ms. Silberman. I will have to get back to you. This is one 
of many cases that have been brought to us, and I don't know 
where it is in the process.
    Mr. Pastor. Okay.
    Most of your complaints are coming out of title 7 of the 
Civil Rights Act. Is it the location of where they are working 
in terms of everybody else getting better opportunities? Is it 
wage differential?
    Mr. Green. Congressman, the complaints you are talking 
about now are not prosecuted by the general counsel, they are 
brought by individual employees before hearing officers and the 
Board. Counseling and mediation are confidential processes, and 
I have never seen those cases.
    Mr. Pastor. I don't know the process. Maybe that is why.
    Ms. Silberman. We issue each year a section 301(h) report 
which has been appended to our submission, and I think it is 
fair to say in any given year most of our cases fall under 
title 7. But again, there is an aberrational or a situational 
description. One year if we have, as we did last year, an 
enormous number of people who are filing under one dispute, and 
that dispute is an equal pay-out dispute, then one year we 
would get a lot of that.
    I think basically that if you look at the statistics, we 
get more cases on discrimination than anything else.
    Mr. Pastor. Race?
    Ms. Silberman. Across the board.
    Mr. Pastor. Does an employee have to go through your 
process before they file an EEOC complaint?
    Ms. Silberman. They don't file an EEOC complaint. The way 
it works, the employee with rights under the CAA, even if it is 
under title 7, must come to us, request counseling, request 
mediation, and if there was a dispute, it is not resolved 
satisfactorily, they can either go through our administrative 
processes, in which case we provide a hearing officer and the 
confidential hearing, or they can go to Federal court de novo. 
They go to court and start all over again.
    Mr. Pastor. Thank you.
    Mr. Taylor. Mr. Lewis.
    Mr. Lewis. Nothing.
    [A question from Chairman Taylor and response follow:]

    Question. For the record, insert all reprogramming actions 
or other documents that required committee approval.
    Response. No funds were reprogrammed between object classes 
during fiscal year 2000, and no other documents that required 
committee approval were submitted.

           QUESTIONS FOR THE RECORD FROM REPRESENTATIVE HOYER

    [Questions from Representative Hoyer and responses follow:)

    Question. Your recent fire-safety report took a year to 
complete. Before you issued the final report, did you consider 
any remedial action taken by the Architect or other changes in 
circumstances that bore on your findings?
    Response. Yes. Throughout the inspection process, Architect 
representatives were given immediate notice of deficiencies 
observed; they were also given advance copies of both versions 
of the final report. All Architect comments in response were 
noted and considered; and many of them were incorporated in the 
final text. In addition, the reports emphasize throughout the 
efforts of the Architect during 1999 to deal with fire safety 
issues, and the recent progress in that regard.
    Question. The Architect's office has criticized some 
findings in your fire-safety report, including that you did not 
take into account some documentation of the testing of various 
fire protection systems. In this criticism valid?
    Response. No. This same criticism was voiced by an 
Architect representative during our investigation. We responded 
by providing a detailed discussion explaining that the only 
documentation provided was entirely inadequate, and inviting 
any further submissions or explanations. None ever followed. We 
have also repeatedly requested the Architect's Office, in 
writing, to advise us what testing and maintenance schedules it 
intends to follow in the future, and have not received any 
response. Based on the inspectors' observations and the records 
provided by the Architect, it remains our firm conviction that 
the fire safety systems have not been subjected to the 
necessary tests, as detailed in our reports.

                  Unresolved Safety and Health Issues

    Question. Can you tell the Subcommittee whether you have 
any other investigations in progress or pending that may bear 
on the Fiscal 2001 Architect's budget request?
    Response. Yes. Formal citations are likely to issue as a 
result of some of the more serious violations found in our 
recent fire safety report, although it will be several weeks 
before we can provide the kind of quantitative information 
which will lend itself to financial projections. In addition, I 
have attached a copy of a memo sent to the Architect on various 
occasions last year which attempts to list all of the open 
unresolved occupational health and safety issues. The very 
length of the list of open issues suggests that it is pertinent 
to your budget inquiry.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Question. Your budget documents say you'll make a 
supplemental request ``in the event the Office of Compliance 
vacates the Library of Congress during this fiscal year.'' Do 
you plan to move out of the Adams building, and if so, why?
    Response. Our current space in the Adams building is 
adequate for our needs, and we have no plans to vacate our 
current offices. Since the space belongs to the Library of 
Congress, we would have to relocate our offices if the Library 
wanted us to vacate them.
    Question. Your budget documents also indicate that you'll 
need more staff if the GPO, the GAO, and the Library fall under 
the Accountability Act more so than they do now. In such a 
change under active consideration by the appropriate 
committee(s) of either House?
    Response. As far as we know, there are no changes under 
active consideration.

    Mr. Taylor. Thank you, Ms. Silberman, we appreciate your 
report, and we will be contacting you perhaps as we go through 
it.
    Ms. Silberman. Thank you very much, Mr. Chairman.
                                       Wednesday, February 2, 2000.

                      CONGRESSIONAL BUDGET OFFICE

                               WITNESSES

DAN L. CRIPPEN, DIRECTOR
BARRY B. ANDERSON, DEPUTY DIRECTOR
WILLIAM J. GAINER, ASSOCIATE DIRECTOR
POLLY E. HODGES, CHIEF FINANCIAL OFFICER
    Mr. Taylor. We will now take up the Fiscal Year 2001 budget 
request of the Congressional Budget Office. We have Director 
Crippen, and we also have Mr. Barry Anderson, the Deputy 
Director. Welcome to both of you.
    Mr. Crippen. Thank you, sir.
    Mr. Taylor. Before we proceed, let me indicate the budget 
request, CBO is requesting $28.5 million for fiscal year 2001. 
This would fund three additional positions beyond the 225 
planned for fiscal year 2000 budget.
    Your prepared statement has been distributed, gentlemen, 
and you can summarize or just do whatever.
    Gentlemen, we will hold a minute and see if you need 
anything before you start.
    Go ahead.

            CBO'S APPROPRIATION REQUEST FOR FISCAL YEAR 2001

    Mr. Crippen. Thank you for the opportunity. I want to make 
just a few comments this morning, which will only take a minute 
or two. First, I want to thank you and the committee for the 
pay raise you granted to me and my Deputy last year--not only 
on our behalf but, more importantly, on behalf of all of our 
colleagues, because they were capped below us, so there was 
salary compression going on. That, I think was part of the 
problem of CBO losing more people in the past than it was able 
to hire.
    You also gave us limited bonus authority last year, which 
we are grateful for. We are employing that authority both in 
recruiting, because we are able to offer some small signing 
bonuses, and to reward performance. We have eliminated cost-of-
living increases for managers, and they are now rewarded 
exclusively on performance.
    Mr. Chairman, I first appeared before you not quite a year 
ago--in fact, our first anniversary at CBO is tomorrow, I 
believe--and reported that in 1998, CBO lost many more staff 
than we were able to replace. The actual level of FTEs in 1998 
was down to 205--from an actual level of 227 as recently as 
1997 and an authorized level of 232.
    I am happy to report that the trend has reversed. We were 
able to employ 215 FTEs last year and expect to reach 225 by 
this year. Our request for next year will allow us to reach 
228, just one more than we had in 1997 and three more than this 
year. We hope to reach our full complement of 232 in 2002.

               REDUCED APPROPRIATION IN FISCAL YEAR 2000

    So why do we need this increase to fund just three more 
FTEs? Again, Mr. Chairman, I have to return to last year. You 
asked us after we submitted our budget if there was any way we 
could reduce our request for 2000, given your likely tight 
allocation. After analyzing the time we thought it would take 
to recruit and hire people we hoped to add, and the ability to 
reprogram some 1999 funds, we were able to reduce our request 
for this current year by $600,000. Our revised request resulted 
in an increase of under 2 percent for CBO for the current 
fiscal year. Combining this year with our request for next 
year, CBO would have an increase of 11 percent over the 2 
years, far below any of our sister agencies. Both their 
requests and their subsequent appropriations far exceeded ours.
    I hope you are not surprised to know that I believe in 
budgets and budgeting for planning, for setting priorities, for 
establishing real resource constraints. That is why, Mr. 
Chairman, I agreed to reduce our request for this current 
fiscal year, because I thought we could make some adjustments 
and live within the reduction. But now we need to regain some 
of that ground.

             NEED FOR ADDITIONAL FUNDS IN FISCAL YEAR 2001

    This is a well-constructed and easily defensible budget. It 
was built from the ground up and not simply extrapolated from 
prior years. For example, Mr. Chairman, we discovered we could 
change equipment and do away with 50 percent of our telephone 
lines. We are moving to less expensive data processing. Our 
library is becoming more virtual. All of those savings are 
explicit in our request and not subsumed in increases 
elsewhere.
    Like most of your bill, our budget is people and computers: 
86 percent people, 8 percent computers. We need to build back 
our strength toward our authorized FTE level. Our request, as I 
said, gets us back to where we were in 1997. We are adjusting 
pay schedules to help us compete with agencies such as the 
Federal Reserve and the World Bank. We are rewarding 
performance. We are recruiting heavily. And you can see the 
results.
    We need to restore the reductions in this year's data--
processing budget. Overall, Mr. Chairman, we are happy to 
report projected surpluses in the budget as a whole. I assure 
you there are no surpluses built into this request. Thank you.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                   PRICE INCREASES FOR SUBSCRIPTIONS

    Mr. Taylor. You have touched on the salary increases and 
the problems you have had in that area. It is just a small 
amount, I think $18,000, but you are asking for a 10 percent 
increase in the subscription prices. How do we justify that?
    Mr. Crippen. In two ways, Mr. Chairman. First, subscription 
prices have historically gone up more than inflation. Most of 
the journals we subscribe to are academic or limited-interest 
journals, so there is only one in the world. There is not much 
competition out there. Second, as I mentioned, we are in the 
process, of converting our library to as much a virtual library 
as we can--to make it available to people on their desktops and 
also eliminate the need for library space. That, frankly, may 
take a bit of investment money up front, with a long-term 
payoff.

                       INCREASE FOR ADP SPENDING

    Mr. Taylor. Can you explain the $454,000 increase for ADP-
related items?
    Mr. Crippen. Much of the reduction we took in our request 
for fiscal year 2000 was taken out of ADP. Some of it was 
offset by purchases for ADP made in 1999 by reprogramming 
funds. But we need to get back to the standard, if you will, 
for expenditures for both hardware and, next year increasingly, 
software. We obviously, along with all the other agencies, got 
through Y2K quite well, but we are now back to needing to 
upgrade software, including some that will be needed to better 
track appropriations; 100,000 is for that software.
    [Question from Chairman Taylor and response follow:]

                Fiscal Year 1999 Reprogramming Requests

    Mr. Taylor. For the record please supply all reprogramming 
requests for fiscal year 1999 and their disposition.
    Answer. In fiscal year 1999, CBO received approval to 
reprogram funds for two projects. The first project involved 
replacing the current House and Senate All Purpose Table system 
and was projected to cost $195,000. Since that is an ongoing 
project, the final cost to replace the system is not yet known. 
Our total expenditures as of December 31, 1999, were $72,400, 
which included $32,100 for software development and $40,300 for 
equipment and other services.
    The second reprogramming request approved was for $756,000 
to purchase a variety of hardware and software needed to 
support our Y2K upgrade efforts, help relocate our network 
servers to a more secure location, and replace old high-speed 
mainframe printers. Because of small variances in the final 
cost and a decision to downsize one of the mainframe printers, 
the actual cost of the projects in that request was $692,000, 
or $64,000 less than the amount estimated.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Taylor. Mr. Pastor.
    Mr. Pastor. Well, I, too, want to congratulate you on your 
salary increase. But we were just trying to get you back to 
your mission of making sure that the CBO was a nonpartisan 
congressional support agency. And so I congratulate you for 
going that route.
    Thank you, Mr. Chairman.
    Mr. Taylor. As it has always been.
    Mr. Lewis.
    Mr. Lewis. Thank you, Mr. Chairman.
    Mr. Crippen, as you know, in the last 4, 5 years there has 
been a very strong advocacy around here about reducing budgets 
across the board, attempting to cut back the rate of growth of 
government. Outside of my defense responsibilities and other 
responsibilities, I have drawn that line pretty firmly, VA, 
HUD, et cetera.
    The one area where I think sometimes we err by presuming we 
can make savings involves this subcommittee and particularly 
the work of CBO. I must say I come from the California 
Legislature where the legislative analysts provided functions 
that would compete, hope to compete, with the work that CBO 
does. It is very important work. I frankly think that the 
Congress will do a lot better job with their cost-cutting if we 
have better information, not less information. So I would like 
to see CBO become a strong advocate as to why the legislative 
branch, not just CBO, but the legislative branch, which 
receives a fraction of our dollars, ought to be healthy in 
order to better carry out our work. So this voice at least 
would add, in addition to the national defense in terms of 
increasing our funding, I personally think we ought to be very 
careful about what we do here.
    Mr. Crippen. Thank you.
    Mr. Taylor. Thank you, Mr. Lewis.
    Mr. Hoyer.
    Mr. Hoyer. Thank you, Mr. Chairman.
    Welcome. I am pleased that you received a pay raise. I am 
not pleased that many of your employees received 4.4 percent as 
opposed to 4.94 percent, which, as you know, that all House 
employees are getting. Can you explain the problem there? You 
have trouble keeping people at the top. We need to keep top-
notch people at all levels. That is a half a point difference. 
That is a big deal for people--not so much at our level, yours 
and mine--but it is a big deal to people at lower levels . So I 
am concerned. What are we doing about that? It is nice that all 
of us at the top got a raise. We Members, of course, got a 3.4% 
and not a 4.94. But in any event, tell me about that.

                           JANUARY PAY RAISE

    Mr. Crippen. We predicated our budget, as did most of the 
other agencies before this committee, on the President's 
assumption last year, which was the 4.4 percent. As you know, 
through your efforts and others', pay got raised by 4.8 
percent. By that time we had reduced our request by the 
$600,000 that I mentioned to try to accommodate the tight 
allocation you folks had. So at the end of the day, we had a 
1.8 percent increase overall, and we weren't able to go to 4.94 
percent to fund the last 0.5 percent of the increase.
    We agreed with you fully, and we have been working hard to 
competitively pay our people in the $40,000 to $65,000 range. 
And we have instituted a new policy that only nonmanagers get 
the COLA; the 15 percent of our personnel who are managers no 
longer automatically get it. Their increases are going to be 
based on merit and other things.
    Mr. Hoyer. How much would it cost you to do the half point 
for the balance of the employees that we are talking about?
    Mr. Crippen. For this year, it would be just under $60,000. 
It would add about $85,000 to next year's base.
    Mr. Hoyer. What is your total budget this year?
    Mr. Crippen. $26 million.
    Mr. Hoyer. We can't find $60,000 to make these people 
whole? It is not so much whole even in the half point. I mean, 
the managers understand. The managers, the higher up you get, 
you get more pay. But also I mean they can--Mr. Lewis and I 
take the position every 2 years they could fire us if they 
don't think we are doing a good job or whatever. It is the 
midlevel people, that we don't treat with respect.
    Of course, in our society what we pay is what we value, in 
effect.
    Is there any way we can find that $60,000 to adjust those 
folks? As you know, it was Mr. Thomas who allowed it to happen 
for House employees, made sure that we went from the 4.4 
percent to the 4.94 percent that we are doing, and included the 
locality adjustment, which is not always done. But now I think 
yours are the only legislative employees that are not getting 
the full 4.94 percent. I don't know that I am correct.
    Mr. Crippen. It may well be. Again, our sister agencies did 
receive increases in the 5, 6, and 7 percent range for this 
year, compared with ours. So they have a little more 
flexibility than we have. Clearly, we can look again.
    Mr. Hoyer. Would you please look again? I will follow up 
again, and I will talk to the Chairman and perhaps work with 
the Chairman and Mr. Lewis and see if we can find $60,000, 
maybe a supplemental is coming up here. And if you could find 
it, I just think it would be good for morale. I think it is 
good policy, too. And so you understand, I tell all my Federal 
employees and Federal employee unions, the people who are not 
performing will not get raises. They don't have to get step 
increases, and they don't have to get raises. But my 
presumption is, if you don't get good people, you have got a 
management problem, not a performance problem. It is tough for 
managers to tell people that.
    Let me ask you another question. How much money are you 
spending on outside consultants to perform the day-to-day work 
of the CBO that would otherwise be performed in-house?

                          Cost of Consultants

    Mr. Crippen. Well, the total for consultants last year was 
a little over $100,000. A good piece of that was, frankly, for 
legal fees. We have two in-house lawyers who focus primarily on 
budget law, but we had an employment case in which we needed 
outside counsel to help see us through, so that took a piece. 
We also had some increase in consultants that was associated 
with Y2K. So last year was unusual, although not very high.
    I expect this year's total to be much less because, 
hopefully, we are over any further need for outside legal 
counsel, and we certainly got through Y2K and all of those 
things. So my guess it will go back to around $20,000 or so.
    Mr. Anderson. Part of the increase resulted from our 
transition, too. There were some consultants who helped us for 
a couple of months when we first arrived. We won't be repeating 
that.
    Mr. Hoyer. So historically the level is about $20-, 25,000. 
You bumped up to $100,000, and you expect it to bump back down 
again.
    Mr. Crippen. That bump, as I said, was not unusual. In 
1996, I think, the expenditures were about $100,000 as well. It 
depends on our need for outside counsel.
    Mr. Hoyer. Let me ask you another question, not on your 
budget, but on policy. I came from Maryland, as you know, and 
in Maryland, regarding the budget, the Governor can override 
it, but rarely does. Those involved, it is comprised of our 
Comptroller and Governor and the Budget Office. I had proposed 
back in 1981, 1982, in the aftermath of a struggle between the 
Reagan administration and the CBO over budget figures and whom 
to trust, the creation of a board of revenue estimates, which 
would be composed of the Director of OMB, the Director of CBO, 
and the Federal Reserve Chairman. And the idea was that each of 
those had a staff in place that could offer a conclusion as to 
what the revenue would be.
    In any event, you have got to be flexible on this. In any 
event, because of the argument as to who do you trust, OMB or 
CBO, Democrats are saying, well, OMB is going to just do their 
Stockman thing, and they are saying, you just do your 
Democratic thing, and those three officials would have to agree 
on a revenue estimate.
    What do you think about that idea, which came to mind again 
last year when we had the directed scoring?
    There always has been a concern as to how to get a revenue 
estimate that one can trust. We have been lucky in this last 7 
or 8 years where CBO's was more wrong than OMB's most of the 
time. What do you think of that idea?

                           Revenue Estimates

    Mr. Crippen. I'm very sympathetic to thinking that would 
help take the differences out of the policy debate. I first 
started working with Howard Baker, as you know, in the 1980s, 
and we were on the other side of the Stockman versus CBO 
issues. He looked at me at one point and said, ``why can't you 
guys agree on numbers? We shouldn't be debating numbers, we 
should be debating the policies here.'' And he was right. You 
are right. There have been a number of processes since then 
that have helped, frankly, get us closer on a lot of estimates.
    We don't disagree over many numbers, but when we do they 
become very visible, like $10 billion last year when we were 
directed to take OMB's estimates instead of our own. We are a 
lot closer on most spending estimates than we used to be. The 
differences on revenue, while they are substantial, have not 
been based on anything other than slight differences in 
economic assumptions. So there is no basic disagreement between 
us, but certainly anything we can do to make us come closer 
would be useful.
    There is a process now in which we issue a joint report on 
defense outlays, because that is an area where there have been 
differences in the past. That process has helped for a number 
of years. Up until 2 or 3 years ago, we were very close. But 
the last couple of years, OMB has been coming in lower and 
lower on defense outlays. So it worked for a while.
    There are processes we have employed in the past that help, 
but taking the debate over numbers out is one of the reasons 
that we chose to do three variations of the baseline this year. 
Last year, the baseline itself became much more of an issue 
than the policies you wanted to debate. So that is something I 
am fully in favor of, whatever the mechanism is.
    Mr. Hoyer. Thank you very much. I will pursue it with you 
because I think it is a good idea, talk to some on the other 
side of the aisle, and see if we can reach some sort of 
agreement that might work for everybody involved.
    Let me echo the Ranking Member's comments. CBO's strength 
is that it is trusted by all sides. To the extent Democrats or 
Republicans undermine that, they undermine a very important 
aspect, it seems to me, of having to rely on what ought to be a 
nonpartisan agency. As you know, some of us believe that your 
predecessor did not come up with answers that were hoped for or 
expected, and that hurt her. In our eyes she strengthened 
independence, but she didn't always come up with answers that 
we thought were right.
    But I would echo that you have a unique position and, 
therefore, a clear responsibility to maintain CBO's 
credibility, so the system and this institution and the country 
will be better served.
    Mr. Crippen. I fully agree. It is my hope and intention 
that CBO be an institution that gets better as time goes by.
    Mr. Hoyer. Thank you, Mr. Chairman.
    Mr. Taylor. Thank you, gentlemen. We appreciate your 
report, working with you, and encouraging you in this coming 
year.
                                       Wednesday, February 2, 2000.

             LEGISLATIVE BRANCH FINANCIAL MANAGERS COUNCIL

                               WITNESSES

RICHARD L. BROWN, DEPUTY ASSISTANT COMPTROLLER GENERAL FOR OPERATIONS, 
    U.S. GENERAL ACCOUNTING OFFICE
JOHN D. WEBSTER, DIRECTOR, FINANCIAL SERVICES, LIBRARY OF CONGRESS
JANET HALE, HOUSE OF REPRESENTATIVES
BETH HUGHES-BROWN, OFFICE OF COMPLIANCE
POLLY HODGES, CONGRESSIONAL BUDGET OFFICE
RUSS FOLLIN, ARCHITECT OF THE CAPITOL
STUART PREGNALL, ARCHITECT OF THE CAPITOL
    Mr. Taylor. We will now take up the Financial Managers 
Council, a new entity that was formally recognized in the 
fiscal year 1998 appropriations bill. This is a group of all 
the legislative branch agency financial officers. Their goal is 
to improve financial management throughout the legislative 
branch of government.
    I would like to welcome the co-chairmen, Mr. Richard Brown 
and Mr. John Webster with us today. And if you would like to 
make your remarks.
    Mr. Webster. Thank you, Mr. Chairman. I would like to thank 
the committee for its support of the Council and our efforts to 
improve legislative branch financial management. The Council is 
a voluntary group, and with your permission I would like to 
introduce the other members of the Council that are here today: 
Janet Hale, House of Representatives; Beth Brown, Office of 
Compliance; Polly Hodges, from the Congressional Budget Office; 
and Stuart Pregnall and Russ Follin, Architect of the Capitol.
    And with that, Mr. Chairman, we can proceed directly to any 
questions you may have.
    [The information follows:]

 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                  A Shared Financial Management System

    Mr. Taylor. Well, I will start with questions. Can you 
explain to the committee the need for $250,000 to determine 
requirements for a legislative branch-wide financial management 
system?
    Mr. Webster. Mr. Chairman, most legislative branch agencies 
are planning to replace their financial systems within the next 
5 years. The Council believes that a unique opportunity exists 
for the purchase and installation of a shared financial system. 
A joint operations study has just been initiated to determine 
the cost and benefits of a shared financial system effort. The 
Council believes a shared financial system is feasible, and the 
next step after the concept of operations is completed would be 
to develop a requirements document for the shared procurement 
effort. The budget increase of $250,000 is needed to support 
the development of the requirements document.
    Mr. Taylor. Can you give us some estimate of what this 
project might save if it comes to an end? Is there any opinion 
about these sort of savings that we might have?
    Mr. Brown. Well, it is difficult for us at this point, Mr. 
Chairman, to be specific about that, but we do believe there 
will be savings. We believe there are opportunities for savings 
in a consolidated audit of financial statements. We believe 
there is an opportunity for savings in maintenance costs by 
maintaining one system instead of several. We believe there are 
opportunities for savings as well in ensuring reliability and 
usefulness of the financial information that now comes from 
various systems. Keeping all financial information in one 
system is much less complicated than having to deal with a 
variety of systems.
    Mr.Taylor. I think I might have another question, but I 
will yield to Mr. Pastor if he has any questions.
    [Questions from Chairman Taylor and responses follow:]

    Question. What improvements will we get from such a system?
    Answer. A shared financial system would make possible a 
number of improvements. It would:
    Facilitate the preparation and audit of a single 
consolidated financial statement for the Legislative Branch, 
reducing audit costs;
    Save money by spreading the cost of maintaining financial 
systems among the various entities;
    Improve the consistency of financial information,
    Contribute to an informed Congress, and
    Assure the public that Legislative Branch assets are being 
safeguarded, financial results are reported accurately, and 
laws and regulations are being complied with.
    Question. Does each agency agree that this effort is needed 
(including the House and Senate)?
    Answer. The Council adopted a vision, goals, and strategies 
statement, which is an attachment to the Council's hearing 
statement. A major goal included in that statement is to 
operate integrated financial management systems may be shared 
among legislative entities. We believe that all entities agree 
with that goal. The concept of operations study is the next 
important step to provide each agency with specific information 
to move forward with realizing the Council's goal of shared 
systems.
    Question. Please document for the record that this effort 
will be supported by each agency.
    Answer. Six out of nine legislative entities have formally 
accepted the Council's Vision, Goals, and Strategies 
statement--the House, Senate, and the Capitol Police have not 
formally accepted the statement. However, we believe that all 
agency participants believe in the goal of a shared system.
    Question. Can you give us an estimate of the overall cost 
of such a system if it were to be installed (development, 
startup and annual recurring costs)? What savings could we 
expect?
    Answer. The cost of a new financial management system is a 
multi-million dollar item. The concept of operations will 
outline the costs, benefits, and risks associated with 
implementing a shared financial system. We expect the concept 
of operations study will be completed by this summer.
    Question. Do you have sufficient contracting authority to 
expend these funds? Do you have the necessary staff resources 
to supervise and monitor the project?
    Answer. One of the deliverables of the concept of 
operations study is a description of various contracting 
vehicles that could be used to acquire a shared system. 
Depending on the results of the study, additional authority may 
be needed.
    The Council does not have a permanent staff. Council work 
is done by the staff of the legislative entities. We believe 
that this shared staffing model will be able to support the 
project.

                    IMPROVED PAYROLL ADMINISTRATION

    Mr. Pastor. Well, just it is a very small thing, but I 
think for many people it is a big thing. In this financial 
system, that management system, will you be able to pay the 
staff every 2 weeks?
    Mr. Brown. This effort is not designed to address the 
payroll system, just the financial management system.
    Mr. Pastor. What do we need to do to be able to do that for 
the staff in the Members' offices? I hoped we might be able to 
do this with the new financial system. So if we are not going 
to be able to do it, what alternative do you have for me?
    Mr. Brown. It would require a different payroll system than 
the House is currently offering.
    Mr. Pastor. I realize that. My issue is how do I get from 
what we have today to every 2 weeks? I know we have to devise a 
new payroll system. Who would have to do it, and would you be 
in charge of it?
    Mr. Brown. No. The House would be in charge of that.
    Mr. Pastor. Since she is a member of the committee, maybe I 
can ask her.
    Ms. Hale. The House would have to make that decision within 
the House Administration Committee. The House is looking at a 
new payroll system. We are going through a design process now, 
and I think probably we can bring you up to speed on that 
project.
    Mr. Pastor. Thank you.
    Mr. Taylor. Mr. Pastor, it would be very easy if we just 
paid everybody the minimum wage.
    Mr. Pastor. Then the merit and the cost of living, then 
there would be three things you would have to include.
    Mr. Lewis. I thought we did pay them the minimum wage.
    No questions.
    Mr. Taylor. Thank you, gentlemen.
         TESTIMONY OF INTERESTED INDIVIDUALS AND ORGANIZATIONS

                              ----------                              

                                     Wednesday, February 2, 2000.  

                          LIBRARY OF CONGRESS

                                WITNESS

PATRICIA WAND, UNIVERSITY LIBRARIAN, AMERICAN LIBRARY ASSOCIATION, 
    ASSOCIATION OF RESEARCH LIBRARIES, AMERICAN ASSOCIATION OF LAW 
    LIBRARIES
    Mr. Taylor. We will now go to the outside witnesses. We 
have----
    Ms. Wand. Patricia Wand.
    Mr. Taylor. We have the statements of the witnesses, and 
they have been given to the members of the subcommittee, and 
they will be printed in the record. We will allow 5 minutes for 
all testimony from each witness.
    Good to have you here. If you would like to make your 
statement.
    Ms. Wand. Thank you very much, Mr. Chairman, Congressmen. I 
am Patricia Wand, university librarian at American University. 
It is a pleasure to be here with you today representing four of 
the Nation's library associations. Collectively we represent 
thousands of individual librarians and information 
professionals as well as institutions and libraries that serve 
our communities across the Nation.
    We are very pleased that this subcommittee has been so 
supportive of the Library of Congress in the past, and we hope 
and expect that support to continue.
    The Library is poised to meet the many challenges of our 
information age. I would like to emphasize several programs 
today. The Library of Congress request of $428.1 million for 
the Fiscal Year 2001, which includes the authority to obligate 
$33.6 million in receipts, positions the Library to realize the 
benefits of its ongoing digitized and printed heritage and 
collections.
    The libraries across the Nation depend heavily on the 
Library of Congress, and in particular four programs that I 
might emphasize and focus on today: First, preservation and 
technology initiatives; the Library services to the blind and 
physically handicapped; and the law library.
    The Nation faces a dual challenge today in preserving its 
cultural and historical heritage. How do we address the 
fragility of the printed past at the same time that we address 
the volatility of the digitized information and management? We 
urge you to permanently authorize two programs that the Library 
of Congress has under way in order to address these issues.
    The first is the Mass Deacidification Program, and the 
second is the National Digital Library Program. Our Nation 
relies on the preservation and access to materials that 
chronicle our political events, record scientific 
breakthroughs, and, of course, record cultural milestones, to 
name just a few things that are preserved in printed formats 
and in digitized formats.
    To preserve the past, libraries collaborate on various 
preservation methods, and the Mass Deacidification Program is 
one that addresses the issue of acidic paper. So many of our 
documents are literally falling apart on their own, and the 
Library of Congress and other libraries have experimented over 
the years to find the optimal solution to this problem. It 
doesn't retroact on the deterioration of the paper, but it 
balances the chemical composition of the pages once the books 
are treated.
    We support the fiscal year 2001 request by the Library of 
Congress that would make permanent the Mass Deacidification 
Program so that we can share with them in the goal of saving 
more than a million volumes in the next 5 years. In addition, 
we strongly support the request to make permanently authorized 
the National Digital Library initiative. The Library has 
contributed significantly to making our cultural resources 
accessible on the network, and libraries of all types are 
joining in partnership with the Library of Congress. It is very 
important that we support this ongoing program so that the 
Library can continue in this leadership position.
    Libraries, as you know, have a unique opportunity and 
unique role in preserving and making accessible digitized 
information. The National Library Services for the Blind and 
Physically Handicapped is a critically important service to the 
Nation. We support the minimum request of $48,983,000 for this 
program, and that includes mandatory salary costs and covering 
price level increases.
    The law library, with over 2.3 million documents, is the 
world's largest legal collection, of vital importance to the 
Nation. We strongly support the budget request of $8.2 million 
to support 16 full-time positions as well as supporting the 
automation program of that library.
    In closing, Mr. Chairman, as the Library of Congress 
celebrates its 200th anniversary through the next year in 
service to the Congress and the Nation, we have a unique 
opportunity to ensure that all of the constituencies benefit 
from the Library's acquisitions that pertain to our Nation's 
cultural and historic resources. Funding to assist the Library 
in strengthening its infrastructure is a key step in meeting 
this important goal. Thank you for the opportunity to spend 
time with you today. The American Library Association, the 
Association of Research Libraries, the American Association of 
Law Libraries and Special Library Association appreciate your 
support and look forward to working with you on this project in 
the future.
    Mr. Taylor. Thank you Ms. Wand.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Taylor. We owe a lot of gratitude to the other Members 
here. Mr. Lewis has served on this committee, and Mr. Pastor. 
And I can report to you that not only are we working in the 
area of digitalization, the center that has opened last summer, 
but we are both expanding it from two directions. One, we have 
negotiated and signed agreements with other countries to 
digitize their library. We did two in this last quarter and 
hope to increase that service because it is bringing in works 
that we could never hope to attain in our Library, but can be 
shared in the world and certainly in this country. And then we 
have pilot programs going where we are working with our 
education system to distribute the works. So we are--in our 
Library of Congress, the 120 million items that we have.
    So we are working on two areas, not only to acquire more 
knowledge for the Library to be distributed through the 
Library, but expanding the system so that more people can enjoy 
and benefit from the works in the Library of Congress.
    And of course, the ongoing items that you mentioned as far 
as the blind where we are actually going to see how 
digitalization can impact that, and there is a positive impact 
going to come from that.
    So we appreciate your statements and we are certainly 
supportive.
    Are there questions, Mr. Pastor?
    Mr. Pastor. First of all, thank you for coming in and for 
your testimony. But the Librarian informed us that as it deals 
with people who have disabilities, especially the blind, that 
they are undergoing a study which will probably take a year, 
year and a half. And they are going to come back to us with 
what we need to do in terms of appropriating money so that the 
blind are able to get information off the Internet and other 
means.
    And so the Librarian is well aware of the these and the new 
technologies and how we need to provide that information to the 
blind. So we are very happy to hear that. And hopefully in the 
next couple years, we will be at a point where they will have 
access to all that material.
    Ms. Wand. Well, the adapted technology is making great 
strides. And it is very, very--the potential is very great in 
this area. Libraries are working in conjunction with the 
Library of Congress on this.
    Mr. Taylor. Mr. Lewis.
    Mr. Lewis. Thank you, Mr. Chairman.
    I appreciate very much your testimony. I was reminded of 
two things when outside witnesses made presentations about the 
relationship between this committee and the House library. The 
one was in 1970, roughly, I was involved in a small, little 
redistricting project in California. We had a digitizer with 
computers attached. And to just draw lines on maps relating to 
a few districts, we had a room about twice this size to handle 
that digitizer.
    Technology has changed radically and benefited all of us. 
And the dialogue between people like yourself and libraries' 
work and Congress, our authorizer looks askance at our 
permanently authorizing things by way of appropriations, but at 
the same time I understand the thrust of your comments.
    The other thing I was reminded of as you were talking about 
the programs involving braille, at one time an outside witness 
some years ago presented to me, by way of Mr. Fazio, a 
digitized version of Playboy magazine. My bride was very 
interested in that.
    Ms. Wand. Your mention of the hybrid library is important. 
We are all facing this in libraries. We have to maintain the 
print material, and we have to maintain the skills and all the 
systems that support the print material, and at the same time 
the technology layers, a whole other set of skills and concerns 
on the cost and on the operations.
    So I say that librarianship is one of the most exciting 
professions to be in at this time because we have to be very 
agile. We have to be learning all the time.
    Mr. Taylor. I don't see digitalization as destroying the 
book; on the contrary, I think it is going to enhance reading.
    Mr. Hoyer.
    Mr. Hoyer. I have no questions. Thank you.
    Ms. Wand. I want to comment and compliment all of you on 
your Web sites. They are very effective, very informative.
    Mr. Taylor. Thank you.
                              ----------                              --
--------

                                       Wednesday, February 2, 2000.

                       GOVERNMENT PRINTING OFFICE


                                WITNESS

RIDLEY R. KESSLER, JR., REGIONAL DOCUMENTS LIBRARIAN, UNIVERSITY OF 
    NORTH CAROLINA AT CHAPEL HILL, AMERICAN LIBRARY ASSOCIATION, 
    ASSOCIATION OF RESEARCH LIBRARIES, AMERICAN ASSOCIATION OF LAW 
    LIBRARIES
    Mr. Taylor. Our next witness is Mr. Ridley Kessler of UNC 
Chapel Hill.
    Good to see you, sir.
    Mr. Kessler. Good to see you, sir.
    Mr. Taylor. I hope the weather is mild in Chapel Hill.
    Mr. Kessler. It has been very bad, sir. We ran out of milk 
and bread, dog food and Jack Daniels, in that order. I come 
here and see you have the same thing. So I have had all the 
snow I want to see, and certainly all the hurricanes I want to 
see.
    Mr. Taylor. I understand.
    Mr. Kessler. Thank you, gentlemen. I am glad to be here. I 
am representing five national library associations in support 
of the public printer's fiscal year 2001 budget request, $34.4 
million for the Superintendent of Document salaries and expense 
appropriations. This is something that is near and dear to our 
heart because it is the heart of the Federal Depository Library 
Program, which is a unique partnership between libraries and 
the American public to provide government information to anyone 
who wants it. Parts of this program date back actually to 1813 
when the Congress of the United States passed Resolution Number 
1, which said that House and Senate journals and other 
documents ordered by those gentlemen would be given to the 
universities and colleges in each State.
    And I think that is important because I happen to gather 
all of these historic vignettes from original documents in my 
library that date from that time period, so this program is 
still important today. And I hope in 2100 somebody will be here 
from my library, and they will have some quaint little story in 
which they used information from today that they can give to 
your people that come after you.
    The Federal Depository Library System represents a 
partnership between the American Government and libraries, and 
at the heart of it is 1,300 participating libraries that 
represent almost every congressional district. And we are 
providing tangible and electronic government publications to 
all who need them, and everybody has equal access to this 
information in whatever format that it comes in.
    This $34.4 million that has been requested for documents, 
salaries and expense appropriations will support the continuing 
operation of the FDLB, its electronic transition plans, and 
increased demands on the GPO access system. Parts of this 
budget request include $1.6 million for that GPO access, 
operating and hardware, cost of which is also included in that 
public access, which is a very important part of the program. 
There is also a request of $582,000 for five additional 
depository library program positions, one of which is an 
electronic collection development person.
    There is $3.3 million for cataloguing, indexing to fund 
four additional cataloguers to maintain and enhance the finding 
aids available on GPO access, and there is also approximately 
$1 million, which I think is a one-time request for the 
depository printing expenses, which is mainly for the new 
edition of the U.S. Code, which is one of the most heavily used 
paper volumes in the Library.
    Now I point out to you, Mr. Chairman, being a graduate of a 
distinguished North Carolina law school, that the court systems 
and law schools and law journals and lawyers refuse to accept 
anything else but a printed citation from the source. So it is 
important. It is also easier on old people who are used to 
working with that. We use it in libraries, and also the public 
use a combination of electronic and paper, going back and forth 
almost seamlessly to each one.
    We are supporting the GPO Access Program, which was, of 
course, created by the GPO Electronic Information Access Act of 
1993. And it is an award-winning digital collection, over 70 
databases. It keeps growing in importance. There are over 
104,000 titles from GPO servers, and there are over 68,000 
titles from non-GPO servers. I believe that we are downloading 
about 21 million documents every month, and it is growing about 
4\1/2\ percent each month.
    They are also finding aids that are on GPO Access to help 
people get to the information that they need, a lot of which is 
a browse and search option for locating materials on government 
sites. These are important for people for locating materials, 
where they are and how to get it. This is why we need those 
extra Federal Depository Library Program positions for 
collection development to go out and find it and for those 
cataloguers who do untold, unappreciated work of telling us how 
to get to it, including people in your districts.
    To conclude, the Depository Library Program is a true 
partner program in which participating libraries are building 
and maintaining valuable historical collections of tangible 
materials for permanent public access. At the same time, they 
are presiding over substantial funds to serve each of your 
constituents by providing access to electronic government 
information.
    Congressman Lewis, one of the things we are doing, for 
instance, at the University of North Carolina and a lot of 
other major research libraries, we are using digital 
information provided to the program, and we are taking the 
Environmental Systems Research Institute software from 
Redlands, California, and we are able to map out statistics 
that we get.
    So this is a growing area. And I don't understand that, but 
people that are younger than I am, who are talking with me, are 
able to do astounding things.
    And you were talking about taking weeks and weeks. It can 
be done in one little place in about 30 minutes if you know 
what you are doing. It is amazing.
    We think this is an important program. This money will be 
put to good use. It goes directly to the people of the United 
States through libraries. We hope that you will continue to 
support our efforts. We would like to be able to count on you 
to do this. And I thank you very much for allowing me to come 
appear before you today.
    Mr. Taylor. Thank you, sir.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Taylor. Mr. Pastor.
    Mr. Pastor. No questions.
    Mr. Lewis. None.
    Mr. Taylor. Thank you very much.
                              ----------                              --
--------

                                       Wednesday, February 2, 2000.

                     CONGRESSIONAL RESEARCH SERVICE


                                WITNESS

DENNIS ROTH, PRESIDENT, CONGRESSIONAL RESEARCH EMPLOYEES ASSOCIATION, 
    LOCAL 75, INTERNATIONAL FEDERATION OF PROFESSIONAL AND TECHNICAL 
    ENGINEERS
    Mr. Taylor. Mr. Dennis Roth, the Congressional Research 
Employees Association. Mr. Roth.
    Mr. Roth. Good morning. Mr. Chairman, members of the 
subcommittee, my name is Dennis Roth. I am president of the 
Congressional Research Employees Association, IFPTE Local 75, 
and testifying today on behalf of the more than 550 bargaining 
unit members of which nearly 350 are members of the union.
    I would like to begin by thanking you, Mr. Chairman and 
members of the committee, not only for the strong financial 
support you have shown towards the Library and CRS, but also 
for your policy support. Last year you gave the Library 
authority to participate in the Metrochek program and began 
funding for the replacement of ergonomically unsound furniture. 
As of mid-January at our last Metrochek distribution, 1,916 
employees received Metrocheks indicating that the staff had 
responded overwhelmingly to this initiative and are doing their 
part to reduce congestion, save energy, and protect our 
environment. In addition, the program has been a significant 
morale booster.
    With respect to replacing the outmoded furniture, we seek 
your strong encouragement of the Library to work with the 
unions and staff because these decisions directly affect us as 
final users. Only yesterday was a grievance settlement offered 
to us over the failure to purchase ergonomic furniture for a 
brand new CRS information research center in the Madison 
Building for CRS staff that opened only a few months ago. This 
grievance would not have had to have been filed if the union 
and staff were consulted before the furniture purchases were 
made.
    Over this past year CREA has been very busy representing 
the interests of staff. We negotiated a reorganization 
agreement, two agreements on the reconstruction of the CRS work 
space, and continued bargaining our master contract. Shortly 
CREA will be putting a telework proposal on the table. We know 
that the House adopted a telecommuting policy last year and 
that the last--at least one member of this subcommittee was 
very interested in the topic. We would appreciate any 
assistance you could give us in having the Library adopt a 
telework policy for its staff, particularly the Congressional 
Research Service. If you have been able to develop a policy, so 
should we.
    On February 14th, 1999, the reorganization of the 
Congressional Research Service went into effect. Two existing 
divisions at that time, the economics division and the science, 
technology and medicine division, were eliminated, and staff 
were dispersed to other positions. When CREA officially 
responded to the proposed reorganization, we noted, and I 
quote, ``At issue is whether this particular reorganization 
plan, which the Director devised without consulting staff or 
frontline managers, will actually enhance our service to 
Congress.''.
    In the survey itself, staff questioned this continually. To 
determine the effects of nearly 1-year-old reorganization on 
CRS staff, we conducted a survey at the end of last month. As 
was noted in my testimony that was submitted last week, the 
analysis was not completed at the time due to the weather 
problems of getting to work. We have now been able to do so and 
request that this supplement, which I prepared 30 copies, be 
added to our testimony.
    Mr. Taylor. Without objection.
    [Clerk's note.--The following supplement has been supplied 
to the committee:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Roth. Thank you.
    We bring these results to you not to hurt the Service, but 
to demonstrate that a lot of work has to be done on the human 
side of the reorganization. We want to work with CRS management 
to address the problems identified by the survey; however, we 
are concerned how receptive CRS management may be to our 
request and therefore ask you to encourage or, if need be, 
instruct CRS management to work with CREA and staff on 
restoring the previous overall positive work environment that 
has been greatly eroded by the reorganization. If such actions 
are not undertaken, we are concerned that staff will depart at 
a rate much higher than anticipated and greatly hindering the 
ability of the CRS to be the highly professional organization 
that you have been accustomed to. We can, working together, 
attempt to restore the esprit de corps of the Service, but we 
need a sincere opportunity to do so.
    In all the questions asked in the survey, staff felt more 
negative than positive about the effects of the reorganization, 
but what really stands out and needs immediate attention is 
staff morale. Seventy percent of the respondents felt that the 
organization had a negative impact on the morale of their 
colleagues, and 55 percent felt that it had had a negative 
impact on their own morale.
    The last concern we would like to raise with you this 
morning is the rapid departure of expertise from the Service. 
While we support our succession initiative through the graduate 
recruit program, these new CRS analysts and librarians cannot 
fill the gaps created by the departure of our senior staff. Our 
concern is while this drain continues, we do not see efforts to 
replace lost expertise. What we do see, however, are several 
supervisory positions being open and being filled at many 
levels equivalent to our analyst positions. We question not 
only the level of these positions, but also if this is the 
appropriate time to fill positions that have no direct 
analytical contact with the Congress.
    In conclusion, thank you for your past support, and we hope 
you can offer further support in the areas identified in my 
testimony. I would be happy to answer any questions you may 
have.
    Mr. Taylor. Mr. Pastor.
    Mr. Pastor. I think this subcommittee has tried to address 
the problem of succession, especially in CRS. It was beginning 
last year, when I started serving on this subcommittee, that I 
became aware of the need for a succession program because 
people were retiring and that expertise was leaving. I recall 
in this year's testimony there have been some problems because 
of the national overall low unemployment that possibly CRS 
can't compete for some of the graduate students coming from 
universities. That seems to be a problem. So we are trying to 
get more flexibility to try and do that.
    Mr. Roth. Our concern is with the more senior-level staff 
that is leaving that take a wealth of knowledge and experience. 
I think they are losing at a rapid rate, part of which I 
mentioned in the survey, that there has been a tremendous 
morale deflator in that people who are leaving--and basically 
my age in their fifties, you really have to be a top knowledge 
person to go out and find a job at an age group, even though we 
have age discrimination laws, we all know once you get over a 
certain age it is not very easy. But these are people who are 
not retired, but yet moving on to other jobs. So it is a big 
concern that we have.
    I am from one of the divisions that was eliminated, which 
was the economics division.
    Mr. Pastor. In your survey you talk about morale. What are 
the morale deflators that people cite as reasons to leave early 
indicating a succession may not work.
    Mr. Roth. Well, the succession plan is good, but it is not 
sufficient, I guess.
    Mr. Pastor. But you mentioned several times that you have 
done a survey, and people are leaving because they are not 
happy, especially at those senior levels.
    Mr. Roth. A few have, and we are afraid more will.
    Mr. Pastor. My question is what is happening that is 
causing them to leave?
    Mr. Roth. I think it is a conflict on what constitutes 
research. Research can be pure research like scientists or 
economists do, looking at the big problems, applying their 
theory, and policy recommendations. Other research can be 
looking at existing legislation, tracking the pluses and 
minuses and doing that.
    It appears that one of the directions of this 
reorganization was to eliminate what I call the pure research, 
the economic and scientific research, and focus mostly on what 
is there, what is legislative. So you have these people saying, 
well, I can't do this anymore. This is what I have done. We are 
talking about people that have done it their whole careers. As 
you know, the Director says we could all probably retire in the 
next 10 years. You are not going to be able to drive it in that 
direction.
    Mr. Pastor. So it is the focus now of the CRS that is 
causing so many people to look at where they are at and 
alternatives for leaving.
    Mr. Roth. Right.
    Mr. Pastor. Thank you, Mr. Chairman.
    Mr. Taylor. Mr. Lewis.
    Mr. Lewis. You anticipated my initial question. I was 
scratching my head. Your first point related to ergonomically 
sound furniture. Would you explain that to this country boy 
from California?
    Mr. Roth. We moved into the Madison Building in 1980. At 
that time the furniture was designed for typewriters, and they 
have typewriter arms, and nothing is adjustable. The chairs 
they have made some progress on, but it is the bilevel tables 
where we now all use computers. In fact, it is almost 
impossible to find a typewriter in the Library anymore. And in 
order for it to be--for posture, for carpal tunnel syndrome, 
back problems, things should be certain heights, certain 
levels, particularly if you use it at a pretty heavy level.
    And so what we are doing is replacing these old 19--
probably purchased in the late 1970s--furniture with things 
that you can put a computer on and adjust it to give you the 
right eye level, right back level, and chairs that give you 
proper support. And 20 years is probably a good time anyway to 
start replacing furniture.
    And we see more and more instances of carpal tunnel 
problems in the Library, which can be easily dealt with if they 
have the proper furniture or get some training on what it 
should be.
    Mr. Lewis. Have you actually gotten some information that 
has indicated to you by the evidence that carpal tunnel 
syndrome has been impacted by the furniture? Has there been 
some analysis made? I remember being here when we actually 
furnished the Madison Building on this subcommittee, and it is 
just the first time I have heard this from any branch that I 
have been working with. I would be interested in that. Do you 
have studies that actually show that?
    Mr. Roth. I have talked to Health Services. I didn't go to 
them this year to get the number of instances there. But just 
by walking around you see many more people wearing the wrist 
braces or talking to you about having to get surgery or having 
to stay away from computers for a while. It is a growing 
problem.
    Mr. Taylor. Mr. Lewis, Mr. Pastor, I want you to recognize 
this. When my pickup comes up to remove this old table, which 
is probably ergonomically not correct, and that 1790s side 
table over there, there is no charge, I am just replacing it. I 
will bring in one.
    Mr. Lewis. Frankly, I wasn't going to make light of it, but 
in my own offices in California and here, you know, we have 20-
year-old, 30-year-old furniture I know that the carpal tunnel 
syndrome problem has been a growing problem in our society 
generally in recent years, but I am not sure--I am just 
scratching my head because I am sure your personnel would 
rather have pay increases than they would changing furniture.
    Mr. Roth. Having talked to some people and the pain they go 
through, I am not sure they would take money for not having the 
pain.
    Mr. Lewis. Scientifically if you can relate it to the 
furniture they are using.
    Mr. Roth. The Library has had a work ergonomics committee 
since maybe the early 1990s, and they have identified a lot of 
the problems and have tried to do things that are simple. A lot 
of times you get a footstool. A footstool can be four telephone 
books stacked up.
    Mr. Lewis. Do we have an ergonomic committee in the 
legislative branch here? If the Library is doing it, we sure 
ought to consider doing it.
    Mr. Taylor. I am not sure whether the compliance committee 
has that sort of thing. We have, Mr. Lewis, appropriated money 
last year to improve in some areas. Certainly where you have a 
computer, maybe different furniture may be necessary to utilize 
that. Of course, it wasn't on the screen years ago, so you 
don't have perhaps a place for it. Beyond that, I am not sure 
how much money.
    How much money did we put in, Ed, last year? About 
$700,000.
    Mr. Lombard. Several hundred.
    Mr. Taylor. Several hundred. So we are attacking it in that 
area.
    Mr. Lewis. Please don't look it up right now. I much prefer 
to consult with you later about this.
    Mr. Roth. Some of the solutions are very simple, like I 
say, telephone books stacking a computer up higher so your eye 
level is proper. But it is an awareness of knowing what is 
wrong in order to do what is right. That is why these 
committees are very helpful. We call it Ergo-tips that we have 
given out to people so they know when they look at it, this 
pain in the neck is not--.
    Mr. Lewis. Our staff needs to help us know this stuff.
    Mr. Taylor. I can tell you that in the Congressional 
reading room, no one there is a point that you all might see 
that has happened. Indeed, once we had a House reading room and 
a Senate reading room, and now we only have one of those, which 
either speaks to the reading capacity or ability of the Senate, 
or maybe it is economy that has done it. But I know I would go 
in there, and it is comfortable to go in and read.
    Mr. Lewis. Since you are going to complete your hearing so 
early this year, I think maybe the professional staff will have 
a chance to spend some time with me regarding this subject.
    Mr. Taylor. Good.
    Thank you Mr. Roth.
    Mr. Pastor. Could I ask one question?
    Mr. Taylor. Sure.
    Mr. Pastor. On page 2 you say, ``We would appreciate any 
assistance you could give us in having the Library adopt the 
telework policy for staff, particularly CRS.'' Would you like 
to add more information to that for me?
    Mr. Roth. Well----
    Mr. Pastor. More detail.
    Mr. Roth. We are negotiating our master contract, and we 
right now don't have telework, which we see as sort of a 
limited basis the way the House has adopted it. There may be 
times where you could stay home a day or two maybe on a special 
project. The technology has come along so far that it really 
makes it easy to do.
    We have had some resistance from CRS management saying that 
it is not really appropriate for us because they want us here 
24 hours a day 7 days a week is the best way to serve Congress. 
And if we are at home, we could still answer requests. We can 
telephone you. We are responsible enough to know that if you 
have a major bill on the floor, and I am responsible for 
tracking that particular area, I am not going to ask to work at 
home that day.
    We have to overcome that hurdle that we know when we can do 
it and when we can't do it. And if that is the case, then I 
think we can get a policy in there. But we have the sort of 
resistance; somebody loses. But whether the Congress is going 
to lose or the fear of that is there every time you make a 
decision, that is the other side of the coin.
    Mr. Pastor. Thank you.
    Mr. Taylor. Thank you, sir.
    Mr. Roth. Copies.
                              ----------                              

                                        Wednesday, February 2, 2000

                          LIBRARY OF CONGRESS


                               WITNESSES

SAUL SCHNIDERMAN, AFSCME LOCAL 2910
SHARON KORSEE, LIBRARY OF CONGRESS PROFESSIONAL GUILD
KEN DUNLAP, CHIEF NEGOTIATOR, LIBRARY OF CONGRESS PROFESSIONAL GUILD
    Mr. Taylor. Our next witness is Mr. Schniderman of the 
AFSCME Local 2910.
    Mr. Schniderman.
    Mr. Schniderman. Thank you for getting my name right. I am 
Saul Schniderman, the president of AFSCME Local 2910, the 
Library of Congress Professional Guild, representing about 
1,400 professionals at the Library of Congress. And I am here 
with Sharon Korsee with the Guild and Ken Dunlap, our chief 
negotiator.
    We presented to you some written testimony, which I would 
like to invite you, Mr. Chairman, and the Ranking Member, and 
your staff and the committee members to read as sort of a soup-
to-nuts position of the Guild dealing with everything from fire 
safety at the Library to succession planning at the Library of 
Congress, which we support, to the security program at the 
Library, where we have some deep reservations.
    I want to start off this morning by, first of all, thanking 
you for your support of the transit fare subsidy at the Library 
of Congress. It shows a real commitment that you have made to 
the staff at the Library. And because we are such a staff-
driven institution, we can now say that we share in the same 
benefit that the House and Senate staffs do. So thank you on 
behalf of all those employees who are participating in that 
program.
    The only topic I wish to bring to your attention this 
morning is funding for the National Digital Library. I 
understand Mr. Billington spoke before you about a large-scale 
initiative that the Library of Congress had called the, 
National Digital Initiative for the 21st Century, which was 
very broad in the scope. I only want to bring your attention to 
the program known as the National Digital Library, which exists 
now at the Library of Congress with about 75 professionals and 
about 10 clerical administrative employees. These are 
digitalization specialists who help work on historic 
collections at the Library that are mounted on the World Wide 
Web via the Internet. They are in a career ladder, the folks we 
represent, from about 9 to 12, and they are in term 
appointments; means that they are not to exceed appointments, 
which many of which are due up at the end of this fiscal year.
    Now, the Library has asked that these term appointments be 
made into permanent employees so, as they say in the lingo, 
that we change them from NTE, not to exceed, to FTE, which is 
full-time equivalents. The reason why I would like to urge this 
committee to support that is because these employees work in a 
structure that is very, very flat in the sense that there are 
very few managers involved in this outset. They work on teams 
throughout the Library and are assigned to work on historic 
collections in various parts of the Library. They are very 
programmatic, the National Digital Library is, and is very 
thematic.
    What do I mean by thematic? Well, if you surf the Web and 
go into LOC.gov and look under American history, you will see a 
number of historical collections from the American Civil War 
photographs, the Jackie Robinson story, songs of the South, 
Hispanic culture, all displayed artistically and creatively on 
that Web site. These are various theme projects that the 
National Digital Library staff work on.
    So they do a good job, and they provide a much needed 
service for the American public, because what we find today is 
that a lot of American citizens are just in love with their 
country's history. They are going to more movies about American 
history, they are going to more museums, and they are visiting 
Web sites about American history and watching all the 
miniseries on the television shows. It is a service that means 
that a person can be in their home and not have to come to the 
Library, as scholars do, to research and see what some of these 
collections are like.
    So I come here really this morning to ask you to support 
this one program for the existing staff at the National Digital 
Library and see if you could see it in your minds and hearts to 
appropriate and make that permanent staff member.
    Again there is about 70 or 75 professionals in that unit 
and about 10 clerical staff, very few managers. It is a lean 
organization, and it would be in the best service of the 
country and the Library if you would fund it. And I thank you 
very much.
    Mr. Taylor. Thank you for your presentation.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Taylor. Mr. Billington and I have last year approached 
the subject about the need of retaining the talents that we 
have, because it is a rare talent in digitalization because it 
is a growing industry worldwide, and there is a lot of demand 
for that type of talent. We don't want to lose that at the 
Library of Congress. Because one of the ways that I think we 
tried to secure it is to see that the Library's mission is 
broadened in that area, both in digitizing our own works, which 
we are approaching 5 million, soon, and I estimate you probably 
have at least another 15 million to go of the works that are 
there now, and that is just my estimation. It is certainly not 
the Library or anyone else.
    And then the work that we are doing, technology that we are 
making available in other countries by expanding the Library's 
resources by the agreements with those countries, that is 
important; and of course, the pilot programs that we are doing 
with the public school teachers and using part of that staff to 
teach and assemble the curriculum that teachers might want as 
they start using the resources of the Library. And so all of 
that, I think, as well as a need for continued expansion or at 
least expansion of the material, those employees for the 
Library of Congress. And we appreciate your also bringing that 
to our attention again today.
    Mr. Schniderman. I appreciate your comment, sir, that this 
is not a replacement for the book, but is expanding the 
resources of the great institution that we work in and love.
    Mr. Taylor. Absolutely. And it is a golden age, I think, 
for the Library just because of people's interest in history 
and being able to both see visually on a screen and read. And I 
think associating the written word with pictures and artifacts 
that the libraries have is certainly worthwhile.
    We did do the Lenin State Library in December with the 
agreement there. They have a wonderful amount of material that 
we can hopefully digitize and share with the Russians. A lot of 
it hasn't been available to the public in almost 100 years. So 
I think you are going to find that the things that are going on 
in that area are going to be very exciting for this coming 
century.
    Mr. Pastor.
    Mr. Pastor. Mr. Chairman, first of all, let me thank you 
for your testimony. And you bring up some of your issues in 
your written testimony; which you didn't highlight in your oral 
testimony. And one is the issue that the gentleman before you 
talked about in terms of the employees' ergonomic hazards. Do 
you wish to expand on your--because in your written testimony 
you are critical of the program.
    Mr. Schniderman. Of the ergonomics program.
    Mr. Pastor. Let me read it. ``This program has faltered 
recently.'' That is criticism, I guess.
    Mr. Schniderman. I will answer your question, sir, and it 
is a good question because the Library of Congress is a very 
high-tech workplace, probably one of the most technology-
intensive units in the legislative branch, probably in all of 
government.
    What I meant with that slight critique in my written 
testimony was that to date, the Library's ergonomics program 
has been mostly voluntary, and it has been running now for 
about 6 or 7 years. And what happens is that people burn out.
    So we are hopeful. What I said in that testimony was that 
if management at the Library would give the program a higher 
profile by giving it some staff support. It is a joint effort 
between the Library and the unions, and it will work if we pull 
together.
    I think one thing that the committee could do would be to 
look at the appropriation request for the Library for furniture 
replacement and applaud its efforts to hire an industrial 
hygienist, which it is doing this year, to meet some of these 
problems. So that is good.
    Mr. Pastor. Ed has just highlighted for me last year's 
budget provided $600,000 for furniture replacement.
    Mr. Schniderman. Yes, and we----
    Mr. Pastor. Towards the ergonomic replacement program. I 
guess this committee at least has recognized that there is a 
need to ensure that the equipment meets the new technology 
demands. But you seem to be highlighting that we need to do a 
little bit more.
    Mr. Schniderman. We applaud that appropriation because it 
was a 5-year furniture replacement plan, and it is in the 
works, and we thank you for it. We thank you for it.
    Mr. Taylor. I hope it is going to be made in North 
Carolina, because there is not an ergonomically incorrect bone 
in any of our bodies down there.
    Mr. Pastor. Well, it is either because of the milk you are 
drinking on the Jack Daniels.
    But I guess what I am getting at, is what would you suggest 
to us to encourage that it has a higher profile? What else is 
it?
    Mr. Schniderman. I think continuing to fund the furniture 
and furnishings program Mr. Lombard pointed out is critical for 
the furniture replacement, and to applaud the Library for the 
hiring of an industrial hygienist, which is what they plan to 
do this year, I think would be helpful.
    Mr. Pastor. You also discussed the succession program, You 
mention that you have people who are close to retirement now, 
and probably, in 5 years there are going to be a lot of people 
who will be leaving with their technical skills. And a least 
from reading this, it seems that the program may not be fully 
in place.
    Mr. Schniderman. That program has just started for Library 
services. I am not even sure it has actually started. CRS came 
out of the box first on that. So we don't have too many details 
on it that we have been briefed on. But the concept that the 
institution of the Library of Congress has older employees, at 
least the statistics we have seen from the rest of the Federal 
Government and some of these areas, for example, on the Chinese 
cataloguers and Library services, practically the entire team 
of Chinese cataloguers could be eligible to retire within a 
given year, and you could wipe out all of those language skills 
and experience. So it is critical.
    Mr. Pastor. Thank you, Mr. Chairman.
    Mr. Taylor. Thank you, sir.
                                       Wednesday, February 2, 2000.

                        LAW LIBRARY OF CONGRESS


                                WITNESS

CAROLYN AHEARN, FORMER PRESIDENT OF AMERICAN ASSOCIATION OF LAW 
    LIBRARIES AND THE LAW LIBRARIANS SOCIETY OF WASHINGTON
    Mr. Taylor. Our next witness is Carolyn Ahearn, who is with 
the American Association of Law Libraries. She is President of 
the Law Librarians Society of Washington.
    Ms. Ahearn. Thank you. I am director of the Library 
Services at Wiley Rein & Fielding here in Washington, D.C. I am 
very pleased to appear before the subcommittee on behalf the 
American Association of Law Libraries, AALL, to support the 
full fiscal year 2001 funding request of the Library of 
Congress.
    I had the honor of serving as president of AALL in 1991 and 
1992, and I am the immediate past president of our local 
chapter, the Law Librarians Society of Washington, D.C.
    The mission of the Law Library of Congress is to provide 
legal and legislative reference and collection services to 
Congress, the judicial and executive branches of government and 
to the American public. The Library's multilingual attorneys, 
researchers and reference librarians serve more than 100,000 
users each year. In addition, the Law Library serves a rapidly 
increasing number of remote users with electronic legal and 
legislative information through its various Web sites.
    As a representative of AALL, I urge full support of fiscal 
year 2001 funding request for the Law Library. The more 
traditional services of the Law Library, collecting and making 
print materials accessible and useful to Congress and the other 
members of the user community, must be continued. Staffing is 
critical to this work. The budget request includes slots for 16 
new Full Time employees that we believe to be absolutely 
essential in order for the Law Library to restore continued 
acceptable levels of research and reference service to Members 
of Congress and other government agencies and officials.
    Over the past decade a decrease in the number of FTEs at 
the Law Library has been accompanied concurrently by a 
substantial growth in the collection and successful development 
of newer technology projects. Very importantly the funding 
request also provides for the Law Library's succession plan, 
including the provision of professional training and experience 
to new staff before the retirement of highly experienced legal 
experts.
    As has been noted, this is an issue that a lot of various 
parts of LOC are facing, but it is particularly critical in the 
Law Library where a number of the foreign law specialists are 
facing retirement now, and they in many cases were trained in 
the foreign countries where they do their research in now, and 
to develop that level of expertise with people who may not have 
had the training in the original countries does take a great 
deal of support. And that is something that we think is 
critical.
    At the same time several other important initiatives also 
require the support and attention outlined in the funding 
request. I would like to highlight two particular areas: 
Digital initiatives and rare legal materials.
    Among the Law Library's most important newer initiatives 
are the successful efforts to maximize use of state-of-the-art 
technologies to make its collections more accessible. The Law 
Library currently has been engaged in two separate digital 
Library initiatives, the Global Legal Information Network, 
known as GLIN, and a project undertaken with the National 
Digital Library entitled A Century of Lawmaking for a New 
Nation. GLIN is a multinational legal database with official 
current law resources that is uniquely important to our 
government in the rapidly changing global economy. This 
received your support in the past and clearly merits continuing 
support to expand the country coverage and augment the content 
by digitizing retrospective and current specialized legal 
materials.
    The other important digitalization project, A Century of 
Lawmaking for a New Nation, offers Congress and many others 
unprecedented access to historical congressional debates of the 
first 42 Federal Congresses. Upon completion of this project, 
any researcher with access to the Internet may explore the 
first 100 years of our Nation's history and evolving government 
as documented by the official reports of Congress.
    With your continued support for this unique project, the 
Law Library will offer Congress, the Nation and the world 
remote access to this Nation's second century of lawmaking.
    While making appropriate use of technology, the past must 
not be neglected. The Law Library currently has the largest 
collection of rare law and legal-related materials available in 
the world. Preservation of these materials is imperative. At 
this time hundreds of rare legal materials are integrated into 
the Law Library's general collections and are presently at 
risk. Appropriate staffing and programs are needed to identify 
and segregate these materials in a suitably secure facility and 
to focus on special issues raised with these very unique 
materials.
    Mr. Chairman and members of the subcommittee, on behalf of 
the almost 4,800 members of AALL, I thank you for your past 
support of the Law Library of Congress, and I urge your current 
support so that in fiscal year 2001, the Law Library can 
continue to build its valuable collections and services as well 
as its significantly important digital initiatives. Thank you 
very much for your consideration.
    Mr. Taylor. Thank you. Thank you very much for your 
presentation.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                       Wednesday, February 2, 2000.

                 LIBRARY OF CONGRESS POLICE DEPARTMENT


                                WITNESS

VERNON GEHRIS, CHAIRMAN, FRATERNAL ORDER OF POLICE, LIBRARY OF CONGRESS 
    LABOR COMMITTEE
    Mr. Taylor. Our next witness is Vernon Gehris, chairman of 
the Fraternal Office of Police of the Library of Congress Labor 
Committee. I hope my pronunciation of your name was correct.
    Mr. Gehris. It was correct, Congressman. Thank you. Usually 
it isn't, but it was.
    Chairman Taylor, Congressman Pastor, thank you for the 
opportunity to testify before you regarding the Library of 
Congress Police Department. I am the chairman of the Fraternal 
Order of Police Labor Committee, which represents the sworn 
members of the Department below the rank of sergeant. I was a 
D.C. Metropolitan Police officer for 24 years before retiring. 
I joined the Library of Congress Police Department in April of 
1998. I am proud to work with the men and women I represent. 
They are dedicated and often must work very long hours under 
difficult circumstances to secure the Library and its 
approaches to the Capitol.
    While morale suffers from the lack of sufficient manpower 
and resources, I am pleased to report that my fellow officers 
face these obstacles with determination and perseverance. They 
continue to have a can-do attitude.
    I will keep my remarks brief today, but I must bring 
several significant issues before you. Training is critical to 
law enforcement professionals throughout their careers. Many of 
us receive initial training at the Federal Law Enforcement 
Training Center in GlencoE, Georgia, FLETC. However, the 
Library has recently adopted a policy of hiring experienced 
officers from other agencies without requiring them to complete 
the FLETC training. Some of our newest hires do not have prior 
Federal law enforcement experience.
    There is no formal continuing education program for our 
members. We are provided a 10-minute presentation each day 
which generally recites the Department's policies from 
published orders. There is no Library of Congress Police 
Academy. There are no experienced officers' seminars, there are 
no FLETC-certified instructors in any law enforcement 
discipline excepts firearms qualifications. Our members--and 
here is a correction to my testimony--our members are certified 
annually instead of semiannually with their service weapons.
    Even though most of our members are fully trained and 
certified in accordance with the FLETC standards, they do not 
have the appropriate equipment to perform within those Federal 
standards. Use of force is the most serious exercise of police 
power. It presents an inherent risk to the officer and the 
subject of his or her use of force. The continuum of use of 
force is thoroughly presented, and students are tested several 
times on its requirements while they are at FLETC.
    Use of force is given a very high priority in the FLETC 
curriculum. The use of force continuum requires the least 
amount of force necessary to apprehend someone who is resisting 
arrest. It provides an escalation of force in steps, which 
assumes the Federal officer has the proper equipment and 
training. For example, the FLETC policy requires the use of 
chemical agents prior to the use of any physical force. Should 
the chemical fail to subdue the resisting subject, the officer 
may escalate the use of force. Of course, the use of firearms 
is the last resort.
    Library police officers are not issued any chemical agent 
and are prohibited from having them at work. Yet other 
employees and visitors may bring them in for self-protection. 
The absence of a chemical agent means our officers may have to 
resort to deadly force much more quickly.
    We have no direct access to the law enforcement databases 
routinely used by other Federal and local law enforcement 
agencies to identify wanted persons as they are interviewing 
them. Our control center must contact the U.S. Capitol Police 
Department to have them to make inquiries. This delays the 
return of information and can aggravate an already tense 
situation.
    When we arrest someone, we must call the U.S. Capitol 
Police Department to provide transportation to the U.S. Capitol 
holding facilities. We do not have any transport vehicles or 
holding facility within our Department. This delays prisoner 
transportation and exposes everyone involved to increased 
risks.
    While the Department is hiring more people, and we applaud 
that action, our members must now work excessive amounts of 
forced overtime, and some posts are not properly manned due to 
the lack of adequate personnel. The union believes this 
compromises the security of the Library, the Capitol Building 
and all those who visit and work in them. We urge this 
committee to continuously monitor manpower in our Department to 
ensure that present positive trends continue.
    In order to retain officers who are already on board and 
those who are now being hired, we must conform our retirement 
system to that presently enjoyed by the U.S. Capitol Police, 
provided that the officers who are now employed by the Library 
have the option of choosing between the existing system and 
that offered to the U.S. Capitol Police.
    The competition for qualified men and women grows sharper 
each day. I am concerned that our Department will become a pool 
for other law enforcement agencies to drain. The advantages 
they enjoy in retirement, training, equipment and personnel 
levels are strong inducements for our members to seek 
employment elsewhere.
    In closing, I must point out that all the issues I have 
raised today could be addressed through a merger with the U.S. 
Capitol Police Department. The union would encourage this move, 
provided our members would be protected from any adverse 
consequences. We must recognize and respect years of service 
and contribution made by our members as we consider future 
improvements. No man or woman must suffer as a result of future 
developments.
    If you have any questions, I will be happy to answer them. 
I will remain in regular contact with the subcommittee, and I 
hope you will call on me without hesitation. Thank you.
    Mr. Taylor. Thank you for those remarks, and we would like 
you to stay in touch with us.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Taylor. How many people do you arrest in a year? Do you 
have any idea of the numbers?
    Mr. Gehris. There is probably 12. That doesn't mean more 
could not be arrested, and probably actually 12. The management 
of our police department frowns on arrests, so if there is any 
way to avoid arresting somebody, we do that.
    Mr. Taylor. And you know, as Member of Congress we frown on 
that, too; I mean, especially if we are there. Are these people 
trying to take items, or just someone who is obnoxious?
    Mr. Gehris. Well, for example, just approximately 6 months 
ago we arrested a man delivering water who was armed with a 
weapon, and he had a prior record.
    Mr. Taylor. He was delivering water?
    Mr. Gehris. Delivering water in the Madison Building and 
unloading.
    Mr. Taylor. For one of the coolers or that sort of thing?
    Mr. Gehris. Yes, sir.
    Mr. Taylor. And he just happened to be carrying a gun.
    Mr. Gehris. He was carrying a gun. It was in his waistband.
    Mr. Taylor. Was his intent for the Library just carrying it 
around? I mean, this is D.C. I served the Chairman on that 
subject for 2 years.
    Mr. Gehris. I guess he felt he needed to carry a gun all 
the time.
    Mr. Taylor. Well, and, of course, we appreciate the 
Library's attention to the question of theft, all of the rare 
documents and books that we have. And there has been a lot of 
positive things happen in the last few years in that area, and 
we think that is very important.
    Mr. Pastor.
    Mr. Pastor. I just want to ask the question on the issue of 
chemical agents. We don't issue chemical agents to the Capitol 
Police, do we?
    Mr. Gehris. The Capitol police carry pepper spray.
    Mr. Pastor. I know what you are talking about. I don't 
think we issue that.
    Mr. Gehris. I think the Capitol Police carry that.
    Mr. Pastor. Oh, they do.
    Mr. Taylor. Is that with our permission or without?
    Mr. Pastor. I don't know. I am just curious, because I 
think in most of the testimony it has never been a real issue. 
And I am just curious if we----
    Mr. Gehris. The Capitol police carry it.
    Mr. Pastor. Well, you would hope that that would be enough 
to subdue somebody and you wouldn't have to go on to a higher 
level of force.
    Mr. Gehris. I brought this question up to the management 
doctor of police sciences.
    Mr. Pastor. Who is he or she?
    Mr. Gehris. Dr. Charles.
    Mr. Pastor. Does Dr. Charles work at the Library?
    Mr. Gehris. She is the doctor that heads the health 
services unit for the Library and also police management. And 
she told me, if I have this right, well, gee, if we used pepper 
spray in the reading room, we would have to close down the 
reading room until you got rid of the pepper spray. But what if 
you shot somebody? The same thing would occur. So what is 
better? And we do deal with a lot of people there, people that 
are mentally deranged, at the Library where I think the pepper 
spray would be more better than hitting somebody with a baton. 
And that is a thought.
    Mr. Pastor. Thank you.
    Mr. Taylor. Thank you, sir.
                              ----------                              

                                       Wednesday, February 2, 2000.

                          LIBRARY OF CONGRESS


                                WITNESS

ABBY SMITH, DIRECTOR OF PROGRAMS, COUNCIL ON LIBRARY AND INFORMATION 
    RESOURCES
    Mr. Taylor. The next witness is Abby Smith, Director of 
Programs, Library of Congress.
    Mr. Smith. Thank you, Mr. Chairman. My name is Abby Smith. 
I am the Director of Programs at the Council on Labor 
Information Resources here representing our president Deanna 
Marcum, who is working and out of the country and couldn't be 
here herself. You have our written testimony, which I won't 
read. I think it is self-explanatory. But I would like to add a 
bit of perspective, why the Library's digital future initiative 
is so important not only for the Library of Congress, but 
really for all the libraries in the United States and also 
libraries abroad.
    There has been a lot of press this year about how this 
technology has revolutionized commerce and the entertainment 
business and our daily lives. But for years now, this 
technology has deeply affected libraries and archives. I think 
if there is one sector of our civil society that has truly been 
revolutionized by this technology, it is libraries, and the 
technology has been both a boon, and it has been very 
destabilizing for a world which prizes stability and authority 
of control.
    The difficulties that libraries are facing are in part the 
dilemma of preserving bits and bytes. Paper, even acid paper, 
looks extremely stable now as we look ahead to the future, 
because, as you know, there is no certain way of preserving 
digital information. It is both unstable in its format, and 
also because it can only be read on a machine, you have to have 
the right hardware and software in order to get access to it.
    So even if we had sturdy CD ROMs 50 years from now, they 
could turn out to be like the Rosetta Stone, which is there 
uncorrupted but ineligible because we don't have the hardware 
and software.
    Another problem is there is so much more information being 
created now than there was when you had to put things in print. 
In fact, everybody can be a self-publisher now. And it is all 
published on this bulletin board known as the Web. The Library 
of Congress's Web site exists with a lot of amateur Web sites, 
and it is difficult for librarians as well as the average 
person to navigate this information to determine what is 
important and how they get it to their patrons in a serviceable 
way.
    So libraries know that they will, rather than be put out of 
business by this technology, in fact become increasingly 
important, but they face a number of challenges in doing that. 
And as has always been the case, libraries really look to the 
Library of Congress for leadership in this area, and they do so 
because in part the Library took an early and significant lead 
in digitizing its retrospective collections.
    The National Digital Library is a model for all libraries 
in the States and also abroad. I don't think any of us can go 
abroad without hearing how wonderful the Library of Congress is 
and how much they take it as a model.
    The Library's request for their investment in the digital 
future initiative is, we think, very appropriate and a very 
conservative and measured way to move ahead in a very uncertain 
world. Of course, there is money that is requested for 
technology that I think people understand, they expect to 
invest a lot in hardware and software. Wiser, I think, is the 
Library's request for an investment in the staff who are 
willing, who are able to keep up with this technology and 
deliver services.
    I think people really underestimate how dependent upon 
people technology is. Technology doesn't create itself, and 
because there is so much hardware and software being created 
now, it takes highly skilled people to determine how to upgrade 
and how to keep systems fresh.
    You have made an investment in this staff which has been 
strained for several years. We support the Library's request to 
make that staff firm from NTE to FTE.
    Finally, I would like to say that the Library is engaging 
in a number of pilot projects with publishers and others who 
themselves are trying to figure out how to preserve journals 
and other publications electronically. There the issue is one 
of trust. I think even the greatest publisher knows it needs to 
be doing something about making its e-journals permanent, but 
to them it is a very risky business to trust any library to do 
that. They are willing to trust the Library of Congress to do a 
number of pilots to ensure that their information is 
copyrighted and protected and not abused. And I think there are 
few institutions in the States who are in the same position as 
the Library of Congress to undertake the kinds of pilot 
projects which they request. Thank you.
    Mr. Taylor. Thank you very much for your comments.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Taylor. And we have stated the committee's position has 
been to be very supportive in the digitalization process. And, 
of course, one of the most supportive things I think we can do 
is enlarge the task so that we will be able to keep talented 
people, but not only keep them, but keep them constructively, 
because it is in that way that the Congress and the Nation sees 
the benefit. So we are moving in a variety of ways to do that.
    Certainly Dr. Billington has been well-respected worldwide 
for the leadership in the Library and certainly now in the 
digital library process. So we appreciate your coming to 
reenforce that today.
    Mr. Pastor, do you have any questions?
    Mr. Pastor. No, I don't, but I want to thank you for your 
testimony. It is very informative.
    Mr. Taylor. We would like you to keep us apprised. And I 
can't speak for the members of the committee because they are 
much more knowledgeable, I am sure, than I, but my three sons 
know more about the process than I do. I am learning. But if 
anything you find that is changing, if you want to supply it to 
this committee or myself and the Members, we would be happy to 
see it.
    Mr. Smith. Thank you. We would be delighted.
                              ----------                              

                                     Wednesday, February 2, 2000.  

                        LAW LIBRARY OF CONGRESS


                               WITNESSES

JANET S. ZAGORIN, CHAIR, ABA STANDING COMMITTEE ON THE LAW LIBRARY OF 
    CONGRESS, AMERICAN BAR ASSOCIATION
BILL ORTON, FORMER REPRESENTATIVE IN CONGRESS FROM THE STATE OF UTAH
    Mr. Taylor. We now have Janet Zagorin, the American Bar 
Association, Law Library of Congress.
    Ms. Zagorin. Good morning. I have been here for I think 
this is my sixth year, and I listened this morning to all the 
witnesses, and I think the Congressmen probably can recite my 
testimony for me. I am very impressed this morning.
    I do want to apologize for Bill Orton who is--as you know, 
Mr. Congressman, he is trying to get here. He is a member of 
our the committee, the ABA, and this is a very important 
hearing for him, but he--I would like to ask that he could 
submit something after.
    Mr. Taylor. Certainly. Without objection.
    Ms. Zagorin. I want to thank you on behalf of the ABA. As 
you know, this is the standing committee that the ABA has had 
for more than several years. And the reason that we have this 
committee to support the Law Library is because we believe that 
the Law Library is such an integral part of the American 
culture, and probably becoming even more so. And we want to do 
everything we can to support your efforts.
    You have been very generous, this committee has been very 
generous, in the past couple years in helping us assist the Law 
Library in addressing some of their serious budget crises. And 
you have my testimony, so I really just wanted to make a couple 
really important points that those of us at the American Bar 
Association think are fairly apparent, but, unfortunately, also 
desperate.
    Many of our speakers this morning have already talked 
about, you know, technology and the need to keep the Law 
Library and the Library of Congress in the forefront in the 
American public, but we really believe that you have in the 
past few years helped achieve a couple important opportunities 
on behalf of the Congress. It is your Library, first and 
foremost; it is your law library, and critical to all the 
research and all the bill-making and the research that goes on 
on the foreign, agriculture, comparative law as well as 
domestic. We think this makes quite a statement.
    In 2 months and 2 days, the Library will be 200 years old, 
and, you know, if you look around the world today, we see 
countries who are trying to close down access to the Internet, 
close down access to information, because they find it 
threatening. And we think that the testament that Congress 
makes to the world, the declaration that, Congress, you have 
made to the world to say this is our Law Library, these are our 
laws and regulations, our case law, and not only is it 
available to all of our citizens, to all of our schoolchildren, 
but it is available to any citizen of the world, we are saying 
in a way that is nonpartisan, in a way that is just simple 
democracy. This is the model for what we think a democracy is 
about. Here are our statutes. Here is how we conduct our 
business. We have no fear that our citizens or citizens in 
China or citizens in Venezuela will see our statutes. In fact, 
we reach out to you.
    And you have heard the testimony this morning about the 
number of law specialists. The ABA is terribly concerned that 
in order to keep up what is the largest law library in the 
world, the leanest staff in the world, the amount of research, 
the amount of reference, the amount of knowledge that is 
handled really and truly by a very few number of people.
    We are concerned as you asked about the succession, Mr. 
Chairman. In the year 2004, we believe 64 percent--or 54 
percent of their staff or the foreign law specialists may 
retire. We can't move forward if we have this kind of crisis.
    We have a million pages in the Law Library. As you rely on 
the Law Library, both the beauty of common law and our system 
is that we have our precedents, and we have access to the most 
current version of the proposed statute. If we have a million 
pages--and, yes, technology takes care of some of that, but it 
certainly can't fix that which is necessary for you, having 
access to the proper material.
    So we think that the Law Library has made quite a realistic 
proposal. We think this is the year that we are trying to catch 
up. With all the generosity that you have bestowed on the 
appropriations in the past couple years, we have only got to 
catch up to where they were before. They don't even have a 
Webmaster there. And yet there, as you have heard already--and 
you know that Web is really influential around the world in 
making the Law Library quite--I think it is quite a force of 
American democracy.
    We would ask very much that you continue to support what 
they have asked for. We are willing to work with you as the ABA 
in any way we possibly can to support it. Law 2000 is quite a 
project this year. And we think it really is the focus of the 
world on what is going on in American law and also in foreign 
law, as the Law Library of Congress has chosen to express it 
through its relationships with the world. So I thank you very 
much.
    Mr. Taylor. Thank you for your presentation.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Taylor. Mr. Pastor.
    Mr. Pastor. You agreed with me that the leadership of the 
Chairman and this subcommittee has tried and has been very 
active to help in the succession programs.
    Ms. Zagorin. Yes.
    Mr. Pastor. And we are very aware of the problems and 
concerned like you are. We were told today that the Law 
Library, the people that are involved in the Chinese, they are 
ready to retire, so we are losing the technical skills that 
will be very difficult to replace, and I know that the Chairman 
is very aware of it. And this committee wants to help, but 
sometimes policies that are way beyond our pay grade take hold, 
and some of the things we are trying to do, if not corrected, 
they are reduced. So it is not because we are not trying.
    Ms. Zagorin. We do recognize that. And we really do 
appreciate----
    Mr. Pastor. So you may be able to help out at higher 
levels.
    Ms. Zagorin. That is one of the reasons the ABA is so 
involved. We would like to have that constituency take some 
ownership and responsibility so that is not all on your plate, 
because it certainly is a constituency that should have a role 
in this. And you have done something very--as I said in the 
last couple years, we are very grateful for what you have done. 
Unfortunately, we know that the interesting thing is it only 
takes a little bit to help us.
    Mr. Pastor. A small percentage of reduction, therefore 
causing a hardship.
    Mr. Taylor. We are glad to have Congressman Orton who is 
with us today and a colleague of years past.
    Ms. Zagorin has made an excellent presentation. We were 
making some comments and asking the questions. Do you have 
anything you would like to add?
    Mr. Orton. First let me apologize for my tardiness. I was 
unaware that the hearing had been scheduled this morning. I had 
a conflict, and I hurried over as quickly as I could. I 
appreciate the opportunity to appear before you.
    I will not take much of your time or repeat what Janet has 
already told you. And the written testimony which she has 
submitted I think very accurately outlines the initiatives and 
concerns.
    Let me just add to it personally, since leaving Congress I 
have--in fact, immediately after leaving, the ABA contacted me 
and asked if I could serve on the standing committee supporting 
the Law Library of Congress, which I happily have done. And 
each year we have been here outlining to you their concerns and 
needs.
    I would just like to say that having served on the Budget 
Committee, I know the very difficult choices that are made. I 
know the limits and the restrictions that are placed upon you 
as appropriators and what you can do. But also I just would 
like to say that during times of surplus, which we are in, and 
with each month of extended economic growth, the surplus grows, 
this is the time that we need to really make up for the cuts 
that the Law Library incurred. They have irreplaceable 
treasures in that Law Library, and no rare book library can 
take care of them. They have millions of pages of updates that 
if they are not put in on time, you can't rely on the accuracy 
of the data that you are getting from your own law library.
    They have taken the cuts, but every year there have been 
cuts, but they have not been restored back to where they were 
previously. So they really need your support.
    I would urge you strongly if there is any way to fully fund 
the positions that they need in order to just get them back up 
to strength where they were before the cuts in 1994, it would 
be immensely helpful to them.
    So anyway, again, I appreciate the time. Just a personal 
plea to do everything that you possibly can to help restore 
them. It is a treasure that we cannot afford to lose, and they 
have so many more volumes than any other library. They are 
doing so much more with so much less, they deserve a Medal of 
Honor for what they have been able to do. But I don't know how 
much longer they can continue doing it with the budget they 
have.
    Mr. Taylor. Thank you. I think Mr. Pastor and I are 
certainly of one mind in the area of transition. The necessity, 
as he was saying, it is not frugality if you let that type of 
talent leave or if you are not prepared to replace or at least 
have a transition for the memory that is going to be lost if 
you have such a loss. It is not just in the Law Library, but in 
all parts of the Library of Congress, the CRS. So we certainly 
are going to work with Dr. Billington and the like leadership 
and try to do as much as we can in that area.
    Ms. Zagorin. We will appreciate that and do whatever we can 
to help support those activities and appreciate that, because 
we really do understand how hard it is, but we also understand 
it is critical to our Nation.
    Mr. Orton. If there is any other information you need or 
any support data or anything, let us know.
    Mr. Taylor. The fiscal year 2001 legislative branch 
appropriations hearing stands adjourned subject to the call of 
the Chair.


                           W I T N E S S E S

                              ----------                              
                                                                   Page
Abrecht, G.L.....................................................   511
Ahearn, Carolyn..................................................   659
Anderson, B.B....................................................   581
Archer, Bill.....................................................   313
Barrow, Pope.....................................................     1
Billington, J.H..................................................   119
Brown, R.L.....................................................483, 601
Buckley, F.J., Jr................................................   275
Campbell, Laura..................................................   119
Cook, C.C........................................................   275
Crippen, D.L.....................................................   581
Cylke, F.K.......................................................   119
DiMario, M.F.....................................................   275
Dodaro, G.L......................................................   483
Dunlap, Ken......................................................   647
Eagen, Jay.......................................................     1
Eisold, Dr. J.F..................................................     1
Follin, Russ.....................................................   601
Franklin, Herb...................................................   355
Frenze, Christopher..............................................   267
Frey, Bob........................................................     1
Gainer, W.J......................................................   581
Gehris, Vernon...................................................   667
Gennett, Geraldine...............................................     1
Green, Gary......................................................   547
Guy, Bill........................................................   275
Hale, Janet......................................................   601
Hantman, A.M...................................................355, 511
Hodges, P.E....................................................581, 601
Hughes-Brown, Beth.............................................547, 601
Jenkins, J.C.....................................................   119
Kessler, R.R., Jr................................................   623
Korsee, Sharon...................................................   647
Lamkin, Gen. F.M.................................................   119
Livingood, W.S...................................................1, 511
Lopez, K.E.......................................................   119
Mansker, R.T.....................................................   275
Marcum, Dr. Deanna...............................................   677
Medina, Rubens...................................................   119
Miley, Robert....................................................   355
Miller, John.....................................................     1
Mulhollan, D.P...................................................   119
Orton, Bill......................................................   680
Paull, Lindy.....................................................   313
Peters, Marybeth.................................................   119
Poole, Amita.....................................................   355
Pregnall, Stuart...............................................355, 601
Roth, Dennis.....................................................   633
Saxton, Hon. Jim.................................................   267
Schniderman, Saul................................................   647
Scott, D.L.......................................................   119
Silberman, Ricky.................................................   547
Smith, Abby......................................................   675
Smith, Teresa....................................................   119
Stephens, James..................................................   547
Tabb, Winston....................................................   119
Talkin, Pamela...................................................   547
Theiss, Lynne....................................................   355
Trandahl, Jeff...................................................     1
Turnbull, M.G....................................................   355
Walker, D.M......................................................   483
Wallace, B.C.....................................................   547
Wand, Patricia...................................................   613
Washington, Linda................................................   119
Webster, J.D...................................................119, 601
Williams, K.A....................................................   119
Zagorin, J.S.....................................................   680
Ziglar, J.W......................................................   511


                               I N D E X

                              ----------                              
                                                                   Page
Architect of the Capitol.........................................   355
    Accountability Act...........................................   459
    Additional Positions.........................................   440
    Botanic Garden...............................................   439
    Cannon Garage................................................   443
    Capital Budget...............................................   442
    Capitol Power Plant..........................................   449
    Capitol Power Plant Expansion................................   450
    Closing Remarks..............................................   463
    Dome Rehabilitation..........................................   444
    Dome Rehabilitation Cost.....................................   444
    Emergency Exits..............................................   456
    Emergency Exit Door Instructions.............................   458
    Fire Drills..................................................   458
    Fire Safety..................................................   451
    Fire Safety Alternatives.....................................   462
    Fire Safety Compliance.......................................   459
    Fire Safety Compliance Completion Date.......................   462
    Fire System Testing..........................................   453
    Hazardous Duty Pay...........................................   441
    Office of Compliance Report..................................   457
    Opening Remarks..............................................   355
    Opening Statement............................................   369
    Rayburn Building Fire System.................................   454
    Rayburn Cafeteria............................................   449
    Reprogrammings...............................................   463
    Subcommittee Service.........................................   368
    U.S. Capitol Police Projects.................................   446
    U.S. Capitol Police Vehicle Maintenance......................   447
    Visitor Center...............................................   356
    Visitor Center Cost Estimates................................   357
    Visitor Center Design........................................   356
    Visitor Center Design Development............................   366
    Visitor Center Fund Raising..................................   439
    Visitor Center Time Line.....................................   367
Congressional Budget Office......................................   581
    CBO's Appropriation Request for Fiscal Year 2001.............   581
    Cost of Consultants..........................................   598
    Fiscal Year 1999 Reprogramming Requests......................   593
    Increase for ADP Spending....................................   593
    January Pay Raise............................................   597
    Need for Additional Funds in Fiscal Year 2001................   582
    Price Increases for Subscriptions............................   593
    Reduced Appropriation in Fiscal Year 2000....................   582
    Revenue Estimates............................................   599
General Accounting Office........................................   483
    Agency Self-Assessment.......................................   506
    Contracting..................................................   504
    FTE Requirements.............................................   507
    GAO Network..................................................   503
    Legislative Proposals........................................   505
    Mandatory Changes............................................   503
    Opening Remarks..............................................   483
    Renovation of GAO Building...................................   504
    Training Budget..............................................   503
Government Printing Office.......................................   275
    Air conditioning...........................................286, 296
    Awards.......................................................   297
    Book sellers.................................................   302
    Congressional Record.........................................   283
    Electronic formats.........................................285, 304
    FTE's........................................................   286
    Pricing publications.........................................   300
    Printing procurement.........................................   291
    Procurement prices...........................................   303
    Public Access................................................   305
    Public Printer's prepared statement..........................   275
    Revolving fund...............................................   291
    Systems Security.............................................   301
    U.S. Code....................................................   300
Joint Committee on Taxation......................................   313
    Statement of Congressman Archer............................314, 352
    Study on the State of the Federal Tax System.................   352
Joint Economic Committee.........................................   267
    Budget Request and Committee Research........................   268
    Statement of Vice Chairman Jim Saxton........................   269
Legislative Branch Financial Managers Council....................   601
    A Shared Financial Management System.........................   610
    Improved Payroll Administration..............................   611
Library of Congress..............................................   119
    America's Story..............................................   197
    American Memory Collection...................................   197
    Books for the Blind and Physically Handicapped...............   212
    Collections Security Plan....................................   204
    Congressional Research Service, Director's statement.........   214
    Copyright Office.............................................   232
    Culpeper Audio-Visual Conservation Center....................   203
    Digital Futures Initiative...................................   120
    Fort Meade Storage Facility..................................   202
    National and International Collaborations....................   201
    National On-Line Library...................................198, 149
    Recruitment Efforts..........................................   209
    Transit Subsidy..............................................   212
    West Point Collaboration.....................................   198
Office of Compliance.............................................   547
    Accomplishments of the Agency................................   561
    Architect's Record of Compliance.............................   562
    Cost of Remediation..........................................   563
    Increase in Other Services...................................   565
    Questions for the Record from Representative Hoyer...........   567
    Statement of Executive Director..............................   549
    Summary of Findings..........................................   562
    Unresolved Safety and Health Issues..........................   568
Testimony of Interested Individuals and Organizations............   613
U.S. Capitol Police..............................................   511
    Body Armor and Weapons.......................................   525
    Capitol Building Access......................................   528
    Crime Statistics.............................................   543
    Families of Deceased Officers................................   540
    Firearm Training.............................................   526
    General Expenses Budget......................................   534
    Information Technology.......................................   531
    Library of Congress..........................................   532
    Management Review............................................   532
    Name Tags....................................................   527
    New Positions................................................   522
    Perimeter Security...........................................   529
    Replacement Process for Chief of Police......................   530
    Salaries Budget..............................................   533
    Security Enhancements........................................   523
    Visitors Center..............................................   530
U.S. House of Representatives....................................     1
    Allowances and Expenses......................................    73
    Attending Physician..........................................    80
        General Discussion on Attending Physician Office.........    93
    Chaplain, Office of the......................................    62
    Chief Administrative Officer.................................    41
        CAO budget increase explained............................    42
        CAO budget request compared to prior budgets.............    48
        Congressman Ehlers task force discussion.................    90
        Discussion on synergistic management.....................   117
        Opening statement........................................     2
        Statement of the CAO.....................................     3
    Clerk, Office of the.........................................90, 25
        Clerk budget increase explained..........................    90
        Page dorm relocation discussion..........................    90
        Document management system...............................   114
        Further discussion on document management system.........    90
    Committee on Appropriations..................................    23
    Corrections Calendar Office..................................    71
    Distribution of information..................................   115
    FY 1999 House Transfers......................................    94
    FY 2000 pay adjustments......................................    83
    General Counsel, Office of...................................    61
    House Leadership Offices.....................................     7
    Improved House management....................................   115
    Inspector General, Office of.................................    49
        Statement of the Inspector General.......................    50
    January 2000 COLA decision...................................   116
    Law Revision Counsel, Office of..............................    64
        Statement of the Law Revision Counsel....................    65
    Legislative Counsel, Office of...............................    67
        Statement of the Legislative Counsel.....................    68
    Members' Representatives Allowance...........................    21
    Other Authorized Employees...................................    72
    Parliamentation, Office of the...............................    63
    Salaries, Officers and Employees.............................    24
    Sergeant at Arms, Office of..................................    38
        Sergeant At Arms budget request..........................    92
    Standing Committees, Special and Select......................    22

</pre></body></html>
